<html>
<title> - NOMINATIONS CONSIDERED DURING THE FIRST SESSION OF THE 106th CONGRESS</title>
<body><pre>[Senate Hearing 106-268]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-268


 
 NOMINATIONS CONSIDERED DURING THE FIRST SESSION OF THE 106th CONGRESS

=======================================================================

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

    THE NOMINATION OF GEORGE T. FRAMPTON TO BE A MEMBER, COUNCIL ON 
                 ENVIRONMENTAL QUALITY--APRIL 28, 1999

THE NOMINATION OF TIMOTHY FIELDS, JR. TO BE ASSISTANT ADMINISTRATOR FOR 
 SOLID WASTE AND EMERGENCY RESPONSE, ENVIRONMENTAL PROTECTION AGENCY--
                              MAY 5, 1999

   THE NOMINATIONS OF RICHARD MESERVE TO BE A MEMBER OF THE NUCLEAR 
 REGULATORY COMMISSION, PAUL L. HILL, TO BE A MEMBER, CHEMICAL SAFETY 
AND HAZARD INVESTIGATION BOARD, AND MAJOR GENERAL PHILLIP R. ANDERSON, 
BRIGADIER GENERAL ROBERT GRIFFIN, AND SAMUEL E. ANGEL, TO BE MEMBERS OF 
          THE MISSISSIPPI RIVER COMMISSION--SEPTEMBER 23, 1999

THE NOMINATIONS OF GLENN L. McCULLOUGH, AND SKILA HARRIS TO BE MEMBERS 
 OF THE TENNESSEE VALLEY AUTHORITY, AND GERALD V. POJE, TO BE A MEMBER 
 OF THE CHEMICAL SAFETY AND HAZARD INVESIGATION BOARD--OCTOBER 6, 1999


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-383 cc                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director


                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 28, 1999
                    NOMINATION OF GEORGE T. FRAMPTON
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     4
Bennett, Hon. Robert F., U.S. Senator from the State of Utah.....     7
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    11
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......     5

                                WITNESS

Frampton, George T., nominated by the President to be a member of 
  the Council on Environmental Quality...........................     9
    Committee questionnaire......................................    26
    Prepared statement...........................................    23
    Responses to additional questions from:
        Senator Bennett..........................................    39
        Senator Crapo............................................    40
        Senator Graham...........................................    33
        Senator Thomas...........................................    34

                          ADDITIONAL MATERIAL

Draft Memorandum, to Heads of Federal Agencies...................    35
                                 ------                                

                              MAY 5, 1999
                      NOMINATION OF TIMOTHY FIELDS
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    47
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    43
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    48
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    60
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........    56

                                WITNESS

Fields, Timothy, nominated by the President to be Assistant 
  Administrator for Solid Waste and Emergency Response, 
  Environmental Protection Agency................................    44
    Prepared statement...........................................    62
    Committee questionnaire......................................    66
    Responses to additional questions from:
        Senator Chafee...........................................    73
        Senator Inhofe...........................................    78
        Senator Smith............................................    81

                          ADDITIONAL MATERIAL

Letters:
    Association of State and Territorial Solid Waste Management 
      Officials..................................................    92
      Chafee, Hon, John H., Chairman, Committee on Environment 
        and Public Works.........................................    90
    Environmental and Technology Council.........................    94
    Hazardous Waste Action Coalition.............................
    Interstate Oil and Gas Commission............................    92
    Office of Solid Waste and Emergency Response, EPA............    92
    Petroleum Marketers Association..............................    93
Report, Strategy for Enforcement of Regulatory Requirements 
  Applicable to Underground Storage Tank.........................    85
Memorandum, Underground Storage Tanks, EPA.......................    87
List.............................................................
                                 ------                                

                           SEPTEMBER 23, 1999
  NOMINATIONS OF RICHARD MESERVE, PAUL L. HILL, PHILLIP R. ANDERSON, 
                  SAMUEL E. ANGEL, AND ROBERT GRIFFIN
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    95
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    97
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    97
Lieberman, Hon. Joseph I. U.S. Senator from the State of 
  Connecticut....................................................   118

                               WITNESSES

Anderson, Maj. Gen. Phillip R., nominated by the President to be 
  a member of the Mississippi River Commission...................   114
    Committee questionnaire......................................   160
    Letter, Division Ethics Counselor............................   169
    Prepared statement...........................................   158
Angel, Samuel E., nominated by the President to be a member of 
  the Mississippi River Commission...............................   115
    Committee questionnaire......................................   175
    Prepared statement...........................................   173
Byrd, Hon. Robert C., U.S. Senator from the State of West 
  Virginia.......................................................    98
    Prepared statement...........................................   118
Griffin, Brig. Gen. Robert, nominated by the President to be a 
  member of the Mississippi River Commission.....................   116
    Committee questionnaire......................................   186
    Prepared statement...........................................   183
Hill, Paul L., nominated by the President to be a member of the 
  Chemical Safety and Hazard Investigation Board.................   101
    Committee questionnaire......................................   124
    Prepared statement...........................................   119
    Responses to additional questions from Senator Lieberman.....   141
Meserve, Richard, nominated by the President to be a member of 
  the Nuclear Regulatory Commission..............................   107
    Committee questionnaire......................................   145
    Prepared statement...........................................   143
    Responses to additional questions from:
        Senator Lieberman........................................   157
        Senator Thomas...........................................   157

                          ADDITIONAL MATERIAL

List, Members of the Mississippi River Commission................   172
                                 ------                                

                            OCTOBER 6, 1999
  NOMINATIONS OF GLENN L. McCULLOUGH, SKILA HARRIS, AND GERALD V. POJE
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........   200
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   199
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   214
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................   205

                               WITNESSES

Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...   195
Harris, Skila, nominated by the President to be a member of the 
  Tennessee Valley Authority.....................................   204
    Committee questionnaire......................................   233
    Letter, Government ethics official...........................   239
    Prepared statement...........................................   231
    Responses to additional questions from:
        Senator Chafee...........................................   240
        Senator Inhofe...........................................   241
Lott, Hon. Trent, U.S. Senator from the State of Mississippi.....   200
McCullough, Glenn L., nominated by the President to be a member 
  of the Tennessee Valley Authority..............................   202
    Committee questionnaire......................................   218
    Letters, Government ethics...................................   229
    Prepared statement...........................................   216
    Responses to additional questions from Senator Inhofe........   230
Pickering, Hon. Charles, U.S. Representative from the State of 
  Mississippi....................................................   197
Poje, Gerald V., nominated by the President to be a member of the 
  Chemical Safety and Hazard Investigation Board.................   206
    Committee questionnaire......................................   245
    Letter, Government ethics official...........................   259
    Prepared statement...........................................   241
Thompson, Hon. Fred, U.S. Senator from the State of Tennessee....   196
Wicker, Hon. Roger, U.S. Representative from the State of 
  Mississippi....................................................   198
    Prepared statement...........................................   215

                          ADDITIONAL MATERIAL

Statement Hon. Bill Frist, U.S. Senator from the State of 
  Tennessee......................................................   216



                    NOMINATION OF GEORGE T. FRAMPTON

                              ----------                              


                       WEDNESDAY, APRIL 28, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Lautenberg, Smith, Bennett, 
Thomas, Crapo, and Baucus.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Good afternoon.
    The purpose of today's hearing is to consider the 
nomination of Mr. George T. Frampton to be a member of the 
Council on Environmental Quality, which during the course of 
the afternoon will be called CEQ, I am sure, in many instances.
    I am pleased to welcome everyone, and in particular our 
nominee, Mr. Frampton.
    The CEQ was established in 1970 by the National 
Environmental Policy Act to review the impact of programs and 
activities of the Federal Government on the environment, and to 
recommend to the President national policies to improve the 
environment.
    Mr. Frampton was appointed acting Chair of the CEQ upon the 
departure of the then-Chair, Katie McGinty, in November 1998. 
Before joining CEQ Mr. Frampton worked as a private attorney 
and environmental consultant. From 1993 to 1997 he had what I 
consider to be one of the best jobs in the U.S. Government, 
Assistant Secretary of Interior for Fish and Wildlife and 
Parks.
    And if you didn't enjoy that job, you are a hard man to 
please.
    [Laughter.]
    Senator Chafee. Prior to that he was President of the 
Wilderness Society. From 1976 to 1985, Mr. Frampton was a 
partner in a Washington law firm. During the period from 1979 
to 1980, he was Deputy Director and Chief of Staff of the 
Nuclear Regulatory Commission's investigation into the Three 
Mile Island nuclear accident.
    Among his experiences, he clerked for the Honorable Harry 
Blackmun on the U.S. Supreme Court in the 1971-1972 session. He 
received his B.A. in Physics and Philosophy from Yale, his M.S. 
from the London School of Economics, and his J.D. from Harvard 
Law School.
    Now, anybody who went to Yale undergraduate and Harvard Law 
School, I am sure, is destined for greatness.
    [Laughter.]
    Senator Chafee. Mr. Frampton has an impressive background. 
He is well qualified to be Chair of CEQ. This position poses a 
challenge that I am confident he is prepared to face. I look 
forward to hearing what our nominee has to say about his 
background and what he hopes to accomplish.
    Senator Baucus is not here, and I understand that Senator 
Crapo--you have to preside at 3, as I understand it?
    Senator Crapo. Yes, one of my opportunities that I have.
    Senator Chafee. OK. If you have a statement and would like 
to ask a question, something to that effect, go ahead.
    Senator Crapo. I don't have a statement, but I would like 
to ask questions. Would you like me to do that?
    Senator Chafee. I think so. I'm going to get back to 
Senator Bennett and Senator Thomas, but you have a peculiar 
situation and we want to accommodate you.
    Senator Crapo. Well, thank you, Mr. Chairman, I appreciate 
that.
    Mr. Frampton, welcome. I always like to see a Harvard Law 
graduate come before the committee.
    As you know, I ended up as a freshman here, being called to 
serve as the Chairman of the Subcommittee on Fisheries, 
Wildlife, and Drinking Water, and I am interested in your 
perspective on why you feel that comprehensive reform of the 
Endangered Species Act failed in the last Congress. Do you have 
a feel for that?
    Mr. Frampton. Well, Senator, I think perhaps other members 
of the committee could answer that better than I could. I would 
just say that, as I think you know, I worked on this issue at 
the Interior Department for 4 years, began a partnership with 
the Western Governors Association, Governor Levitt of Utah, in 
1993 to try to craft a consensus proposal with WGA and the 
Administration, and I think we did produce a proposal which 
became one of the bases for the committee's own deliberations 
and negotiations over the Kempthorne bill that was reported out 
by the committee, which I thought was a bill that, obviously, 
we hoped would move through the Senate, and perhaps it just ran 
out of time. But it seemed to me to be a bill that was a good 
consensus reform effort that would improve the act and had a 
lot of support from the regulated community and from the 
Administration.
    As I said to a number of members of the committee, I would 
certainly be delighted, if I am confirmed as Chair of CEQ, to 
work to try to see whether it is possible to bring that kind of 
a consensus bill back this year.
    Senator Crapo. Do you feel that we need to have 
comprehensive reform of the Endangered Species Act?
    Mr. Frampton. Well, Senator, I will say this, that I think 
the Administration in the last 6 years has really pushed the 
envelope to try to develop new ways to make the Endangered 
Species Act work, particularly on private land, in using 
voluntary agreements with land owners in which State and local 
governments are involved. So I think we have taken this a long 
way, and it is working now. But there are concerns that some of 
the administrative reforms that the Administration has 
pioneered and put into place may be vulnerable, that those 
should be put into the statute.
    So I think there is a need for a sort of centrist 
consensus, a legislative effort, which simply codifies and 
perhaps takes a step forward on some of the directions that 
have been done over the last few years administratively. I 
think that need is out there.
    Senator Crapo. I think I know the answer to this question, 
but I just want to be sure. Did you support the Kempthorne 
bill, the committee bill that actually came out last Congress?
    Mr. Frampton. I was actually out of the Interior 
Department, but I believe the Administration did support that 
bill; to what formal extent I am not certain, but certainly we 
were very happy with that bill. There were things that we would 
have liked to have had different, but we really hoped that that 
bill--we worked hard on it for 4 years--would pass the Senate 
and become a vehicle for eventual Congressional action.
    Senator Crapo. Did you have a personal position on that 
bill? Did you personally support it?
    Mr. Frampton. I personally worked very hard, not only 
myself but the people working directly for me, my deputy and 
counselor and special assistant, to take that bill from its 
inception with the WGA staff, right through the WGA and into 
the committee process. So that was something that I thought 
personally could be--I thought we had just about hit the sweet 
spot of ESA reauthorization with that bill.
    Senator Crapo. Well, as we try to work on Endangered 
Species Act issues this year, can we be assured of your 
cooperation in working with us to find a path forward?
    Mr. Frampton. Absolutely.
    Senator Crapo. In your testimony you mention that the CEQ 
has developed a new paradigm for the Endangered Species Act. It 
seems to me that if the CEQ is in a position where it is 
developing a new paradigm, or having to deal with creating a 
new paradigm, that that's further indication that reform of the 
act is really necessary. Would you agree with that?
    Mr. Frampton. Well, I would just say that I'm not sure that 
it's CEQ. CEQ is important to this, but it's really the 
departments and agencies that administer the law that are 
principally involved in the new paradigm.
    But as I said, I think that to encapsulate in legislation 
and to consolidate the new paradigm, legislation is very 
important.
    Senator Crapo. I see that my time is running out.
    As the chairman of the subcommittee that will be working on 
this issue--and you may not be able to answer this question 
right now, but if you have any insight, I would appreciate it--
could you give me any advice as the chairman as to the 
direction you think we ought to take as we seek to reform the 
Endangered Species Act?
    Mr. Frampton. Well, Mr. Subcommittee Chairman, I would be 
very hesitant in my current position to undertake to give you 
any advice. But as I've said, I think that the Kempthorne bill 
represented the culmination of a very good process and had a 
lot of support, and if there is a realistic possibility of 
going forward in the next 2 years with this, I would think that 
would be an ideal place to start.
    Senator Crapo. All right. Well, thank you very much. I 
notice that my time has expired----
    Senator Chafee. If you have another question, you go ahead. 
We want to accommodate you. I know that you are due there very 
quickly. If you have a couple more minutes, go ahead.
    Senator Crapo. I do just have maybe another question or 
two, and I do appreciate the Chairman's willingness to help out 
on this. In fact, maybe I will just conclude with a comment.
    We do want to look at this very closely and see where we 
can move. As you know, there are a lot of issues related to the 
Endangered Species Act where it was hard to find that ``sweet 
spot'' that you were talking about, where we could move 
forward. We are going to be trying to do that again, and I 
would welcome the opportunity to work with you to be sure that 
we do as much as possible in that regard.
    And in that context, I guess my last question would be 
this. If confirmed, are you in a position from the CEQ to play 
a leadership role from the Administration's perspective in 
helping us to work on this issue?
    Mr. Frampton. Senator, I would certainly undertake to do 
that. I have to say that my philosophy about CEQ is that the 
kind of leadership that it should exercise is to help the 
people who actually implement programs and policies to do their 
jobs. So I would want to engage you and the subcommittee and 
the committee on these issues not just as a CEQ function, but 
with the people from the Interior Department and National 
Marine and Fisheries Service and other Federal agencies that 
have a working group that worked on this over the last few 
years.
    Senator Crapo. Thank you, Mr. Frampton.
    Mr. Chairman, again, I appreciate your cooperation. As you 
know, one of the opportunities that freshman Senators have is 
to preside over the Floor when assigned, and that's my 
opportunity right now. Thank you very much.
    Senator Chafee. Well, seize upon your opportunity.
    OK. Fine.
    Senator Baucus?
    Senator Baucus. Mr. Chairman, are we speaking or are we 
questioning?
    Senator Chafee. I think now we will go back to the 
statements.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Mr. Chairman, I will just submit mine for 
the record.
    First let me congratulate and welcome Mr. Frampton. As you 
know, Mr. Chairman, he has a wide variety of experiences, from 
Assistant Secretary of Interior for Fish and Wildlife, to head 
of the commission that was examining Three Mile Island. It's a 
wide variety of deep experience and background, and he is 
eminently qualified for the job.
    My issues--I have many, but one that I am going to want to 
explore with him at some time, maybe today, is his ideas on how 
we can use Better America Bonds to help deal with growth and 
sprawl and open space generally in this country. That's not 
directly under the purview of the Council on Environmental 
Quality, but it's something the Council will be involved with 
in some way.
    In addition, I would urge Mr. Frampton--I know this will be 
the case, but just to remind him--to work hard on the balance 
between environmental protection and growth. We have to work 
together here. It's this whole thing; it's food on the table, 
plus enjoying clean air and clean water and open space. It's a 
balance, there's nothing more to it than that.
    I look forward to working with you, Mr. Frampton.
    I might say, Mr. Chairman, that I believe--have you 
introduced his son and his fiancee yet?
    Senator Chafee. I have introduced no one.
    Senator Baucus. Well, I will introduce someone, his son 
Thomas is here. Thomas, why don't you stand?
    And Ms. D'Arista, his fiancee?
    We are very happy to have you both here, and I know Mr. 
Frampton is very proud of you, and you are of him, too.
    Finally, Mr. Frampton, in wishing you good luck, I would 
just urge you to decide what it is that you want to be 
remembered for when you leave, and I'm going to be asking you 
that question, so you might be thinking about it.
    [Laughter.]
    Senator Baucus. Thank you.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you Mr. Chairman, and I would like to join you in welcoming 
Mr. Frampton back to this committee.
    As you have noted, and as evidenced by his resume, Mr. Frampton 
brings to this position vast experience in environmental issues, 
ranging from Assistant Secretary of Interior for Fish and Wildlife to 
Chief of Staff for the Nuclear Regulatory Commission's investigation 
into the Three Mile Island nuclear accident.
    With our ever-increasing awareness that environmental protection 
and economic growth go hand in hand, the Council on Environmental 
Quality will need a person with his breadth of knowledge to help shape 
and coordinate Federal environmental programs.
    What was clear in 1970 when the Council was established is even 
more important today. Growing demands to use land and water for 
residential and business growth put pressures on our valued and limited 
resources.
    Growth is an important issue in my State of Montana. Montana is the 
least metropolitan State in the country, yet we grew faster than the 
rest of the country--a 10 percent increase--in the 1990's. Last year, 
our State Environmental Quality Council set up a Growth Subcommittee to 
investigate the issues that arise from growth.
    Although sprawl does not fall into the traditional NEPA role of 
CEQ, the Council can play an important role in coordinating the Federal 
agencies on this issue.
    In addition, I am interested in hearing your thoughts on how the 
Administration's Better America Bonds proposal could be used to help 
communities deal with growth. I believe that it is a very useful 
concept and one I intend to pursue.
    I look forward to hearing from you this afternoon, Mr. Frampton.
    Senator Chafee. Thank you.
    Senator Thomas?

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Welcome, Mr. Frampton. Since coming to the Senate I have 
been particularly interested in the Council on Environmental 
Quality. As a matter of fact, for 2 years we had an oversight 
committee on energy in which we spent a great deal of time with 
the Council.
    It was established in the 1970's to review the impact of 
Federal programs and activities on the environment. Today, the 
agency has a much broader role in developing Federal land 
management policy. In fact, throughout President Clinton's time 
in office, CEQ has been more powerful than all the other 
Federal land management agencies put together. Although CEQ 
claims it is only advisory and does not set policy, nothing 
could be further from the truth.
    I am particularly interested in Mr. Frampton's views on the 
role CEQ can play in resolving issues regarding the National 
Environmental Policy Act. It has been designed to ensure that 
environmental impacts of proposed Federal actions are 
considered and minimized by Federal agencies. Although the 
process sounds simple and quite reasonable, NEPA has become a 
real problem for public land users throughout Wyoming and 
throughout the west. The statute that was supposed to provide 
for additional public comment and input has instead become an 
unworkable and cumbersome law.
    The current NEPA process takes too long, costs too much 
money, is being used to delay and stop many activities on 
Federal lands designed for multiple-use projects. From timber 
salvage sales to the renewal of grazing permits on BLM lands, 
NEPA is used to delay and frustrate the efforts of public land 
users who rely on these areas for economic survival.
    Let me make it clear: I am not opposed to the efforts to 
review environmental impacts, but there must be something done 
in a reasonable and straightforward manner that does not serve 
to hinder reasonable multiple use activities. Unfortunately, in 
my repeated efforts to engage CEQ, making reasonable reforms to 
NEPA, and looking for answers to many problems, the agency has 
been of little help in the process. On several occasions I have 
met with Katie McGinty, past Director, to discuss NEPA. I have 
written numerous letters to the agency about the problems with 
the law. In 1995 we wrote a 13-page letter, with Larry Craig. I 
got a letter that basically said, ``I am open to your ideas. 
Thank you for your letter.'' That's all I ever heard.
    As you know, we wrote a letter last year, and 9 months 
later, after you came, we got a letter acknowledging receipt; 
no response, no activity, nothing substantive to come from CEQ.
    So these are the kinds of experiences that I've had, and I 
don't think I'm the only one.
    So I am very interested in finding some solutions to make 
NEPA work. I think that is the responsibility of CEQ. Perhaps 
we made a mistake when we combined the two activities and made 
being advisory to the President the major task.
    So I look forward to your testimony and I have a number of 
questions that I might ask. Thank you.
    [The prepared statement of Senator Thomas follows:]
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    Thank you Mr. Chairman for holding this hearing today regarding the 
nomination of George Frampton to become Chairman of the Council on 
Environmental Quality. I look forward to hearing Mr. Frampton's 
testimony and discussing with him his views on the role of CEQ.
    Since coming to the Senate, I have been particularly interested in 
the Council on Environmental Quality. Although the CEQ was established 
in 1970 to review the impact of Federal programs and activities on the 
environment, today the agency has a much broader role in developing 
Federal land management policy. In fact, throughout President Clinton's 
time in office, the CEQ has been more powerful than all of the Federal 
land management agencies. Although the CEQ claims it is only 
``advisory'' in nature and does not set Administration policy, nothing 
could be further from the truth.
    I am particularly interested in Mr. Frampton's views on the role 
CEQ can play in resolving issues regarding the National Environmental 
Policy Act (NEPA). NEPA was designed to ensure that the environmental 
impacts of a proposed Federal action were considered and minimized by 
the Federal agency taking that action. Although this process sounds 
simple and quite reasonable, NEPA has become a real problem for public 
land users throughout Wyoming and the West. A statute that was supposed 
to provide for additional public comment and input in the Federal land 
management process has instead become an unworkable and cumbersome law.
    The current NEPA process takes too long, costs too much money and 
is being used to delay or stop many activities on Federal lands 
designed for multiple use. From timber salvage sales to the renewal of 
grazing permits on BLM land, NE PA is being used to delay and frustrate 
the efforts of public land users who rely on these areas for their 
economic survival. Let me be clear, I am not opposed to efforts to 
review the environmental impacts of proposed actions on Federal lands, 
but this must be done in a reasonable and straightforward manner that 
does not serve to hinder 'reasonable multiple use activities.
    Unfortunately, despite my repeated efforts to engage the CEQ in 
making reasonable reforms to NEPA and looking for answers to many of 
the problems regarding the law, the agency has been of little help in 
this process. On several occasions I met with Katie McGinty, past 
Director of CEQ, to discuss NEPA, have written numerous letters to the 
agency about the problems with the law and have discussed this issue at 
length with other Federal land management agency officials, but to no 
avail. The problems with NEPA implementation continue to grow and the 
frustration of public land users continues to increase.
    Mr. Chairman, I am very interested in finding solutions that will 
allow the NEPA process to work properly. I hope Mr. Frampton will work 
with me to find the answers that help us resolve many of the current 
problems regarding NEPA. The status quo is unacceptable, and I expect 
the CEQ to step-up and fulfill its role as the primary agency designed 
to address issues involved with NEPA.
    Thank you Mr. Chairman, I look forward to hearing the testimony of 
Mr. Frampton.
    Senator Chafee. Thank you, Senator.
    Senator Bennett?

         OPENING STATEMENT OF HON. ROBERT F. BENNETT, 
              U.S. SENATOR FROM THE STATE OF UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I am 
going to have to leave as well for the Appropriations 
Committee, so I will submit questions to Mr. Frampton in lieu 
of asking them here.
    I want to make a few comments for the record.
    Like my friend from Wyoming, I've had less than 
satisfactory experience with CEQ, but to use a Biblical phrase, 
``There arose in Egypt a Pharaoh who knew not Joseph.'' 
Everything was different. I have hopes--while Mr. Frampton 
clearly has many views that are different from mine, I have 
hopes that his administration of this agency will be like that 
new Pharaoh, and that we will have a greater degree of openness 
and communication and cooperation than we've had before, and I 
have strong reason to believe that will be the case.
    I worked with Mr. Frampton in his position at the Interior 
Department. He came to Utah on occasion, which probably was not 
his favorite thing to do, but he took his assignments very 
seriously. We were always able to get an answer from him when 
we wanted something, and even when the answer was no and we 
wanted it to be yes, it was very straightforward and the lines 
of communication were kept open. I have every reason to believe 
that will be the case now at CEQ, and I look forward to that 
change.
    I would ask you if I might, Mr. Frampton, before I leave, 
do you have any knowledge of any ``stealth national monuments'' 
that are being considered anywhere in Idaho or Arizona or 
Colorado or someplace that you might want to take this 
opportunity to tell us about in advance?
    [Laughter.]
    Mr. Frampton. Senator, I have no knowledge of any stealth 
monuments. The only monument proposal that I am aware of is a 
very large blip on everyone's radar screen, which is the 
proposal that Secretary Babbitt is advancing or trying out in a 
series of public meetings----
    Senator Thomas. This is on the Arizona strip?
    Mr. Frampton. For Arizona, the area in the northwest corner 
of the Grand Canyon National Park, the Arizona Strip proposal. 
What I know about that is what I read in the newsclips and from 
the hearings and the other work that the Interior Department 
has done to put the proposal forward for public comment and 
criticism and reaction.
    Senator Thomas. Mr. Chairman, Mr. Frampton knows full well 
that history; he lived through that whole thing with us, and I 
think he's smart enough to realize that that's not something 
the Administration should try to do again. I think it was a 
shameful period in our history, where the Administration did 
something strictly ex parte with one group, while at the same 
time doing everything they could to keep the ``bad guys'' 
uninformed and in the dark. And as one of the ``bad guys,'' 
whose principal sin was that I was elected by the people of the 
State of Utah, I resented that action on the part of his 
predecessor, and I made that very clear to her in previous 
hearings.
    So I intend to vote for Mr. Frampton's confirmation with 
some enthusiasm, based on the experience we have had--
conversations we have had privately. He has been good enough to 
come by my office and we've talked through some of these 
issues, and I think this is one of the President's better 
appointments. I am happy to support it and look forward to 
working with him very closely.
    Senator Chafee. Thank you very much, Senator.
    Mr. Frampton, before you give your statement, I just want 
to say that I listened very closely to the problems Senator 
Thomas raised, and I found them disturbing. Now, that wasn't on 
your watch, so you are not the person involved, but obviously 
you're not going to be able to satisfy every Senator on this 
committee. But I certainly would expect you to go the full 
distance in responding accurately to questions--in this case, 
from Senator Thomas, or if he wants to get together with you, 
you should make yourself available, because this committee is 
very responsive to how its members feel about situations.
    Again, I'm not sure that you can necessarily satisfy 
Senator Thomas, but you certainly have to make a determined 
effort to do so. And not just Senator Thomas; anybody on either 
side of this committee.
    And maybe at the end of the period, we can have for you 
glowing reports from Senator Thomas just like Senator Bennett 
gave. We'll give you a couple months.
    [Laughter.]
    Senator Chafee. All right. Why don't you proceed with your 
statement?

STATEMENT OF GEORGE T. FRAMPTON, NOMINATED BY THE PRESIDENT TO 
      BE A MEMBER OF THE COUNCIL ON ENVIRONMENTAL QUALITY

    Mr. Frampton. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Baucus, distinguished members of the 
committee, it is an honor to appear before you as the 
President's nominee to be a member and Chair of CEQ. I have 
submitted a written statement and I will certainly try to keep 
my oral remarks very short, since we seem to be well into the 
questioning and dialog already.
    Six years ago, when I came before this committee as a 
nominee to be Assistant Secretary of Interior, I said that if 
confirmed I thought that you would find me a reasonable and 
constructive partner with the Congress. And I believe--at least 
I hope--that I lived up to that trust, having been confirmed, 
in the 4 years that I spent at Interior.
    I think that work was good preparation for CEQ because a 
great deal of what I did at the Interior Department involved 
building teamwork and consensus, trying to get agencies--just 
the agencies within the Interior Department--to work together, 
something that was not always easy, but more importantly, to 
get the various Federal departments working together, and for 
the Federal Government to begin to work more with States and 
local governments and stakeholders in new kinds of 
partnerships. Those were the kinds of projects that I worked 
on: Everglades restoration, where I chaired a Federal-State 
task force with seven Federal departments; Exxon Valdez oil 
spill, where I served on a trustee council, which was a State-
Federal partnership; plus my efforts to restructure the 
Endangered Species Act to use voluntary agreements with local 
governments and landowners, from timberland owners in the 
northwest and southeast to the counties of San Diego and 
Riverside in Southern California.
    In fostering those kinds of partnerships, which I think is 
the direction in which our environmental policy has got to go, 
CEQ really has to play an indispensable role. CEQ was created 
by Congress in 1969 in part to advise the President on the 
long-term direction of environmental policy; but equally 
important, and especially critical today, to coordinate the 
environmental work of the Federal family, to make sure that 
Federal agencies speak with one voice, work together, and 
referee disputes among them.
    Even more important, CEQ is charged with a broader mandate 
to make sure that in the implementation of our environmental 
programs, economic and social imperatives would be fully taken 
into account. Sound environmental policy that was broad-based 
and balanced and based on good science--I think that was 
Congress' vision in 1969.
    A parallel vision that Congress sought to advance in NEPA 
was to make sure Federal agencies would make important 
decisions affecting the environment in a democratic way, and 
only after a thorough examination of the impacts of alternative 
courses of action. Both of these visions--the vision of 
coordination and balance, and the vision of informed democratic 
decisionmaking--were quite prescient for 1969, especially when 
you consider that EPA hadn't even been created at that time, 
which seems hard to believe now. But they remain the 
cornerstones of the Nation's environmental policy today.
    My vision, in response to Senator Baucus, my idea of the 
challenge for CEQ going forward, is no more or no less than 
what I perceive Congress' vision to have been in 1969: first, 
to give farsighted but realistic advice to the President and 
his advisers and the Cabinet about the future direction of 
environmental policy; second, to coordinate the implementation 
of environmental programs, but to do so not just within the 
Federal family, but today that has to be with the States and 
local governments and private stakeholders; and third, to make 
sure that we have a process of environmental decisionmaking 
that is balanced, well informed, and democratic.
    I would like to just conclude, Mr. Chairman, by saying that 
in the last 6 years, I think that this Administration has 
compiled a strong record of environmental protection, as good 
as that of any in history, and presided over the strongest 
economic recovery, probably, in the 20th century--peacetime 
recovery, at least.
    So there shouldn't be any reason to debate any longer 
whether rigorous environmental standards can go hand-in-hand 
with economic progress. Recent history has proven that they 
can. And I say that very emphatically, without any tinge of 
partisanship, because you, Mr. Chairman, as one of the greatest 
environmental statesmen of the Senate, know much better than I 
that the Republic Party has been at least as identified with 
environmental issues over time as the Democrats, and that most 
of what we have accomplished in the environmental field over 
the last 30 years truly has happened only when there has been 
bipartisan support for it, and I embrace that tradition. I am 
proud of the role that CEQ has played in that tradition. I am 
proud of the role that NEPA has played in that tradition, and I 
hope that to the extent that that's not working well, Senator 
Thomas, that I can help improve it; and I hope that in 
furtherance of that tradition, that if confirmed, I will be 
able to work with the Congress in a bipartisan tradition in 
trying to address the environmental challenges we face as we go 
into the next century.
    Thank you.
    Senator Chafee. Well, thank you, Mr. Frampton, for those 
kind comments. I think they are accurate. People forget that 
the great mass of environmental legislation pouring through 
here in the early 1970's was all signed by President Nixon--
that is the Clean Air Act, Clean Water Act, Endangered Species 
Act, all that early 1970's legislation. But it came about, just 
as you said, in a bipartisan fashion, Senator Muskie being the 
chairman of the subcommittee that Senator Crapo is now in 
charge of.
    Senator Lautenberg, do you have an opening statement that 
you would like to make?
    Senator Lautenberg. Mr. Chairman, I will submit my 
statement for the record.
    [The prepared statement of Senator Lautenberg follows:]
 Statement of Hon. Frank R. Lautenberg, U.S. Senator from the State of 
                               New Jersey
    Mr. Chairman, am pleased that we are having this hearing today to 
confirm Mr. Frampton to be the new Chair of the Council on 
Environmental Quality. This is an important position, and Mr. Frampton 
is well qualified for this post, as his record attests.
    Mr. Frampton is certainly no stranger to the issues of interest to 
this committee. He has worked in the private sector both as a partner 
in the law firm of Rogovin, Stern & Huge, and as president of the 
Wilderness Society, a non-profit organization devoted to preserving 
wilderness and wildlife, from 1986 to 1993.
    He also has extensive experience within the Federal Government--as 
Assistant Secretary of the Interior for Fish and Wildlife and Parks. In 
this position, he was responsible for the National Park Service and the 
U.S. Fish and Wildlife Service. Moreover, since the departure of Katie 
McGinty, he has been serving as the Acting Chair of CEQ, and knows well 
what this position entails.
    I look forward to hearing his statement today, and response to any 
questions we might have, and to working with him over the next 2 years.
    Senator Lautenberg. I just want to welcome Mr. Frampton. I 
am encouraged by his lengthy experience and his knowledge of 
the issues, and his interest in improving the functioning of 
CEQ and the whole environmental agenda. So I welcome Mr. 
Frampton and hope that we will be able to move with dispatch 
here. And if there are any issues that ought to be discussed, I 
hope that they will be discussed separately from just the 
confirmation of his well-qualified background and his knowledge 
generally, that we will get confirmation done and then get on 
with the committee's business.
    Senator Chafee. Thank you, Senator.
    Senator Smith, do you have an opening statement?
    Senator Smith. No, Mr. Chairman, I will wait for the 
questions. Thank you.
    Senator Chafee. All right.
    I think I will start down the list of questions now.
    Mr. Frampton, 2 weeks ago a Federal District Court Judge 
issued an order prohibiting the Department of Transportation 
from starting construction of the Wilson Bridge, and the claim 
was that they didn't comply with NEPA, they didn't comply with 
the Clean Air Act, they didn't comply with the National 
Historic Preservation Act. And it is evident that the documents 
that they submitted on this were woefully inadequate, and even 
EPA indicated that the environmental analysis for the 
construction was unsatisfactory.
    What are you going to do to see that this doesn't happen 
again, either with respect to this bridge or any other? It 
seems to me that this is a very costly--and I'm not necessarily 
talking dollars, I'm talking time--error that was made, and the 
Court had no trouble finding that the preparation was totally 
inadequate.
    Mr. Frampton. Senator, I have not read the Court's 
decision, so I cannot comment on the specific issues. I can 
only say that I wish the CEQ had been a little bit more on top 
of this EIS process over the last couple of years because, 
certainly, the Court's decision is pretty emphatic.
    I think that we obviously need to pay more attention to 
this issue. In fact, with respect to issues that relate to 
highways and bridges, in the TEA-21 legislation there is a 
provision that CEQ was instrumental in getting in the 
legislation that calls on DOT to have a more coordinated 
review, and I think there is a process there that we are 
working through. We will invest a fair amount of time and 
energy in trying to see that that process is improved.
    With respect to the bridge itself, the Justice Department, 
as I understand, has taken the lead in trying to bring the 
Federal agencies together to figure out the fixes that need to 
be made, how those fixes can be made quickly and in a realistic 
timeframe, so that we don't face the problems that I have read 
about in the newspapers with respect to the lifetime of the 
bridge for heavy vehicles. The Justice Department has a sort of 
``emergency task force'' looking at that issue and how we can 
do it right and do it quickly.
    Senator Chafee. Well, that was one of the questions I had. 
You are absolutely right, what you said about TEA-21 and the 
streamlining provisions. You are getting geared up for that now 
in the CEQ, are you?
    Mr. Frampton. Yes, Mr. Chairman, and I realize that this 
committee is having hearings on that subject. It has taken some 
time for the Department to move forward. They went around the 
country, listening to people on all the issues of TEA-21, which 
is a pretty complicated statute, but I think they are now 
making some progress. There is an options paper on coordinated 
review of transportation projects that is out, and hopefully 
some decisions will be made in the next few weeks about 
specific proposals. We intend to devote some time and energy to 
try to push that process forward.
    Senator Chafee. OK. A final question. I have heard some 
concerns raised about the Administration's plans to restore the 
Everglades, something you've been involved with. The complaints 
are that the Administration doesn't go far enough. If I 
remember, they are talking in terms of $8 billion, aren't they? 
Is that the right figure?
    Mr. Frampton. About $7 billion, of which roughly half or a 
little less than half would be a Federal share, over a period 
of approximately 20 years, Senator. I believe that's the 
number.
    Senator Chafee. And I think that we have a water resources 
bill here, and we will do another one next year, particularly 
because of the Florida Everglades.
    Are you paying attention to what these scientists say? I 
suppose you can get scientists to say anything on any side of 
the issue.
    Mr. Frampton. Senator, I am personally paying attention 
because the statute requires that the restudied plan come to 
Congress by July 1 of this year.
    I think that in the development of this plan, which has 
been a monumental effort of getting stakeholders together and 
basing it on the broadest possible science, that a very good 
job has been done. However, we have one last opportunity to 
make sure that this is the best possible plan between now and 
the first of July, and I think that not only Federal scientists 
but outside scientists need to have one last shot at this plan. 
I am confident that we are going to have a very good plan, come 
July 1st.
    Having said that, however, like many long-term plans, some 
of the details here will be in the implementation. So it's not 
just getting a good plan--and I am confident we will have one--
it's setting up a process of independent scientific peer 
review, which Secretary Babbitt has set in motion, over the 
next five to 6 years as the final designs are developed and the 
implementation begins, that there is constant outside vetting 
of that activity. I think that is equally important to the 
outlines of the plan that we will be submitting July 1st.
    Senator Chafee. All right.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Frampton, just briefly, on the first question raised by 
the Chairman, namely, the Wilson Bridge, does CEQ review that 
EIS?
    Mr. Frampton. I don't know the answer to that, Senator. I 
will have to get back to you.
    Senator Baucus. This is not the first time. I have come up 
with something similar to this in my State of Montana. It's a 
vexing problem. Generally, in my opinion, it is because the 
relevant departments--the State Department of Transportation, 
and ironically, in this case it could be the Federal Highway 
Administration and DOT--just don't do a good job in preparing a 
proper EIS. In Montana, for example, the State did an improper 
job; somebody litigated it, and they had to go back and do it 
all over again. If you do it right the first time, then you 
avoid these kinds of problems. It just happens constantly.
    I know there is a problem with the EIS procedure, but I 
must say that a lot of the problem with the Federal agencies is 
that they just don't do a good job in the first place. If they 
did a good job in the first place, then they wouldn't 
consequently be having these kinds of problems. That happens 
time and time and time again, particularly with respect to 
highway projects.
    My question really revolves about the Better America Bonds. 
I think this is a very good concept, one that has lots of 
potential, and I'd like your thoughts on how you think it 
should be shaped or formed, or some of the divisions that we 
should be looking at, or some of the ideas that you might have 
with it.
    Obviously, growth and sprawl issues are nationwide. There 
are problems in urban America, but there are very much problems 
in rural America, as well. I am very sympathetic with small 
problems in metropolitan areas, but I am also very sympathetic 
with a lot of the open space issues that occur in the western 
States. I can certainly speak for the State of Montana.
    As you know, this is a bonding authority that the States 
would have. Some have suggested that EPA allocate the amount of 
bonding authority to be available among the States. Frankly, I 
am a little nervous about that; I think it smacks too much of 
``Big Brother'' Federal Government, and there are lots of other 
ways to address the allocation issue.
    But your thoughts on how we can make this work and work 
well?
    Mr. Frampton. Senator, I think this is a very exciting 
concept, and it has found a lot broader support than even I 
expected that it would. I think it is one of a number of things 
we are doing, like the Salmon Fund proposed in the budget, and 
the Clean Air Partnership Fund, to try to help local and county 
and State government take the lead on these issues.
    So it is responsive to the idea that we can't do everything 
by regulation, and we have to put some resources into the local 
effort.
    Let me just say a couple things about how I think this 
would work best.
    No. 1, Better America Bonds is aimed at issues of 
livability and smart growth, but not just at the suburbs. It is 
also aimed at the cities----
    Senator Chafee. Mr. Frampton, I'm going to have to ask you 
to hold up here. We are now in the last part of a vote. 
Apparently it's a motion to instruct the Sergeant at Arms.
    Senator Baucus. I could go over a little later, after I 
finish this.
    Senator Chafee. What in effect I was going to propose is to 
ask our members to go over and vote and come right back, so we 
will do that now.
    Senator Chafee. I would ask Senator Smith and Senator 
Thomas, if you would, come right back because we want to give 
you a shot at the questions.
    Mr. Frampton. Senator, this is aimed at the inner cities as 
well as the suburbs, No. 1.
    No. 2, I think it is important that the money available--
which at the levels requested by the Administration would 
generate close to $10 billion in bonding authority over 5 
years--would be used for each of the designated purposes, 
brownfields, open space, recreation, and clean water.
    I also think, to respond to your comment about EPA, EPA is 
the conduit for receiving proposals from cities and counties to 
do the bonding, and the Administration proposed it that way 
because EPA is doing brownfields and clean water issues and has 
relationships with the cities and counties. But EPA is not 
going to be the deciding agency. This will be an interagency 
program, and there will be an interagency committee that looks 
at the bonding requests and make judgments--if there is an 
overapplication for requests, who will get what.
    Senator Baucus [assuming the chair]. So how did you handle 
the oversubscription or overapplication?
    Mr. Frampton. We don't have specific criteria, but the 
proposal is to make it competitive and try to create an 
interagency process that--obviously, geographical distribution 
will be important to some extent, but a process that tries to 
look at whether the proposals are part of a good plan, part of 
a comprehensive smart growth plan, and also partly whether they 
really supplement existing resources that States and counties 
have; and then, which ones seem to be getting the biggest bang 
for the buck. To some extent, that is subjective.
    Senator Baucus. Another problem is, what happens when there 
is a huge project? You don't want it to take up the lion's 
share of the bonding authority that is available nationwide and 
leave out some good smaller projects in other parts of the 
country.
    Mr. Frampton. These are issues that have been discussed 
internally to try to get a balance into the criteria for 
judging, but probably we won't finalize those unless and until 
Congress enacts the program.
    Senator Baucus. Right.
    Mr. Frampton. But I think those are hard issues.
    Senator Baucus. They are, but I am raising all these with 
you so that we can discuss them and flesh them out, so that 
there is general agreement among those who are interested in 
the program as to what those provisions should be. I just urge 
you--and I know you well--and others to be thinking about that, 
because I think this is a very exciting program and I am going 
to be developing my own proposal, and I would like those who 
are interested to consult with me, as I will with them.
    Well, I think I had better get over and vote. The committee 
is temporarily in recess.
    [Recess.]
    Senator Thomas [assuming the chair]. If you're prepared, 
we'll just go ahead. The Chairman will be along in a minute or 
two, since we've kind of fallen behind. I will take the 
prerogative of going ahead with some questions and we'll get 
started.
    You mentioned in your statement, Mr. Frampton, you are 
going to be a member and Chairman. Who else are members?
    Mr. Frampton. There are no other members, Senator.
    Senator Thomas. Why not?
    Mr. Frampton. Well, I am not an expert on the history of 
this, but my understanding is that since the mid-1980's, 
basically Congress has provided each year in the appropriations 
bill that the power of the Council is vested in a Chair, so it 
is has been a one-person Council for 10 years or more. That has 
been something that, I guess, has been accepted by both 
Administrations and Congresses.
    Senator Thomas. The CEQ is combined with the White House 
Office of Environmental Policy, and I think this has obviously 
expanded the role of establishing environmental policy within 
the Administration.
    Rather than being a policy arm, shouldn't CEQ be an 
independent agency to do this coordinating that you talk about?
    Mr. Frampton. Well, at the beginning of the Clinton 
Administration, Senator, there was an effort or an initiative 
to create an Office of Environmental Policy that would be 
different from CEQ, but that effort was abandoned. My 
understanding--again, I'm not an expert in the history--is that 
now there is CEQ, the Council on Environmental Quality. 
Technically in the statute there is also an Office of 
Environmental Quality, which was also provided for in 1970, so 
that's the original formulation, is what we have now.
    I think that CEQ is somewhat different than the other 
policy councils at the White House because it does have a 
Senate-confirmable Chair, but on the other hand it is not, 
obviously, a completely independent agency. One of the purposes 
of CEQ was to give advice to the President about environmental 
policy, and another was to actually coordinate the 
Administration's environmental policy.
    So I think it exists in a place in between an independent 
agency and advisory role.
    Senator Thomas. It is also charged with the responsibility 
of really administering and coordinating NEPA, was it not?
    Mr. Frampton. That is correct.
    Senator Thomas. And how many new changes and policies and 
rules and adjustments have there been made in the last 20 
years?
    Mr. Frampton. Well, over the last 20 years CEQ has issued 
guidance under the rules----
    Senator Thomas. Under new rulemaking in 20 years? I don't 
think so.
    Mr. Frampton. Not new regulations. I think the regulations, 
by and large, have worked pretty well. What CEQ has done is 
write guidance under the regulations and the statute to respond 
to individual issues or problems that have----
    Senator Thomas. I guess I disagree with you some. You 
indicated a moment ago how you had to be responsive to the 
changes that have taken place since 1969 or whenever it was. 
The fact is, there have been very few in terms of administering 
this very difficult law, under quite difficult circumstances, 
and literally for 20 years the agency charged with 
administering it and keeping up-to-date rules has not issued 
any rules at all.
    Mr. Frampton. Has not made major changes in the regulations 
that were originally written, Senator.
    I would say this, though, that I think that the ability to 
write guidance is a way to adjust to changing circumstances. 
You mentioned in your opening statement that you had found CEQ 
unresponsive in the past, and this is something that we 
discussed when I came to see you in your office. And one of the 
concerns you expressed was the need to amend the law or create 
a new policy on cooperating agencies. This was something, in 
your view, that even though CEQ had done positive things in the 
past, wasn't working very well.
    I went back and looked into this after we met a couple 
weeks ago, and found that indeed CEQ had on occasion written 
letters to agencies, encouraging them to be more forward-
leaning in getting State and local agencies in as cooperating 
partners, but we didn't have comprehensive guidance on that. So 
I asked that one be drafted, and it is in fact in interagency 
review and we're going to issue it.
    I hope that through guidance, comprehensive guidance, we 
can deal with the problem that you identified, I hope in an 
effective way, and be responsive to you and your concerns on 
those issues, without necessarily rewriting the statute or the 
regulations. We will see how that----
    Senator Thomas. What is your opposition to rewriting? If 
you agree with the cooperating agencies, why shouldn't that be 
the standard for each of these operations? Why should we be 
selective? We had to work our fannies off to get it for the 
Yellowstone winter use. Now, when they want it in Medicine Bow, 
why shouldn't the State and the counties be entitled to be 
cooperating agencies?
    Mr. Frampton. Well, as I said to you, when we talked--I 
think to try to rewrite the statute or the regulations to 
require that, in every case, hundreds and hundreds of EIS's a 
year, every single State and local agency that falls within the 
possible orbit automatically be included, is really sort of a 
top-down, one-size-fits-all approach, particularly in light of 
the fact that being a cooperative agency often costs the local 
government unit money----
    Senator Thomas. They aren't required to participate, and 
neither do you have to include everything. Maybe it ought to be 
their choice, rather than yours.
    Mr. Frampton. Well, I hope that by putting out new guidance 
in response to your concerns, and trying to put this policy of 
being very open to this and offering it--except in unusual 
cases--to every local government unit, that we can address the 
problems that you're concerned about that way. If it turns out 
that that really does not address the problems, then I think we 
can look----
    Senator Thomas. I just would hope we don't have to wait 
another 20 years to find that out. I think we've done this 
quite a little bit. We've found some times, certainly, when 
cooperating agencies had some expertise, and that's all they 
are in there for, is to share the expertise they have, which is 
defined.
    On a different matter, we have been working on open space 
and so on, and of course livestock production plays a role in 
that. Do you think it is necessary that the renewal or the 
transfer of a permit is a major Federal action, for a grazing 
permit?
    Mr. Frampton. Well, I think that's an issue that, as you 
and I discussed, is the result of some Court action concern 
about whether the agencies need to do this. For a long time, 
the grazing permits--NEPA work was not being done on them, and 
now EAs need to be done on them, and the agencies----
    Senator Thomas. The Court has not ruled that the need to do 
it.
    Mr. Frampton. But I think there is a concern that without 
going through the process, we will be very vulnerable----
    Senator Thomas. So you are going to be driven by the threat 
of lawsuits rather than what's good policy?
    Mr. Frampton. No. My understanding is that the 
Administration is being driven by what it thinks it needs to do 
under the law.
    Senator Thomas. So you agree that there has to be a NEPA 
study for the renewal of an unchanged grazing license?
    Mr. Frampton. Well, my understanding is that the agencies 
are doing what the guidance from the Justice Department is 
telling them is the best practice. Now, when you say 
``unchanged,'' I think it may be that it being unchanged in 
going back to the beginning would not require an EA.
    I'm not trying to deliver a legal opinion on this because 
I'm not that familiar with the legalities----
    Senator Thomas. You're avoiding my question.
    Mr. Frampton. Sorry.
    Senator Thomas. Do you think that the renewal of a 100-head 
lease that is unchanged, location, numbers, should have to have 
an EIS or an EA?
    Mr. Frampton. I would like to have the opportunity to 
respond to you in writing, because I think you're asking me in 
part a legal question, about the judgments that have been made 
about that. The agencies obviously feel that, with respect to 
leases on which there are changed circumstances, the NEPA work 
has to be done.
    Senator Thomas. What happens, as you know, is that the 
Forest Service, for example, isn't able to do it all, so we 
have to go into the budget; we have to put into the budget 
special language to say that it will be extended for a certain 
length of time so that the agency can do it; they claim that 
they don't have the money, they don't have the expertise. But 
your agency, which is responsible for making this thing work, 
has taken a hands-off position. I don't understand that.
    Mr. Frampton. Well, Senator, I don't think we have taken a 
hands-off position. I think that one of the important solutions 
to this would be not to do them all one by one, but to try to 
batch them so that you can do them in a much more efficient 
way, and then nobody gets delayed. And nobody is being harmed 
now under the current status quo.
    And CEQ is working--and has worked and will work--hard with 
BLM and the Forest Service to try to push the idea of doing 
these in a batch----
    Senator Thomas. I appreciate what you are saying, but it 
doesn't give me much comfort to have you say, ``Well, we'll 
work with them.'' They've been working with it for 20 years, 
had that long a time. We have referred it to them; nothing 
happens. It's discouraging. And then to have you come here, as 
a new face in an agency, and really say, ``Well, we'll just do 
what we've been doing''--it would be really refreshing for you 
to say, ``By golly, if there's something that ought to be 
changed here, we'll do it.'' But you haven't said that.
    Mr. Frampton. Well, Senator, there are two issues that you 
have raised that you raised with me in your office a few weeks 
ago. One was cooperating parties----
    Senator Thomas. And you have not responded to either one of 
them.
    Mr. Frampton. Well, I have tried to. What I am telling you 
today is that we have tried to set a world record in response 
by actually putting out a policy, getting a policy, writing it, 
and putting it out. And on the issue of grazing EAs, we're 
looking into what we can do to put more pressure on the 
agencies to try to batch these and do them by watershed or 
ecoregion instead of one at a time.
    Senator Thomas. I've taken too long.
    That's what we had in our grazing bill. You can take a look 
at the whole area, but you don't need to take each one. I mean, 
it just doesn't even make sense.
    Mr. Frampton. I agree with that.
    Senator Thomas. And I understood that your agency--you act 
like you have to persuade them. I thought you were sort of in 
charge of coordinating this. You're not?
    Mr. Frampton. Well, we can't always instruct. Even within 
the Federal Government it takes a certain amount of consensus 
and suasion to change the way agencies work.
    Senator Thomas. I just have to tell you, I am impressed 
with your background but I'm not very impressed with your 
willingness to talk about making changes in something that, to 
most people, has been generally a little unsatisfactory. And 
I'm just being very candid with you. I don't think that's the 
kind of an approach that some of us would expect to see when a 
new person comes into this job.
    Thank you, Mr. Chairman.
    Senator Chafee [resuming the chair]. Senator Smith?
    Senator Smith. Thank you, Mr. Chairman.
    Good afternoon, Mr. Frampton.
    You come from a background, as I understand it--you were 
President of the Wilderness Society, you were an Assistant 
Secretary for Fish and Wildlife at the Department of the 
Interior, and obviously those two areas are very much involved 
with animal protection and so forth, which surprises me. What 
surprises me is the Administration's insistence on the chemical 
testing initiative, which has raised the ire of many in the 
animal welfare community, and in my view, with justification. 
A, it's costly; B, it is repetitious and unnecessary in many, 
many cases.
    I chair the subcommittee with jurisdiction over this and 
have some interest in it, but EPA is working on three of these 
initiatives. One is the High Production Volume, two is the 
chemical testing program, and three is the endocrine disruptive 
program in children's health. And each requires the industry to 
commit to massive toxicity testing.
    So my question is, given all the concerns expressed, and 
the financial implications for both the industry and EPA, why 
continue this?
    Mr. Frampton. Well, Senator, I think what has raised some 
controversy about this most recently is the agreement between 
the Chemical Manufacturers Association, EDF, and EPA to do a 
large volume of testing of chemicals, and to put the resulting 
information out to the public on the Internet, which I think is 
a terrific voluntary information-based strategy.
    Now, I think the announcement of that program several 
months ago has given rise to some misunderstandings about the 
actual impact this is going to have on animal testing with 
rabbits and so forth. In the first place, there is not an 
intent to increase testing or do testing with respect to 
chemicals for which we do have information already. So a lot of 
this program is simply gathering and coordinating existing 
information, making it available to the public.
    Second, as a part of this, the Administration is committed 
to trying to make sure that the actual amount of animal testing 
is minimized; that alternatives are being sought; EDF and 
various Federal agencies--I believe that we responded in a 
letter to you on this recently--so we are very conscious of 
trying to make sure that a very, very good program, which has 
tremendous benefits for public health, does not necessarily 
result in an unnecessary amount of animal testing.
    But ultimately, a certain amount of animal testing--we 
would like to get away from it altogether--but a certain amount 
of it is still the cost we pay for significant improvements in 
public health, for children and adults.
    Senator Smith. Still, though, the question is that there 
are a lot of these chemicals that you have significant and 
extensive data on, that are still being used. You haven't 
purged the list. I mean, I hear your testimony, and I've heard 
it before from others, but there is an extensive amount of 
testing that still goes on that is totally unnecessary. I don't 
think you're getting the right information in terms of what 
these chemicals are and how much data you already have--you 
know what they are, but in terms of the data that already 
exists, it's repetitious and unnecessary.
    What about the final point on this? It is my understanding 
that you did meet with some animal welfare representatives who 
did raise some issues--eight, I think. Why have you not 
responded to those issues?
    Mr. Frampton. I have not personally met with the animal 
welfare rights folks on this over the last month or so, when I 
became aware of this. I know that issues have been raised to 
various Federal officials and to the Vice President and the 
President, but we have tried to respond by, No. 1, clarifying 
what it is that we are doing; and, No. 2, undertaking some 
efforts to make sure that animal testing for chemicals that do 
have to be tested is minimized.
    Senator Smith. Well, as a Senator with a staff, just be a 
little bit careful in your response, because your staff did 
meet and talk extensively. You said you didn't meet, but my 
staff----
    Mr. Frampton. I personally have not met.
    Senator Smith. All right. You should clarify that.
    So I still think that there is more that we can do in this 
area, and I would ask you to look at it because I think you are 
going to find that there is extensive testing that is totally 
unnecessary, with a lot of data available.
    Mr. Frampton. Senator, I am very willing to look at the 
issue in more depth, personally and through my staff, to make 
sure that what we are doing to make sure that the testing is 
minimized is everything we can do.
    Senator Smith. All right.
    Let me ask a couple questions on another subject.
    On Superfund, Carol Browner said a little while ago that 
``Our experience on allocation is that it's a great tool; it 
should be part of Superfund.'' But this year EPA has taken the 
position that ``fair share'' should not be part of any 
Superfund legislation. Why the dichotomy here?
    Mr. Frampton. Well, Senator, I can't respond on the 
individual issue of the different position that she has taken. 
I would just say that we discussed this before, as well, 
because I know you are concerned about the Administration 
engaging on this issue. We do want to engage on the issue, but 
the situation is a little different, and I don't think anybody 
can fault the Administration's engagement over the last 6 
years, certainly trying to reach agreement. I think 
Administrator Browner is as disappointed that comprehensive 
reform didn't reach agreement as you are, but we are in a 
situation now, as I said to you a few weeks ago, where the 
program is different than it was 6 years ago. Most of the 
cleanup decisions have been made. We have tried so hard to 
reach agreement, and we are still apart on issues; the people 
who are doing this at EPA and others in the Administration tell 
me, ``If we're going to accomplish something, we want to try to 
focus on those limited but important areas where we do have 
agreement, which fit the current needs of the program.'' And if 
we could do that, perhaps--the things where there is 
consensus--we would be able to move forward on some of those 
issues where everybody wants to do things, brownfields and 
innocent purchasers and so forth.
    Senator Smith. Well, fair share allocation is a concept 
that has been around for a long time. It's not new, as opposed 
to joint and several liability, and it seems to me that in this 
position you should be able to answer the question yes or no. 
Do you support fair share allocation in Superfund, yes or no?
    Mr. Frampton. I am not a Superfund expert----
    Senator Smith. I don't think you need to be an expert. 
Joint and several liability means that everybody is liable at 
the site, regardless. There might be some argument--there is a 
big argument about how much. And the other is, you figure out 
how much each party owes, and they pay their fair share. I 
mean, there's nothing complicated about it.
    Mr. Frampton. Here is what I have to respond to you. I am 
not--there is some impression that Administrator Browner has 
said or testified that the Administration would be open to, or 
embraces, fair share allocation as opposed to joint and several 
liability, and I am not familiar with the specific statements 
but I think that EPA would say that if that's the impression 
that has been created, it's a misunderstanding, and the 
Administration is not in a position to agree to that. But 
again, some of this is in the details, and my understanding is 
that at the end of last year, we were still pretty far apart on 
some pretty major liability issues, and some other issues, as 
well.
    Senator Smith. We are, but you know, you were in support of 
reinstating the taxes, and doing it by picking winners and 
losers rather than fair share. I mean, the Administration has 
taken the position that de minimis municipalities, waste 
generators, and so forth should be out; others, those locked in 
consent decrees or those that have not settled one way or the 
other, PRPs, those people should not get out. So that's not 
fair. It becomes a fairness issue, as far as I'm concerned.
    Mr. Frampton. Well, I understand your position, Senator. I 
think the Administration would say that if we can agree, if 
there is consensus within the Congress and with the 
Administration, that it is fair to let some parties out, to 
exempt some parties, with de minimis liability, and we can 
agree on what is fair with respect to some people, but we 
cannot come to agreement on major liabilities with larger 
parties, then we ought to go forward and try to be fair to 
those people on whom we can agree what fairness is about.
    Senator Smith. What you're saying is, you're willing to be 
fair to some people and not to others, therefore it's not fair. 
I mean, that's the bottom line here. That's the argument we've 
been having with Ms. Browner and the Administration for years, 
that in order to really reform Superfund, we need to be fair to 
everyone; and that to be fair to everyone, whoever has the 
site, if you're a de minimis party or if you're a huge entity 
such as Mobil or Exxon or somebody like that, that whatever 
your fair share is is what you owe. And you're picking winners 
and causing others to be losers and saying, ``Well, we'll be 
fair to these guys, but not fair to these guys.'' If you're not 
fair to everybody, then you're not being fair at all.
    Mr. Frampton. I think what is involved is some 
fundamentally different ideas about what being fair, especially 
to the large number of large parties, really means. I think 
what I'm saying is, I understand the Administration's position. 
Again, I'm not an expert on this. I know we failed to agree on 
this over the last few years, but if we can agree on being 
fairer than we are now, even by your terms, then maybe we 
should go ahead and do that because then we can legislate it.
    Senator Smith. Well, I don't think you're going to--I think 
the message needs to be taken back to EPA that the taxes on 
industry are not going to be reinstated in this Congress unless 
the program is fair, and I think that's the bottom line. And it 
is not fair the way it is now, and I wish we could get there. I 
regret that we're not, because I think that's the only way 
we're ever going to get the program fixed.
    Thank you, Mr. Chairman.
    Senator Chafee. All right. There are a couple of obligatory 
questions I will ask you, Mr. Frampton.
    First, are you willing, at the request of any duly 
constituted committee of the Congress, to appear in front of it 
as a witness?
    Mr. Frampton. I certainly am.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Mr. Frampton. Other than what has been disclosed, no, Mr. 
Chairman.
    Senator Chafee. Senator Thomas, do you have any further 
questions?
    Senator Thomas. I have a couple. I will try to do it 
quickly.
    I guess I'm a little confused about the administration of 
NEPA. I get the impression from you and from your predecessor 
that one of the responsibilities there is to administer it and 
to coordinate it--I don't know anyone else who does--and yet, 
you don't do any regulations. You do rules and letters and 
guidance, none of which are subject to public review.
    If it is your job to make it common and administer it, how 
do you do that?
    Mr. Frampton. Well, Senator, as you pointed out, the 
regulations that were written under the original act were, of 
course, subject to the usual public review process. My 
understanding is that in the past, when CEQ has issued guidance 
or advice on NEPA issues, that the practices varied, but 
certainly what CEQ tries to do is bring the Federal agencies--
and if it hasn't in the past, I think it sometimes has, but 
certainly should in the future--bring the public and 
stakeholders into that process as well.
    But I don't know anything else that CEQ does, as you said, 
that is regulatory or rulemaking. If we did, it would require, 
under the APA, another statute, public notice and comment 
period and so forth, Federal Register publication.
    Senator Thomas. Wouldn't it be a normal expectation that 
you would do rulemaking from time to time, as times change? You 
have mentioned three or four times in your testimony how times 
have changed, how the circumstances have changed, and yet, 
apparently, the regulations are OK for 20 years.
    Mr. Frampton. Well, I guess one way of looking at that is 
that the regulations have stood the test of time----
    Senator Thomas. If you agree with that, of course.
    Mr. Frampton. If you feel the program is not working, then 
I think that obviously one would look to regulatory changes. 
But I am not familiar in the last few years with any specific 
set of proposed regulatory changes that have been put forward 
under NEPA that are designed to make it work better.
    I think the problem is really in the implementation, not in 
the regulations.
    Senator Thomas. I have not heard of any either, and I would 
rather like to hear of some.
    We are having a hearing tomorrow on the Everglades. Have 
you seen the GAO report?
    Mr. Frampton. I have.
    Senator Thomas. What do you think of that?
    Mr. Frampton. Well, I think there is a genuine and 
legitimate concern that is expressed in the report about the 
lack of a strategic plan for the overall program, but I am not 
sure that the GAO examiners who worked on the report fully 
understood how much the restudy and surrounding processes which 
were created, which represent an enormous amount of consensus 
among a lot of parties, actually embody a strategic plan, or 
the fact that an actual strategic plan is in the process of 
being developed.
    So I think that's a genuine concern, but I think that 
concern is being responded to.
    Senator Thomas. Is that what the restudy is for, to come up 
with a plan to spend the $10 billion that they predict will be 
spent?
    Mr. Frampton. The restudy is a strategic plan of enormous 
breadth. What the GAO said is--I think the kind of strategic 
plan that was unthinkable 4 or 5 years ago--that anybody could 
develop that on a consensus basis. The GAO said, ``Well, you 
need a consensus plan that goes much further, that looks at all 
the actors in south Florida who are doing everything. You need 
to broaden the scope of this plan.'' And to the extent that the 
restudy has to fit with other important things that are 
happening, I think that's right, and I think that some of that 
is going on, and that the people who worked on the report--the 
examiners themselves--don't appreciate how much of that is 
actually happening.
    Senator Thomas. Well, it's an interesting thing when the 
Park Service has a little over $1 billion a year in their 
budget, $6 billion in arrears, and we're going to spend $10 
billion here. It's an interesting study, in any event.
    Thank you.
    Mr. Frampton. Thank you, Senator.
    Senator Chafee. All right. Well, thank you, Senator.
    Mr. Frampton, thank you very much for coming by and 
responding to the questions. I don't know if anybody asked for 
other questions, but if so, please respond swiftly if you can, 
in writing.
    Mr. Frampton. We will indeed, Mr. Chairman, thank you.
    Senator Chafee. Thank you very much.
    That concludes the hearing.
    [Whereupon, at 4:13 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
   Statement of George T. Frampton, Jr., Acting Chairman, Council on 
        Environmental Quality, Executive Office of the President
    Mr. Chairman, Senator Baucus, distinguished Members of the 
Committee: It is an honor to appear before you today as President 
Clinton's nominee to be a Member and the Chairman of the Council on 
Environmental Quality.
    Six years ago, I came before this Committee as the President's 
nominee to be Assistant Secretary of the Interior for Fish, Wildlife 
and Parks. I said I believed that, if confirmed, you would find me to 
be open, fair, and a reasonable and constructive partner with the 
Congress. I also said that as an advocate in different professional 
roles throughout my career, I had based my advocacy on sound facts, 
fairness, practicality, and the importance of maintaining personal 
credibility.
    You did vote to confirm me, and as an Assistant Secretary of the 
Interior from 1993 to 1997, I believe I fulfilled the trust you placed 
in me. I further believe that the insight and experience gained during 
my time at Interior help immeasurably in fulfilling the 
responsibilities I assumed upon becoming acting Chairman of CEQ 5 
months ago.
    Much of my work at Interior involved building teamwork and 
consensus--among agencies within the Department; among various Federal 
departments and agencies with different priorities and missions; and 
among State and local governments, private landowners, and other 
stakeholders.
    One such undertaking was the Federal/State task force that 
developed a comprehensive restoration plan for the Everglades/South 
Florida Ecosystem, the largest ecosystem restoration ever undertaken in 
the United States. This 6-year effort, which enjoys bipartisan support 
at both the Federal and State level, is scheduled to come to fruition 
this June.
    Another major success was our effort to develop a new paradigm for 
the Endangered Species Act, including the pioneering use of Habitat 
Conservation Plans with private landowners, and collaborations with 
State and local governments such as Natural Communities Conservation 
Planning Program (NCCP) in the Southern California counties of San 
Diego, Orange, and Riverside Counties. In addition, in partnership with 
Governor Leavitt of Utah and the Western Governors Association, I 
helped craft a reform proposal for the Endangered Species Act that 
became an important basis for the Kempthorne bill reported out of this 
committee.
    As the lead Federal trustee in the Federal/State Exxon Valdez Oil 
Spill Trustee Council, I joined with then-Governor Wally Hickel of 
Alaska to forge a balanced, comprehensive program guiding the use of 
the civil penalty paid by Exxon to restore Prince William Sound and the 
Exxon Valdez spill area in South Central Alaska. This program, based on 
the best available science and broad public input, found wide support 
among Federal and State agencies, Native Corporations, fishermen, 
environmentalists, and local and Alaska residents.
    Working with the Alaska Department of Economic Development, the 
U.S. Department of Energy, and the National Park Service, I also 
negotiated an agreement to locate one of the nation's first Clean Coal 
Technology Demonstration Projects adjacent to Denali National Park. 
Among the benefits of this innovative project are improved visibility 
and air quality. Without this agreement, the project would have 
foundered.
    To cite just a few other examples: I was a principal in the 
collaborative effort with the Forest Service and the Department of 
Commerce to finalize the Pacific Northwest Forest Plan. I worked with 
the armed services to develop cooperative programs to protect habitat 
on military bases. With the State of California, the Corps of 
Engineers, and the Ports of Long Beach and Los Angeles, I led the 
effort to use port mitigation funding to purchase and bring into 
protective ownership of the State the largest remaining estuarine 
wetlands on the California coast. In Montana, Utah, and North Carolina, 
I oversaw the implementation of innovative habitat plans with 
landowners and county governments to protect endangered species.
    While at Interior, I came to recognize that almost every important 
environmental or natural resource issue facing the Federal Government 
today requires coordination among more than one Federal agency or 
department. Most of these issues also demand close cooperation, and 
often a sustained partnership, with State and local government as well.
    This is where the Council on Environmental Quality plays an 
indispensable role.
    CEQ was created by the Congress in 1969 to advise the President on 
the long-term direction of environmental policy. But equally 
important--and especially critical today--was Congress' direction to 
coordinate the environmental work of the Federal family, and to oversee 
implementation of the National Environmental Policy Act (NEPA).
    First, CEQ was to make sure that Federal agencies are working 
together, not at cross purposes, and to referee disputes between the 
agencies. Congress envisioned CEQ as a 'neutral' arbiter free of 
``agency bias''--that is, commitment to a particular regulatory 
approach or agency mission. As such, CEQ could ensure that the broadest 
set of environmental goals was being advanced.
    Second, CEQ was charged with an even broader mandate: to make sure 
that in the articulation and implementation of the nation's 
environmental program, economic and social imperatives were fully taken 
into account. Sound environmental strategy that is based on good 
science, and is broad-based rather than parochial in scope--this, I 
believe, was the vision of Congress.
    A parallel vision embodied in NEPA is that Federal agencies make 
important decisions affecting the environment in a democratic way, only 
after a thorough examination of the likely impacts of alternative 
courses of action. By putting sound information before the public and 
government managers, informed public input to such decisions would be 
guaranteed.
    Both of these visions--coordination and balance, and informed 
democratic decisionmaking--were prescient for 1969, a time when the 
Environmental Protection Agency did not yet even exist. They remain 
cornerstones of the nation's environmental policymaking, and have been 
at the heart of our environmental progress over the past three decades.
    In my work over the past 5 months as Acting Chairman of CEQ, a very 
large part of my work has been oriented to this practical, problem-
solving side of CEQ's mandate: seeing to it that Federal departments 
and agencies are on the same page, are working together. I have been 
reminded often, as I was at the Interior Department, how important it 
is that the Federal family speak with one voice. This subject comes up 
over and over again with mayors, county executives, and Governors, as 
well as with representatives of regulated groups and industries.
    In November, when I addressed the Western Governors Association 
(WGA) meeting in Phoenix, many of the Governors explained how important 
CEQ is to them because it is the only place where ``all roads cross'' 
when it comes to Federal environmental policy. It is the only place 
they can go for help when they are caught between Federal environmental 
statutes or agencies, or want to appeal an agency policy or decision. 
In fact, several Governors said publicly they are dismayed that CEQ is 
so small and has so few resources, given the importance of its role to 
their constituents.
    A significant part of CEQ's casework relates to the NEPA process, 
and particularly to the preparation of Environmental Impact Statements 
(EIS) and Environmental Assessments (EA). Typical of CEQ's involvement 
is a recent settlement in a case involving the Longhorn Pipeline, which 
runs from Austin to San Antonio. A proposal to use this former oil 
pipeline to transmit natural gas--serving, among other things, poor 
communities with inadequate energy supply--faced potentially fatal 
delays because proponents sought to avoid NEPA's applications and a 
Federal court held that an EIS might be required. A CEQ-brokered court 
settlement satisfactory to all parties calls for prompt preparation of 
a robust EA that will provide the public with ample information and 
meet NEPA legal requirements in time to allow for key investment 
decisions.
    State and local governments, and other stakeholders, look to CEQ 
for leadership on new initiatives as well. For example, last fall the 
Governors of California, Oregon, Washington, and Alaska asked the 
Administration to create a Federal fund to help them restore endangered 
coastal salmon runs--with an absolute minimum of Federal red tape. But 
to ensure accountability to the Federal Government and Congress, and 
coordination on a regional basis, the Governors proposed that the 
Federal coordinating role be undertaken by CEQ. Responding to their 
request, the President's proposed fiscal year 2000 budget indeed 
includes a $100 million Pacific Coastal Salmon Recovery fund to help 
States, tribes and local communities restore coastal salmon.
    Clearly CEQ's ``casework'' and coordinating roles are also very 
important to many Members of Congress. The number of requests and 
referrals from Members seeking improved NEPA coordination among the 
agencies is increasing every year.
    Yet CEQ today has fewer staff members and a smaller budget than it 
had during much of the 1970's--nearly a third less staff even than at 
the end of the Bush Administration.
    For this reason, the President's proposed fiscal year 2000 Budget 
requests additional funding for CEQ to carry out a Partnership Program 
to work more closely with governments, mayors, and private individuals 
in collaborative initiatives and in problem-solving in the field.
    My vision for CEQ is no more and no less than the vision I believe 
Congress had in 1969: a balanced, coordinated and effective Federal 
environmental policy, and a process for democratic, informed 
environmental decisionmaking.
    In 6 years this Administration has compiled a record of strong 
environmental protection as good as that of any President in history, 
while catalyzing and overseeing the strongest economic recovery since 
World War II. There is no longer any reason to debate whether rigorous 
environmental standards go hand in hand with economic progress. The 
history is now clear, and the record speaks for itself.
    I am proud of the part CEQ--and NEPA--have played in establishing 
that record and look forward to working with the Congress to continue 
building on it, for the sake of our environment and the American 
people.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
   Responses by George Frampton to Additional Questions from Senator 
                                 Graham
    Question. Will the CEQ conduct an analysis on how the Department of 
Defense conducts Environmental Impact Statements for base closures and 
determine if the process could be streamlined or improved for future 
base closures?
    Response. Pursuant to the Defense Authorization Amendments and Base 
Closure and Realignment Act of 1988 and the Defense Base Closure and 
Realignment Act of 1990, Congress modified the application of NEPA to 
the base closure process and limited its procedural mandate to certain 
phases. The overall process could certainly be improved for future base 
closures. In fact, given where the processes currently are, a review of 
how to improve the NEPA coordination would be timely. At present, CEQ 
was not contemplating a study of this process. However, it this 
surfaced as an important and immediate issue and CEQ had additional 
resources for an analysis on the base closure and reuse process, the 
results could possibly be helpful to the agencies and the public.
    As to the specific question you and I spoke about in your office, 
there appears to be no difference between how the various branches of 
the Armed Services conduct their NEPA analyses for base closures. The 
difference between how the NEPA processes were conducted for the 
closures of Homestead Air Force Base and Orlando Naval Air Station was 
based solely on differing levels of community support. The difference 
was not based on any inconsistency between the Armed Services' 
implementation of NEPA.
                                 ______
                                 
   Responses by George Frampton to Additional Questions from Senator 
                                 Thomas
    Question 1. During your confirmation hearing, you stated that CEQ 
was preparing interagency guidance regarding State and local 
governments as cooperating agencies.

    A. Please provide a copy of this guidance.
    Response. A copy of the draft interagency guidance, currently being 
circulated for comments, is attached.

    B. Will this guidance be subject to public review and comment?
    Response. Guidances, such as this one, represent short policy 
statements which usually do not go through a public comment period. 
Instead, the draft guidance will be circulated to all Federal agency 
NEPA contacts for agency comments. In addition, however, we would be 
pleased to circulate copies of the draft guidance to interested Members 
of Congress, such as yourself, and receive comments on the draft 
guidance from your office and other Congressional offices. We will also 
be happy to send draft copies to the National Governors Association, 
the Conference of Mayors, and the National Association of Counties for 
comments.

    C. When will this guidance be issued?
    Response. We hope to issue this guidance by mid-June 1999. Of 
course, that is dependent on the nature and timing of the comments we 
receive on the draft guidance.

    D. What agencies will receive this guidance?
    Response. All Federal agencies will receive the draft guidance and 
will have an opportunity to comment on it. The final guidance will also 
be sent to all Federal agencies.

    E. Why not issue this guidance as a CEQ regulation?
    Response. The current CEQ regulations already contain clear 
provisions concerning cooperating agencies and the roles of local, 
county, State and Tribal governments in the NEPA process. The guidance 
focuses on the existing regulations and will serve to remind all 
agencies of their responsibilities to include local, county, State and 
Tribal governments, where appropriate. Thus, the guidance is an 
appropriate way of reinforcing the intent of the regulations and makes 
the issuance of another regulation unnecessary.

    F. How will CEQ ensure that local land managers or rangers are 
aware of this guidance?
    Response. The final guidance will be sent to all agency heads and 
all agency NEPA liaisons. CEQ will request that these agency heads and 
NEPA liaisons distribute the guidance to the appropriate personnel, 
including all appropriate regional, district and other local offices.

    G. Will you support my efforts to amend NEPA to clarify that-State 
and local governments should be afforded the opportunity to become 
cooperating agencies if they so choose?
    Response. The National Environmental Policy Act and the current 
NEPA regulations fully reflect the goals of NEPA in including local, 
county, State and Tribal governments as cooperating agencies. We 
believe that the guidance currently contemplated satisfies the 
additional need for a comprehensive policy as we discussed in your 
office. The Administration has opposed in the past amending NEPA to 
make mandatory State, local and Tribal cooperative status. If the 
guidance proves not to be successful, however, I will certainly be 
willing to consider other options.

    Question 2. In November 1995, Senator Craig and I sent the attached 
letter to your predecessor outlining a process of improving NEPA 
compliance within the Forest Service. I also have enclosed Ms. 
McGinty's only response to this letter. Please provide an action plan 
for addressing the issues raised in that letter.
    Response. The November 1995 letter to the Chair of the Council on 
Environmental Quality raises serious and important issues regarding the 
Forest Service's implementation of the National Environmental Policy 
Act. The numerous suggestions contained in the letter for embarking on 
a comprehensive rulemaking include cogent observations and interesting 
substantive suggestions. I believe that the process that you and 
Senator Craig propose for the rulemaking has merit. I also agree with 
the suggestion in the letter that we only begin on such a course of 
action following the Forest Service's revision of their planning 
regulations under the National Forest Management Act. This is 
especially important since the NEPA process, to be effective, must be 
well integrated with the decisionmaking process. In short, after the 
Forest Service's revision of their planning regulations has been 
completed, it will be appropriate for the Forest Service to revise 
their current NEPA procedures. At that time, I will consult with the 
Chief of the Forest Service regarding the proposals in the November 
1995 letter and report back to you and Senator Craig on the NEPA 
implementation issues.

    Question 3. According to CEQ regulations, Environmental Assessments 
(EAs) are to be brief concise analyses which assist a Federal agency in 
determining whether a proposed action will have significant impacts and 
therefore require an Environmental Impact Statement (EIS).

    A. Please provide the number and length of EAs, by Federal agency, 
for each of the last 5 years.
    Response. Our most recent data on environmental assessments is 
CEQ's 1992 survey of Federal agencies and EAs. In 1992, Federal 
agencies prepared 45,000 EAs, and agencies continue to prepare 
approximately 50,000 EAs each year. Only 26 percent of the agencies 
responding to the 1992 EA Survey indicated that their EAs do not exceed 
10-15 pages, as recommended by CEQ. Another 26 percent of the agencies 
estimate the average EA length at 26-45 pages. Forty-six percent of the 
agencies prepare EAs averaging between 16-60 pages. Six agencies (13 
percent) responded that the average length is between 46-100 pages. Two 
agencies stated that their average EA is 100 pages. Attached please 
find the list of 44 agencies responding to the EA survey, the chart 
regarding number of EAs prepared by agency and the chart of average 
length of EAs by agency. (See Attachment).

    B. How many of these EAs resulted in the preparation of EISs?
    Response. Twenty-eight percent of the respondents to the 1992 EA 
Survey stated that they precede EISs with EAs less than 1 percent of 
the time. Further, the same number simply never prepare EISs, while 4 
of the respondents said their agencies ``rarely'' precede EISs with 
EAs. Thus, 67 percent of the respondents, rarely, if ever, precede EISs 
with EAs, either because they do not prepare EISs, or, as many agencies 
noted, do not have to prepare an EIS based on experience and NEPA 
guidance. The 67 percent figure rises to 74 percent when calculating 
those agencies that precede less than 10 percent of their EISs with 
EAs. Four agencies precede EISs with EAs 100 percent of the time.

    C. How many EISs were preceded by EAs?
    Response. The 1992 EA Survey reflects that most of the 44 Federal 
agency respondents do not precede EISs with EAs. As set form above, 74 
percent of respondent agencies stated that less than 10 percent of 
their EISs are preceded by EAs.

    D. ACED does not have this information, why not?
    Response. Not applicable.

    Question 4. Given the wide range of actions which require an EA--
everything from the Longhorn pipeline in Texas to the renewal of an 
unchanged grazing permit in Wyoming--Ms. McGinty stated that ``CEQ is 
aware that further clarification of the use of EAs would be useful, 
particularly in the area of public participation. `` See S. Hrg. 104-
774 at p. 61 (Sept. 26, 1996.) What clarification has CEQ provided over 
the last 3 \1/2\ years on the use of EAs?
    Response. In the past 3 \1/2\ years, CEQ has provided clarification 
on the use of environmental assessments in its Environmental Justice 
Guidance under the National Environmental Policy Act, published on 
December 10, 1997. The guidance makes clear that EAs also require a 
discussion of socio-economic considerations.
                               __________
                            DRAFT MEMORANDUM
             from acting chair to heads of federal agencies
    Re: Designation of Non-Federal Agencies to be Cooperating Agencies 
in Implementing the Procedural Requirements of the National 
Environmental Policy Act
    Date: April ,1999
    The purpose of this Memorandum is to urge agencies to actively 
solicit the participation of State, tribal and local governments as 
``cooperating agencies'' in implementing the environmental impact 
assessment process under the National Environmental Policy Act (NEPA). 
40 C.F.R. Sec. 1508.5. As soon as practicable, but no later than the 
scoping process, Federal agency officials should identify State, tribal 
and local government agencies which have jurisdiction by law and or 
special expertise with respect to any environmental impact involved in 
a proposed action, or a reasonable alternative to a proposed action, 
that requires the preparation of an environmental impact statement. The 
Federal agency should hen determine whether such non-Federal agencies 
are interested in assuming the responsibilities of becoming a 
cooperating agency under 40 C.F.R. Sec. 1501.6.
    The benefits of granting cooperating agency status include 
disclosure of relevant information early in the analytical process 
receipt or technical expertise and staff support, avoidance of 
duplication with State tribal and local procedures, and establishment 
of a mechanism for addressing intergovernmental issues. If a non-
federal agency agrees to become a cooperating agency, agencies are 
encouraged to memorialize in writing their specific expectations, roles 
and responsibilities.
    Agencies are reminded that cooperating agency status neither 
enlarges nor diminishes the decisionmaking authority of either Federal 
or non-Federal entities. However, cooperating agency relationships with 
State, tribal and local agencies helps to achieve the direction set 
forth in NEPA to work with other levels of government ``to promote the 
general welfare, to create and maintain conditions under which man and 
nature can exist in productive harmony, and fulfill the social, 
economic, and other requirements of present and future generations of 
Americans.'' Considering NEPA's mandate and the authority granted in 
Federal regulation to allow for cooperating agency status for State, 
tribal and local agencies, cooperator status for appropriate non-
Federal agencies should occur routinely.
                                 ______
                                 
List of 44 Agencies Responding to EA Survey and Initials as They Appear 
                               in Tables
    Department of Agriculture
  <bullet> Agriculture Stabilization and Conservation Service (ASCS)
  <bullet> Animal Plant Health and Inspection Service (APHIS & APHIS/
    BP)
  <bullet> Farmers Home Administration (FHA)
  <bullet> Food Safety and Inspection Service (FSI)
  <bullet> Forest Service (USES)
  <bullet> Rural Electrification Administration (REA)
    Department of Commerce
  <bullet> Economic Development Administration (EDA)
    Department of Defense
  <bullet> Air Force (Air Force)
  <bullet> Army (Army)
  <bullet> Marine Corps (USMC)
  <bullet> Navy (Navy) Department of Energy (DOE)
    Department of Housing and Urban Development (HUD)
    Department of Interior
  <bullet> Bureau of Land Management (BLM)
  <bullet> Bureau of Reclamation (RECLAM)
  <bullet> Fish and Wildlife Service (F&WS)
  <bullet> Minerals Management Service (MMS)
  <bullet> National Park Service (NPS)
  <bullet> Office of Surface Mining (OSM)
    Department of Justice
  <bullet> Bureau of Justice Statistics (BJS)
  <bullet> Immigration and Naturalization Service (INS)
    Department of Labor
  <bullet> Mine Safety and Health Administration (MSHA)
    Department of Transportation
  <bullet> Federal Aviation Administration (FAA)
  <bullet> Federal Highway Administration (FHWA)
  <bullet> Federal Railroad Administration (FRA)
  <bullet> Federal Transit Administration (FTA)
  <bullet> Maritime Administration (MARAD)
    Department of the Treasury
  <bullet> Federal Law Enforcement Training Center (T-FLETC)
  <bullet> Bureau of Alcohol, Tobacco and Firearms (T-ATF)
    Department of Veterans Affairs (VA)
    Arms Control and Disarmament Agency (ACDA)
    Consumer Product Safety Commission (CPSC)
    Environmental Protection Agency (EPA)
    Export-Import Bank of the United States (EXIM)
    Federal Communications Commission (FCC)
    Federal Energy Regulatory Commission-OHL (FERC-OHL)
    Federal Maritime Commission (FMC)
    General Services Administration (GSA)
    Interstate Commerce Commission (ICC)
    Marine Mammal Commission (MMC)
    National Capital Planning Commission (NCPC)
    Tennessee Valley Authority (TVA)
    Nuclear Regulatory Commission (Office of Nuclear Reactor 
Regulation) NRC/NRA
    U.S. Postal Service (USPS)
    Small Business Administration (SBA)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
   Responses by George Frampton to Additional Questions from Senator 
                                Bennett
    Question 1. Do you have any knowledge of communications, ongoing 
plans or activities designed to create additional national monument 
sites anywhere in the United States, beyond the discussions regarding 
the proposed monument on the Arizona Strip?
    Response. Nothing beyond the letter from the President to Secretary 
Babbitt in November and made available to Congress. As you know, the 
President wrote Secretary Babbitt asking him for his advice on whether 
any area warranted national monument protection. The President has 
received no such recommendation or information from Secretary Babbitt 
to date and other than the conversations that Secretary Babbitt has had 
with Congress, I am aware of no such recommendations or information.

    Question 2. I am sure that the Committee members would be very 
interested in learning which States would be impacted by such plans if 
there are any. Please tell us all of the areas and States that have 
been, currently are, or could be included in any discussions that have 
been held.
    Response. See answer 1 above.

    Question 3. If you are not personally aware of any other 
discussions, will you review this matter with your staff as well as the 
appropriate individuals in the various Federal agencies that might be 
impacted. If it is the case that there are no plans to use the 
Antiquities Act to create additional monuments, please provide me 
written assurance that this is the case within 2 weeks of receiving 
these questions.
    Response. Only the President has the authority under the 
Antiquities Act to create a national monument. To my knowledge, my 
staff and I are not aware of any plans for the President to do this.

    Question 4. Do you feel that the Antiquities Act which was passed 
in 1906, long before the passage of FLPMA, NEPA, the National Park 
Service Organic Act, or the Wilderness Act is still an appropriate 
vehicle for public land management decisions? Is it your intention that 
this authority will be used again during the remaining tenure of the 
Clinton Administration?
    Response. I believe that the Antiquities Act is still an 
appropriate vehicle for certain public land management decisions. As 
you know, the President's authority under the Antiquities Act is 
available only to the extent that the land in question is land already 
in public ownership, and has no application to land that is privately 
owned. The decision to invoke the executive authority under the 
Antiquities Act is not available to the Chair of CEQ, but is the 
President's alone. I would not presume to speak for the President on 
this matter with respect to the remainder of his term.
                                 ______
                                 
Responses by George Frampton to Additional Questions from Senator Crapo
    Question 1. Congress and the courts have repeatedly confirmed the 
authority of States to allocate and administer water within their 
borders. However, I am deeply concerned that the Administration is 
setting the stage for ignoring long-established statutory provisions 
concerning State water rights. Can I have your commitment that the 
Endangered Species Act, Clean Water Act, Federal Land Policy Management 
Act, national designations, and other Federal initiatives are not used 
to erode State sovereignty over water?
    Response. The Administration's initiatives proceed from the 
principle that we need to strengthen our partnership with States both 
in protecting ground water and surface water, and in helping resolve 
disputes among States with conflicting claims to water resources. This 
principle recognizes that State law provides the foundation for our 
water right's system.
    As the Committee is aware, there are particular circumstances in 
which States have disputed the scope of Federal authority to protect 
waters of the United States or to protect other water resources that 
have been entrusted to Federal management. I do no intend to seek any 
change in the positions or roles that agencies have asserted in these 
particular matters over the course of the Administration, and I intend 
to make myself available to States with concerns that agency conduct 
may have impinged State authority over water resources.

    Question 2. Current Federal land management agency actions 
demonstrate a clear policy direction to decrease access by the public 
to Federal lands. I have visited communities in Idaho that have been 
greatly impacted by these actions. Recognizing the role of the CEQ in 
guiding these policies, is it appropriate for National Forests to be 
designated ``closed-unless-posted-open.'' ?
    Response. CEQ has had no involvement to my knowledge in these 
policies that involve decreasing access by the public to Federal lands. 
As I understand it, the policies your question raises about national 
forest road postings are decided on a forest-by-forest basis at a local 
level.

    Question 3. If this must be determined on a case-by-case basis, is 
it your policy that the public is restricted from public lands except 
where designated by land managers?
    Response. Many of the public lands are administered under multi-use 
statutes. However, not all uses are appropriate for all lands. The 
appropriate use is determined by the processes set out by law and 
processes, which generally involve local land users and stakeholders.

    Question 4. At the recent Andrus Symposium on public land 
management in Boise, Idaho, a number of agency officials, including 
Chief Dombeck and Director Clark, indicated their interest in having 
more collaborative stewardship with local communities. I support their 
interest in this, but am concerned that policy direction from 
Washington poses constraints on the Federal Advisory Committee Act (FA 
CA) process. What steps are you taking to eliminate these constraints 
to FACA and increase local public involvement in decisionmaking?
    Response. The Administration is committed to working with local 
communities to forge partnerships for more collaborative stewardship. 
There was concern voiced several years ago that the Federal Advisory 
Committee Act prohibited such local government inclusion. Fortunately, 
FACA was amended specifically to allow State and local government 
participation where a statute, such as NEPA, encouraged public 
involvement. To the extent that your question raises concerns about the 
number of authorized advisory committees, I would be pleased to review 
the situation and see if the number of committees in existence can and 
should be increased.

    Question 5. Your predecessor, Katie McGinty, was an instrumental 
supporter of the Enhanced Training in Idaho project as the Idaho 
congressional delegation, the Air Force, the Department of Interior, 
and the State of Idaho worked to enact land withdrawal legislation to 
build this range. Can we count on your support as we continue the 
effort to develop this important Air Force training range.
    Response. I am aware of CEQ's historical involvement and support of 
this project and would be more than happy to work with the Idaho 
delegation should there be a role for CEQ to play in the future.


                   NOMINATION OF TIMOTHY FIELDS, JR.

                              ----------                              


                         WEDNESDAY, MAY 5, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Warner, Crapo, Baucus, 
Lautenberg, and Wyden.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Good morning. The purpose of today's 
hearing is to consider the nomination of Mr. Tim Fields as 
Assistant Administrator of EPA's Office of Solid Waste and 
Emergency Response.
    I am pleased to welcome everyone here today. Mr. Fields, I 
believe you have the members of your family here. Would you 
like to introduce them to us?
    Mr. Fields. Yes, sir, thank you, Mr. Chairman.
    I have with me, and I will ask them to stand, my wife, 
Emma; my son, Stephen Fields; my mom, Clara Fields; and my dad, 
Tim Fields, Sr. And they are all here to visit today with me, 
and thank you for having me introduce them.
    Senator Chafee. Fine, well, we are delighted that you all 
were able to be here this morning, and I am very pleased to 
welcome you to this hearing.
    Mr. Fields has been employed by EPA in a variety of 
positions for more than 25 years. Most recently, on February 
17, 1997, Mr. Fields was appointed as Acting Assistant 
Administrator for the Office of Solid Waste and Emergency 
Response, which has the unpronounceable acronym of OSWER, which 
is an odd one.
    Prior to this, Mr. Fields served for 3 years as Principal 
Deputy Assistant Administrator for OSWER. In this capacity, he 
was responsible for Superfund, hazardous and solid waste 
management under the so-called RCRA Act, and environmental 
cleanup under a number of other Federal laws.
    Mr. Fields was Director of EPA's Superfund Revitalization 
Office for 2 \1/2\ years. He was Deputy Director of EPA's 
Superfund Office for 2 \1/2\ years, Director of EPA's Emergency 
Response Division for 4 \1/2\ years, and Deputy Director of the 
Hazardous Site Control Division for a 1 \1/2\ years.
    In addition to these positions, Mr. Fields has held a 
variety of supervisory and staff positions in the Office of 
Mobile Sources and the Office of Solid Waste. Since September 
1997, he has also served as Chairperson of the EPA Human 
Resources Council.
    Mr. Fields has a Bachelor of Science degree in Industrial 
Engineering from Virginia Polytechnic Institute and Virginia 
State University. He has a Master of Science in Operations 
Research from George Washington University, and had an 
additional year of graduate studies at Ohio State University.
    Now this nomination has not proceeded as quickly as others 
that the committee considered recently. Mr. Fields has been 
serving in an acting capacity for nearly 27 months, since his 
predecessor, Elliott Laws, resigned in early 1997. The White 
House nominated another individual for this position, but that 
was later withdrawn and Mr. Fields was selected as the new 
nominee.
    Mr. Fields might have been confirmed last year, had his 
nomination been received by the committee just a few days 
earlier than it was. The committee acted on a large number of 
nominations, right up to the end of the last Congress. And all 
those individuals were ultimately confirmed, prior to 
adjournment.
    Since the President resubmitted Mr. Fields' nomination to 
the committee in January of this year, we have examined an 
important decision that EPA made regarding the enforcement of a 
December, 1998 deadline for underground storage tanks to comply 
with Federal law. I will have some questions on the substance 
of that policy, and Mr. Fields' role in the EPA's decision, 
when we get to the question period.
    Now, Senator Baucus, I am sure, has a statement. And 
perhaps other committee members will, too. I do not see Senator 
Baucus, but he should be here soon.
    But I think we can proceed. You have a statement, Mr. 
Fields. Why do not you rise and raise your right hand, if you 
would, please.
    Do you swear to tell the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Fields. I do, sir.
    Senator Chafee. Fine, all right, why do not you proceed 
with your statement, Mr. Fields?

STATEMENT OF TIMOTHY FIELDS, JR., NOMINATED BY THE PRESIDENT TO 
BE ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY 
           RESPONSE, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Fields. Thank you, Mr. Chairman. It is a great honor 
for me to be here before you and the other members of the 
committee who will be joining us.
    As you said, I have been a career public servant for almost 
28 years now. I am greatly honored to be here today to testify 
before this committee.
    My family and I are both grateful and honored that 
President Clinton has nominated me for the position of 
Assistant Administrator for Solid Waste and Emergency Response.
    I look forward with great enthusiasm to the challenge and 
the opportunity of serving as Assistant Administrator and 
directing the waste management and environmental cleanup 
programs at EPA. I am willing to meet with any other Senators, 
and talk to members of your staff, as you consider this 
nomination.
    I am especially proud today to have my family with me. They 
are my greatest supporters. I thank them for being here and 
being present.
    My wife, Emma, has been my greatest supporter for more than 
26 years. We have been keeping each other together and straight 
for a long time. And I thank her for all she has done to be a 
supporter for me.
    My son, Stephen, I thank him for even being here. He is in 
the midst of final exams right now, in college, as he graduates 
next week.
    I thank him for making the sacrifice to come here and be 
here, in the middle of his exam schedule. I told him to stay, 
but he decided to come anyway. That speaks well of him, but I 
hope it does not impact on his exam grades.
    [Laughter.]
    Mr. Fields. I am also thankful for my parents. My mom and 
dad have been great for me. A lot of people say I act like my 
dad and look like my mom.
    My dad is my hero. He is why I became an engineer. My 
father, at an early age, when I was growing up, built his own 
house. He put in all the electricity. He put in water and 
heating and bathroom facilities when we formerly were using 
outhouses. He cut my hair, he fixed my cars, and he still does 
that, even today. So I thank him for being a great role model 
for me.
    My mom, she has been a great friend. She has been a great 
supporter. When I was growing up, I always wondered, people 
used to always come down around our house. We lived in a rural 
community. And they would always come visit. I thought they 
were visiting me. I found out later that they wanted to be near 
my mom's cooking.
    So, you know, it has been a tremendous support system. And 
my mom and dad have been supporting me for more than 51 years. 
And I thank them for being here today. It is really, really 
special that they are here.
    Senator Chafee. Well, we are certainly glad you are all 
able to be here. That is a wonderful thing. And I know Senator 
Lautenberg joins me in welcoming you, your son, your wife, your 
parents, to this hearing today.
    Senator Lautenberg. It does intimidate us, I will tell you. 
We had better behave.
    [Laughter.]
    Mr. Fields. Well, Mr. Chairman, Senator Baucus, and Senator 
Lautenberg, and other members of the committee who will join 
us, I did begin my career at EPA in 1971, about 6 months after 
EPA was formed.
    A lot has changed at EPA since that time. What has not 
changed is my dedication to public service and my strong 
commitment to EPA's mission to protect public health and the 
environment. I know that public service is a special calling 
for me.
    As Principal Deputy Assistant Administrator for 3 years, 
and Acting Assistant Administrator during the past 2 years, in 
OSWER, and Senator Chafee, you did a good job of pronouncing 
that acronym, I have had the opportunity to be involved in some 
major program initiatives; the Superfund program reforms being 
a major component of that.
    I was tasked by the Administrator to lead and direct the 
three rounds of Superfund administrative reforms. I am pleased 
to tell you that the high priority on Superfund by this 
Congress and the Clinton Administration has resulted in some 
significant improvements.
    We have got 599 sites that are now construction completed. 
We have got 90 percent of the sites that are either 
construction complete or construction underway.
    So we have done a lot to get cleanup done. We have 
accelerated cleanup by more than 20 percent, and reduced costs 
by about 20 percent, with more than a billion dollars in cost 
savings and remedy updates over the last 3 years.
    We have been fair. More than 18,000 small parties have been 
settled out, and we have offered orphan share funding for more 
than 70 parties over the last 3 years. At the pace we are 
going, we are projecting that 85 percent of the sites will have 
construction completed by the end of 2005.
    Our goal in Superfund is to build on that success 
administratively, and work with Congress to pass responsible 
Superfund legislative reform. We would suggest that there is a 
lot of agreement of certain reforms like liability relief for 
perspective purchasers, innocent landowners, contiguous 
property owners and small generators and transporters of 
municipal solid waste.
    We would hope that people would focus on some of those 
changes, enact them, and reinstate the taxes, and allow us to 
have the resources we need to finish the job of getting these 
sites cleaned up.
    Brownfields has also been a program that I have spearheaded 
and led the effort on at EPA. I led the direction and the 
development of the Brownfields Action Agenda in 1995.
    That effort started with three communities, began to spread 
to 50 more, and now we are involved in more than 250 
communities around the country, where we have given them grants 
to provide assistance to the assessment and cleanup of 
Brownfields sites in communities around the country.
    It has resulted in more than a billion dollars in other 
private and public sector investment, and created more than 
2,500 jobs in the last couple of years.
    I will continue to build on the success of this initiative, 
which began as an EPA initiative, and has now become an 
Administration-wide initiative.
    Third, one of my top priorities for the near term will be 
the Resource Conservation and Recovery Act (RCRA) correction 
action program. We want to implement administrative changes to 
RCRA, just like we have done for Superfund. I welcome the 
opportunity to work with this committee on making those 
changes, as well.
    The RCRA corrective action program has 1,700 high priority 
sites. We want to work with you to develop a program and game 
plan as to how we can most effectively address those sites.
    I am ready to provide leadership to meet this challenge. 
States are largely responsible for overseeing RCRA corrective 
action cleanups. But I believe they need national and program 
leadership from EPA to help get the job done.
    Last, in closing, I would like to thank the employees of 
the Office of Solid Waste and Emergency Response, and many 
other partners at EPA, in the Enforcement Office, the General 
Counsel's Office, Congressional Affairs Office, all the folks 
who have worked to support me over the years, as well as our 
EPA regional offices and the labs, who work hard to implement 
the Superfund, the Brownfields, the RCRA Hazardous and Solid 
Waste Program, the Underground Storage Tank Program, the 
Chemical Emergency Preparedness and Prevention Program, the 
Federal Facilities Oversight Program, the Technology Innovation 
and the Oil Pollution Programs on a daily basis.
    I could not do my job without that tremendous support. 
These are all talented and dedicated Federal employees, who are 
critical to the success of these programs. I pledge my support 
to them, as well as this committee, as we work together to 
provide safe and healthy environments for ourselves, for our 
children, our grandchildren, and future generations.
    In closing, Mr. Chairman, I want to thank you for your time 
and the opportunity to appear before this committee. I ask this 
committee for your support of my nomination as Assistant 
Administrator for Solid Waste and Emergency Response at EPA. I 
pledge to faithfully execute the laws and regulations within my 
responsibility.
    I look forward to working with this committee. And I will 
be happy to answer any questions at this time.
    Senator Chafee. Well, thank you very much, Mr. Fields.
    And Senator Baucus, do you have a statement that you would 
like to make?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Actually, I would, Mr. Chairman, like to 
say a few words about the nominee.
    Since the nominee is a native Virginian, Senator Warner was 
going to be here this morning to introduce Mr. Fields. But he 
is unable to attend this hearing, because of the crisis in 
Kosovo, and he has several meetings on that subject he is 
attending.
    And I would just like to, in the meanwhile, just mention a 
little bit of Mr. Fields' very considerable background, 
particularly in solid waste and emergency response.
    As a career employee of EPA since its inception in 1971, he 
actually is a very rare breed, in the length of time he has 
served with such distinction.
    Even more remarkable, he received the highest award for 
civil servants, the Presidential Rank Award for Distinguished 
Executive Service--not once, but he received that highest award 
four times. He was twice recommended under President Bush and 
twice recommended under President Clinton. And he is the only 
EPA employee to be so honored, and has received four times the 
highest civil service award.
    Mr. Chairman, we have a nominee of exceptional ability. He 
has demonstrated commitment to public service more than anyone 
I know. And these are qualities that I think will help serve 
him in the programs he administers very well.
    He has been front and center at the heart of a lot of the 
reforms in Superfund. He has dedicated experience. He has long 
tenure, a great list of personal accomplishments. And I know 
that he is the kind of man who focuses on getting solutions to 
problems today. Rather than bellyaching or complaining about 
something not getting done right, he just settles down and gets 
the job done.
    And I just want to commend you, Mr. Fields, and thank you 
for all the work that you have done for not only EPA, but for 
our country.
    Mr. Fields. Thank you, sir.
    Senator Chafee. Senator Lautenberg?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Yes, thanks, Mr. Chairman.
    I feel like now, having read the book, we are going to the 
prologue and see what it is about. Because we have heard from 
Mr. Fields. We have met the three generations, which is nice to 
see. I am sure that your family is proud of you. And we know 
that you have a good support system, not only on a personal 
basis, but within this institution, as well.
    And it is deserved, because you have done such a good job, 
Mr. Fields. Rarely, as Senator Baucus has said, have we had a 
nominee come before us with so much direct experience to 
qualify him for the job??
    And as you know, Mr. Fields comes to us, not from a 
political background, but from the field of engineering. He 
came to the attention of the Administration not from the world 
of politics, but from long and outstanding service as a career 
employee.
    You mentioned that you started in the early 1970's, and 
during that time you have worked on matters that relate to 
hazardous waste, since well before the passage of Superfund in 
1980.
    As you well know, it has been a program that I have 
supported very aggressively, because I see the results. And we 
are pleased that we are on target to complete the task that was 
taken those years ago. It took a long time to get it rolling, 
but it is rolling now.
    And Mr. Fields served as Deputy Assistant Administrator in 
the Office of Solid Waste and Emergency Response from 1994 
through February 1997. And at that time, he was appointed to 
his current position as Acting Assistant Administrator for 
OSWER.
    During that time that Tim Fields has been working in the 
top management of the waste programs, the program has undergone 
major changes and major improvements. In fact, as just about 
everyone involved in the Superfund Program agrees, there have 
been significant strides made in the number and the pace of the 
sites being cleaned up, with your hand very much involved.
    According to a report issued by the General Accounting 
Office, by the end of this fiscal year, all cleanup remedies 
will have been selected for 95 percent of the non-Federal NPL 
sites. That is over 1,100 sites.
    Additionally, about 990 National Priority List sites have 
had final cleanup plans approved. Approximately 5,600 emergency 
removal actions have been taken at hazardous waste sites to 
stabilize dangerous situations, and to reduce the threat to 
human health and the environment.
    Almost 31,000 sites have been removed from the Superfund 
inventory of potential waste sites, to help promote the 
economic redevelopment of these properties. That is a very 
significant program.
    During this same time, EPA has worked to improve the 
fairness and the efficiency of the enforcement program, even 
while keeping up the participation of potentially responsible 
parties in cleaning up their sites.
    EPA has negotiated more than 400 de minimis settlements 
with over 18,000 small parties, which gave protection for those 
parties against expensive contribution suits brought by others 
to try oftentimes to divert attention to the polluter largely 
responsible.
    So since fiscal year 1996, EPA has offered orphan share 
compensation of $145 million at 72 sites to responsible parties 
who were willing to step up and negotiate settlements of their 
cases.
    And EPA is now offering this at every single settlement, to 
reward settlers and reduce litigation, both for the Government, 
and with other private parties.
    And I had an interesting meeting with a fellow named Jan 
Schlichtmann, who was the subject of a movie called Civil 
Action. And I was interested to know that this lawyer, who 
brought the famous case up in Woburn, is now engaged not in 
litigation, but in negotiating settlements, and has decided 
that there is a better way to go.
    And that is pretty astounding, when you think about it. 
Because often, there are such juicy fees that hang out there as 
a target for reward. But people are getting more sensible, 
totally, about the way we deal with the Superfund Program.
    So other improvements besides the few highlights we have 
mentioned, such as instituting the targeted review of complex 
and high cost cleanups, prior to remedy selection, have reduced 
the cost of cleanups, without delaying the face of cleanups.
    In short, EPA's administrative reforms have significantly 
improved the program by speeding up cleanups and reducing 
senseless litigation, and making the program fairer, faster, 
and generally more efficient.
    And I think it is fair to say that Mr. Fields deserves a 
significant part of the credit for these strides. In fact, I 
think that most of the people who have dealt with Tim Fields, 
in his current acting position, would agree that his approach 
is unflaggingly constructive, and that he is devoted to making 
the programs that he administers work.
    I understand that many outside groups support this 
nomination, including the Hazardous Waste Action Coalition, the 
Association of State and Solid Waste Management officials, the 
Petroleum Marketers Association of America, and the InterState 
Oil and Gas Compact Commission.
    They are, by no means, uninterested observers in this 
action. They say, Mr. Fields, that you deserve support because 
of the way you have handled your job.
    So I want to put into the record, Mr. Chairman, a copy of 
their letter in strong support of Mr. Fields. And I look 
forward to working with him in the future, continuing our joint 
efforts to clean up hazardous waste sites and protect the 
health and future welfare of our citizens.
    [The letter from Hazardous Waste Action Coalition follows:]
                           Hazardous Waste Action Coalition
                           Washington, DC 20005, February 19, 1999.

The Honorable John H. Chafee,
Dirksen Office Building,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Chafee: The Hazardous Waste Action Coalition (HWAC) is 
a national trade association representing the leading firms that 
provide multimedia environmental assessment and remediation services 
across the United States. Our members work to implement this country's 
hazardous waste laws in an expeditious, cost-effective manner to ensure 
protection of human health and the environment.
    HWAC strongly endorses the nomination of Tim Fields to be the 
Assistant Administrator of EPA's Office of Solid Waste and Emergency 
Response (OSWER). Mr. Fields has been responsible for implementing 
EPA's Superfund Administrative Environmental Resources Reforms, which 
have helped to improve the Superfund program in the absence of much 
needed comprehensive legislative reform. Mr. Fields' breadth of 
experience in Superfund, RCRA and the other activities undertaken by 
EPA's OSWER office is matched by few people either inside or outside of 
the Federal Government. Our experience is that Mr. Fields is a 
consensus-builder, and is committed to getting the job done. We are 
confident he will work hard to promote responsible implementation of 
Congressional initiatives. Finally, Mr. Fields knows the cleanup 
business and is extremely well-suited to guide EPA's hazardous and 
solid waste programs into the next century.
    We urge your prompt confirmation of Tim Fields, to be EPA's 
Assistant Administrator of the Office of Solid Waste and Emergency 
Response (OSWER). Please feel free to contact me at 202-828-7368, or 
Terre Belt, HWAC's Executive Director, if you have any questions.
            Sincerely,
                              Daniel E. Kennedy, President.
    Senator Lautenberg. And I hope that the process will move 
expeditiously, and that you will be able to assume the full 
responsibility, as I think you have earned it.
    Mr. Fields. Thanks very much.
    Senator Chafee. Thank you very much, Senator.
    Senator Crapo?
    Senator Crapo. Thank you, Mr. Chairman. I have no opening 
statement at this time.
    Senator Chafee. All right, now we will have a period for 
questions.
    Mr. Fields, on December 9 of last year, you issued a 
memorandum on the subject of EPA's enforcement policy with 
respect to the December 22 deadline for upgrading, replacing, 
or closing leaking underground storage tanks. As you recall, 
the deadline was to be December 22.
    Up until that point, everyone at EPA, from the 
Administrator down, had repeatedly stated that the deadline 
would be enforced. We were so informed that you were going to 
stick by that deadline.
    Your December 9 memo, however, seemed to reflect a 
different position, essentially giving small businesses, the 
so-called ``mom and pop'' operations, and State and local 
governments, that is, local fire departments or police 
departments, or local governments--what you did was to give 
them an additional 6 months to come into compliance.
    Now, obviously, the ones who had made the effort to comply 
were resentful of the extension that was given to some others. 
And I have great trouble understanding why you changed the 
policy. Could you tell us what went into your thinking?
    And, obviously, the Administrator was involved, too. I am 
not saying she was not involved. But if I am correct, it was 
you who issued the December 9 memo?
    Mr. Fields. That is correct, Senator. I will be happy to 
describe what led to that policy change.
    Senator Chafee. And particularly, I am concerned about 
giving the extension at all. My own view is, you set deadlines, 
and you and the Agency had constantly said you were going to 
stick by the deadline, which is fine.
    Mr. Fields. Right.
    Senator Chafee. But go to it.
    Mr. Fields. You are right. We did issue a policy, signed 
jointly by me and the Assistant Administrator for Enforcement 
and Compliance Assurance, Steve Herman, on December 9, to 
change our enforcement and compliance assistance strategy, for 
how we address underground storage tanks.
    We did not change the deadline. We would have to amend the 
regulations in order to change the deadline. But I want to tell 
you what led to the change in policy.
    We determined that there were significant changes in the 
projections of the number of people that would be in 
noncompliance from our earlier projections. In December, 1997, 
one year before the deadline, we were projecting that roughly 
15 percent of the universe would be in noncompliance, about 
165,000 tanks.
    As we were approaching the December, 1998 deadline, we were 
discovering and we were projecting that 350,000 tanks would be 
in noncompliance, more than double the number of tanks that we 
were projecting a year earlier.
    So that, obviously, caused some issues. We were concerned 
with the reality of a more than double noncompliance universe 
than we were projecting a year earlier. So that was a 
consideration that informed our judgment that we had to do 
something to bring those into compliance.
    Second, we recognized that a lot of those people that were 
still in noncompliance, the 350,000, were small businesses, 
moms and pops, that had not taken the steps to bring their 
tanks into compliance, and critical local government service 
organizations, like fire departments, police departments, 
hospitals, et cetera.
    So given the large number of people that were going to be 
noncomplying by December 22, 1998, and the makeup of some of 
those people, we said, what is the best way, how do we focus 
our resources, and bring those remaining tanks into compliance; 
550,000 had been brought into compliance; 1.2 billion had 
closed during that 10-year period. How do we get these last 
350,000 into compliance?
    And so we then decided that we needed a combination of 
enforcement activity and compliance assistance activities to 
bring that remaining universe into compliance.
    So we formulated with the Administrator and the Enforcement 
Office and my office a dual strategy which said, high 
enforcement priority will be the Federal Government, first of 
all. We have got to set a good model and get our act together.
    So the Department of Defense, Department of Energy, we have 
got to make sure we are meeting the deadline. Large, multiple 
complex facilities and facilities near sensitive ecosystems 
would be high priorities.
    And last, we said, for the mom and pop, and the local 
government support services, we would use compliance 
assistance. They would have to self-disclose, tell us that they 
are in noncompliance, and we would issue a penalty to them, and 
put them on a compliance agreement to bring their tanks into 
compliance.
    We thought that was the best approach to bringing these 
remaining, roughly 300,000, tanks into compliance as quickly as 
possible. That is the thinking that led to this.
    I recognize, you are right, Senator, it was a policy 
change. As I have communicated to your staff, in the future, I 
want to make sure we have a better process for communicating 
when the Agency makes major policy pronouncements, that we have 
an opportunity to discuss and inform this committee ahead of 
time, and have a dialog about it.
    But that is what led to our change in policy, those 
considerations.
    Senator Chafee. Well, yes, there is no question that the 
change in policy did cause deep concern with me and others.
    It is my understanding, however, that the facts I have are 
somewhat different from the facts that you have described. And 
that is, the number of tanks that were not meeting the 
standards.
    Let us see, in the summer of 1998, we have information that 
shows over 536,000 tanks, 60 percent of all the underground 
storage tanks, were not equipped to meet the upgrade 
requirements. That was back in the summer of 1998, the summer.
    In the fall, it appears, as of November, 1998, 
approximately 395,000 would be out of compliance. In other 
words, it was not more. It was fewer, which does not conform 
with the situation as you have outlined it, previously.
    Mr. Fields. Well, I agree the data fluctuated through the 
year. The fact is, Senator, that as I stated earlier, that we 
were projecting on December, 1997, 165,000 tanks would be in 
noncompliance, 15 percent of the universe.
    As we were approaching the deadline, in November, 1998, we 
were now projecting 350,000. I can not speak for what the 
numbers were, throughout the year.
    I do want to point out those numbers vary. For example, I 
have got data here now that I can provide to the record that 
shows that in 13 States that said they had a certain percentage 
of tanks in compliance on December 22, 1998, they now have 
reduced the number of tanks that they say were in compliance.
    Some States, for example, said 75 percent of the tanks in 
our universe were in compliance. They now tell us that that was 
wrong. The number really should have been 55 percent. So the 
numbers varied during the year.
    I did not track the numbers throughout the year. But all I 
can tell you is that during the fall of 1998, I was seeing that 
the numbers had more than doubled, from what had been 
communicated to me in December 1997.
    And that was a consideration. It was not the only 
consideration. But the fact that we had a large number of tanks 
that were in noncompliance, what is the best strategy for 
bringing them into compliance, considering the make-up of that 
universe, small mom and pops, you know, Federal Government 
facilities, large complex facilities--what is the best 
strategy?
    Given you have got 300,000 tanks, and we all, this 
committee, and me, as well, share a common goal, what is the 
best approach to getting all of the two million tanks that 
existed in 1988 into compliance as quickly as possible? A great 
job has been done, all except 300,000, and what is the best 
approach to do that?
    I can not quibble over, you know, how the numbers 
fluctuated. But all I know is that the numbers had more than 
doubled from a year earlier.
    Senator Chafee. OK, fine, thank you. My time is up.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Thank you very much, Mr. Fields.
    I might say, Mr. Chairman, and this is just in passing, 
that the Montana Department of Environmental Quality, in 
October, 1998, did an analysis of this deadline.
    And it concluded that it would have some effect, not great 
effect, if it were enforced vigorously, but that the loss of 
all service stations in the communities may have economic 
health effects, even though fuel might be made available in 
nearby communities.
    The point being, in rural States, where a station goes 
down, it causes great hardship. It is kind of like the theory 
of perspective reimbursement in hospitals. You know, the 
theory, the patient survived, but some could always go to the 
next hospital. But in rural areas, that just does not apply.
    Mr. Fields, I would like you to just outline for us and 
remind us of some of the administrative reforms that you are 
part of and helped put together in the Superfund Program. What 
are some of the things that you have done to help speed 
cleanups and get rid of some of the paperwork, and helped make 
the program more efficient?
    Mr. Fields. Sure, Senator, I will be happy to give you some 
examples of that. We implemented, as I indicated, three rounds 
of administrative reforms during the last 6 years.
    The reforms all had different themes. In the first round of 
reforms, we focused on how we can be more fair. We implemented 
a lot of reforms on de minimis settlements, and how we can get 
more small parties out of the system, mixed funding, and 
allocation pilots that we would test new ways to be more fair 
to parties involved in the system.
    The second round of reforms was focused on Brownfields, and 
how we can foster more economic redevelopment of sites, while 
we are assessing them and cleaning them up. And that led to the 
Brownfields Action Agenda.
    And the third round of reforms was focused on how we could 
speed the pace of cleanup, how we could provide more 
consistency.
    And that led to, for example, the updating of the remedy 
initiative that led to saving time and money, based on new 
science and technology, more than a billion dollars over 3 
years, the National Remedy Review Board that has saved more 
than $43 million in terms of looking at more than 30 site 
remedies, implementing presumptive remedies to speed up 
cleanup, soil screening levels for more than 100 chemicals 
commonly found at Superfund sites, guidance on future 
anticipated land use, so we would probably consider industrial 
versus commercial versus residential land use in making remedy 
decisions.
    Those are just examples of some of the reforms we have 
implemented. We think they have had a tremendous impact. Our 
data shows that we have saved more than 20 percent in time.
    It now takes an average of 8 years, from the time a site is 
put on the NPL until construction is complete. We have saved 
tremendous costs. And I think we would be judged by most people 
to be more fair.
    Senator Baucus. Could you give us some idea of how much of 
a cost reduction and how much of a delay in time?
    Mr. Fields. A 20 percent reduction in time--we have gone 
from 10 years to 8 years in the time it takes to go through the 
Superfund process.
    We have saved 20 percent, on the average. The average cost 
of a Superfund site cleanup now is $20 million; whereas, 5 or 6 
years ago, it was $25 million, on the average, for a Superfund 
site cleanup. We have saved more than a billion dollars in 
projected costs in the future, from the updating remedies 
initiative.
    So I think those are just some examples, and even we have 
gotten letters and endorsements from the regulated community 
that agree that those reforms are working, and time is being 
saved, and cost is being saved, as well.
    Senator Baucus. Were you involved in the Anaconda Oil Works 
project?
    Mr. Fields. Yes, I was.
    Senator Baucus. Could you explain that to the committee, 
please? I think that is quite a success story.
    Mr. Fields. That is a tremendous success story. And that is 
a contaminated mine property in Butte, Montana. That site was 
cleaned up, and construction is underway. But we were 
successful in working with the responsible party, with the 
State, with the community.
    We were able to take contaminated mining area, and working 
with Jack Nicklaus, it was converted into a world class Jack 
Nicklaus golf course.
    And that is a tremendous success story and an example of 
how we want to turn Superfund sites into recycled, valuable 
property for the future. And I think the Anaconda is a great 
success story.
    And Jack Nicklaus has indicated, by the way, he wants to 
work with us on some more Superfund sites, based on his 
experience with the Anaconda site.
    Senator Lautenberg. Do they want to go farther, or 
something?
    Senator Baucus. That is right. It is a higher altitude. 
They could go a little farther, there.
    What remains to be done? What can be done administratively?
    Mr. Fields. Well, we want to continue the administrative 
reforms we have implemented over the last 6 years. We believe 
that the primary new focus, administratively, ought to be on 
just the example used just cited, of the Anaconda site and the 
golf course example.
    We have seen, over the years, that there have been many 
examples like that where we have been able to take a 
contaminated Superfund site, using the Brownfields model, and 
turn it into a productive reuse, commercial or economic or 
recreational or ecological, in that community.
    We want to now move forward in looking at how we can 
recycle, redevelop, reuse more of these Superfund sites. I 
think that is going to be the next major administrative focus 
for us at EPA, how we can marry up environmental cleanup and 
economic redevelopment at the same time.
    Senator Baucus. That is a good point, instead of just plain 
cleaning up the site and leaving it there, it is getting a win/
win out of it.
    Thank you, very much.
    Senator Chafee. Thank you, Senator Baucus.
    Now there is a vote on. I think it is best for us to recess 
here, and go over and vote. I will be back and we will get 
started as soon as I get back. So we will have a little break 
here.
    [Recess.]
    Senator Chafee. We are waiting for Senator Baucus. And 
until he gets here, I have a couple of questions I will ask 
you, Mr. Fields.
    Getting back to the underground storage tanks and the 
enforcement which, as you know, has been troubling to me, the 
6-month extension, now that, presumably, would take it from 
December 22 up to June 22. Am I right?
    Mr. Fields. That is correct.
    Senator Chafee. And, therefore, what your plans are--now, I 
understand Administrator Browner was in on this decision, if I 
understand the situation correctly.
    In other words, I think she has indicated that her concerns 
were more with the so-called mom and pops, and with the local 
communities, where they have the fire station and police 
station tanks. Am I correct in that? That was what seemed to 
motivate her.
    Mr. Fields. That is correct, Senator. Obviously, when we 
shared with her the 300,000-plus people that were in 
noncompliance, we pointed out that roughly 100,000 of those 
tanks were likely to be small businesses, mom and pops, and 
some local governments that provide fire, police, et cetera, 
services.
    So, yes, that was a strong consideration for the 
Administrator. She was concerned about the population that you 
just mentioned.
    Senator Chafee. But now what is going to happen, before you 
know it, June 22 will be with us, you know. That is 5 weeks 
away. What is going to happen then?
    Mr. Fields. Well, June 22, Senator, in response to your 
letter and your inquiry on your concern about this issue, we 
made clear to all the regulated community, that effective June 
23, that day we will obviously make all local governments, all 
small businesses, a high enforcement priority.
    Those that have not self-disclosed, paid a penalty, and 
entered into a compliance agreement with EPA, they become a 
high enforcement priority, also. And your letter to us prompted 
us to make clear that very clear policy in our communication to 
the regulated community. So they will become a high enforcement 
priority, as well.
    We feel that the 6 months is more than enough opportunity 
for those people who legitimately want to take steps to come 
into compliance to let us know about it, take action to do so. 
If they do not do it by June 22, they become a high enforcement 
priority, as well.
    Senator Chafee. OK. Senator Wyden, do you have a statement 
or some questions? The time is yours.

             OPENING STATEMENT OF HON. RON WYDEN, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I 
appreciate your thoughtfulness, and I will be brief.
    Let me just say to the nominee that the Office of Solid 
Waste and Emergency Response is going to play a key role in 
connection with what is my top priority on this committee, and 
that is deepening the Columbia River Channel.
    Chairman Chafee and Senator Baucus both have been 
enormously helpful to me. I think the Chairman knows this goes 
back to the days with Senator Hatfield. This is something that 
he felt very strongly about.
    And there is great concern that if EPA decides to list the 
Portland Harbor, which is, of course, a part of the project, as 
a Superfund site, that could throw a very large wrench into the 
works, possibly setting back the deepening project for several 
years.
    Now to prevent that from happening, I want to make it 
clear, I wish to work with you and your office to see if there 
is not a less bureaucratic alternative to a Superfund listing 
that ensures both that the harbor gets cleaned up, and allows 
the channel deepening project to move forward without a delay.
    For example, my State has submitted a fairly lengthy 
proposal to you all, asking for the opportunity to take the 
lead in cleaning up the site, without a formal Superfund 
listing.
    Another option would be to segment the deepening project. 
That way, deepening would proceed on the 103 miles of the 
Columbia Channel, where there is no contaminated sediment, and 
the entire project would not be held up because of the 
possibility of a five mile stretch of the Willamette that is 
not essential for the deepening project.
    In short, before we vote on your nomination, I would very 
much appreciate the chance to meet with you in my office to 
discuss in detail these options. They are of enormous 
importance to our region.
    As I say, Chairman Chafee and Senator Baucus have been 
extraordinarily helpful to this senator on this project. And as 
the Chairman knows, it does go back to the days of Senator 
Hatfield, when it was his top priority, as well, for our 
region.
    So if you would like to comment at this time, Mr. Fields, 
that would be welcome. But I would like the chance, before we 
vote on your nomination, to meet with you in my office to 
discuss these matters in some detail.
    Mr. Fields. Senator Wyden, I pledge to you that we will 
have that meeting expeditiously.
    And, apparently, I learned during the break that there was 
some confusion. I guess our staff did not know that your office 
had not received the communication that we wanted to meet with 
you actually prior to this hearing. And I apologize for that 
not occurring.
    But I assure you that I am aware of the situation around 
Portland Harbor. And I know that we are considering our various 
options; one of which is the State's option of State deferral 
of the site, and not putting it on the NPL; and, you know, 
looking at an option of the NPL, as well.
    We have gone various ways on that. And we have been able to 
be flexible. And we recognize the importance of redevelopment.
    As I shared earlier, before the break, a major focus of our 
agenda here now and in the future, in the next couple of years, 
is going to be how we can recycle and how we can redevelop more 
contaminated property.
    So whichever option allows us to help facilitate both 
cleanup and re-use and redevelopment, and creation of 
infrastructure in that area, we would be very supportive of.
    I will set up a meeting with you to discuss your concerns, 
your position on this, and make sure we carefully weigh all 
that before any final decision is made.
    Senator Wyden. I was raised to be very, very cautious about 
ever hearing an ``F'' word. But when you say ``flexibility'' 
you are talking about the word we want to hear in our part of 
the world on this.
    And we believe that there is a way to clean up the harbor, 
and go forward with this channel deepening project that both 
Chairman Chafee and Senator Baucus have been so helpful on. And 
so we will look forward to that meeting.
    And I thank you for the time, Mr. Chairman.
    Senator Chafee. Yes, it would be helpful to move right 
along with setting up that meeting. Because, as with all 
nominations, I like to bring them up and move along.
    And there will be some delay here, because I think there 
will be some written questions to the witness. And then he will 
have to have a chance to respond to them. But if you could set 
up that fairly soon.
    Senator Wyden. Absolutely.
    Senator Chafee. And let me know when you have completed it, 
if you would.
    Senator Wyden. Thank you. We will do it right away.
    Senator Chafee. OK. Senator Baucus?
    Senator Baucus. Yes, thank you, Mr. Chairman.
    Mr. Fields, you have testified that cleanups have been 
completed at 599 of the sites of the NPL. For what percentage 
of sites have remedies been selected?
    Mr. Fields. We have selected remedies at more than 90 
percent of the sites, the non-Federal sites on the National 
Priorities List. That is a substantial number of sites. We are 
estimating that by the end of next year, remedies at over 1,100 
sites will have been signed.
    So at a lot of the Superfund sites, remedies have been 
selected. And we have got construction completed at more than 
45 percent of the sites on the National Priorities List.
    Senator Baucus. So what work remains to be done; how much?
    Mr. Fields. Well, I would make five quick points on that 
point. There is a lot that we have done. We see a lot of 
progress has been made in this program.
    At the end of this current fiscal year, fiscal year 1999, 
we will have roughly 700 sites that we have to bring to 
construction completion. We will continue to still need to do 
about 200 to 300 removal actions a year, at Superfund sites and 
non-NPL sites around the country.
    We want to continue the pace of doing 85 construction 
completions a year, up through 2005. We will have to invest 
some resources in post-closure care; that is, 5 year reviews, 
operation and maintenance at sites, as well. And there will be 
some limited numbers of listings.
    But, bottom line, in 2005, 85 percent of the current NPL 
will have construction complete. So I think we do see some 
light at the end of the tunnel. Substantial progress has 
already been made.
    And we see, over the next 5 years, a substantial amount of 
work being done because of the reform agenda that we have 
implemented in Superfund.
    Senator Baucus. If this Congress does not pass the 
Superfund Bill, how much delay will that cause, or what will 
that prevent you from doing?
    Mr. Fields. Well, we, as an Administration, have suggested 
to Congress targeted legislative reform that we would support. 
And we think that there is bipartisan support by Democrats and 
Republicans for liability relief for prospective purchasers, 
innocent land owner liability relief, contiguous property 
owners, and small generators and transporters of municipal 
solid waste.
    We, however, do believe, with that limited, targeted 
legislative reform that we would hope Congress would agree to 
support, we do believe that there needs to be a reinstatement 
of the taxes. We need that to have a source of funding to get 
our job done.
    We believe that roughly $1.5 billion a year is going to be 
needed over the next 5 years to continue the job of completing 
85 constructions a year, doing 200 to 300 removals, et cetera.
    Senator Baucus. How much is left in the trust fund?
    Mr. Fields. At the end of this current fiscal year we are 
in right now, we will have about $1.4 billion left in the trust 
fund. At the end of fiscal year 2000, which is the next year 
beginning October 1st, we will have roughly $485 million 
remaining in the trust fund.
    Senator Baucus. Since the tax is not being collected now, 
what is that, partly interest, and what other sources of 
revenue?
    Mr. Fields. Well, the revenues are where we obtained cost 
recovery and some interest payments. But the bottom line is, 
that balance will run out in the middle of fiscal year 2001, at 
the current time, unless Congress provides either reinstatement 
of the taxes, or some alternative source of funding for the 
Superfund program.
    Senator Baucus. What is your reliance quotient on the 
balance being made up with general revenue?
    Mr. Fields. Well, we are concerned about a substantial 
contribution from general revenues footing the bill for 
Superfund toxic waste cleanup.
    Historically, as you know, Congress has given us about $250 
million a year in general revenues to fund this program. And 
the rest has been paid for out of taxes into the trust fund.
    We believe that is an appropriate balance, 85 percent 
coming from the trust fund, 15 percent from general revenues. 
We do not believe the American taxpayer ought to foot the bill 
for toxic waste cleanup. So we would be opposed to a system of 
all of Superfund cleanup being funded by general revenues.
    Senator Baucus. So, basically, general revenue has supplied 
about $250 million a year. Is that correct?
    Mr. Fields. That is correct.
    Senator Baucus. And if the tax is not reinstated, over the 
5-year period, what would the total general revenue 
contribution have to be?
    Mr. Fields. Well, on the average, I mean, as I said, we 
would run out of money. The trust fund balance expires midway 
into 2001.
    Senator Baucus. You are going to keep the same $1.5 
billion?
    Mr. Fields. We are talking $1.5 billion a year, roughly, 
over, let us say, a 4-year period. We are talking there about 
$6 billion in general revenues just, you know, over a 4-year 
period, plus some amount that would come out of general 
revenues and fiscal year 2001 which, roughly, is going to be 
another billion.
    So you are talking $7 billion; $7 billion would be needed 
to fund the program out of general revenues, if we did not 
reinstate taxes from 2001 through 2005.
    Senator Baucus. I have another question. I know my time has 
expired, Mr. Chairman.
    But some of the oil companies say why should they have to 
pay any more because, at least they say, that most of their 
sites have been cleaned up.
    Mr. Fields. Well, you know, that is a judgment we have got 
to make regarding how toxic waste cleanups ought to be done. We 
think that the fairest mechanism is to have some contribution 
through taxes into the fund.
    I have heard that same issue regarding the oil companies 
and chemical companies and others that are contributors to 
contamination at some of our most toxic sites around the 
country. We think they ought to be footing most of the bill, as 
opposed to the American taxpayer.
    Senator Baucus. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Senator Warner?
    Senator Warner. Thank you, Mr. Chairman, distinguished 
friend, the Ranking Member. And Mr. Fields, we welcome you.
    Mr. Fields. Thank you, sir.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. As privileged as you are to claim the great 
State of Virginia; it is my State. And when I look back over 
your record, first your educational background, and your 
experience, I say to myself, the President and the 
administrative EPA selected wisely.
    Mr. Fields. Thank you, Senator.
    Senator Warner. And we are fortunate that a man of your 
distinction is willing to devote himself to public service. My 
guess is that you could triple your income on the outside, if 
you wished to do that. We have got you now. We are going to 
keep you a while.
    [Laughter.]
    Senator Warner. This is a great committee. And from time to 
time, you will come before it to give us your valuable advice 
and guidance as to how best to solve the almost insolvable 
problem that you are willing to take on.
    I wish you luck, and that of your family.
    Mr. Fields. Thank you, Senator Warner.
    Senator Chafee. He has his family with him, Senator, his 
mother, father, son, and wife are all present. He has got a 
cheering section there.
    Senator Warner. Well, when he does not get home for supper 
on time, bear with us.
    [Laughter.]
    Mr. Fields. Senator Warner, I just want to say, I know you 
have been very busy with Kosovo and other matters involving 
foreign policy.
    It really deeply pleases me, and it is tremendously 
gratifying to have the support of my home State senator. And I 
thank you for taking the time to even come here, given your 
busy schedule. And I thank you for your support.
    Senator Warner. Well, thank you, and I wish you luck. And 
that is an awesome amount of paper that you have in front of 
you there.
    [Laughter.]
    Senator Warner. I find, just rely on your own experience 
and good judgment.
    Mr. Fields. Well, Senator Chafee has a lot of questions, 
and I had to have a lot of answers here today.
    [Laughter.]
    Senator Chafee. Well, what is more, Senator Warner, Mr. 
Fields was educated in a Virginia institution.
    Senator Warner. That is right.
    Senator Chafee. Virginia Polytechnic University, which I 
guess is called Virginia Tech. Is that correct?
    Senator Warner. Yes, Virginia Tech.
    Mr. Fields. That is correct, sir.
    Senator Chafee. Mr. Fields, I want to ask you about the 
Basel Convention. Now that is a convention that deals with the 
shipment of hazardous waste from nation to nation, across 
nation's boundaries. And they are going to meet in December, in 
Basel, Switzerland, this coming December, which is not so far 
away.
    And I am concerned that the United States will arrive there 
without having ratified the convention, because the 
Administration has not proposed to us any legislation to do 
that.
    And here is a situation where we need leadership from the 
Administration. And we have been waiting several years for the 
Administration's proposal on ratifying that convention.
    Now it is my understanding that EPA is working with the 
State Department and the Commerce Department on a draft bill. 
So my question to you is, when do you think we will receive 
that?
    And I just do not want a situation to develop that you send 
up some draft in September and October, and then somebody will 
blame Congress for failing to enact it by the time you meet in 
December. We have got to have the thing some time in advance to 
consider. These things just do not going flying through the day 
they are received.
    So my question to you is, what is going on, and maybe you 
do not know. Maybe you are going to have to reply in writing. 
But if you do know, I would be interested in what is taking 
place as far as sending up to us a document for us to ratify 
the Basel Convention.
    Mr. Fields. Yes, Senator, we are working with those 
departments. There is an inter-agency work group, as you 
indicated, made up of State Department, EPA, Commerce, 
Department of Justice, and various other agencies, on this. We 
are drafting legislation, and are going to be giving Congress a 
draft bill.
    We will work with your staff to set up a meeting next week 
to talk about what we may develop and provide to you that would 
meet your needs.
    Our initial schedule was to develop a draft legislative 
package and get it to you, and the House of Representatives, as 
well, by September. Your staff have communicated to me that 
that might be a problem in terms of your December deadline and 
the meeting coming up.
    So we will be meeting with your staff, Senator Chafee, to 
talk about what we need to provide to you and what timeframe, 
so it meets your needs to develop legislation that this 
committee needs to consider.
    So the current schedule would probably result in it getting 
to you too late, based on what you have indicated. We will work 
with your staff to see if we can provide what you need in a 
more timely way, in terms of legislative language.
    There are some issues that the inter-agency work group has 
resolved, and we are very clear on that. There are other issues 
which we are still having debate within the Administration, and 
we are not there, yet.
    But we will have a meeting with your staff next week to 
talk to you about where we are, to talk about those pieces that 
we are clear on, and those pieces that are going to take more 
time.
    And then we can work out a mutually agreeable schedule as 
to what we need to provide to your committee to meet your 
legislative agenda for the remainder of this year.
    Senator Chafee. Well, that will be very helpful. We have 
all discovered that everything takes longer than you think 
around here. And receiving this in September just would be 
unacceptable, and so the sooner the better. And we look forward 
to your meeting with our folks in connection with that.
    Now in your testimony, you said you plan to reinvent the 
retro-corrective action program, administratively. You have 
touched on this a little bit, but what are some of the 
specifics that you have?
    Mr. Fields. We want to adopt the Superfund model of how we 
might reinvent RCRA. We want to, rather than finalizing 
regulations for corrective action, for example, under Superpart 
S of RCRA, we want to issue policy and guidance on how we can 
more effectively implement RCRA corrective action in a 
streamlined way, taking advantage of those best approaches that 
States and others have adopted over the years.
    We will be establishing, just like we did for Superfund, 
numeric annual goals that regions and States have to achieve in 
the way of RCRA corrective action cleanups to meet our 2005 
goals.
    We will be putting on training workshops for our States on 
the most innovative way in which RCRA corrective action can be 
done.
    We will be looking at a resource initiative for the future 
in terms of what resources we are going to need to meet our 
commitments for the out-years for RCRA corrective action.
    Right now, the current budget has $47.5 million for RCRA 
corrective actions. We want to look at a potential budget 
initiative for future years to be able to meet our goals for 
the next 7 years.
    We have got specific annual goals that we will be providing 
to our regions and States, up through 2005. And we will be 
putting together an administrative reform agenda that allows us 
to achieve those goals annually, as well as the ultimate end 
point in 2005.
    Senator Chafee. Mr. Fields, there are two obligatory 
questions I will ask you. One is, will you, at the request of 
committees from Congress, appear before the committee that 
requests you to appear?
    Mr. Fields. Yes, sir.
    Senator Chafee. And, second, do you know any reason, that 
has not been disclosed to us, why you would not be suitable for 
this position?
    Mr. Fields. I know of no such reason, Mr. Chairman.
    Senator Chafee. Fine. All right, I do not think we have any 
further questions. There may be some questions come up in 
writing to you. If you could get those answered in writing 
rapidly, and get back to the committee, that would be very 
helpful to us.
    Thank you very much, Mr. Fields. We thank your family for 
their attendance. That completes the hearing. Thank you.
    Mr. Fields. Thank you, Mr. Chairman.
    [Whereupon, at 10:20 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
      Statement of Timothy Fields, Jr., Nominated to be Assistant 
  Administrator for the Office of Solid Waste and Emergency Response, 
                    Environmental Protection Agency
    Mr. Chairman, Senator Baucus, and Distinguished Members of the 
Committee, as a career public servant for almost 28 years, I am honored 
to be here today to testify before this Committee. My family and I are 
grateful and honored that President Clinton has nominated me for the 
position of Assistant Administrator for Solid Waste and Emergency 
Response at the U. S. Environmental Protection Agency (EPA). I look 
forward with great enthusiasm to the opportunity for new challenges as 
an EPA Assistant Administrator in the direction of our waste management 
and environmental cleanup programs.
    I am especially proud to have my family with me here today--my 
wife, my son and my parents. I thank my colleagues and many friends for 
their presence and support!
A search for common ground
    Mr. Chairman, Senator Baucus, and Members of the Committee. I began 
my career with the U. S. Environmental Protection Agency in 1971. A lot 
has changed at the EPA since that time. What has not changed is my 
dedication to public service and my strong commitment to EPA's mission 
to protect public health and the environment. I know that public 
service is a special calling for me.
    In some ways, I believe that finding solutions to today's 
environmental problems is more difficult than in years past. When I 
began my career, EPA's job was to write dozens of regulations to 
implement the new environmental laws passed by Congress. Now, with its 
important regulatory programs in place, EPA is more focused on 
approaches that not only protect the public and our environment, but 
also do it more efficiently, with less red tape, less process and in 
``plain English.'' We must weigh the needs and concerns of all 
stakeholders and search for consensus.
    One thing that I have learned in my years at EPA is that we in the 
Federal Government do not have all of the answers. I am committed to 
looking beyond Washington, D. C., for solutions that are good for 
public health and the environment, good for business and good for our 
State, local and tribal partners. I am convinced that if we work 
together, we can find solutions that will work for everyone.
Superfund--getting results
    As Principal Deputy Assistant Administrator for 3 years, and as 
Acting Assistant Administrator during the past 2 years, I have had the 
opportunity to put some of these new solutions to work. A major 
priority for me is continued Superfund reform. Cleaning up Superfund 
sites continues to be of utmost importance to the Agency. I am pleased 
to tell you that, because of your high priority focus on Superfund and 
the Clinton Administration's Superfund administrative reforms, we are 
implementing Superfund far differently today than 6 years ago. 
Significant program improvements have occurred. We have completed 
cleanup construction at 599 sites. We have settled with more than 
18,000 small parties, offered $145 million in orphan share funding, 
accelerated cleanup by 20 percent and significantly reduced the cost of 
clean up, saving over $1 billion in future costs through remedy updates 
at more than 200 sites over the past 3 years. We are now achieving 85 
construction completions per year. At this pace, we will have completed 
cleanup construction at 85 percent (1,180 sites) of existing National 
Priorities List (NPL) sites by 2005.
    I will continue to work on administrative reforms to strengthen the 
Superfund program, and with Congress on legislative reforms that will 
address the specific statutory changes that would improve the program. 
We must continue to aggressively implement our reforms so that cleanups 
continue to be faster, fairer and more efficient than ever before. We 
must refine and update our reforms so they continue to work well. We 
need to also recognize that many of these Superfund sites, with a 
little work, creativity and commitment can become valuable assets to 
the community. We have already seen many old Superfund sites 
transformed into parks, retail businesses, and golf courses. I would 
like to work with our State and local partners and give them the tools 
they need, in conjunction with the private sector and affected 
communities, to turn even more Superfund sites into productive 
properties.
    Our goal should be to build on our Superfund successes and cleanup 
the remaining Superfund sites and any newly discovered sites as quickly 
as we can. Targeted legislative changes to clarify the liability of 
prospective purchasers, innocent landowners, contiguous property owners 
and small generators and transporters of municipal waste would be 
helpful. That coupled with reinstatement of the Superfund taxes will 
give us what we need to finish our job.
Brownfields--a shining success
    One of the most successful examples of what we can do when we work 
together is brownfields. In the brownfields program, we did not 
promulgate any new regulations. We did not tell State or local 
governments, businesses, or communities what to do. They told us what 
they needed. And we tried to help. The approach is working. In the 
short 4-year history of our brownfields program, we have developed 
partnerships with 250 communities across America through grants to 
State and local governments. Through this effort, over $ 1 billion 
worth of investments has found its way into local economies, creating 
more than 2,500 jobs and improving the quality of life in hundreds of 
neighborhoods across the nation. I will continue to build on this 
success. In fact, this year EPA will provide support to more than 70 
additional communities, up to $200,000 each, to assess their brownfield 
sites, and 63 additional communities, up to $500,000 each, to help 
establish their own revolving loan funds for cleaning up their 
brownfield sites. What began as a modest EPA initiative has been 
expanded by the support of other Federal, State and local government, 
and private partners to become a strong mechanism for assessing, 
cleaning up, and redeveloping brownfield properties.
Reinventing Hazardous Waste Programs
    I hope to use the success of the brownfields program as a model for 
other programs within the Of lice of Solid Waste and Emergency 
Response. One of my top priorities is to reinvent the Resource 
Conservation and Recovery Act (RCRA) corrective action program 
administratively, much as we did in Superfund, and I welcome the 
opportunity to work with you and others in achieving this goal. The 
RCRA corrective action program is the remediation program for 
facilities that treat, store, or dispose of RCRA corrective action 
hazardous wastes and have potential environmental contamination.
    In RCRA corrective action, we have a huge task ahead of us. We have 
about 1700 high priority RCRA corrective action sites that need to be 
addressed. Our Government Results and Performance Act goal directs us 
to control human exposure at 95 percent of these sites by 2005. This 
means that EPA and the States, collectively, will have to address an 
average of 185 sites per year for the next 7 years.
    This is a tall order, but I am ready to provide the leadership to 
meet this challenge. States are largely responsible for providing 
oversight in cleaning up these sites, and one of my first initiatives 
will be to redouble our efforts to work even more closely with States. 
I will personally look for every opportunity to talk to State 
officials, to listen to their concerns and wherever possible, to 
support their ideas for improving the program. I will continue to look 
for administrative ways to cut red tape and unnecessary requirements. 
We must focus our regulations and guidance on results and not process. 
The recently promulgated Hazardous Waste Identification Rule (Media) 
and the Post Closure Rule are both good examples of how we can achieve 
this goal. I am also committed to helping States take full advantage of 
the flexibility already available in RCRA. For that to happen, State 
and regional officials must first know where they have discretion. And 
we have taken some initial but important steps to get the word out. We 
have developed a comprehensive training program for regional and State 
officials that defines the flexibility in our rules and guidance, and 
have established national, regional, and State goals for cleanup.
    Finally, we are also in active negotiations to attempt to settle 
litigation on one of the Agency's critical regulatory reforms, the 
Corrective Action Management Rule. I am hopeful that these negotiations 
will result in a rule that remains a flexible and valuable tool for 
protective, efficient cleanups. Through all of these efforts, I believe 
we can reinvent our RCRA cleanup program, and I look forward to working 
with you on these actions.
Underground Tanks--working toward compliance
    Another top priority is compliance with underground storage tank 
regulatory requirements. As you know, after a 10-year phase in period, 
on December 22, 1998, the statutory deadline passed for upgrading 
underground tanks to prevent drinking water, groundwater and soil 
contamination. While 1.2 million tanks have been taken out of operation 
and another 635,000 tanks have been upgraded or replaced over the past 
10 years, many tank owners are not yet in compliance. However, our 
latest estimates are that 77 percent of the nation's tanks are in 
compliance. We want to work with the States to ensure that the 
remaining tanks are brought into compliance.
Risk Management Plans
    I will continue to work with this Committee and others on effective 
implementation of the Risk Management plan (RMP) regulations. 
Consistent with a recent judicial stay of the RMP regulations by the U. 
S. Court of Appeals as applicable to propane facilities, EPA intends to 
issue an interim administrative stay of the June 21 , 1999, RMP rule 
effective date as it applies to flammable hydrocarbon fuels, including 
propane, butane, ethane, propylene, and ethane (natural gas), stored in 
quantities greater than 18,000 gallons. EPA believes that facilities 
that store fuels in excess of this threshold present a risk to American 
communities, and should be required to submit an RMP.
    Regarding Off-site Consequence Analysis (OCA) data, EPA has 
announced that it will not post OCA information on the Internet in 
light of the FBI concerns that such information could represent a 
national security risk. EPA does not intend to release OCA data until a 
responsible approach to address the national security concerns has been 
developed and is in place. EPA is working with DOJ, FBI, and other 
Federal agencies to develop a responsible approach to making OCA 
information available to the public that addresses the security 
concerns. The interagency group is considering both legislative and 
non-legislative options and expects to complete its work very soon.
Conclusion
    Of course, OSWER is responsible for many other important 
activities. Our Federal facilities cleanup oversight, and emergency 
preparedness, prevention, and response functions are critical. And our 
work on counter-terrorism, innovative technologies, recycling, waste 
minimization and pollution prevention will continue to be important to 
me and the Agency.
    Finally, I would like to thank the employees of the Of lice of 
Solid Waste and Emergency Response and EPA's Regional Offices and 
Laboratories who work hard to implement the Superfund, Brownfields, 
RCRA, Underground Storage Tank, Chemical Emergency Preparedness and 
Prevention, Federal Facilities, Technology and Oil Pollution Programs 
on a daily basis. These are the talented and dedicated Federal 
employees who are critical to the success of these programs. I pledge 
my support to them as we work together to provide safe and healthy 
environments for ourselves, our children and grandchildren, and future 
generations.
    In closing, let me thank you again for your time and the 
opportunity to appear before you. I look forward to working with this 
Committee and I will be happy to answer your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Responses by Timothy Fields to Additional Questions from Senator Chafee

    Question 1. Your written testimony states that one of your ``top 
priorities is to reinvent the Resource Conservation and Recovery Act 
(RCRA) corrective action program administratively.''

    Question A. What are the specific areas or problems that you 
believe need to be addressed in this reinvention effort?
    Response. The RCRA Cleanup Reforms are the Agency's primary focus 
in identifying and reducing impediments in the corrective action 
program. At times, RCRA cleanups have suffered from an emphasis on 
process and a lack of clarity in cleanup objectives. More specifically, 
the impediments or disincentives to timely and cost-effective RCRA 
cleanups include:

  <bullet>  Multiple reporting and review requirement of the corrective 
    action process.
  <bullet>  Disagreements over cleanup objectives between EPA, State 
    agencies, and companies.
  <bullet>  Lack of incentive for companies to perform cleanups apart 
    from economic advantages, such as selling or redeveloping the 
    property.
  <bullet>  The application of certain RCRA requirements, such as land 
    disposal restrictions (LDRs), minimum technological requirements 
    (MTRs), and permitting, when applied to the cleanup of remediation 
    waste.

    Question B. What specific changes do you plan to make to the 
corrective action program? In particular, what elements of the proposed 
Subpart S regulation do you expect to implement?
    Response. In the near-term, EPA plans to focus on the following 
administrative reforms to the corrective action program. Most of these 
components derive from the Subpart S effort.
  <bullet>  Development of performance-based guidance during 1999 that 
    clarifies general short-term cleanup objectives and includes 
    recommendations on how to gauge when they have been achieved.
  <bullet>  Implementation of additional guidance and an extensive 
    training effort in 1999 and 2000 that emphasize environmental 
    results instead of the process, and that highlight existing 
    flexibility in the corrective action program which can be used to 
    accelerate cleanups.
  <bullet>  Fostering maximum use of program flexibility by actively 
    encouraging States to adopt the regulatory flexibility in the 
    recent VIR-media and Post-Closure rules, and by encouraging the use 
    of a broad range of appropriate authorities and approaches for 
    expediting corrective action.
  <bullet>  Enhancing community involvement in RCRA cleanups, including 
    providing detailed information on cleanup progress for individual 
    facilities on the Corrective Action website.

    Question C. Do you plan to issue regulations to effect your changes 
to the corrective action program, or will you rely on guidance 
documents? If you intend to rely on policy memoranda and guidance 
documents, how do you plan to ensure compliance with the Congressional 
Review Act?
    Response. EPA does not plan to make extensive regulatory changes. 
If there is a subsequent need for some targeted regulations, the Agency 
will pursue them on an as-needed basis. We have concluded that 
promulgating a comprehensive set of RCRA regulations at this time could 
unnecessarily disrupt the 33 States authorized for the RCRA Corrective 
Action Program, as well as those State programs that currently are 
undergoing review for authorization. Through the RCRA Cleanup Reforms 
described above in the response to Question 1B, we hope to develop a 
new atmosphere of partnership and cooperation among regulatory 
authorities, industry, and stakeholders.
    EPA plans to announce its intention not to take final action on 
most of the proposed Subpart S rule [July 27, 1990 (55 FR 30798)] for 
corrective action -for solid waste management units (SWMUs) at 
hazardous waste management facilities in the near future. EPA is taking 
that action because, among other reasons, the Agency has determined 
that such regulations are not necessary to carry out the Agency's 
duties under sections 3004(u) and (v).
    EPA plans to rely on guidance and outreach to effect changes in the 
corrective action program. If EPA does determine that regulations are 
necessary, any final regulations will be submitted to both Houses of 
Congress and GAO as required by the Congressional Review Act (CRA). 
Since the enactment of the Small Business Regulatory Enforcement 
Fairness Act of 1996 that included the CRA, (SBREFA), Pub. L. 104-121, 
EPA consistently has interpreted the CRA as applying only to Agency 
actions that contain binding legal requirements, regardless of what 
those documents are titled or whether those documents are subject to 
statutory notice-and-comment rulemaking requirements. Thus, EPA has 
submitted to both Houses of Congress and to GAO under the CRA not only 
final regulations promulgated by the Agency, but also documents labeled 
``guidelines'' that contain binding legal requirements, unless the 
document is expressly exempted from CRA coverage pursuant to 5 U.S.C 
Sec. 804(3).
    In general, however, EPA does not intend its policy statements and 
guidance documents to be binding and they have no birding legal effect 
on the public. We prepare and issue these documents to provide 
information regarding an EPA regulation or enforcement position that 
may be useful to EPA employees and/or the public. The RCRA Corrective 
Action guidance that EPA already has issued is not legally binding. 
Moreover, at the present time, EPA does not plan to issue legally 
binding guidance with respect to the RCRA corrective action program.
    Nonetheless, EPA intends to send to the Congress and GAO courtesy 
copies of all non-binding RCRA corrective action guidance documents as 
they are issued.

    Question D. Are there specific problems or concerns relating to the 
corrective action program that you believe require legislation to 
address? If so, what are those problems or concerns and are you 
prepared to commit the staff and resources to work with this committee 
to address those problems and concerns?
    Response. In 1993, EPA issued the Corrective Action Management Unit 
(CAMU) regulations to address RCRA remediation waste issues. EPA 
currently is exploring possible settlement of the litigation 
challenging these regulations. In the past, uncertainty over the 
litigation challenging the CAMU rule has led to discussion of 
legislation. Currently, EPA is waiting for the outcome of the 
settlement process before assessing the need for any legislative fixes 
to address RCRA remediation waste issues. Any dialog about whether 
there is a need for new legislation should consider this settlement 
process, RCRA regulations promulgated last year, and the RCRA Cleanup 
Reforms. Obviously, I will work with the committee to address 
remediation waste problems and concerns.

    Question 2. In your testimony, you made a commitment to improve 
communications with this committee and, in particular, to consult with 
the committee before the Office of Solid Waste and Emergency Response 
announces or implements significant changes in policy. How do you plan 
to implement that commitment? For example, how will this new commitment 
affect your office's actions with respect to any policy decision made 
on the Subpart S regulations or the proposed modification to the CAMU 
rule?
    Response. OSWER has frequent communications with the Senate 
Environment and Public Works Committee, and intends to continue these 
communications, particularly with respect to important changes in 
policy, such as those pertaining to implementation of the RCRA Cleanup 
Reforms (an outgrowth of the Subpart S Regulations) or any further 
changes to the CAMU regulations. For instance, OSWER continues to brief 
the committee on the progress of the CAMU and Subpart S regulations. 
With regard to the Subpart S regulation, EPA expects to issue by early 
Sumner a notice announcing its intention not to take action on most 
provisions of the 1990 Subpart S proposal. EPA offers to brief the 
committee on this decision and its alternative plan for guidance. I 
have also asked my staff to brief committee staff on our plans for a 
Superband Recycling Initiative. Finally, I will have my two deputies 
meet with committee staff on a periodic basis to discuss OSWER 
activities.

    Question 3. In February, 1999, Administrator Browner testified 
before the committee regarding EPA's fiscal year 2000 budget. The 
committee recently receded answer'' to a number of followup questions. 
The following questions seek additional information regarding OSWER 
budget priorities and plans that were lacking in the initial responses 
we received.
    There is evidence that the Superfund National Priority List program 
is starting to ``wind down.'' For example, the General Accounting 
Office reported in November that there were 232 sites nationwide that 
either EPA, the States or both believed would eventually be listed on 
the National Priority List.

    Question A. You sense as the national program manager for 
Superfund. Do you agree that the scope of future additions to the 
Superfund NPL is likely to be closer to the 232 new additional site 
level projected in the November GAO report, a report that EPA concurred 
in, or will it be much larger or smaller than that? Please respond in 
detail.
    Response. For clarification, the GAO report referenced in your 
questions did not contain any projections of the number of sites to be 
added to the NPL in the future. It would be accurate to say that the 
report identified 232 sites that State and Federal responders believed 
might be placed on the NPL. Moreover, the Agency continues to discover 
new sites every year. In fact, of the 26 sites newly proposed to the 
NPL this year, only 7 were identified as likely NPL candidates in the 
GAO report; 3 were even identified in the GAO category of ``unlikely to 
be placed on the NPL'' in the GAO study. Fifteen of the 26 were either 
among sites needing further investigation or were newly discovered.
    Several factors are likely to affect the number of sites listed on 
the NPL in the future. Perhaps the biggest single variable is the 
percentage of sites States clean up. Likewise, private party cleanups 
can reduce the number of NPL listings. The willingness of States to 
support NPL listings is another key variable that also will affect how 
many sites are listed. Over the past 6 years, we have listed an average 
of 26 sites each year on the NPL. Last year, we proposed 34, and in 
fiscal year 1999 we may list up to 40 sites on the NPL. Therefore, I 
believe the GAO report reflects a reasonable estimate of the number of 
fixture NPL candidates over the next 5 years.

    Question B. The written response from Ms. Browner's hearing stated 
that ``significant work'' remains at existing sites and that you do not 
know how many more sites will be added to the NEIL beyond the 40 new 
sites expected this year. However, both the Congress and EPA must make 
some assumptions about the future size of the program, such as funding 
levels, staffing levels, and anticipated remedial contractor 
requirements. Does your office have any strategies, studies, estimates, 
or plans that address the future of the program beyond fiscal year 
2000? Please provide the committee with copies of all relevant 
documents.
    Response. EPA expects to achieve 1,180 construction completions 
through 2005, assuming an annual appropriation of $1.5 billion, and 85 
construction completions each year. This projection is based on a 
combination historical performance, planning estimates contained in 
EPA's information systems, budget assumptions, and strong focus on an 
increased pace to achieve cleanups at NPL sites. The methods to 
implement the Agency's goals are presented in the President's annual 
submission of the proposed Superband budget to Congress. This budget 
includes contractor and staff resources for cleanup/response 
enforcement, management and support, and research, as well as resources 
for other Federal agencies that carry out Superfund-related functions.
    As stated in the Administrator's earlier response, we do not know 
how many sites we will list on the NPL each year. In order to maximize 
cleanups and environmental benefits, we depend on a number of 
approaches in addition to the NPL. We are committed to working tenth 
our state partners to determine what sites are most appropriate for the 
NPL. We will list sites on the NPL only after considering several 
factors, such as whether a site presents a serious threat to human 
health and the environment, whether a state requests EPA to list a 
site, or whether a state is unable or unwilling to conduct the cleanup. 
EPA's commitment to states also Includes maintaining a strong site 
assessment program, not merely as a tool to list NPL sites, but as a 
way to encourage potentially responsible parties to work closely with 
States to achieve cleanups in lieu of NPL listing. As indicated in the 
response to the last question, the average number of listings has been 
26 per year. However, there may be up to 40 this year. Therefore, a 
range of 26 to 40 sites per year is a reasonable assumption and 
generally consistent win the universe in the GAO report. EPA also 
foresees having a substantial role in post-construction related 
activities at NPL sites to ensure that implemented remedies remain 
protective in the future. As more sites complete construction, the use 
of resources will increasingly shift toward compliance and 
environmental monitoring and response work at facilities where waste 
remains place. Four documents related to the future of the program are 
attached: 1) elements of the Agency's Strategic Plan, 2) a table from 
the President's Budget Appendix, 3) Superfund elements of a multi-year 
briefing for the Deputy Administrator, and 4) the Superband Contracts 
2000 Decision memorandum.

    Question C. EPA's response to my February questions state that EPA 
expects to continue the current pace of cleaning up 85 sites per year 
through 2004. Over the past 6 years, however, you have only added 26 
new sites per year to the list. Is your 85 facility per year figure 
based on a facility-by-facility analysis of where each site stands in 
the cleanup process and/or is it based on historical averages and 
assumed funding levels? Please provide the committee with copies of all 
relevant documents, such as the names of the specific facilities and 
their projected construction completion dates, assumptions regarding 
funding or additions to the National Priority List, and any supporting 
data upon which such projections are made.
    Response. EPA's projection of completing construction at 85 sites 
per year is based on a combination of historical performance, planning 
estimates contained in EPA's information systems, budget assumptions, 
and strong focus on an increased pace to achieve cleanups at NPL sites. 
As sites move through the Superfund pipeline, an increasing number of 
sites have construction underway. Assuming stable finding for the next 
six fiscal years, the program believes that, on the basis of sites 
currently under construction or with plans for construction, an average 
of 85 sites per year will reach the construction completion milestone. 
Attached ore two lists of sites where construction completion may be 
met by 2005. The first is the list of sites we are tracking as 
candidates for construction completion in fiscal year 1999. The second 
list provides the candidate pool for additional construction 
completions in fiscal year 2000 through BY 2005, based on planning 
data. It is important to note that these data are projections (i.e., 
assuming optimal construction schedules, the availability of All 
Finding, completion of critical tasks), and estimates become less 
reliable when forecasted beyond 2 years. Also attached is the 
Superfund/Oil Program Implementation Manual which outlines the planning 
and implementation procedures for the Superband program.

    Question 4. Several followup questions from the February hearing 
addressed funding levels for RCRA corrective action. I asked how many 
more sites might have their human health or groundwater releases 
controlled if EPA devoted an additional $15 or $30 million to the 
corrective action program. EPA did not answer the question and merely 
said the levels in the ``President's Budget are adequate.'' That 
response is not satisfactory.
    In answering the following two questions, please assume an equal 
number of groundwater and human health releases are addressed. Also 
please account for any costs associated with the operation of the 
program in the 33 states with delegated authority. Please consult with 
committee staff if further clarification is needed in formulating a 
response.

    Question A. Please provide the committee with a detailed estimate 
of how many additional sites could have their human health threats or 
groundwater releases controlled if Congress provided additional funding 
of $10, $20, or $30 million dollars for this purpose?
    Response. We believe Finding included in the President's fiscal 
year 2000 budget is adequate to keep the program on track to meet our 
2005 GPRA Environmental Indicator goals. However, the Agency is 
currently conducting an internal mid-year review to deterrmme 
accomplishments to date. Part of that review will focus on whether 
accomplishments to date and projected commitments will ensure that we 
achieve our 2005 targets. If it is determined that the 2005 targets are 
not achievable, the Agency plans to use the fiscal year 2001 budget 
process arid the strategic plan revision process to make appropriate 
revisions. This approach directly reBects the revision process outlined 
u1 GPRA and OMB guidance and other materials.
    In response to your specific questions, we have provided below our 
estunates of additional progress that could be achieved in the event 
that an additional $10 million, $20 million, or $30 million dollars 
were available in the fiscal year 2000 budget. These estimates are very 
rough given the time constraints and they include EPA and State 
resources. It should be noted that, unlike Superfund, neither EPA nor 
the States can directly implement cleanups at Corrective Action 
facilities; therefore, the pace of a cleanup is not as directly under 
the regulator's control. We also are assuming that the funding level 
increase will remain stable for at least 5 years so that progress made 
1 year on moving a site toward meeting envirorunental indicators (EIs) 
will not be lost by budget cuts and the inability to maintain staff who 
are working on the facilities.
    The Agency is currently on an aggressive schedule to address human 
exposures at 95 percent of the high priority facilities by 2005. 
Therefore, we would apply any additional resources to addressing 
groundwater controls at these facilities. It must be recognized that as 
we approach the last of the high priority facilities, the groundwater 
controls will become increasingly difficult to attain since these will 
be the largest facilities with the most complex and challenging 
groundwater contamination. Therefore these last sites will require 
proportionally more resources and will require significantly more time 
to stabilize. Here are our estunates for achieving additional 
environmental indicators for groundwater releases controlled by the 
year 2005 given these caveats and assumptions:


------------------------------------------------------------------------
                                      Estimate of Additional Facilities
 Additional Funding for Achieving      Achieving Ground Water Releases
     Environmental Indicators                Controlled by 2005
------------------------------------------------------------------------
$10 million.......................  150
$20 million.......................  200
$30 million.......................  230
------------------------------------------------------------------------


    Question B. Please provide the committee with a detailed estimate 
of how many additional sites could have their human health threats or 
groundwater releases cleaned up if Congress prodded addffional funding 
of $10, $20, or $30 million dollars for this purpose?
    Response. The ultimate goal of the RCRA corrective action program 
is to achieve final cleanup at all RCRA facilities. However, our near-
term objective has been to stabilize the worst sites in order to 
prevent human exposures and to stem the migrat.on of groundwater 
contamination. Consequently, we have not directly analyzed ache 
resources required to bring RCRA facilities to final cleanup, and 
therefore any estunate of outputs is highly speculative. We believe the 
most usefull way, at this time, to estimate the final cleanup costs is 
to look at the experience of the Superfund program. Specifically, we 
believe the EPA oversight costs associated with a Potentially 
Responsible Party (PRP) cleanup may be an appropriate representation of 
the costs and timing that will be incurred for a RCp.A corrective 
actionsite. In the Superfund program, it takes an average of 8 years 
from the time a site is listed on the NPL to reach the point where 
construction is completed for the final remedy. We evaluated the 
pricing model for Superfund sites, and made some adjustments to reflect 
differences between the two programs to more accurately project 
possible RCRA outputs. The following table presents the estimated 
number of additional cleanups by 2008 that might result Dom the 
additional finds levels presented in your question. (Of course, between 
now and 2008 we expect to bring a number of facilities to construction 
of final remedies under current funding levels; however, we do not have 
projections of this number.) The following estimates assume stable 
funding through the 8-year period necessary to complete the cleanup 
work at these sites.


------------------------------------------------------------------------
                                       National Estimate of Additional
   Additional Funding for Final         Facilities With Construction
         Remedy Selection                    Completion by 2005
------------------------------------------------------------------------
$10 million.......................  90
$20 million.......................  180
$30 million.......................  270
------------------------------------------------------------------------

                                 ______
                                 
 Responses by Timothy Fields, Jr. to Additional Questions from Senator 
                                 Inhofe
Regarding the HWC MACT Standards

    Question 1(a). In the latest letter Senator Wyden and I sent you on 
the hazardous waste combustion MACI Standard, we asked if you had data 
on cement kilns and feed rates. Your response again refers us to data 
from a single experimental incinerator. Does the Agency have any data 
on cement kilns and feed rates, not incinerators, and was this data 
used in the rulemaking process?
    Response. The data we provided (cement kiln emissions and feedrate 
data for the semi-volatile metals (SVM), i.e., lead and cadmium) were 
used in the rulemaking process to confirm our engineering judgment that 
there is a positive relationship between metals feedrate and metals 
emissions. Our judgment is based, in part, on the fact that metals we 
not destroyed by combustion in a cement kiln and that they do not 
partition solely to the cement or cement kiln dust based on studies we 
reported to Congress in 1994. Therefore, we concluded that metal 
emissions must increase as metal feedrates increase. I have attached 
the ``Draft Technical Support Document for HWC MACT Standards CODA): 
Volume III: Evaluation of Metal Emissions Data base to Investigate 
Extrapolation and Interpolation Issues, April 1991.'' In this document, 
Figures 15-20, 22a, 22b, and 27 all contain SVM metals emissions and 
feedrate relationship data.
    We highlighted the information on this one specific incinerator in 
our response because this is the only data we have from a facility 
specifically attempting to document the relationship between metals 
feedrate and emissions. This positive relationship also holds Rue for 
data we have Tom some cement kilns (see relationship in Figure 15 and 
general increase in emissions with feedrate in Figures 17, 22a, and 22b 
for cement kilns).

    Question 1(b). If you do not have separate data on cement kilns, 
then please explain how the incinerator data was used for the cement 
kiln standards considering the Agency felt the differences between the 
Do categories was great enough to warrant separating cement kilns and 
incinerators into two separate categories.
    Response. The incinerator data can be used to determine the 
positive relationship between emissions and feedrate for all types of 
combustors because the relationship between metals emissions and 
feedrate is the same for all types of combustion systems. To detennme 
the relationship between metals feedrate aIld emission rate, we 
evaluated the theoretical potential for emissions and the empirical 
data in the HWC data base. We concluded that there must be some pe of 
direct, positive relationship between metals feedrate and emissions. 
Metals cannot be destroyed in the combustion process, and assuming the 
system must reach some type of equilibrium, metals cannot accumulate in 
the system without reaching a saturation limit. Additionally, the 
theory predicts that the relationship will be proportional -over a 
large range of feedrates (an increase in feedrate produces a consistent 
incremental increase in emissions). A flat or negative relationship 
(that emissions decrease as feed increases) is not physically possible. 
Although there are some additional data that would support this, we 
could not be sure that the additional data had been obtained under 
sufficiently controlled conditions that are required for the purpose of 
demonstrating the relationship. Therefore, we concluded that the 
available data for an individual combustor confirms a positive 
relationship between SVM feedrate and emissions.
    In 1992, the Agency established separate source categories for 
Portland cement manufacturing arid hazardous waste incineration as 
major emitters of hazardous air pollutants. These sources have 
fundamental differences in design and operation that can affect the 
types and concentrations of some hazardous air pollutants and control 
measures. For example, Portland cement ldlos have much higher 
ernission?s of organic HAPs that are attributable to desorphon from raw 
material than h?dous waste incinerators. Further, although controlling 
the feedrate of metals and chlorine is a practicable control measure 
for hazardous waste incinerators, existing Portland cement kilns cannot 
practicably control the feedrate of metals and chlorine in raw 
matenals. (Hazardous waste fuel metal content is controllable.)

    Question 2. In our latest letter, eve also asked you for materials 
on the technical objections the Air of lice might have raised to your 
approach. You refused to produce the material claiming it is 
``deliberative''. Because this MACT standard is different from all 
previous MACT standards which have been issued by the Office of Air and 
Radiation, it is important for the committee to understand the 
rationale used to develop this standard, in particular the rationale 
differences between this standard and the other MACT standards. Unless 
the Administration is claiming ``executive pnviIege'' please provide 
the committee with any documents involving disagreements or 
``nonconcurrences'' between EPA's Office of Air and Radiation and EPA's 
Office of Solid Waste and Emergency Response pertaining to the SVM 
standard for cement kilns.
    Response. The requested documents are attached. These documents 
represent predecisional discussions, often at the staff level, and 
contain the normal give and take of technical and scientific debate. 
Ultimately, all of the staff reached a consensus regarding the approach 
contained in our current draft of the final rule, and the Office of Air 
and Radiation concurred on the rule.
    We believe it would be extremely harmful to the Agency if these 
materials were released to the public by the committee. It would chill 
filture legitimate scientific and policy debate within the Agency, 
could suggest that final decisions have been made when the decision 
process is not complete, and dramatically and unnecessarily increase 
our workload (by generating questions from the public regarding the 
content of these documents that will be answered in our flak rule and 
docket). It would be particularly unfortunate to create this 
distraction for the Agency at a time when we must focus on completing a 
mle that already has taken well beyond the date that we promised in 
order to settle litigation on this subject.

    Question 3. Please explain why the Office of Solid Waste and 
Emergency Response has had the lead responsibility for the lIWCMACI 
standard instead of the Office of Air and Radiation. ID particular 
please explain why your Office had the lead for this standard and not 
the MACT standards for municipal solid waste or the medical 
incinerators.
    Response. OSWER has had the responsibility under RCRA for emissions 
from incineration of hazardous waste for over 20 years and has thereby 
developed specialized scientific and technical expertise. Under Section 
3004 (a) and (q) ofthe 1984 amendments to RCRA, the EPA was assigned 
the direct responsibility to establish air emission standards for 
hazardous waste incinerators and kilns burning hazardous waste as fuel. 
General authority to address emissions from hazardous waste 
incinerators has existed in RCRA since 1976. OSWER, as the EPA office 
charged with implementing these requirements, issued its first 
regulation for incinerators in 1981. Therefore, given OSWER's 
historical role in writing air emission standards for these types of 
facilities it was logical that OSWER would take the lead responsibility 
for the HWC MACT standards. The Office of Air and Radiation (OAR) 
agreed to support OSWER in the development of the CAA MACT standards in 
two ways--generally applicable engineering principles applicable to 
combustion and ad pollution control devices, if and when appropriate, 
and also with respect to the procedures used to determine MACT Boors 
and beyond the floors.
    For municipal solid waste incinerators and medical incinerators, 
OSWER has no expertise in regulating air emissions from these sources 
and OAR has that type of previous experience in assessing control 
options for these source cakgones, therefore, the Agency has used OAR 
to develop the MACT standards for this class of units. Each of these 
decisions is weighed with respect to experience, current workload, and 
other administrative factors to make sure that the Agency's resources 
are deployed in a reasonable and effective manner.
Regarding the Risk Management Plans

    Question 1. Because the Administration has been so late in 
responding to the security concerns will you issue a stay for the 
reporting deadline for all respondents to match the stay the Court gave 
the propane industry, until the security issue can be properly 
addressed?
    Response. On May 7, 1999, the Department of Justice transmitted to 
you and other Members of Congress a dray bill entitled ``Chemical 
Safety Information and Site Security Act of 1999.'7 This draft 
legislation is the product of an interagency group, convened by the 
Department of Justice which included representatives Dom the 
Environment Protection Agency, the Ounce of Management and Budget, the 
National Secunty Council, and several components of the Departnent of 
Justice, including the Federal Bureau of Investigation. The proposal 
would continue to permit appropriate dissemination of the offsite 
consequence analysis information, within some limits, without 
introducing unnecessary risks to public safety. We hope that it will be 
considered quickly and enacted.
    Since facilities have had 3 years to address risk management 
program requirements, the Agency does not believe that a stay in the 
reporting deadline would be in the best interest of chemical safety. 
The Agency already has received voluntary submission of approximately 
500 Risk Management Plans.

    Question 2. In my followup questions to the March 16, 1999 Risk 
Management Plan Hearing I asked you:
    ``During the hearing, eve had testimony from the President's of the 
American Fawn Bureau and the National Propane Gas Association 
contradicting the EPA estimates of the number of facilities which will 
be required to report on propane. Apparently the North Carolina 
Depa'l'. . ent of Environmental Resources has estimated that 11,000 
farm facilities in North Carolina alone will be required to report. 
Please provide an updated EPA estimate of the number of propane 
facilities (all types of facilities) and an explanation for the 
discrepancies in the estimates.''
    You responded by stating that the American Farm Bureau and the 
National Propane Gas Associatior' had contradicted each other. If you 
reread their statements you will see that they did not contradict each 
other. The Farm Bureau's 10 percent figure was used to illustrate the 
estimated costs. Please reexamine your response to this question and 
provide the updated estimate.
    Response. EPA assumed from your origins followup question that the 
10 percent figure in the American Farm Bureau (AFB) testimony was not 
only illustrating their estimate of the cost of the Risk Management 
Program (RMP) rule but was also an estunate of the number of farms 
covered by the Rum rule, since it contradicts EPA's estimates EPA also 
asks Congress to recogruze that the information in correspondence 
between the North Carolina Department of Agnculture and EPA has been 
mix-characterized and used incorrectly in cost and covered universe 
estimates. The National Propane Gas Association (NPGA) testimony 
states: ``The Worth Carolina3 Department [of Agriculturel sent a letter 
to EPA on November 9J 1998 stating that in North Carolina, 
approxiInately 11,000 farms use propane to cure tobacco. In other 
words, a single propane user sector--farmers--of a single propane use--
curing tobacco--in a single state totals nearly 33 percent of EPA's 
entire national estimate for propane.'' (Emphasis in original). NPGA 
does not misquote the letter, but the reader is led to believe that all 
11,000 farms handle more than 10,000 pounds of propane and would be 
covered by the RMP rule But the letter itself never reaches this 
conclusion Additional data subsequently received from the North 
Carolina Department of Agriculture makes it clear that far fewer than 
11,000 farms are actually covered by the RMP rule North Carolina 
indicated that only 155 farms (of all types) have greater than 5,000 
gallons (about 21,000 pounds) of propane in a single tank or greater 
than 4,000 gallons aggregate (about 17,000 pounds)--No data was 
available on the number of farms having more than 10,000 pounds but 
less then 17,000 pounds, or the number of faIms having less than 10,000 
pounds of propane Therefore, to estimate the number of farms 
potentially covered by the RMP rule nationwide (those handling more 
than 10,000 pounds), EPA used the 155 North Carolina farms as a basis 
along with state-by-state propane sues data and the knowledge that 
North Carolina consumes far more propane for farm use than the national 
average. EPA believes using e North Carolina and propane sales data 
this way creates a reasonable estimate of the number of fanns 
potentially covered by the RMP rule. EPA recognizes that more than l SS 
farms in North Carolina may handle more Man 10,000 pounds of propane; 
however, even if an exact count were available, basing a national 
esbrnate solely on North Carolina data would grossly overestimate the 
number of farms potentially covered because North Carolina consumes 
more propane for farms than all other states. Our current estimates of 
the number of facilities, including farms, handling more than 10,000 
pounds of propane are as follows:
    Estimate of propane facilities covered by the RMP rule tenor to the 
court stay):
    Number of Retail facilities = 12,500
    Number of Non-fann Users = 16,100
    Number of Farms = 5,300
        Total= 33,900
                                 ______
                                 
 Responses by Timothy Fields, Jr. to Additional Questions from Senator 
                                 Smith

    Question 1. You are aware of my concerns regarding parties left 
facing joist and several liability after EPA settles with de minimis 
and other parties. EPA opposed bi-partisan legislation last year that 
would have established a fair share allocation system dealing fully 
with this problem. As you know, I am especially concerned about third-
partr contribution actions vhere PRPs who have signed Consent Decrees 
with EPA sue parties who did not join in the settlement.
    EPA's current policy--letting some polluters off the hook and 
providing inadequate orphan share to others--exacerbates rather than 
ameliorates the system's unfairness. As you know, mandatory orphan 
share, mixed funding agreements and forgiveness of past costs do not 
fully address the unfair contribution suit problem. What new ideas have 
you developed since our meeting to help those victimized by large PRPs 
in third-party contribution suits?
    Response. Through EPA's Arlministrative Reforms, the Agency has 
succeeded in making Superfund fairer and cutting litigation for small 
parties. For example, through Administrative Reforms we have developed 
our Municipal Solid Waste Settlement Policy, which allows generators 
and transporters of municipal solid waste to settle with the Agency for 
a flat rate of $5.30 per ton. In addition, we have instituted the 
Orphan Share policy, under which we provide a contribution in lieu of 
insolvent and defunct parEes at each eligible settlement, up to 25 
percent of the cost of the proposed remedy. The President has 
continuously requested additional funds for this purpose each year as a 
part of EPA's budget. Our de minimrs Id de micromis policies continue 
to be effective in protecting parties from contribution suits--we have 
settled with over 18,000 of these parties. Finally, we continue to 
approve ability-to-pay settlements, for those parties who can show 
financial hardship, in order to provide contribution protection to 
these parties.
    Even so, in some circumstances panes that should never have been 
subject to the Superband liability web are unfairly targeted by large 
PRPs in third-party contribution suits. Legislation to exempt innocent 
landowners, prospective purchasers, contiguous property owners, and 
small businesses arid homeowners that sent household waste hom CERCLA 
liability would provide more fairness and Neatly reduce third-party 
litigations against small parties. EPA also supports giving the Agency 
authority to spend $200 million a year to provide orphan share Finding 
to encourage settlements at Superfine sites.

    Question 2. EPA's Superfund Reforms Annual Report fiscal year 1998 
concludes that flexibility in the fair share allocation process to 
address site-specific issues is critical. EPA supported a prescriptive 
bill in the 103d Congress. Would EPA support legislation containing a 
more flexible allocation system in this Congress?
    Response. As part of its Superfiind Administrative Reforms, EPA 
undertook 12 pilot allocation projects to 'test drive' the allocation 
provisions of the 1 03rd Congress. Our experience with the pilots has 
shown us that prescriptive, mandatory allocations are generally not 
conducive to reaching expedient settlements. In addition, at many 
sites, allocations are simply not necessary, and may lead to delays and 
increases in transaction costs for all pardes involved. As a result, a 
statutory allocation system is not something we find that the Superfine 
program needs now. EPA also supports giving the Agency authority to 
spend $200 million a year to provide orphan share fundLng to encourage 
settlements at Superband sites. The President's fiscal year 2000 budget 
reque fits $200 million for orphan share finding.

    Question 3. The GAO testified earlier third year before the House 
in a hearing at which you also appeared. GAO testified that 
``completion of construction at existing sites'7 and reducing new 
entries into the program was EPA's top Superfund priority. Do you agree 
with GAO's characterization in this regard? If not, why not?
    Response. Completion of cleanup construction at existing Superfine 
sites has been and continues to be the top priority for the program The 
Agency's 1997 Strategic Plan has identified construction completions as 
a major goal for the program. EPA has not identified ``reducing new 
envies into the program'' as a top Superfi'nd priority, as GAO seems to 
have stated. EPA Administrator Browner and others have noted, however, 
that the program is maturing. Evidence of this is the fact that the 
slumber of sites added to the CERCLIS Inventory for Superband 
assessment has declined in recent years. As late as the mid-1 990's, 
over 1,000 sites were added to CERCLIS annually. The average for the 
past 2 years was approximately 500 sites per year.

    Question 4. EPA agreed ``with the basic findings and 
recommendations'' of a November 1998 GAO report stating that there are 
still 3,036 sites awaiting an NPL listing decision lay EPA, 73 percent 
of which have been in CERCLIS for more than a decade.

    Question A. How many of those sites will be the subject of a 
listing decision this year?
    Response. Since March 1998 (when the GAO began their audit), EPA 
has proposed 60 sites to the NPL. Slightly under half of these proposed 
sites came from the GAO survey universe of 3,036 sites. EPA is working 
win States to make decisions on the remaining sites in the audit 
universe over the next several years, but until we have consulted with 
all the States, we cannot provide a definitive schedule for completion 
of this effort.
    As an immediate response to the audit, EPA identified nearly 600 
sites that could potentially require removal actions, performed file 
reviews of these sites, and determined that 47 of these sites needed an 
onsite assessment. Those 47 sites are currently being scheduled for 
inspections, to determine what, if any, removal activities are needed.

    Question B. When do you anticipate completing the evaluation of the 
remaining sites?
    Response. EPA anticipates that the evaluations for some regions 
(those with approximately 100 sites) will be completed next year. For 
several regions with a larger number of sites, however, the evaluations 
will take several years. These evaluations also must be prioritized 
with evaluations of other sites not part ofthe GAO audit universe. 
(States identify about 500 sites a year that need assessment.)
    To avoid duplication of effort, and enhance the role of States in 
the process, EPA is holding meetings with State officials in an effort 
to divide up the GAO universe and allow States to take e lead on many 
of the GAO audit sites. EPA will then assess the remaining sites. Some 
of these discussions are occurring now and EPA and States will need to 
establish individual schedules based on resource and funding 
constraints. EPA committed to GAO that the Agency would prepare a 
status report by 2/28/00 on how regions and States are proceeding.

    Question C. GAO further stated in their November 1998 report that 
EPA regional employees and other officials believe 1,234 of those sites 
are ``unlikely'' to become eligible for the NPL. What is your estimated 
schedule for archiving those sites?
    Response. EPA agreed to archive those sites that are not eligible 
for the NPL by the end of Fiscal Yew 1999. EPA did not agree to 
immediately archive other sites in the ``unlikely'' categoric that are 
generally undergoing State cleanups. Archiving this group is 
appropriate only after the cleanup has been completed. Indeed, some 
States have asked that EPA keep these sites in CERCLIS until cleanup is 
complete, to help ensure that those cleanups are completed 
successfully. Moreover, while many sites in that category refight be 
safely archived, EPA will need to evaluate each site individually. So 
far, EPA has proposed 9 sites to the PAL that were included in the 
Unlikely to be eligible'' category. The States supported the listing in 
all 9 cases.

    Question D. GAO recommended that EPA and the States ``should 
develop a Joint strategy for addressing these sites.'' EPA specifically 
concurred in this recommendation.
    I. When will you have this strategy finished?
    II. With which State organizations are you working?
    Response. EPA regions are working win each State to assign leads 
for each ofthe sites in the audit. We will issue a status report by 
February 28, 2000, and will have all sites assigned as soon as these 
discussions me completed. In addition to working with each of the 
affected States, we have discussed our plans with the Association of 
State and Temtorial Solid Waste Management Officials (ASTSWMO) newell.
    D(a). Please consult with committee staff during development of 
this strategy.
    Response. I will have my stay consult with the committee staff as 
we develop this strategy.

    Question 5. In response to questions submitted after the budget 
oversight hearing on February 24, EPA stated that it expects to list 40 
sites on the NPL this year, even though historically the average has 
been 26. In fact, EPA expects to achieve this 53 percent increase in 
site listings at the same time EPA's budget request is 30 percent less 
than it was last year. That appears to be a reallocation of resources 
and priorities based on a combination of increased efficiencies through 
your administrative reforms and the fact that the cleanup program is 
ramping down.

    Question A. How many site assessments did EPA, either by contract 
or cooperative agreement, perform in fiscal year 1998?
    Response. See table below.

    Question B. How many site assessments do you anticipate performing 
in fiscal year 1999?
    Response. See table below.

           Number of Superfund Site Assessments Funded by EPA
                (Contractors and Cooperative Agreements)
------------------------------------------------------------------------
                                                  FY 1998      FY 1999
                Assessment Type                   (Actual)    (Estimate)
------------------------------------------------------------------------
Pre-CERCLIS Screening \1\.....................        1,205        1,006
Preliminary Assessment \2\....................          330          387
Site Inspection \3\...........................          549          704
------------------------------------------------------------------------
Source SCAP-13 Report
\1\ Pre-CERCLIS Screening activities involve cursory evaluations to
  erasure that only sites requiring Federal Superband assessment work
  get added to the EPA's Comprehensive Emergency Response, Compensation
  and Liability Information System (CERCLIS) data set.
\2\ Preliminary Assessments involve collection and review of available
  technical and site history information at sites added to CERCLIS to
  determine whether a threat or potential threat exists.
\3\ Site Inspections involve collection and review of more detailed
  data, ant generally include additional sampling information to confirm
  the presence of hazardous waste.


    Question C. What are your projections for annual site assessments 
for fiscal years 2000-2005?
    Response. While EPA has not made projections for the specific 
number of site assessments in the future, we have estimated the number 
of final assessment decisions through fiscal year 2005 as part of the 
Agency's reporting under the Government Performance and Results Act 
(GPRA). Final assessment decisions are tracked to ideate y sites with 
completed Superfund site assessment activities (e.g., no further 
action, deferral to RCRA, proposal to the NPL, etc.) Final assessment 
decisions are an end product of individual assessment activities, such 
as Preliminary Assessments and Site Inspections.
    The following table shows the number of find site assessment 
decisions made in fiscal year 1998 and the number of decisions we 
estimate for each year from fiscal year 1999 through fiscal year 2005 
as part of our GPRA planning efforts.

         Final Assessment Decisions Developed for GPRA Reporting
------------------------------------------------------------------------
                                        No. of Final Site Assessment
            Fiscal Year                           Decisions
------------------------------------------------------------------------
FY 1998...........................  486 (Actual)
FY 1999...........................  530 (Estimate)
FY 2000...........................  530 (Estimate)
FY 2001...........................  530 (Estimate)
FY 2002...........................  530 (Estimate)
FY 2003...........................  530 (Estimate)
FY 2004...........................  530 (Estimate)
FY 2005...........................  530 (Estimate)
------------------------------------------------------------------------


    Question D. What are your projections for annual listing decisions 
in fiscal years 2000-2005?
    Response. It is hard to project fixture listing decisions on a 
year-by-year basis since there are so many variables involved in making 
listing decisions. In addition to technical site conditions, we believe 
it is important to consider factors such as State support, cleanup work 
performed by potential responsible parties, and Federal finding and 
staffing resources when projecting fixture listing decisions. More 
recently, we've raised our internal fiscal year 1999 estimate of new 
proposals of up to 40 sites. The average number of listings for the 
past 6 years has been 26 per year, so a range of 26 to 40 sites per 
year for fiscal years 2000-2005 appears to be a reasonable estimate.

    Question 6. Your testimony and EPA's ``Superfund Reforms Annual 
Report for fiscal year 98'' estimates future cost reductions or savings 
of more than $1 billion due to remedy reforms. The Annual Report states 
that ``EPA expects these savings estimates to increase as regions 
complete their analyses.''

    Question A. Given that this reform was initiated in 1995 and 
average cleanup time ranges between 8 and 10 years, should we 
anticipate realizing the bulk of those life-cycle cost savings during 
the next 5 years?
    Response. The more than $1 billion estimate reflects savings from 
two administrative reforms, Remedy Updates (over $1 billion from more 
than 200 reviews) and the National Remedy Review Board (over $40 
million from 33 reviews). The timing of the savings and the beneficiary 
of the savings vary from site to site. Remedy Update savings are most 
likely to accrue faster because the proposals are for updates to 
existing Records of Decision (RODs) for sites/projects that can be in 
the design or construction phases, or in operation and maintenance 
(e.g., ground water pump/treat actions). Reviews by the National Remedy 
Review Board (NRRB) occur during or after the Remedial Investigation/
Feasibility Study, but prior to ROD signature. These savings will occur 
during Be remedy implementanon phase and in most instances would be 
within the 5-year window cited. For both Remedy Updates and CURB 
Reviews, the beneficiaryy of the savings can either be the Superfund 
Trust Fund for a fund-financed response, or a Potentially Responsible 
Party or over Federal Department when they are financing the remedy.

    Question B. At how many other sites do you expect to replicate 
these savings?
    Response. Remedy Updates and the NRRB remain active reform 
initiatives under the Superfund process. The NRRB has reviewed an 
average of about 12 sites per year and we expect that trend to 
continue. Remedy Updates have averaged about 65 updates per year for 
the past 3 years and we hope they will continue at a similar pace, 
depending on the demand.

    Question C. What additional savings do you expect to realize 
through administrative reforms in remedy selection and other areas?
    Response. As noted above, we expect Remedy Updates and NRRB reviews 
to continue. It is anticipated that these projected annual cost savings 
will continue to be several hundred million dollars. Remedy selection 
guidance reforms (e.g., Presumptive Remedies), are intended to 
streamline the response process or clarify performance expectations and 
improve consistency, thereby saving both time and money. Over 
Administrative Reforms have, and will continue to result in cost 
reductions for PRPs undertaking response actions. These include 
guidance on future land use, streamlining PRP oversight, and orphan 
share compensation.
    Question 7. There are currently 1,264 sites on or proposed for the 
NPL. The GAO report referenced above, in which EPA concurred, states 
that a maximum of 232 sites are likely to be added to the NPL. EPA's 
answers to questions for the record ofthe February 24th budget 
oversight bearing stated goals of:
    40 site listings per year;
    85 construction completions per year, and
    completing construction at 1180 sites by the end of fiscal year 
2005
    Assume that all of the sites GAO expects to be added are added to 
the NPL. Please provide this committee with estimates for Superfund 
funding needs in light of the GAO data, projections for construction 
completions, and any future expected cost savings due to remedy or 
other administrative reforms. Please provide separate estimates for 
direct response action costs, indirect costs, and inter-agency 
transfers.
    Response. EPA expects to achieve 1,180 construction completions 
through 2005, assuming an annual appropriation of 1.5 billion. This 
projection was based on a combination of historical performance, 
planning estimates contained in EPA's information systems, budget 
assumptions, and strong focus on an increased pace to achieve cleanups 
at NPL sites. The methods to implement the Agency's goals are presented 
in the President's annual submission of the proposed Superband budget 
to Congress. This budget includes contractor and staff resources for 
cleanup/response, enforcement, management and support, and research, as 
well as resources for other Federal agencies that carry out Superfund-
related functions.
    As stated in the Administrator's earlier response, we do not know 
how many sites we will list on the NPL each year. In order to maximize 
cleanups and environmental benefits, we depend on a number of 
approaches in addition to the NPL. We are cornrrutted to working with 
our State partners to determine what sites are most appropriate for the 
NPL. We will list sites on the NPL ordy after considering several 
factors, such as whether a site presents a serious threat to human 
health and the environment, whether a State requests EPA to list a 
site, or whether a State is unable or unwilling to conduct the cleanup. 
EPA's commitment to States also includes maintaining a strong site 
assessment program, not merely as a tool to list NPL sites, but as a 
way to encourage potentially responsible parties to work closely with 
States to achieve cleanups in lieu of NPL listing. EPA also foresees 
having a substantial role in post-construction related activities at 
NPL sites to ensure that Implemented remedies remain protective in lhe 
future. As more sites complete construction, the use of resources will 
increasingly shift toward compliance and environmental mornitoring and 
response work at facilities where waste remains in place.
    The fiscal year 1999 enacted $1.5 billion budget includes $1.005 
billion for contractor and staff resources for cleanup/response, $145 
million for EPA enforcement, $135 million for management and support, 
including audits, $40 milhonfor research and-development, and $175 
Bullion for other Federal agencies that catty out Superfitud-related 
functions. We expect the proportions of Superfund resources allocated 
to each of these categories to remain stable through EY 2005.
    Although we expect Superfund Reforms, such as Remedy Updates and 
National Remedy Review Board reviews, to continue through 2005, it is 
not possible to project the level of estunated savings fiom future 
actions. Remedy selection guidance reforms (e.g., Presumptive Remedies) 
are intended to streamline the response process or clanfy performance 
expectations and unprove consistency, thereby saving both time and 
money. Other Adrninistrative Reforms did, and will continue to, result 
in cost reductions for PRPs who undertake response actions.
                               __________
EPA's Strategy for Enforcement of Regulatory Requirements Applicable to 
               Underground Storage Tank (UST) Facilities
                            august 10, 1998
    This document describes the U.S. Environmental Protection Agency's 
(EPA) strategy for enforcing the regulatory requirements applicable to 
underground storage tanks (USTs)as of December 1998. EPA will work with 
States and, as necessary, augment State efforts by taking Federal 
action.
    This document was developed jointly by EPA's Office of Underground 
Storage Tanks (OUST) and Office of Enforcement and Compliance Assurance 
(OECA), in concert with Regional Office UST program managers and 
enforcement coordinators.
Background
    By December 22, 1998, all USTs installed before December 22, 1988 
that are not already protected against corrosion, spills, and overfills 
must be upgraded, replaced, or properly closed. The EPA Administrator 
has already announced that the Agency will not extend the deadline. 
Other UST regulatory requirements, including those for release 
detection, financial responsibility, and reporting and remediation of 
UST releases will remain in effect. In the Code of Federal Regulations 
(CFR), EPA's requirements appear in 40 CFR Part 280.
    EPA can enforce the Federal requirements in States and territories 
that do not have EPA's approval to run their own UST programs in lieu 
of the Federal program, and in Indian Country. In approved States and 
territories, EPA can enforce State regulations that were included in 
the State Program Approval process, even if they are more stringent 
than the corresponding Federal regulations. The Agency cannot enforce 
State regulations that are broader in scope than the Federal 
regulations, e.g., those applicable to UST systems not covered by the 
Federal regulations, such as heating oil tanks for direct consumptive 
use.
    EPA's goal is full compliance with the 1998 requirements as quickly 
as possible.EPA does not and will not condone non-compliance. EPA's 
regulations do not provide for a grace period in which violations can 
be corrected without a penalty . By December 1998, UST owners/operators 
will have had 10 years to comply with these requirements. During this 
10-year period, EPA conducted extensive outreach activities to inform 
the regulated community of the upcoming 1998 technical requirements and 
provided compliance assistance to owners and operators of UST 
facilities. Given the threat that sub-standard tanks pose to human 
health and the environment, EPA believes it is essential to ensure that 
violations are promptly corrected.
What EPA expects States to do
    The philosophy that has guided the UST program since its inception 
is that States have the primary responsibility for implementation and 
enforcement of UST regulations (except in Indian Country). EPA 
therefore has devoted a major share of its UST resources to supporting 
and helping strengthen State programs and will continue doing so.
    EPA expects States to take the lead in securing compliance with the 
1998 UST requirements. EPA recognizes that States can use various 
enforcement activities to achieve compliance. These enforcement 
activities can include filing administrative or judicial actions or 
immediately stopping operation of a non-complying tank (e.g., by using 
their ``red tag'' authority). Some States do not have statutory 
authority to assess and collect penalties administratively and must 
initiate a judicial action if penalties are to be assessed. While the 
judicial process may be time-consuming, States should use their 
enforcement authority to demonstrate to UST owners and operators that 
they cannot ignore UST requirements with impunity.
    In the months leading up to the December 1998 deadline, EPA expects 
that States generally will continue to monitor and enforce compliance 
with UST requirements already in effect, including those for release 
detection; remind UST owners/operators of their obligation to upgrade, 
replace, or properly close sub-standard UST systems; make UST owners/
operators aware that enforcement action will be taken against those who 
miss the deadline; and, in concert with EPA Regional Offices, develop 
plans for post-deadline compliance and enforcement activity.
    EPA expects that States will expeditiously identify non-complying 
UST facilities, including marketers and non-marketers, after the 
deadline and require those facilities to be promptly upgraded, 
replaced, or properly closed.
    States with UST programs that lack UST regulations or a fixed 
deadline for upgrading, replacing, or closing sub-standard UST systems 
should work with EPA Regional Offices to develop procedures for dealing 
with violations; such procedures may include referring cases to EPA for 
appropriate action.
EPA will continue to assist States
    EPA is prepared to assist States in carrying out their UST 
compliance and enforcement responsibilities by continuing its own 
extensive outreach to UST owners/operators; helping States train UST 
inspectors; fostering exchanges of information among the States about 
effective means of securing compliance; and supporting States' efforts 
to design and implement cost-effective ways of increasing their field 
presence.
When EPA will take action
    Under RCRA Subtitle I, EPA has the authority to and will inspect 
UST facilities in order to assess compliance with the UST regulations. 
While EPA may take enforcement actions in all States, its activities 
will be concentrated in States that have less active UST enforcement 
programs. EPA also will try to be responsive to requests from any State 
for support in dealing with Federal agencies or other UST owners-
operators who are resistant to State compliance efforts.
    Factors the Agency will consider in deciding when and where to 
conduct inspections will include UST compliance levels and the level of 
States' compliance and enforcement presence. EPA's Regional Offices 
will be responsible for selecting the States in which Federal action 
will be undertaken. Regional Offices will have continuing communication 
with States about the status of State compliance and enforcement 
activities. EPA will give notice to State officials before undertaking 
UST inspections or initiating UST enforcement actions (other than 
issuance of field citations) in accordance with the agreements States 
have with EPA (e.g., State Program Approval Memorandums of Agreement).
    Because EPA believes it is essential that Regional Offices have 
latitude in deciding where to initiate Federal actions, the Agency will 
not establish criteria for such decision-making. Some degree of 
consistency from one Regional Office another is nevertheless important; 
EPA believes that such consistency can be achieved through ongoing 
communication between EPA Headquarters and Regional Offices. .
    EPA will continue to monitor and enforce UST compliance in Indian 
Country. Enforcement activities in Indian Country generally will be 
guided by this strategy. UST facilities not owned and operated by 
Native American Tribes will be subject to enforcement action in the 
same manner as UST facilities elsewhere in the U.S. Tribally owned and 
operated UST facilities will be subject to enforcement action in 
accordance with EPA's Indian Policy Implementation Guidance issued on 
November 8, 1984.
    EPA will also conduct UST inspections and issue administrative 
penalty orders or field citations at Federal facilities using newly 
clarified Subtitle I authorities. RCRA provides penalty and order 
authority to EPA for use against Federal agencies for violations of UST 
requirements. States should also inspect Federal facilities and, as 
appropriate, issue compliance orders.
How EPA will deal with non-compliance
    After December 22, 1998, it will be illegal to operate UST systems 
that are not equipped to protect against corrosion, spills, and 
overfills. Owners/operators who miss the deadline must bring sub-
standard UST systems into compliance by upgrading, replacing, or 
closing them. If EPA finds them in violation, they will be subject to 
monetary penalties for periods of non-compliance.
    EPA's goal is to ensure that sub-standard UST systems are brought 
into compliance by the regulated community. When UST owners and/or 
operators fail to comply with the 1998 deadline requirements, EPA will 
initiate enforcement actions to ensure prompt compliance with the UST 
regulations. EPA's position is not to allow continued operation of sub-
standard UST systems after December 22, 1998. Toward that end, EPA 
takes the position that sub-standard UST systems should be temporarily 
closed until the work necessary to upgrade, replace, or permanently 
close them is completed. Alternatively, EPA may refer the matter to the 
State UST implementing agency where a State has the authority to shut 
down such an UST facility without initiating administrative or judicial 
proceedings.
    In pursuit of its goal, EPA will use all the enforcement tools 
available for dealing with UST violations, including, administrative 
and judicial enforcement actions. Judicial enforcement actions are 
particularly appropriate in situations involving recalcitrant parties. 
The Agency may use field citations in some circumstances for a limited 
period of time after the December 1998 deadline. In situations where 
the inspection shows that a release has occurred or is occurring, EPA's 
regulations require owners/operators to take immediate action to 
prevent any further release, as well as other steps to respond to the 
release. EPA can use RCRA Secs.7003, 9003(h), or 9006, to issue 
administrative orders to require cleanup or initiate judicial action 
requesting temporary or permanent injunctive relief. EPA can also use 
Sec. 9005 information request letters to gather information from 
owners/operators of UST facilities.
Temporary closure and upgrading after 1998
    UST owners/operators can comply with the Federal regulations by 
upgrading, replacing, or properly closing (either permanently or 
temporarily) their sub-standard USTs. During the time in which an UST 
system is temporarily closed, it is permissible to upgrade, replace, or 
permanently close it. If the period of temporary closure of a sub-
standard UST system extends past December 22, 1998, the UST must be 
upgraded or replaced before it can be legally operated.
    EPA's regulations allow a sub-standard UST system to remain in 
temporary closure for a maximum of 12 months unless the owner-operator 
completes a site assessment and obtains an extension from the 
responsible UST implementing agency; States and the EPA are not obliged 
to grant such extensions. EPA's position is that sub-standard UST 
systems, that have not been granted an extension by the implementing 
agency, should not remain in temporary closure beyond December 22, 
1999, even if the USTs were placed into temporary closure after 
December 22, 1998.
Other Settlement and Enforcement Policies
    In appropriate circumstances, EPA may use the Agency's ``Interim 
Policy on Compliance Incentives for Small Businesses'' (June 3, 
1996)(61 FR 27984)(Small Business Policy); ``Policy on Flexible State 
Enforcement Responses to Small Community Violations'' (November 22, 
1995)(Small Community Policy); ``Supplemental Environmental Projects 
Policy'' (May 1998)(SEP Policy) and the Ability to Pay guidances, in 
settlements of UST enforcement cases. These policies can be used for 
settlement purposes only; they are not used for pleadings or at 
hearings or trials. Copies of the EPA settlement policies are also 
available through EPA's Internet site at http://www.epa.gov/OECA.
    This document does not establish or modify any regulatory 
requirements; it provides guidance on policies and procedures but does 
not constitute final Agency action on any matter. It also is not 
intended, and cannot be relied upon, to create any right, benefit, or 
trust responsibility enforceable by any party in litigation with the 
United States.
                               __________
              Memorandum--Environmental Protection Agency
                                                   December 9, 1998
    Subject: EPA's Inspection and Compliance Assistance Priorities For 
Underground Storage Tank Systems Not Meeting The 1998 Deadline,
    From: Steven A. Herman, Assistant Administrator, Office of 
Enforcement and Compliance Assurance
    To: Timothy Fields, Jr., Acting Assistant Administrator for the 
Office of Solid Waste and Emergency Response
    To: Regional Administrators, Regions I-X
    This memorandum clarifies some aspects of the August 10, 1998 
memorandum entitled, ``Underground Storage Tank 1998 Deadline 
Enforcement Strategy.'' In particular, this memorandum provides EPA 
Regional Of flees guidance on the subsection of the strategy entitled 
``When EPA will take action'' which contained the following:
    Because EPA believes it is essential that Regional Offices have 
    latitude in deciding where to initiate Federal actions, the Agency 
    will not establish criteria for such decisionmaking. Some degree of 
    consistency from one Regional Office to another is nevertheless 
    important; EPA believes that such consistency can be achieved 
    through ongoing communication between EPA Headquarters and Regional 
    Offices.
    As part of that ongoing communication, today's memorandum reflects 
a continuing assessment of UST compliance levels and the best ways for 
EPA to use its limited resources to reach underground storage tank 
(UST) program environmental goals. The attached document provides 
further background information on this subject and States EPA's Federal 
inspection priorities for Regional Offices.
    Our primary concern remains finding the most efficient way to 
ensure that USTs do not leak by meeting standards for protection from 
spills, overfills, and corrosion. Working in partnership with States, 
we believe that focusing EPA's resources over the next 6 months on 
compliance assistance activities, especially for small businesses and 
local governments, and high priority inspections is the most effective 
approach to reaching our environmental goals of protecting human health 
and the environment from substandard USTs. Since the UST program's 
inception, EPA has been sensitive to the need for balancing our 
environmental goals with concerns about unduly impacting small 
businesses and local governments.
    While we are not extending the deadline, we believe it necessary to 
set priorities to reach most effectively the environmental goals of the 
Federal UST program. If you have any comments on this memorandum, 
please contact Joan Olmstead (202) 564-4018 in the Office of 
Enforcement and Compliance Assurance or Sammy Ng (703) 603-7166 in the 
Office of Underground Storage Tanks.
                                 ______
                                 
  Supplemental Information Regarding the August 10, 1998 Enforcement 
                                Strategy
                            december 9, 1998
    This document pertains to the U.S. Environmental Protection 
Agency's (EPA) strategy for enforcing the regulatory requirements 
applicable to underground stooge tanks (USTs) as of December 1998.
Background
    December 22, 1998 marks 10 years that the U.S. Environmental 
Protection Agency's regulations for underground stooge tanks (USTs) 
have been in effect. During this time, the UST program has 
significantly reduced the threat to human health and the environment 
posed by USTs:
    <bullet>  Over 1.2 million substandard USTs in service in 1988 have 
been taken out of operation, thus removing them as sources of leaks; 
and
    <bullet>  Of the 892,000 USTs currently in operation, approximately 
500,000 USTs meet tough federal standards that protect human health and 
the environment.
    EPA would like to recognize those parties that have come into 
compliance by upgrading, replacing or closing their tanks. Their 
efforts help to reduce the threat of petroleum and hazardous substances 
being released into the environment.
    EPA has also made every effort during the past 10 years to alert 
UST owners about the 1998 deadline:
    <bullet>  EPA has distributed over 1.4 million compliance 
assistance documents, many of which were focused on timely compliance 
with the 1998 requirements;
    <bullet>  EPA, States, and industry have used and continue to use 
web sites, telephone hotlines, ``Mining, and conference presentations 
to broadcast UST compliance information; and
    <bullet>  Many State UST programs and professional/trade 
associations have used EPA compliance assistance materials (or adapted 
them or made their own materials), distributing several hundred 
thousand documents to their constituents.
    Despite these efforts by EPA, States, and industry to effect full 
compliance, it has become clear that a significant number of USTs will 
not be in compliance by December 22, 1998. For some, it is a matter of 
poor planning and the unavailability of equipment and contractor 
assistance. For others, it may be a lack of financial resources. EPA 
will undertake a number of efforts to address this situation.
Providing Additional Compliance Assistance and Setting Inspection 
        Priorities
    With the deadline imminent, EPA will undertake several efforts to 
address the many USTs that will not be in timely compliance.
    State Partnership: In developing policies to assure compliance with 
the 1998 deadline, EPA has worked very closely with the States to 
assure that we take appropriate and fair action against those owners 
and operators that have failed to comply with the law. In doing so, EPA 
continues to recognize that the States are the primary enforcers of 
this law and that many States have enforcement authorities that are 
more extensive than those of the federal government.
    Compliance Assistance: Given the large number of facilities that 
remain in noncompliance, EPA will continue its compliance assistance 
efforts, especially for small businesses and local governments. EPA 
will continue to assist UST sectors in their compliance efforts by 
providing compliance assistance information and helping to identify 
available sources of financing for UST upgrading, closing, or 
replacement. Owners and operators of USTs are encouraged to take 
advantage of available financing to upgrade or replace their USTs as 
expeditiously as possible. Some States have developed assistance 
programs for UST owners with many programs targeted to small 
businesses. These programs include grants, direct loans, and loan 
guarantee programs. In addition, the Federal Government has several 
programs that may provide assistance to UST owners (including Small 
Business Administration, RUMI Development Administration, Economic 
Development Administration, and Administration for Native Americans). 
For more information, please see EPA's publication entitled ``Financing 
UST Work: Federal and State Assistance Programs.''
    Disclosure and Self-Correction: For those government agencies, 
businesses and other owners and operators of facilities that will not 
be in compliance by the deadline, EPA continues to encourage them to 
disclose their violations pursuant to EPA's ``Incentives for Self-
Policing: Discovery, Disclosure, Correction and Prevention of 
Violations'' (Dec. 22, 1995)(60 FR 66706)(Audit Policy), EPA's 
``Interim Policy on Compliance Incentives for Small Businesses'' (June 
3, 1996)(61 FR 27984)(EPA's Small Business Policy), or similar State 
policies. EPA's Audit Policy encourages regulated entities to 
voluntarily discover, promptly disclose, expeditiously correct and 
prevent violations of Federal environmental requirements in order to 
mitigate gravity penalty amounts by 75 percent and in some cases up to 
100 percent. Owners and operators of underground storage tanks should 
recognize that disclosure of violations to EPA under the Federal Audit 
Policy does not provide protections from State enforcement action. 
Indeed, except for disclosures from facilities in New York, Idaho, 
Hawaii, and Indian Country, EPA will share all disclosures with the 
appropriate State agency and consult with them before resolving any 
violations.
    Owners and operators of facilities located in New York, Idaho, 
Hawaii, and Indian Country should send their disclosures to the 
appropriate Regional EPA office for Audit Policy consideration (see 
attached list of contacts). Facilities located in States with Audit 
Policies that meet the Federal criteria articulated in the Feb. 14, 
1997 memorandum entitled, ``Statement of Principles Effect of State 
Audit Immunity/Privilege Laws On Enforcement Authority for Federal 
Programs,'' should send their disclosure to their appropriate State 
regulatory agency.
    High Federal Enforcement Priority: During the first 6 months 
following the deadline, EPA will focus its federal inspection resources 
in areas that can produce the greatest environmental and human health 
benefit. In particular, EPA will focus its resources on:
    <bullet>  Federal facilities;
    <bullet>  Owners and operators of multiple UST facilities;
    <bullet>  Owners and operators of large facilities with multiple 
USTs; and
    <bullet>  Facilities that are endangering sensitive ecosystems or 
sources of drinking water by failing to upgrade, replace, or close 
USTs.
    These UST owners are strongly urged to move quickly to come into 
compliance, as they could be subject to State enforcement actions or 
citizen suits. In addition, many fuel distributors have told EPA that 
they may not deliver fuel to USTs that have not been upgraded or 
replaced.
    Low Federal Enforcement Priority: During the first 6 months 
immediately after the deadline, EPA will not focus its Federal 
inspection resources on the following types of UST facilities:
    <bullet>  Small UST facilities (generally four or fewer tanks) 
owned and operated by one person not owning or operating other 
regulated UST facilities; and
    <bullet>  USTs owned or operated by local governments and States 
(including public service entities such as school districts, fire 
departments, and police departments).
    Small businesses and local governments are strongly urged to move 
quickly to come into compliance, as they could be subject to State 
enforcement actions or citizen suits. In addition, as noted above, many 
fuel distributors have told EPA that they may not deliver fuel to USTs 
that have not been upgraded or replaced.
    EPA has established policies for small businesses (``Interim Policy 
on Compliance Incentives for Small Businesses'') (June 3, 1996)(61 FR 
27984) (EPA's Small Business Policy) that allow qualifying parties a 
waiver of most penalties for prompt disclosure and correction. For 
example, small businesses that step forward to identify violations and 
agree to upgrade, replace or close USTs can expect to pay a minimal 
civil penalty in the first few months of 1999. That is because the 
Agency generally recovers only the economic benefit associated with 
delayed investment in compliance, which in the first few months after 
the deadline is quite small. The longer compliance is postponed, 
however, the more economic benefit accumulates, so small businesses and 
local governments are urged to correct problems within the next 6 
months.
    This document does not establish or modify any regulatory 
requirements; it provides guidance on policies and procedures but does 
not constitute final Agency action on any matter. It also is not 
intended, and cannot be relied upon, to create any right, benefit, or 
trust responsibility enforceable by any party in litigation with the 
United States.
    EPA Audit Policy Contacts
    Region 1 (CT, ME, MA, NH, RI, VT) Suzanne Parent (617) 565-3351
    Region 2 (NJ, NY, PR, VI) John Wink (212) 637-3918, (212) 637-4035
    Region 3 (DE, DC, MD, PA, VA, WV) Samantha Fairchild (215) 814-2627
    Region 4 (AL, FL, GA, KY, MS, NC, SC, TN) Bill Anderson (404) 562-
9655
    Region 5 (IL, IN, MI, MN, OH, WI) Tinka Hyde (312) 886-9296
    Region 6 (AR, LA, NM, OK, TX) Barbara Greenfield (214) 665-2210
    Region 7 (IA, KS, MO, NE) Becky Dolph (913) 551-7281 Region 8 (CO, 
MT, ND, SD, UT, WY) Michael Risner (303) 312-6890
    Region 9 (AZ, CA, HI, NV) Leslie Guinan (415) 744-1339
    Region 10 (AK, ID, OR, WA) Jackson Fox (206) 553-1073
    Violations in more than one EPA Region--David Nielsen (202) 564-
2270
                               __________
                  Committee on Environment and Public Works
                          Washington, DC, 20510, December 22, 1998.

The Honorable Carol Browner, Administrator
Environmental Protection Agency
401 St., S.W.
Washington, D.C. 20460

    Dear Administrator Browner: I am writing to express my deep 
concerns regarding the Environmental Protection Agency's (``EPA's'') 
revised enforcement strategy with respect to leaking underground 
storage tanks. I believe that this enforcement strategy is 
unjustifiable and inconsistent with the Agency's responsibility to 
protect the environment from the threats associated with leaking 
underground storage tanks.
    As you know, on December 9, 1998, Steve Herman, the Assistant 
Administrator of the Office of Enforcement and Compliance Assistance, 
and Tim Fields, the Acting Administrator of the Of lice of Solid Waste 
and Emergency Response, issued a memorandum purportedly clarifying the 
Administration's enforcement strategy with respect to the December 22 
deadline for upgrading or replacing leaking underground storage tanks. 
As I read the memorandum, however, it effectively extends the 
compliance deadline for at least 6 months for the owners of certain 
tank facilities. Specifically, it States, among other things, that 
``EPA will not focus its Federal inspection requirements'' on tank 
facilities ``owned or operated by local governments and States.'' The 
effect of this non-enforcement policy will be to allow, and even 
encourage, governmental owners of a large number of noncomplying 
underground storage tanks to continue to ignore the requirements of the 
law, even where there might be significant environmental risk, for 
another 6 months. There is no justification for distinguishing between 
public and private tanks. Furthermore, your staff has acknowledged that 
this apparent 6 month grace period could be extended. That is simply 
unacceptable.
    Owners of underground storage tanks have had 10 years to come into 
compliance with the requirement to upgrade, replace or close leaking 
tanks. The regulated community has supported this requirement and now 
legitimately expects the deadline to be strictly enforced. Thousands of 
private owners of tanks have invested significant resources to comply 
with the deadline; some have even gone out of business in order to 
avoid noncompliance. EPA's new enforcement strategy is fundamentally 
unfair to all of those tank owners who in good faith have complied with 
the law. There can be no legitimate reason, for example, to exempt the 
City of New York from fully complying with the deadline, when smaller 
tank owners in the private sector have been forced to invest in 
upgrading or replacing their tanks.
    I recognize that EPA has limited resources to enforce the 
underground storage tank program. I also recognize that EPA's 
enforcement strategy does not bind the States, although it is troubling 
that at least a few have indicated that they will follow EPA's lead. 
Thus, while I would support a strategy that targets EPA enforcement 
resources on those facilities that present the greatest threat to the 
environment, I cannot support a strategy that arbitrarily distinguishes 
between publicly and privately owned facilities for enforcement 
purposes. That is neither good public policy, nor good environmental 
policy.
    It is my hope that you will immediately withdraw this new 
enforcement strategy and clarify that the Agency will indeed strictly 
enforce the December 22 deadline. Affirmation of a strong enforcement 
policy will not prevent the Agency from exercising sound prosecutorial 
judgment or relying on compliance assistance where appropriate. At the 
same time, it will sends a strong message that no one is exempt from 
the underground storage tank requirements.
    I look forward to your personal attention and response to this 
matter.
            Sincerely,
                                            John H. Chafee.
                               __________
                       Office of Solid Waste and Emergency,
              United States Environmental Protection Agency
                           Washington, DC 20460, February 15, 1999.

The Honorable John H. Chafee
U.S. Senate
Washington, D.C. 20510-6175

    Dear Senator Chafee: Thank you for your letter of December 22, 
1998, to Administrator Carol Browner in which you expressed concerns 
regarding the U.S. Environmental Protection Agency's (EPA's) ``revised 
enforcement strategy'' with respect to leaking underground storage 
tanks.
    Let me begin by saying that EPA fully intends to implement the 
August 1998 national enforcement strategy for underground storage tanks 
(USTs) which we developed with a great deal of input from the States. 
We have not extended the December 22, 1998 deadline for upgrading, 
replacing, or closing substandard USTs for any group of facilities. 
USTs that do not meet these requirements are in violation of Federal 
and State regulations. What our December 9, 1998 memorandum stated is 
how EPA plans to use its limited resources to most effectively enforce 
the UST deadline in the near term. Thus, for the first 6 months after 
the deadline EPA will focus its limited enforcement and inspection 
resources on high priority facilities which we believe potentially pose 
a greater risk to public health and the environment, while continuing 
to offer compliance assistance to smaller facilities and State and 
local government-owned facilities that are committed to upgrading. This 
assistance will not be provided to facilities that do not intend to 
bring their tanks into compliance.
    Under the Agency's implementation of these enforcement priorities 
during this period, lower priority facilities are not exempt from 
requirements, but will be given more flexible compliance terms if they 
disclose violations to the Agency promptly, by no later than February 
12. The longer facilities wait during the 6-month period to disclose 
violations to EPA, the less favorable the compliance conditions are 
likely to be. After June 22, 1999, those facilities specified as lower 
enforcement priority in the December 9 memorandum?will be considered to 
be high enforcement priorities. We believe that encouraging prompt 
self-disclosure and entering into agreements with expeditious 
compliance schedules, as well as penalties that recover the economic 
benefit of noncompliance, will allow EPA to bring more facilities into 
compliance than would be possible with inspection and enforcement 
actions alone.
    You expressed specific concerns regarding the placement of local 
and State governments as a low enforcement priority. EPA believes that 
there are public interest reasons for treating local and State 
governments differently than similarly sized private businesses for a 
limited period of time (e.g., in order not to disrupt fuel availability 
for police, emergency vehicles, hospitals or school buses). However, 
the December 9 memorandum clearly States that high Federal enforcement 
priority facilities include ``[I]ocations that are endangering 
sensitive ecosystems or sources of drinking water by failing to 
upgrade, replace, or close'' an UST. Thus, State and local government 
facilities that pose a significant public health or environmental risk 
will be a high priority for Federal enforcement. Therefore, we believe 
our policy allows us to focus on the facilities of greatest health and 
environmental concern. At this time EPA is working with a number of 
localities seeking to self-disclose tank violations, including large 
metropolitan areas and smaller municipalities. The Agency will actively 
work to put these government entities on aggressive schedules that will 
ensure prompt compliance. Again, our interest is in ensuring that vital 
local services are maintained while the environment is protected from 
substandard USTs.
    Since December 22, 1998, we have become aware of certain local 
governments and small businesses that have contractors onsite 
upgrading, replacing, or closing their tanks. Some of these have self-
disclosed that they are in violation of the UST deadline, and are 
entering into compliance agreements to bring affected tanks into 
compliance. While these tanks were not in compliance by December 22, 
1998, we believe the best course of action is to allow these entities 
that self-disclosed a short period of time to bring their tanks into 
compliance with the UST regulations and pay a small penalty.
    Another important clarification is that the policy stated in the 
December 9 memorandum only affected EPA actions. It did not affect in 
any way State enforcement policies and priorities. In fact, the vast 
majority of States are following their previously determined strategies 
which include doing inspections, taking enforcement actions and, in 
those States with the authority, ``red-tagging'' (e.g., stopping fuel 
deliveries to) noncompliant tanks.
    I am encouraged by your support of a strong enforcement program for 
underground storage tanks. We have worked very hard and well over the 
past 10 years with all the States to implement the UST program. We will 
continue to work with the States to ensure full compliance with the 
regulations as soon as possible.
    If you have any questions, please feel free to contact me, or your 
staff may call George Hull at 202-260-7808.
            Yours truly,
       Timothy Fields, Jr., Acting Assistant Administrator.
                               __________
                 Interstate Oil and Gas Compact Commission,
                                                  February 17, 1999
The Honorable John Chafee, Chairman
Senate Environment and Public Works Committee
U.S. Senate
Senate Dirksen Washington, DC 20510

    Dear Senator Chafee: I am writing to urge your swift action in 
approving the nomination of Timothy Fields, Jr. as Assistant 
Administrator for Solid Waste at the Environmental Protection Agency.
    In his capacity as Acting Assistant Administrator for Solid Waste, 
he has worked with representatives of member States of the Interstate 
Oil and Gas Compact Commission (IOGCC). The IOGCC is a Congressionally 
chartered Compact of 30 oil and gas producing States. The IOGCC, from 
1991 until earlier this year, worked closely with the EPA on a multi-
stakeholder program to upgrade State regulatory programs for oilfield 
waste. The program was extremely successful and was cited by a White 
House task force as a model of Federal-State cooperation.
    The State review process was stopped because of one stakeholder's 
refusal to participate and EPA's reluctance to allow alternate 
participants. Mr. Fields made time to meet with State's representatives 
and assured the States that EPA was committed to the State review 
process. At a time when one stakeholder group's representatives were 
attempting to hold up the process, Mr. Fields assured the States that 
EPA would not allow the process to be held hostage by one group. If 
confirmed, the States are confident that Mr. Fields will play an 
important role in revitalizing and funding the State review process.
    EPA relationships with the States are critically important, and Mr. 
Fields has demonstrated his willingness to work with State government 
toward positive results. He is a fine public servant, committed to 
progress, Nat just bureaucracy.
            Sincerely,
                      Christine Hansen, Executive Director.
                               __________
Association of State and Territorial Solid Waste Management 
                                                  Officials
                               Washington, DC 20001, March 2, 1999.

The Honorable John H. Chafee, Chairman
Environment and Public Works Committee
U.S. Senate
Dirksen Senate Office Building
Washington, DC 20510

    Dear Senators Chafee and Baucus: The purpose of this letter is to 
convey the support of the Association of State and Territorial Solid 
Waste Management Officials (ASTSWMO) for the nomination of Mr. Timothy 
Fields, Jr., to be the Assistant Administrator, Office of Solid Waste 
and Emergency Response, U.S. Environmental Protection Agency (USEPA). 
We have not made such a recommendation in over 10 years, and would not 
normally do so for a Presidential appointee. However, Mr. Fields is a 
career employee of USEPA, and an individual with whom we have been 
associated for over a decade, and we feel obliged to share our 
confidence in him with the Committee.
    ASTSWMO is an association representing the waste program managers 
of the States and Territories. Our members are State employees engaged 
in the professional management of the regulatory and cleanup programs 
associated with hazardous waste, solid waste, State Superfund and 
remediation, underground storage tanks, and minimization, reduction, 
and recycling activities within their States and Territories. They are 
career employees, with backgrounds in engineering, technical 
management, and other sciences. ASTSWMO is a nonpartisan organization, 
and we focus primarily on fulfilling our mission; to enhance and 
promote effective State and Territorial programs and to influence 
national decisionmaking on waste policies. We have testified before 
'the Committee and its Subcommittees on a number of occasions, and your 
staff has often consulted with our members as legislative proposals 
affecting RCRA and CERCLA are developed.
    Mr. Fields is well known to our members, having risen through the 
ranks at USEPA and worked closely with them in program offices over a 
number of years. We were happy to see him elevated to Deputy Assistant 
Administrator, and then Acting Assistant ; Administrator of OSWER. We 
are delighted that he' has now been nominated to hold that position on 
a permanent basis. The reason for our strong support is simple, he is 
someone we trust to' continue to listen to. us, consider our input, and 
to come to an objective, informed decision. We have not always agreed 
with Mr. Fields in the past ?and there are certain to be occasions of 
disagreement in the future, but we know that his judgments are fair and 
professional. Mr. Fields goes out of his way to seek consultation with 
regulators and stakeholders outside the Federal family, and we think 
that is one of the principal reasons he is held in such high esteem. 
Certainly, he has the professional training and extensive background 
which give him exceptional expertise in the science and implementation 
of the full range of waste programs he will manage as Assistant 
Administrator. But many people have those professional skills, and what 
singles him out to us is his honesty, candor, and openness. We trust 
him to do the right thing.
    We urge the Committee to favorably report his nomination to the 
Senate, and to support the Senate's rapid confirmation of this 
remarkable individual. Thank you for your attention to our views.
            Sincerely,
                                James L. Warner, President,
                                                           ASTSWMO.
                               __________
                 Petroleum Marketers Association of America
                                Arlington, VA 22209, March 9, 1999.

The Honorable John H. Chafee
United States Senate
Washington, D.C. 20510-6175

    Dear Senator Chafee: We writing on behalf of the Petroleum 
Marketers Association of America (PMAA) to express support for 
nomination of Timothy Fields for Assistant Administrator of the Office 
of Solid Waste and Emergency Response (OSWER) Mr. Fields is a fair-
minded and dedicated agency professional.
    PMAA is a trade association that represents over 8,000 small 
business marketers of petroleum products nationwide. Collectively, 
these marketers sell nearly half the gasoline, over 60 percent of the 
diesel fuel and approximately 85 percent of the home heating oil 
consumed in the U.S. annually. Most of the marketers that PMAA 
represents operate underground storage tanks regulated under the 
jurisdiction of 40 CFR 280. Our members are undoubtedly the largest 
faction regulated by this and other solid waste programs. As such we 
feel strongly about quality tank programs at the Federal level, managed 
by thoughtful, competent and fair-minded officials.
    Over the course of the program the last few years. Mr. Fields has 
been responsive to industry concerns about implementation and 
enforcement of the tank requirements and compliance deadline. Although 
PMAA is still disappointed with the promulgation of the December 9, 
1998 enforcement memorandum and are not always in full agreement with 
decisions made by Mr. Fields and other personnel within the agency, we 
have been particularly impressed with his willingness to maintain lines 
of communication with industry representatives. his serious 
consideration of industry concerns, his high level of accountability, 
and his ability to draw consensus from a large number of different 
parties.
    We urge you to move forward with the approval of Timothy Fields as 
Assistant Administrator of OSWER. Thank you for your consideration of 
this very important manner.
            Sincerely yours.
                                   Dan Gilligan, President.
           Kristin Manos, Esq., Government Affairs Counsel.
                               __________
                          Environmental Technology Council,
                              Washington, DC 20005, April 26, 1999.

Chairman John Chafee,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510

    Dear Mr. Chairman: The Environmental Technology Council, the 
association representing the hazardous waste treatment and disposal 
industry, would like to urge that the Senate to give its advice and 
consent to the nomination of Timothy Fields, Jr. as Assistant 
Administrator for Solid Waste and Emergency Response of the 
Environmental Protection Agency.
    Our trade association is a creation of the Resource Conservation 
and Recovery Act, one of the most important programs operated by the 
Environmental Protection Agency. We believe having an experienced 
Assistant Administrator is critical for this program to run efficiently 
and to protect the public health and environment.
    Mr. Fields has been acting in this position for more than a year. 
But his experience with the solid waste law is even far more 
impressive. He helped draft what became the key to RCRA, Subtitle C, 
over 25 years ago and his been in the Solid Waste office since its 
inception. Throughout his 27-year career, he has proven himself more 
than capable as he moved up the rungs in supervisory and staff 
positions of the Solid Waste Office.
    Complimenting his experience in RCRA is his experience in the 
Superfund program where he held key positions that accelerated the 
remediation work of that program. It is difficult to imagine that 
another candidate could bring the wealth of experience to this position 
that Mr. Fields brings.
    We urge the Senate to promptly act on his confirmation.
            Very truly yours,
  Scott Slesinger, Vice President for Governmental Affairs.


  NOMINATIONS OF RICHARD MESERVE, PAUL L. HILL, MAJ. GEN. PHILLIP R. 
        ANDERSON, SAMUEL E. ANGEL, AND BRIG. GEN. ROBERT GRIFFIN

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:03 p.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Inhofe, Lautenberg, Murkowski and 
Crapo.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Good afternoon, everyone.
    The purpose of today's hearing is to consider five 
nominations. The first nomination is Dr. Paul L. Hill, Jr. to 
be reappointed as a member and Chairperson of the Chemical 
Safety and Hazard Investigation Board. He is to be followed by 
Dr. Richard Meserve, nominated for appointment as a member of 
the Nuclear Regulatory Commission. The third nomination is that 
of Major General Phillip R. Anderson, U.S. Army, to be 
appointed as President and Member of the Mississippi River 
Commission; followed by two nominations those of Mr. Sam 
Epstein Angel, and Brigadier General Robert H. Griffin, U.S. 
Army, to be appointed as members of the Mississippi River 
Commission. All of the nominees, in my judgment, are well 
qualified for the positions.
    I welcome our five nominees and also welcome Dr. Meserve's 
wife, Marty. We also, of course, welcome Senator Byrd.
    The purpose of the Chemical Safety and Hazard Investigation 
Board is to investigate chemical accidents and report the 
facts, circumstances and cause or probable cause of any 
accident or release resulting in a fatality, serious injury or 
substantial property damage.
    The President has nominated Dr. Paul L. Hill, Jr. for 
reappointment as Chairperson and member of the Chemical Safety 
and Hazard Investigation Board. Dr. Hill has been serving as 
Chair and member of the Board since 1994 and has over 20 years 
of professional experience in chemical safety, regulation, and 
public policy development. Prior to his current position, he 
was President and CEO of the National Institute for Chemical 
Studies.
    He has served the State of West Virginia in several 
capacities--Science Advisor the West Virginia Water Resources 
Board and Deputy Administrator of the Department of Natural 
Resources.
    He holds B.S. and M.S. Degrees from Marshall University and 
a Ph.D. from the University of Louisville.
    Now to the Nuclear Regulatory Commission which is an 
independent regulatory commission responsible for ensuring 
adequate protection of the environment, public health and 
safety, common defense and security with respect to the use of 
nuclear materials for civilian purposes in the U.S.
    Dr. Richard Meserve has been nominated by the President to 
a member of the NRC. If confirmed, I understand the President 
intends to designate Dr. Meserve as the new Chairman.
    Dr. Meserve is currently a part of the DC law firm of 
Covington & Burling, Chairman of the National Academy of 
Sciences Committee seeking to upgrade the protection of nuclear 
weapon materials in Russia. He was formerly a law clerk to 
Justice Blackmun on the Supreme Court. Dr. Meserve received a 
B.A. Degree from Tufts, J.D. from Harvard Law School, Ph.D. in 
Physics from Stanford.
    Since the flood of 1928, the primary function of the seven-
member Mississippi River Commission has been to implement, 
construct and operate the Mississippi River and Tributaries 
Project. This involves the development and execution of flood 
protection programs comprised of river dredging, levy 
construction, and water distribution along the Mississippi 
River.
    The President has nominated Major General Phillip R. 
Anderson to be President and Member of the Commission; 
currently serving as Commanding General of the U.S. Army 
Engineer Division, Mississippi Valley, Vicksburg; previously 
Director of Military Programs, U.S. Army Corps of Engineers and 
Deputy Commanding General and Assistant Commandant of the 
United States Army Engineer Center. He served as leader of our 
engineering forces in Haiti in June and November 1995.
    He received his B.S. from the Virginia Military Institute; 
his M.S. from the University of Chicago of Illinois in Civil 
Engineering; his M.A. in International Relations from Salve 
Regina College in Rhode Island.
    The second Presidential nomination to the Commission is Mr. 
Sam Epstein Angel to serve as a member. He was first appointed 
to the Commission in 1979 and reappointed in 1980. He is from 
Chicot County, he is an Arkansas planter and ginner. He has 
served as President of Epstein Land Company, Epstine Gin 
Company in Lake Village, Arkansas since 1980, as well as the 
Chicot Warehouse Inc. in Eudora, Arkansas.
    Since 1970, he has been Commissioner of the Chicot County 
Watershed District. He is a former commissioner of the Chicot 
County Rural Development Authority.
    Brigadier General Robert H. Griffin is the third nominee to 
the Commission. He has served as Commanding General for the 
United States Army Corps of Engineers, Northwestern Division, 
since 1996. Prior to that, he was Commander of the United 
States Army Corps of Engineers, Mobile District, Mobile, 
Alabama. He commanded the 864th Engineer Battalion which 
included service in Desert Storm.
    He receives his B.S. in Mechanical Engineering and M.S. in 
Civil Engineering from Auburn University and an M.B.A. from 
Long Island University, CW Post.
    Senator did you have a statement?

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. As Chairman of the Subcommittee on Clean 
Air, Property Rights, Wetlands and Nuclear Safety, we have some 
jurisdiction over all of these appointments. So I am very 
interested in these and I have heard a lot of good things.
    My major concern is I have had the honor of talking to Dr. 
Meserve in my office and we have many mutual friends out there. 
He comes very highly recommended. We have a lot of problems 
there. We did not offer any oversight for the first 2, maybe 2 
\1/2\ years that I chaired this committee but we got into it. 
Just in the last year we have had two oversight hearings and we 
were actually planning to have one today and did not because we 
thought he would need to be on the job for a while before we 
get into some of the issues that we are going to be discussing.
    I am concerned about the relicensing process and I am 
pleased that the NRC is currently on track to process the first 
two applications within 2 years. However, we are going to have 
to find some way, as you and I talked in my office, of 
streamlining this process in order to accomplish the 
relicensing commitments we field in the next short period of 
time.
    We are interested in the 5-year strategy, are anxious to 
get that. We got off to a slower start and I hope you will make 
that one of your top priorities.
    One of the things I do want to spend some time on and we 
can do this during question and answer is something that we 
addressed in our committee. We do have a commitment, it is my 
understanding, that there is going to be a new approach to the 
fee system so that the licensees will only be participating in 
those things from which they either inure some type of benefit 
or are subject to jurisdiction.
    There is approximately $40 to $50 million of functions that 
are performed by the NRC that have nothing to do with industry. 
I want to be sure that we have a clear understanding, as you 
and I had when we visited in my office, that anything that does 
not affect the licensee should have to go through the normal 
appropriations process.
    We will have a chance to address this during question and 
answer time. I am looking forward to these confirmations.
    Senator Chafee. Thank you very much.
    Senator Lautenberg, do you have anything you want to say?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Yes, Mr. Chairman. Thank you.
    I welcome our nominees today. I am happy to see Senator 
Byrd here. I am always anxious to hear what he says because 
what he says is always supported by knowledge, experience and 
memory which I am trying to emulate. That is going to be pretty 
hard unless I am about a 486K or something like that.
    Senator Chafee. If you stay around this place for 46 years, 
you will get it.
    Senator Lautenberg. I remember all the kings of England, 
the periods they served, how they died, starting with 1066 or 
the establishment of the Roman Senate, and a few other things, 
Mr. Chairman. I am impressed with the candidates we have for 
the Nuclear Regulatory Commission as well as the Chemical 
Safety and Hazard Investigation Board. Each of these nominees 
brings terrific credentials and I am pleased we are going to be 
hearing from them.
    The Chemical Safety and Hazard Investigation Board is of 
particular interest to me because the chemical industry in New 
Jersey is a significant industry, one in which we take pride 
and one that we treasure. We also want to be safe. The Board 
was created to help assure those operations do meet the 
standards we set for safe operations. The Board was authorized 
by the Clean Air Act in 1990 but not until fiscal year 1998 
were funds appropriated. Two days after the Board was able to 
open its doors in January 1998, there was a serious explosion 
at a factory in Nevada that killed four people and the Board 
was off to its first investigation.
    The recommendations that resulted from that investigation 
have been adopted by the State of Nevada in the form of State 
law. The report on that investigation and two others completed 
have been used by various organizations for training purposes 
and carefully studied by industry, government, labor and 
community groups alike.
    I know the reports on the other investigations that are 
currently underway will be solid and make a contribution to the 
safer manufacture and use, storage, et cetera of chemicals. 
That is the exact vision we had for the Board when we created 
it.
    The first concern I do have, Mr. Chairman, is that we are 
not allowing the Board to do its job, to grow to the size it 
needs to be to adequately carry out its mission. This year, in 
fact, the Board had to stop beginning new investigations mid-
year. We should not permit that to happen. The underfunding of 
the Board may be an unavoidable consequence of starting an 
agency from scratch but we cannot do that much longer. Too much 
is riding on the work of this agency.
    I look forward, Mr. Chairman, to hearing the testimony of 
these witnesses. I thank you for holding this hearing.
    Senator Chafee. Thank you very much, Senator.
    If Dr. Hill and Dr. Meserve would come forward. Senator 
Byrd, it is my understanding that you would like to introduce 
Dr. Hill. We look forward to your comments.

               STATEMENT OF HON. ROBERT C. BYRD, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Byrd. Thank you, Mr. Chairman, Senator Inhofe and 
Senator Lautenberg.
    You are very busy men and I consider a privilege to be here 
this afternoon to introduce Dr. Hill. I knew Theodore Green and 
served with him, I served with John Pastori, I served with Bob 
Kerr, A.S. Mike Monroni and you are both very worthy Senators 
to follow in their footsteps.
    You have made a mistake, Mr. Chairman. You are retiring too 
early. I would say the same thing about Senator Lautenberg. I 
have been talking to him trying to get him to change his mind. 
Nevertheless, that will be a conversation for another day.
    I appreciate the opportunity to come here and I thank you 
and the members of your committee for your courtesies.
    I welcome this opportunity to present to you this afternoon 
my constituent, the Honorable Paul L. Hill. I served with 
Lester Hill from Alabama, a great Senator. Benjamin Hill was a 
great Senator. I did not serve with him; that was before my 
time. Benjamin Hill was a great Senator, a great orator and I 
am confident that Dr. Hill will be just as illustrious and just 
as capable in his field as the two Senators Hill that I 
mentioned were in theirs.
    Dr. Hill is the current Chairman of the U.S. Chemical 
Safety and Hazard Investigation Board and has recently been 
renominated, as you have pointed out, by the President with my 
support, to serve a second term as Chairman.
    Dr. Hill holds a PhD from the University of Louisville and 
B.A. and M.A. of Science Degrees from Marshall University in 
West Virginia. I attended Marshall when it was a college, not a 
university. I attended one semester. I took eight courses, 22 
hours and made eight As at Marshall University. I was a little 
late in receiving my baccalaureate, I received it 5 years ago 
at the age of 76. My baccalaureate was in political science. I 
received my law degree in 1963 at the age of 45 but I am proud 
always to say that I am an alumnus of Marshall University, age 
76.
    We learn a lot more when we go to school late as I had to 
do. So Dr. Hill comes as someone who attended Marshall 
University.
    Dr. Hill, you are not the only man around here who was a 
great physics major. I have two grandsons that are physics 
majors from the University of Virginia which has a very strong 
Physics Department. My third grandson, who is the second 
physics major in my family, married last Saturday and is off to 
Hawaii.
    Dr. Hill has dedicated 20 years of his career to chemical 
safety, regulation and public policy. This includes 7 years as 
President and CEO of the National Institute of Chemical Studies 
located in Kanawha Valley of West Virginia which is also home 
to a thriving chemical industry on which the State and the 
Nation depend.
    Jacob worked 7 years for Rachel and when Jacob went to 
claim Rachel after working for Laben for 7 years, the father-
in-law did not give him Rachel, the father-in-law gave him 
Leah, Rachel's sister. The Scriptures say that she was weak-
eyed. So you worked there 7 years but these gentlemen are not 
going to make you work 7 more as Laben did. He required Jacob 
to work 7 more years before he could finally get Rachel.
    It is in this capacity that I am most familiar with Dr. 
Hill's abilities. The chemical industry is a critical component 
of the West Virginia economy but we all know that many 
chemicals are sensitive and volatile, and that chemical 
accidents which pose significant threats to life and the 
environment can and do occur. When they do occur, public outcry 
for immediate remedy is often at odds with the viability of the 
business involved.
    Dr. Hill established his credibility within the field of 
chemical safety by working with government, industry and the 
public to better manage chemical risks while still sustaining 
environmentally responsible economic growth in the industry. 
Thoughtful, studious and capable, Dr. Hill has demonstrated 
calm and effective leadership, not only in more mundane, day-
to-day circumstances, but also in the highly charged emotional 
atmosphere that accomplishes the real life nightmare of a 
chemical accident.
    In 1993, when the President began looking for candidates 
for the U.S. Chemical Safety and Hazard Investigation Board. I 
had no hesitation in bringing Dr. Hill's interest in serving on 
the Board to the Administration's attention. I was very pleased 
that the President and this committee also recognized Dr. 
Hill's qualifications to lead this new, independent agency. 
However, for the first 3 years of his 5-year term as Chairman, 
delays in providing funds to initiate the Board's activities 
kept that body from serving its appointed role.
    I hope that my colleagues here will look favorably on Dr. 
Hill's nomination to a second term as Chairman of the U.S. 
Chemical Safety and Hazard Investigation Board. I believe they 
will. I know Senator Chafee is a very tough Chairman but he is 
fair. I know Mr. Inhofe is also a man of great courage and is a 
hard worker. I served with him on the Armed Services Committee 
and I have great respect for him as well. Senator Lautenberg is 
my colleague on the Appropriations Committee and I have had the 
great pleasure and privilege of serving with him on that 
committee for many years.
    In his year-and-a-half tenure, Dr. Hill has led a board 
which, while still in its infancy, has as its mission to ensure 
the safety of workers and the public by eliminating chemical 
accidents. To date, the Board has investigated 22 chemical 
accidents and has completed reports on three. The Board's 
initial research indicates that on average, 253 Americans die 
each year as a result of chemical accidents. Dr. Hill knows 
that and he knows this is unacceptable and that the success of 
his tenure will be measured by the Board's effectiveness in 
reducing chemical accidents by finding out their cause and by 
helping to find solutions to prevent similar accidents from 
occurring in the future.
    In West Virginia and other States across the country with a 
high concentration of chemical plants, the existence of this 
board provides greater peace of mind both to the people who 
work in the plant and to those families living near the 
highways and railways that transport the chemicals. Dr. Hill 
has proven that through diligence, cooperation and forethought, 
dangerous situations can be avoided and lives can be protected.
    I am proud to introduce a man of Dr. Hill's caliber because 
in doing so, I also put my own name on the line. I hope the 
committee will express confidence in his abilities to guide the 
organization and its next 5 years by approving his 
renomination.
    Thank you, Mr. Chairman. I thank my colleagues on the 
committee who serve with you for this opportunity.
    Senator Chafee. Thank you very much, Senator Byrd. 
Obviously your support for Dr. Hill is very beneficial to him, 
not that he was in trouble but having your support is a 
splendid thing.
    I know you are extremely busy so if you would like to 
retire now, that would be acceptable. I don't think anyone has 
any questions of you.
    Senator Byrd. Thank you, Mr. Chairman.
    I wish you good luck, Dr. Hill.
    Mr. Hill. Thank you.
    Senator Byrd. I also wish the other gentlemen who are 
nominees equally good luck.
    Senator Chafee. Thank you very much, Senator Byrd.
    You each have a statement and all of the statements will be 
included in the record. Some of the statements are a little 
lengthy, so if you can stay in the 5-minute area, that would be 
helpful. It would help your cause.
    I don't think there is anyone here to introduce Dr. Meserve 
is my understanding.
    Mr. Meserve. That is correct.
    Senator Chafee. Go ahead, Dr. Hill. Give us your statement.

 STATEMENT OF PAUL L. HILL, JR., NOMINATED BY THE PRESIDENT TO 
 BE A MEMBER AND CHAIRPERSON OF THE CHEMICAL SAFETY AND HAZARD 
                      INVESTIGATION BOARD

    Mr. Hill. Thank you, Mr. Chairman and honorable members of 
this committee.
    It is certainly an honor for me to appear before you today 
to answer any questions you might have and certainly an honor 
to have been introduced by Senator Byrd. As he said, he first 
recommended me to the Administration some time ago and indeed, 
I am honored to appear before you today to answer any questions 
you have.
    Humble as I am that the President of the United States has 
placed his confidence in me by submitting my name again for 
nomination and confirmation by you, I want to assure the 
Committee and the Congress as a whole, that I will continue to 
dedicate myself as a partner with the Congress in fulfilling 
the Board's mandate.
    As Senator Byrd pointed out, I have been allowed to serve 
as Chairman of the Board only for a short period of time. 
During the startup phase, however, much has been accomplished 
of which I am very proud. There is much, much more work to do, 
however, to live up to the mandates as the Congress pointed out 
back in 1990.
    Although this has not been an easy task by any means and 
certainly a lot of challenges lie ahead, I look forward to the 
opportunity to meet these challenges if confirmed for a second 
term. Further, if the Committee would entertain engaging its 
oversight function, I would readily participate in the 
opportunity to explore various issues and challenges relative 
to improving chemical safety. In so doing, my approach to 
implementation of the Congress' intent could be aired with 
those directly involved with the Board's statutory authorities 
and indeed, its very existence.
    I think this goes along with Senator Lautenberg's previous 
comments that there are certain activities that are defined by 
the statute which obviously in our American society are 
interpreted by different parties in different ways. Our 
stakeholders obviously raise those issues and that is the 
reason why I think it is good to air these issues before the 
Congress so that we can be clear that we are together and on 
the right track to achieving what the Congress laid out.
    When I appeared before you last, there was no Board. There 
existed a statute and there were three nominees with the 
concept of a new agency and a new task that was considered 
necessary and needed. Today, we have a staff. We have four 
board members and a staff of 22. If there has ever been a from 
the ground-up organization, the Chemical Safety Board is it.
    After nearly 21 months of existence, the Board could still 
be called a virtual agency. We exist in temporary space, we 
rent our furniture, we borrow technical expertise from other 
Federal agencies and we outsource the majority of our 
administrative functions. Still, in spite of these hurdles, in 
21 months we have done what no one else can remember doing for 
a long period of time and that is create a Federal agency from 
scratch.
    We took on a businesslike approach in what we felt the 
philosophy of the Congress would be for a 21st century agency, 
that is to be lean, to be accountable and to be service-
oriented. We have allowed that philosophy to go throughout and 
pervade every action that we have taken on at the agency. We 
have many accomplishments. As I said, I am very proud and some 
of the figures you have heard from others present today, 
including Senator Lautenberg's remarks about the Nevada 
experience where our recommendations led to a direct impact at 
the State level to incorporate the new findings into 
requirements that we think will save lives. Indeed, I am very 
proud of that action. We are also investigating eight 
additional major incidents to date and several other minor 
incidents which have resulted in 33 fatalities and nearly 50 
injuries in this country.
    Various other accomplishments include our work on Y2K. 
Working with Senators Bennett and Dodd, at their request, we 
compiled information relative to the impact of the Y2K bug, as 
it is called, on chemical safety at large industrial 
facilities. We have tried very hard to address that issue 
within our limited capability in the startup year.
    There is clearly much more to do, Senators, but I have 
placed a lot of emphasis on results-oriented activities with my 
staff. I clearly appear before you today because I want to 
continue in this capacity and we are moving forward toward 
prevention as our number one goal. We cannot change those 
events, chemical accidents, but we can learn from them to 
increase our preventative capability.
    I have mentioned some other things as well, such as an 
oversight hearing, perhaps some additional modifications of our 
legislation that I think would be helpful in the interest of 
cost effectiveness now that we've had 21 months of experience.
    I am honored to be here today and in closing, let me say 
that I certainly appreciate the opportunity to speak to you 
today, answer any questions you have and look forward to the 
opportunity of working with the committee in the future.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you very much, Dr. Hill.
    There are two questions that I will be asking each of the 
nominees.
    Are you willing at the request of any duly constituted 
committee of Congress to appear in front of it as a witness?
    Mr. Hill. Yes, sir.
    Senator Chafee. Do you know any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed?
    Mr. Hill. No, I do not, Mr. Chairman.
    Senator Chafee. It is curious to me how you select which 
accidents you are going to investigate. You can't do them all.
    Mr. Hill. That's correct.
    Senator Chafee. I understand it sounds impossible, but am I 
correct in saying there are some 60,000 accidental releases 
annually in the U.S.?
    Mr. Hill. That is the number of reports recorded through 
other Federal agencies, through OSHA, the National Response 
Center, etc. That is an average number annually where there is 
a report of a chemical spill of some type. Some of those are 
small events; others are quite large.
    Senator Chafee. What do you do, you get these coming in 
obviously and some of them are very minor, as you suggest, but 
suppose you have three come in a month in which there was at 
least one fatality, what do you do? How many can you handle?
    Mr. Hill. It is a very difficult situation right now, Mr. 
Chairman, given that we're still trying to build the 
infrastructure to support the agency in its function, but I 
feel that as we are now approaching that point of having the 
basic infrastructure in place, I need to add more 
investigators. Fully a third of my staff now is dedicated to 
technical work on the investigations. I have requested, through 
my appropriations process, increasing that number significantly 
over a period of years.
    Back to your original question, how we select those, we 
began by looking at the statutory language itself and clearly 
fatalities are the first thing that is mentioned by the 
Congress in the statutory language. We began by saying if there 
is a fatality, that is a higher importance than other types of 
events.
    Clearly, we are not able to address even the ones with 
multiple fatalities. We can look at some of those, but we 
certainly can't look at them all. We would like to be able to 
do so, but resources prevent us from doing so right now.
    Other things we look at are the level of significance and 
the opportunity to learn from these events. If we see safety 
system failures that are applicable across a broader industry, 
then we feel we can provide value added by looking at those 
types of events.
    We are formalizing a process right now where a month from 
now we are scheduling a stakeholder group meeting to put 
together a more formalized selection criteria process but right 
now, we've been following the statute.
    Senator Chafee. Do you find the chemical companies 
receptive to your recommendations? Say Company A has a 
fatality, so you investigate it and come to a conclusion in 
some fashion of why it was caused. Then, I presume you have 
some system for circulating this among the chemical industry, 
so Company B finds out. I don't know how you circulate your 
discovery investigations and your results but presumably you 
come up with a conclusion that such and such a procedure was a 
dangerous one and should be avoided.
    Mr. Hill. Yes, sir.
    Senator Chafee. In a way, you're sort of like OSHA, I 
suppose. Is chemical Company B receptive to your suggestions?
    Mr. Hill. Yes, sir. They have been very receptive. In fact, 
one of the things the industry has pointed out to us is that 
the ability to collect this information under our statutory 
authorities protected from some of the liabilities that 
companies face in sharing their own information is a big 
benefit to them. That is, in cases where say we investigate an 
accident at a refinery, then the findings can be shared with 
all the other refineries in the country and the entire segment 
of industry such that they don't make the same mistakes. We 
publish that information on our web site, we distribute the 
reports very broadly and we contact the trade associations of 
those organizations to make sure that information gets out. We 
share it with the States and any other potential business that 
might have a similar operation where we can provide that 
learning.
    Senator Chafee. Thank you.
    Senator Chafee. Senator Lautenberg?
    Senator Lautenberg. Thank you, Mr. Chairman.
    Dr. Hill, we are pleased to have you with us today. The GAO 
I understand has done a review of the committee's functioning. 
What did they find and what has been the response to those 
findings?
    Mr. Hill. After we were in operation for the first 9 
months, Senator, GAO did an audit of our startup functions. We 
had actually talked to GAO within the first few weeks of our 
operation. In the effort, as I indicated earlier, to start a 
new agency, we were looking for all the advice and input we 
could find about how to properly do that and meet all the 
Federal requirements and ensure that we were doing so.
    One of the primary findings of GAO dealt with our 
contracting services. The indicated in those first 9 months, we 
had not issued a written, key emphasis on the word written, 
document detailing our contracting procedures. That's not to 
say that we had any contract problems or it's not to say that 
we were not following Federal contract procedures. Indeed, we 
were following the ones at General Services Administration 
which was handling that. That was one of the major findings 
which we have addressed.
    Another finding dealt with their suggestion that we review 
our staffing and how those staff positions were allocated. We 
have done that. I communicated directly with GAO.
    Senator Lautenberg. How you were staffing with the budget 
that you had or how you might staff if you had the full budget 
you needed?
    Mr. Hill. It dealt with the staffing that we had, Senator. 
The fact that we had staffing allocated to various functions of 
the agency in order to support it and there were some 
comparisons between our agency and NTSB, which is our sister 
agency.
    We felt we had addressed that and indicated that indeed we 
plan to grow the agency all in the technical area to do more of 
that work in the future now that we have established the basic 
infrastructure.
    Senator Lautenberg. Do you have any idea of the population 
of chemical--I don't want to say companies as much as sites--
around the country where material that could be hazardous 
exists? Do you have any idea how many of those there are?
    Mr. Hill. We do not have a precise number, Senator, at this 
time. I can tell you that through some of the work that EPA did 
on the risk management planning process, which is also 
contained in the Act, very near our language, and which we will 
be reviewing as directed by the Congress, that EPA had some 
66,000 facilities that are covered by that particular rule. 
Certainly I don't think that's a comprehensive number because 
the Congress directed us to look at all chemical compounds and 
even make recommendations about the chemicals that go on the 
list. I would say it is significantly larger than that.
    Senator Lautenberg. How many employees might you guess 
would be included in that world?
    Mr. Hill. You mean employees of the private firms?
    Senator Lautenberg. yes.
    Mr. Hill. Certainly hundreds of thousands.
    Senator Lautenberg. I was struck by the fact that you said 
there 60,000 on average incidents a year, and correct me my 
recollection is wrong?
    Mr. Hill. Those are incidents that are reported to Federal 
agencies today. Yes, that's the average number.
    Senator Lautenberg. So based on the estimate of 66,000 
facilities, and you say it's larger, could there be an incident 
almost in every facility--I mean 60,000 incidents over a 
population of 66,000 facilities is a terrible record.
    Mr. Hill. It is a sizable number, Senator, no question 
about it. Again, there has to be a significance associated with 
those but again, we're not looking at just facilities that 
manufacture chemicals, although they are a big player, but we 
look at, as the Act says, warehouses, storage facilities, 
disposal facilities, transportation, there's a sizable number 
in that data base that are attributed to transportation.
    I have to tell you that the data has some problems with it 
in that we have not had a comprehensive assessment at the 
Federal level of just some of the figures you're asking for.
    Senator Lautenberg. Would you be able to do that if we 
raised the funding to the level requested, I think $6.5 million 
and the request is for $12 million?
    Mr. Hill. That's correct. Yes, sir, one of the things we 
want to do is give the Congress a better read on exactly what 
this problem looks like, how big, how small, what areas we 
should invest our resources in and today, as I told my 
Appropriations Committee in the House in February, I can't tell 
you if warehouses are more of a problem than refineries or if 
chemical manufacturers are more of a problem than warehouses. 
The information has not been kept in such a way that allows us 
to answer those questions. We are proceeding with that very 
issue by trying to consolidate this information and collect new 
sources that we can report to the Congress.
    Senator Lautenberg. Do you have a reliable figure for the 
number of fatalities or injuries that occur each year?
    Mr. Hill. Yes, sir. On the average, as Senator Byrd said, 
there are 256 I believe is the average number annually that we 
have associated with chemical spills.
    Senator Lautenberg. Fatalities?
    Mr. Hill. Fatalities, and many, many hundreds of injuries 
on top of that, thousands actually.
    Senator Lautenberg. To wrap up, Dr. Hill, the State of 
Nevada adopted the Board's recommendations?
    Mr. Hill. Yes.
    Senator Lautenberg. Can you briefly tell us what those 
recommendations or statutes are that resulted from those 
recommendations?
    Mr. Hill. Yes. When we completed our investigation of 
Sierra Chemical Company in Nevada last year, we made 
recommendations to the State--Nevada is a State OSHA plan which 
has authority for investigations and inspections of those 
facilities--that the individuals who conduct those inspections 
be trained in understanding the chemical safety issues 
particular to the explosive chemicals industry. They did not 
have anyone on staff who knew that industry well enough to 
really know what they were looking at when they went in.
    We recommended they improve training for their own workers 
as well as increase the frequency of inspections. Some of those 
facilities, and Nevada has several, are only inspected on a 
very infrequent basis.
    Another recommendation was that the safety information 
provided to the employees in the plant be provided in their 
native language. As it turns out, the vast majority of the 
individuals who worked at that plant were Hispanic who neither 
spoke nor read English. However, all the safety information to 
warn them of hazards they were working around on a daily basis 
was all in English. Therefore, those individuals did not 
comprehend their risk situation. We recommended that they be 
trained in their native language and moved through that 
process.
    The State of Nevada legislature, as well as the Governor's 
office, took up those recommendations. The Governor actually 
acted before the legislature and did an executive order on some 
of these items, then the State legislature passed laws that 
were signed this spring that incorporated those concepts.
    Senator Lautenberg. Thank you, Mr. Chairman.
    Senator Chafee. Thank you.
    Senator Inhofe. I have no questions of Dr. Hill.
    Senator Chafee. Senator Crapo?
    Senator Crapo. I have no questions for Dr. Hill.
    Senator Chafee. Dr. Hill, thank you very much.
    There is a very nice letter in here about your work in 
Contra Costa County, California. This is a recently dated 
letter that they had a very serious situation and you were 
helpful?
    Mr. Hill. Yes, sir, I was just there last week and held a 
public hearing.
    Senator Chafee. I must say it was a serious situation. She 
says in her letter, ``When another even more fatal accident 
occurred''--if it was more fatal than the other one, that was 
very fatal.
    Mr. Hill. I think they had one fatality and then the next 
incident they had four.
    Senator Chafee. Fine. Thank you very much.
    You can be excused.
    Dr. Meserve, is your wife here? Did you want to introduce?
    Mr. Meserve. Yes, my wife is here.
    Senator Chafee. We'd be happy if you want to introduce her.
    Mr. Meserve. I'm joined today by my wife, Marty Meserve, if 
she would stand.
    Senator Chafee. We welcome you here.
    I suspect you're making some sort of sacrifice here. When 
someone goes from Covington & Burling to a Federal job, some 
sacrifice is involved, I suspect. Please go ahead.

STATEMENT OF RICHARD MESERVE, NOMINATED BY THE PRESIDENT TO BE 
         A MEMBER OF THE NUCLEAR REGULATORY COMMISSION

    Mr. Meserve. Mr. Chairman and members of the committee, I 
appreciate the opportunity to appear today at this hearing on 
my nomination. As Senator Chafee has indicated, the President 
has stated his intention if I am confirmed to designate me as 
Chairman of the Nuclear Regulatory Commission.
    I have provided a written statement and I will offer now an 
abbreviated version. Let me just say a few words about myself 
and then offer my thoughts as I contemplate the possibility of 
joining the NRC.
    As Senator Chafee has indicated, I am a partner in the law 
firm of Covington & Burling, which I joined as an associate in 
1981. I turned to the practice of law after completing a Ph.D. 
in Applied Physics and I have used my scientific training in a 
legal work. This has included work on nuclear-related issues.
    As an attorney who has worked with the NRC, I have a 
familiarity both with its procedures and with the substance of 
its work. I have also served on a number of committees of the 
National Academy of Sciences and the National Academy of 
Engineering that have focused on nuclear issues.
    I believe that my educational background and my 
professional experience will reinforce each other in ways that 
should be helpful in the conduct of the Commission's work.
    Rather than take further time here today to discuss my 
professional career in greater detail, I have submitted my 
resume as an attachment to the statement.
    Let me turn now to my views as I contemplate the 
possibility of joining the NRC. As I am sure this committee is 
fully aware, we are in the midst of a significant restructuring 
of the utility industry. In a growing number of States, the 
competitive market determines the price for electricity and 
thus profitability for all forms of generation is dependent on 
achieving economically efficient operations. This has important 
implications for the NRC's work.
    First, and most important, it reinforces the need for the 
NRC to fulfill its obligation to demand safe operations by 
licensees. The NRC must assure that the pressures to reduce 
costs do not become incentives to cut corners on safety. The 
NRC must ensure that its licensees meet the agency's safety and 
environmental requirements.
    Second, in a time of sensitivity to costs, the NRC has a 
particular obligation to regulate efficiently, to regulate in a 
fashion that imposes the minimum degree of burden consistent 
with getting the job done. This implies a judicious approach, 
both to new regulatory initiatives, making sure the benefits 
outweigh the costs, and a willingness to cast a cold appraising 
eye on existing policies and programs. Moreover, managerial 
oversight is necessary to make sure that the policy decisions 
made in the agency's conference rooms are translated into 
practice at the operational level.
    Third, it is incumbent on the NRC to reach decisions in 
appropriate ways. Decisions must be fair and be perceived to be 
fair. They must be appropriate for the particular task at hand 
and they must be efficient and timely. For example, if a 
process is so needlessly time-consuming and inefficient, the 
delay itself determines the outcome and the goal of fairness is 
not being met and the Commission has failed in its obligations.
    At the same time, however, there should be no slighting of 
the significant role that Congress gave to the public in NRC 
processes. Thus, as the NRC carries out its regulatory 
activities, it must be conscious of the need to include the 
affected public in ways that are meaningful and that contribute 
to efficient decisionmaking.
    Finally, at a time when the Commission has a variety of 
important matters to which it must attend, I am mindful of the 
fact that Congress created the NRC as a multimember commission. 
Each member should gain the benefit of the other members' 
expertise and ideas, thereby allowing more informed and 
thoughtful decisions than any one commissioner could provide 
alone.
    I understand this places a special obligation on the 
Chairman. In addition to taking a leadership role, the Chairman 
has a special responsibility to listen to his or her colleagues 
and to work for consensus.
    I believe the NRC has made progress in all of these areas 
in recent times and I believe there are grounds for optimism 
about the future. I see an agency well aware of its duties to 
protect the public health and safety under law. I see an agency 
that has worked to improve its communication with members of 
the public, the regulated industry and with the Congress. I see 
an agency that is taking advantage of improvements in 
analytical tools and information to focus on those aspects of 
industry operations that are most significant. In short, I see 
an agency on the right track.
    If confirmed, I look forward to working with my colleagues 
on the Commission to build on the achievements of the recent 
past. I would be pleased to answer your questions.
    Senator Chafee. Thank you very much.
    Senator Inhofe has some scheduling challenges, so Senator, 
if you'd like to proceed now?
    Senator Inhofe. Thank you very much.
    First of all, I'd like to congratulate the NRC in 
processing the first two relicensing applications so quickly 
even though you had nothing to do with it. We are looking for 
great things from you too. I think the hard part is going to 
be, as you and I discussed, that you will have at least ten of 
these to be working at one time.
    I really believe that it's going to be necessary to make 
changes and streamline the operation in order to do that. Do 
you agree with this and do you have any ideas as to where to 
start with streamlining the operation or the process?
    Mr. Meserve. Senator Inhofe, the relicensing process which 
is a very important activity that the NRC has underway. As you 
indicated, there are two obligations that are in the pipeline 
now. I think there are going to be several others, as you 
indicated, that will be emerging over the years. Of course the 
licensees themselves will determine whether and when to start 
the relicensing process.
    The NRC has to do these efficiently and has to do them in a 
timely fashion, as I indicated in my statement. Not having been 
on the inside of that process, I don't come to the job with the 
knowledge of how to assure that happens, but I understand the 
importance of making sure such applications go forward.
    Senator Inhofe. You and I also talked about the 5-year plan 
and the necessity to come up with a real comprehensive 5-year 
plan which wasn't done. I think you are probably aware that the 
GAO looked at the first attempt and it was not adequate.
    First of all, when do you think you will have a 5-year 
plan? Have you talked among your colleagues?
    Mr. Meserve. I am aware of the issue in general but I am 
not aware of the schedule for the plan.
    Senator Inhofe. You haven't talked about how long it would 
take?
    Mr. Meserve. My understanding is that the Government 
Performance and Results Act requires a strategic plan and I 
believe that is underway. It's my understanding, and I may be 
mistaken about this, that there is some suggestion in draft 
language in the House Appropriations Bill about a different 
kind of plan. I've not seen the specifics of that language and 
exactly how that relates to the strategic plan.
    Senator Inhofe. It's my understanding that both plans are 
trying to get to the same thing. I guess the request I'd make 
is that when you do determine when that time would be, say 
anytime in the next few weeks, I'd like to have you share with 
me what your timing is going to be and also a commitment that 
we will be advised during the development of this plan with 
documents so that we will have an idea of where we are going.
    One of the things that I know we don't like on this 
committee and other committees too is to wait and not have any 
idea of what is in the making. We like to be kind of a part of 
the development in being advised as you move along. Does that 
sound reasonable?
    Mr. Meserve. Senator Inhofe, I appreciate that the Chairman 
and Commissioners have an obligation to keep the Congress 
informed of their work and I intend to fulfill that obligation.
    Senator Inhofe. The other area we talked about when we had 
a committee meeting before my subcommittee before we started 
some oversight was that we had something I wanted to see 
terminated and that is the entire funding for the operation of 
the NRC coming from the licensees. While there are functions 
that are performed that do not either inure to the benefit or 
the regulation of those licensees and I feel very strongly that 
amount, which I think is in the neighborhood of $40 to $50 
million, as soon as that is determined, should have to go 
through the normal process and not be a charge to the 
licensees.
    That's a very strong feeling that I have and we have talked 
about this. Do you agree conceptually that we should do that?
    Mr. Meserve. I agree, conceptually. Obviously I think there 
is a fairness issue here. The licensees ought not to be charged 
fees for things that do not benefit them directly.
    I've not been in the middle of this appropriations process, 
as you can appreciate. There is also a public interest in 
making sure there is sufficient funding for the NRC to fulfill 
the obligations with which it is charged. I would hope there is 
a way that the NRC, working with the Congress, can find a way 
to make sure there is no conflict between those two principles. 
I don't think there should be, but there may be, and I hope to 
be able to work with you and your colleagues in the Congress to 
make sure we can resolve any such conflict.
    Senator Inhofe. You indicate you're not familiar with the 
appropriations process. There is a process and that process is 
to present your case through that process to the Appropriations 
Committee or the appropriate subcommittee, justify your case in 
making your appeal for the appropriations.
    What I don't want to happen is to assume that we can go 
along and if you're not successful and don't meet the criteria, 
and you're not successful in getting an appropriation, assuming 
you can go right back to business as usual and start assessing 
the licensees for those functions to which they have no 
involvement or interest or benefit. That's my concern. Do you 
agree with that?
    Mr. Meserve. I agree it is certainly a concern. My 
impression is--and again I will defer to your greater knowledge 
on this--that there may be a difference in view in the 
Appropriations Committee with regard to whether funding for 
those activities which benefit the public as to whether that 
should come from the general revenue. I'm not in a position to 
say how that should be resolved. That's something I would hope 
we could get some help from you and others in the Congress in 
trying to make sure that it is resolved.
    There are some NRC activities that do not benefit the 
licensees in which they have a fair and equitable argument that 
they shouldn't be paying for. That's not to say that those are 
not appropriate for the NRC to do. There are some things, like 
the supervision of the Agreement States, which is an NRC 
obligation under the statute, that does require making sure the 
NRC has the capacity to do the job. Similarly, there are 
benefits to the United States I believe from various of the 
international activities of the NRC.
    I hope that we don't find ourselves in a position where 
being able to fulfill all of the obligations properly and 
efficiently puts such a crunch in the agency that it can't do 
it's job well.
    Senator Inhofe. But you see, during the normal 
appropriations process, those things are all considered. One of 
the major considerations is that it's something mandated by 
statute. If it is, obviously the Appropriations Committee would 
respond. In fact, everything you mentioned is something that is 
a part of the process of going through that appropriations 
process.
    I want to get this started and this is one of the first 
reforms when we started our oversight here a couple of years 
ago that I wanted to be sure that we were able to achieve. All 
I want from you is the commitment that you will try to achieve 
this and you will work with us.
    What I don't want to happen is to have you folks go through 
the appropriations process and they determine that this 
something that should not and does not deserve funding, then 
assume you can go right back to the licensees and say, they're 
here anyway. That's my concern.
    Mr. Meserve. I understand your concern. I look forward to 
the opportunity to work with you on it.
    Senator Inhofe. Thank you very much.
    Senator Chafee. Senator Crapo?
    Senator Crapo. Dr. Meserve, the questions I have relate to 
the handling of the procedural approach to Yucca Mountain as we 
set the various standards for regulation and hope to ultimately 
open and operate Yucca Mountain.
    It's my understanding that the EPA's recently proposed 
water quality standards for Yucca Mountain's project are 
extremely stringent and beyond that which are reasonable or 
even what was expected and if they become applicable and law, 
they could pose a serious problem with regard to the 
implementation of operations at Yucca Mountain.
    I'm not going to ask you to comment on that conclusion, but 
I think there is a very strong question which is one which 
arose from the same type of issues with the opening and 
operation of the WIPP facility in New Mexico about whether the 
EPA is the proper authority to be establishing the regulatory 
standards for these types of facilities or whether those 
standards are more properly the jurisdiction and expertise of 
the NRC. Do you have an opinion on that?
    Mr. Meserve. Certainly they are within the expertise of the 
NRC. The NRC has a longstanding involvement with setting 
radiation related standards and safety standards and great 
experience in doing so with very competent and capable staff.
    There have been disputes over the years, as I understand 
it, between EPA and NRC on standard-setting matters. The state 
of play is one that Congress created with regard to the Yucca 
Mountain. EPA is designated the responsibility, statutory 
responsibility, to establish standards and then NRC is to 
fulfill the implementation of those standards.
    It seems to me there is some redundancy but it's one that 
Congress created. I would hope if I am confirmed to serve as 
the Chairman that we would find a way to at least resolve some 
of the conflicts that have existed over the years with EPA.
    Senator Crapo. Do I understand you to say that if Congress 
were to adjust the law or to change the jurisdictional 
responsibilities, that the NRC does have the expertise and 
ability to set, establish and properly manage these standards?
    Mr. Meserve. I have not obviously served in the position 
but as someone on the outside looking at the NRC and having 
worked with the NRC on various issues, it's been my perspective 
that they are very capable and competent in the radiation 
standard area.
    Senator Crapo. With regard to the issue of working to 
address the redundancy and difficulty to make sure we can move 
forward with reasonable standards that are workable for the 
intended purpose of the facility, do you intend, if confirmed, 
to take a forceful role in assuring whether it's EPA standards 
or NRC standards or both that the standards that are adopted 
are reasonable and workable standards?
    Mr. Meserve. The NRC doesn't have control over the EPA 
standards, so that aspect of the standards is the predicate 
within which the NRC must operate. It would be my intention--
obviously one commissioner alone does not determine this--to 
establish standards for Yucca Mountain that are appropriate to 
the circumstances and provide adequate protection of the public 
health, safety and environment. That would be the starting 
point for what the Congress has a right to expect from the 
Commission. It would be my intention to try my best to fulfill 
that obligation.
    Senator Crapo. Do you have a position on whether the 
Congress should leave jurisdiction with the EPA or should move 
jurisdiction to the NRC on this issue?
    Mr. Meserve. I don't have an informed opinion on that, not 
having served on the NRC and not having worked directly with 
the EPA on that issue at this moment. That would be something I 
would expect I will be learning if I am confirmed.
    Senator Crapo. I am sure if you are confirmed that this is 
going to be an issue we will deal with and very closely.
    Thank you very much.
    Senator Chafee. I have the same two questions for you. Are 
you willing at the request of any duly constituted committee of 
Congress to appear in front of it as a witness?
    Mr. Meserve. Yes, sir.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you're confirmed?
    Mr. Meserve. No, I do not.
    Senator Chafee. This committee has had some hearings on the 
NRC wherein the NRC has been criticized by both industry and 
environmentalists for its regulatory policies. Do you think the 
NRC can improve its effectiveness so as to allow efficient 
industry operations while ensuring public safety? In other 
words, is safety and efficiency mutually exclusive?
    It does seem to me as somebody watching this that in the 
United States there are no new plants under construction. Am I 
correct in that?
    Mr. Meserve. That's correct.
    Senator Chafee. Part of it is obviously due to the lower 
price per kilowatt hour and that's understandable. It's a 
difference of 12 cents for nuclear new construction and 3 cents 
for gas. Does that sound right?
    Mr. Meserve. I think it varies from one part of the country 
to another.
    Senator Chafee. You and I discussed this briefly in the 
office the other day and it seems to me that the regulations 
are sort of a moving target. Anybody would be a bold person I 
think, any power company would be quite bold to undertake 
construction nowadays because it just seems to go on 
interminably, the regulations and the difference in cost but 
that's not going to be there forever.
    So we see what happens in France where more than 50 percent 
of the power is generated by nuclear power.
    Mr. Meserve. I think it's a higher percentage than that.
    Senator Chafee. And higher than that. Germany likewise, 
very substantial. I don't know what it is but very substantial. 
Do you see anything changing this? Obviously you can't affect 
the price of natural gas, but do you think these things are 
mutually exclusive, that safety means tremendous delay?
    Mr. Meserve. There are several thoughts I have had as you 
have asked the question. I don't think that safety and 
efficiency are mutually exclusive. I think that the NRC has 
started on the process of trying to adjust its regulatory 
system so that the most significant risks are addressed to cut 
out regulation that isn't serving any function.
    They have been doing this in a process they call risk-
informed regulation and they have some pilots underway that for 
the most part, to the extent they have been completed, have 
worked out well. They are going to provide the foundation for 
changing the regulatory system.
    These initial pilots are going is something that is going 
to be very important in trying to find a way to have the 
regulatory system operate more efficiently and thereby minimize 
needless costs that industry is asked to bear in order to 
assure safety.
    Senator Chafee. At the end of the whole thing, you've got 
what to do with the waste material?
    Mr. Meserve. That's right.
    Senator Chafee. Which hasn't been solved.
    You are going into a challenging position and we're 
delighted. You are well prepared for it and I think the 
President has chosen widely.
    Thank you for your testimony.
    General Anderson, Mr. Sam Angel and General Griffin, if you 
could come forward, we'd appreciate it.
    Gentlemen, we welcome you. I am a great admirer of the 
Corps of Engineers. I've seen the work you have done around the 
world, not only in the U.S. I don't know whether you gentlemen 
ever served in Saudi Arabia?
    General Anderson. Mr. Chairman, I did. We both did.
    Senator Chafee. I must say the Saudis are unqualified in 
their admiration for the U.S. Corps of Engineers. I guess they 
have had some people take advantage of them over there and they 
look to the Corps as straight shooters, honest and I've heard 
them give you tremendous praise. That is just one section of 
the world and you have done wonderfully elsewhere.
    I hope you knew that you were well received in Saudi 
Arabia. I suspect you did.
    General Anderson. Yes, Mr. Chairman.
    Senator Chafee. General Anderson, why don't you proceed 
with any comments you have.

  STATEMENT OF MAJOR GENERAL PHILLIP R. ANDERSON, U.S. ARMY, 
 NOMINATED BY THE PRESIDENT TO BE PRESIDENT AND MEMBER OF THE 
                  MISSISSIPPI RIVER COMMISSION

    General Anderson. Mr. Chairman and members of the 
committee, I'm honored to appear before you as the nominee for 
president and member of the Mississippi River Commission. I'd 
like to make an abbreviated statement about the Mississippi 
River Commission, the Mississippi River and Tributaries Project 
and my qualifications for the position for which I've been 
nominated.
    The Mississippi River Commission established by act of 
Congress on June 28, 1879, consists of seven members all of 
whom are appointed by the President of the United States 
subject to confirmation by the Senate. Three members are Corps 
of Engineers officers, one of whom serves as president; one 
member is from the National Oceanic and Atmospheric 
Administration; and three members are from the civilian sector, 
two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged 
with the task of planning and implementing a program of flood 
damage reduction projects and navigation improvements on the 
Mississippi River. More recently, project purposes have been 
expanded to include environmental restoration.
    As established in 1879, the Commissioners were to serve as 
advisers in planning and implementing water resource projects 
and programs on the Mississippi River between the Head of 
Passes below New Orleans to its headwaters. Since 1928, the 
Commission has focused on the Mississippi River and Tributaries 
Project authorized by the Flood Control Act of 1928 to be 
implemented under the oversight of the Commission.
    The MR&&T Project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and 
covers portions of seven States. It receives water from all or 
portions of 31 States or roughly 41 percent of the contiguous 
United States.
    A major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi 
Valley and the economy of the Nation were it not for the 
protection provided by the levees and other flood control works 
along the mainstem of the Mississippi and the Atchafalaya 
Rivers.
    In addition, the navigation features of the project help to 
maintain the river for shipping import and export commodities 
between inland ports and world markets.
    Reorganization of the Corps of Engineers in April 1997 
placed the entire length of the Mississippi River within one 
division of the Corps of Engineers. I serve as the Commander of 
the Mississippi Valley Division. Command of the division office 
traditionally has also included duties as President of the 
Mississippi River Commission. The reorganization of the Corps 
now allows management of the Mississippi River as a single and 
unified system and enables the President and members of the 
Commission to more effectively serve as advisers to the Chief 
of Engineers as authorized in the 1879 legislation.
    In regard to my personal qualifications, I'd like to 
mention that I am a licensed professional engineer in the 
Commonwealth of Virginia and since July 1997, I have served as 
Commander of the Mississippi Valley Division and also as 
President-designee of the Mississippi River Commission. In this 
position, I have led and managed the Corps' water resources 
program in the Mississippi River Valley.
    If confirmed to the position, Mr. Chairman, I would look 
forward to playing a key role in the continual improvement of 
the Mississippi River system and the MR&T Project by applying 
the most modern practices in water resources engineering. I 
would also look forward to being the president of a commission 
that not only focuses on the traditional roles of safely 
passing the Mississippi River Basin floodwaters to the Gulf of 
Mexico, plus providing a safe and dependable navigable 
waterway, but also incorporates programs and projects for 
environmental protection and restoration.
    This completes my prepared statement and I'd be pleased to 
respond to any questions.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you very much. You certainly have an 
impressive biography. I was looking at it here. We're delighted 
that you've been nominated for this position.
    I was looking over the names of those who serve on the 
Commission with you.
    Mr. Angel?

 STATEMENT OF SAM E. ANGEL, NOMINATED BY THE PRESIDENT TO BE A 
           MEMBER OF THE MISSISSIPPI RIVER COMMISSION

    Mr. Angel. Mr. Chairman, in the essence of time, and with 
your permission, since my statement was almost the same as 
General Anderson's, I would just like to state my 
qualifications.
    Senator Chafee. Yes, please do.
    Mr. Angel. I have served on the Mississippi River 
Commission since September 1979. This confirmation will provide 
my third consecutive 9 year appointment to this vital 
commission. I firmly believe that my experience since 1979 and 
partnering with local interests, the local levee boards, and 
Federal, State and area agencies and organizations justifies my 
reappointment to the Mississippi River Commission.
    I am a native of Lake Village, Arkansas and was reared 
adjacent to the Mississippi River. I feel that the many years 
of living and working in this area and also being affiliated 
with the Commission has given me vast knowledge of the 
Mississippi River and the various problems associated with it.
    It has been my privilege to meet many people over the 
years, both in the lower valley and recently in the upper 
valley to discuss with them their concerns regarding this 
powerful river.
    I have served as President of Epstein Land Company and 
Epstein Gin Company in Lake Village, Arkansas since 1980. I am 
a commissioner of the Chicot County Watershed District and 
former Commissioner of the Chicot County Rural Development 
Authority and the Southeast Arkansas Levee District.
    I currently serve as director of the Cotton Warehouse 
Association and the Southern Cotton Gin Association, along with 
local, State and national farming organizations.
    I attended Louisiana State University and the University of 
Arkansas at Monticello. I served with the Army National Guard 
from 1957 to 1965, and with the United States Army from 1961 to 
1962.
    If confirmed to this position, I look forward to continuing 
to play a key role in the continual improvement of the 
Mississippi River system the MR&T Project by applying the most 
modern practices in water resources engineering.
    I would also look forward to renewing my membership on the 
Commission that not only focuses on the traditional roles of 
safely passing the Mississippi River Basin floodwaters to the 
Gulf of Mexico, plus providing a safe and dependable navigable 
waterway but also incorporates program and projects for 
environmental protection and restoration.
    I have attached a complete biography on myself and a 
current list of members of the Mississippi River Commission.
    This completes my statement. Thank you very much, Mr. 
Chairman.
    Senator Chafee. Thank you very much.
    Now we will go to General Griffin.

 STATEMENT OF BRIGADIER GENERAL ROBERT H. GRIFFIN, U.S. ARMY, 
 NOMINATED BY THE PRESIDENT TO BE A MEMBER OF THE MISSISSIPPI 
                        RIVER COMMISSION

    General Griffin. I will also abbreviate my abbreviated 
statement. I have a written statement for the record as well.
    Among my qualifications, I am also a registered 
professional engineer licensed in Virginia and as a former 
District Commander in Mobile District and Chief of Staff for 
the U.S. Army Corps of Engineers, Headquarters, I believe I've 
gained valuable experience in the project operation and 
authorization process.
    One important role of the Commission is to consider affects 
the tributary basins. As a recent Commander of the Northwestern 
Division, I was intimately involved in responsibilities for the 
Missouri River Basin, one of the major tributaries of the 
Mississippi River. I have since moved in the last 2 months and 
am now the Commander of the Great Lakes and Ohio River Division 
with responsibilities for the Ohio River. I have been serving 
as a member-designee in my former capacity for almost 3 years 
next month. I believe that will bring a unique perspective to 
the Commission discussions for ongoing and future projects.
    Additionally, my time spent in the Pacific Northwest, as 
Senator Crapo well knows, although he left, provided great 
experience for me in developing projects while considering 
environmental issues.
    If confirmed, I look forward to participating in the 
continuing operation and improvement of the Mississippi River 
System.
    That concludes my remarks subject to any questions you may 
have of me.
    Senator Chafee. Thank you very much.
    I think both General Anderson and Mr. Angel mentioned 
environmental concerns in connection with all this. What do you 
say about the criticisms that the channelization--this is old 
stuff to you and I'm sure you've got answers to it--of the 
Mississippi as opposed to not letting it flood into the actual 
area has been overdone and there should be greater releases 
into the swamplands, wetlands. Is that just oversimplification? 
Do you have any comments on that, General Anderson?
    General Anderson. Yes, Mr. Chairman. I would tell you that 
we have a balancing act in the Mississippi River Commission of 
looking at flood control and navigation as well as 
environmental protection. With respect to our responsibilities 
for navigation and flood control, it is necessary in the lower 
valley to limit the meandering of the river that has happened 
in our history so as to reduce the flooding and keep the river 
within the leveed system that we have.
    We've been very successful at that. We've invested in the 
Mississippi River and Tributaries Project $10 billion since the 
start of the work but we have received $226 billion in flood 
damage reduction as a result.
    Senator Chafee. Are these major floods that have been taken 
care of?
    General Anderson. Yes, sir. With respect to your question 
about the levee system and with the revetments to keep the 
river from meandering, what about the sediments that 
traditionally flowed downstream and helped to build the Delta 
in the Louisiana area? Clearly, there has been a loss of 
wetlands, coastal wetlands in the Louisiana area. The 
Commission recognizes that and so we are proceeding with 
freshwater diversion projects that will take advantage of the 
water that's rich in nutrients and sediments to try to restore 
some of these lost wetlands.
    We are on the front end of a 10-year study called ``Coastal 
2050'' where we're looking to do more of these freshwater 
diversion projects to protect the coastal wetlands of 
Louisiana. So it's a balancing act, Mr. Chairman, and we try to 
meet our environmental, navigation and flood control 
responsibilities together.
    Senator Chafee. Do you have thoughts on that, Mr. Angel?
    Mr. Angel. I certainly agree with General Anderson. We take 
a balanced view of almost everything we do. We give just as 
much attention to the environment, as we do flood control and 
navigation, but I think you have to incorporate all three in 
our Commission.
    Senator Chafee. I'd ask each of you the questions I've 
asked the others. Are you willing, at the rest of any duly 
constituted committee of Congress to appear in front of it as a 
witness?
    General Anderson. I am, sir.
    Mr. Angel. I am, sir.
    General Griffin. Yes, sir.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed?
    General Anderson. No, sir.
    Mr. Angel. No, sir.
    General Griffin. No, sir.
    Senator Chafee. Obviously you gentlemen have had vast 
experience in these areas and have impressive backgrounds. I 
will say that I am concerned about the environmental aspect 
you've discussed. You're going to learn something from the 
study you're undertaking; that's the whole purpose. It's not a 
delaying action and so I commend you for that and thank you all 
for coming this afternoon.
    With that, we will conclude our hearing.
    That completes the hearing.
    [Whereupon, at 4:25 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Thank you, Mr. Chairman, for holding this important nomination 
hearing. I look forward to hearing from the nominees today, and hope 
that we can move forward in confirming qualified individuals to 
positions with the Nuclear Regulatory Commission, the Chemical Safety 
and Hazard Investigation Board, and the Mississippi River Commission. 
These agencies serve critical public roles. For example, the Chemical 
Safety and Hazards Investigation Board, serves an essential function 
providing independent investigation of chemical accidents, and exerting 
oversight to prevent future catastrophes. I was a strong supporter of 
the Board since its inception, and advocated strongly with my colleague 
Senator Lautenberg for adequate funding for the Board.
    I am particularly interested in hearing from Mr. Richard Meserve, 
the nominee for the Nuclear Regulatory Commission. As a supporter of 
nuclear power, I believe that a strong NRC is essential to maintaining 
public confidence in the industry. In recent years I have worked 
closely with the Commission to address some serious concerns that arose 
after problems at the Millstone nuclear plants in Connecticut. I was 
very pleased at the efforts that former Commissioner Dr. Shirley 
Jackson made to conduct extensive safety reviews, and to oversee the 
plants in preparation for a restart this year. The NRC has played a 
very important role in ensuring public health and safety protections 
are in place at nuclear facilities in my State and around the country.
    I will also be interested to hear Mr. Meserve's views regarding the 
NRC's efforts to move toward risk-informed regulation. Certainly it 
seems to make sense to prioritize safety concerns, and to effectively 
leverage limited resources. However, I also view it as essential that 
the NRC respond to some issues raised by a recent GAO report, which 
found that the NRC needs to develop more specifics on how the 
Commission will define and implement risk-informed regulation, and 
improve the base of knowledge regarding the condition of individual 
plant conditions and modifications. It is essential to ensure that 
information sharing in the area of safety does not suffer as we move to 
a competitive nuclear industry.
    I have several questions I would like to ask the Mr. Meserve in 
preparation for his pending nomination, and hope that, if confirmed, 
Mr. Meserve will continue the strong leadership that was shown by his 
predecessor.
    Again, I look forward to hearing from all the nominees this 
morning. Thank you.
                               __________
 Statement of Hon. Robert C. Byrd, U.S. Senator from the State of West 
                                Virginia
    Mr. Chairman, Senator Baucus, and Members of the Committee, I thank 
you for the opportunity to introduce to you this afternoon my 
constituent, the Honorable Dr. Paul L. Hill. Dr. Hill is the current 
Chairman of the U.S. Chemical Safety and Hazard Investigation Board, 
and has recently been renominated by the President, with my support, to 
serve a second term as Chairman.
    Dr. Hill holds a Ph.D. from the University of Louisville and 
Bachelor of Science and Master of Science degrees from Marshall 
University in West Virginia. Dr. Hill has dedicated 20 years of his 
career to chemical safety, regulation, and public policy. This includes 
7 years as President and CEO of the National Institute of Chemical 
Studies located in the Kanawha Valley of West Virginia, which is also 
home to a thriving chemical industry on which the State and the world 
depend.
    It is in this capacity that I am most familiar with Dr. Hill's 
abilities. The chemical industry is a critical component of the West 
Virginia economy. However, we all know that many chemicals are 
sensitive and volatile and that chemical accidents which pose 
significant threat to life and the environment can and do occur. When 
they do occur, public outcry for immediate remedy is often at odds with 
the viability of the business involved. Dr. Hill established his 
credibility within the field of chemical safety by working with 
government, industry, and the public to better manage chemical risks 
while still sustaining environmentally responsible economic growth in 
the industry. Thoughtful, studious, and effective, he has demonstrated 
calm and effective leadership not only in more mundane, day-to-day 
circumstances, but also in the highly charged emotional atmosphere that 
accompanies the real-life nightmare of a chemical accident.
    In 1993, when the President began looking for candidates for the 
U.S. Chemical Safety and Hazard Investigation Board, I had no 
hesitation in bringing Dr. Hill's interest in serving on the Board to 
the Administration's attention. I was very pleased that the President 
and this Committee also recognized Dr. Hill's qualifications to lead 
this new independent agency. However, for the first 3 years of his 5-
year term as Chairman, delays in providing funds to initiate the 
Board's activities kept that body from serving its appointed role. 1 
hope that my colleagues will look favorably on Dr. Hill's nomination to 
a second term as Chairman of the U.S. Chemical Safety and Hazard 
Investigation Board.
    In his year and a half tenure, Dr. Hill has lead a Board which, 
while still in its infancy, has as its mission to ensure the safety of 
workers and the public by eliminating chemical accidents. To date, the 
Board has investigated 22 chemical accidents, and completed reports on 
three. The Board's initial research indicates that on average, 253 
Americans die each year as a result of chemical accidents. Dr. Hill 
knows that this is unacceptable and that the success of his tenure will 
be measured by the Board's effectiveness in reducing chemical accidents 
by finding out their cause and helping to find solutions to prevent 
similar accidents from occurring in the future.
    In West Virginia and other States across the country with a high 
concentration of chemical plants, the existence of this Board provides 
greater peace of mind both to the plant workers and to those families 
living near the highways and railways that transport the chemicals. Dr. 
Hill has proved that, through diligence, cooperation, and forward-
thinking, dangerous situations can be avoided, and lives can be 
protected.
    I am proud to introduce a man of Dr. Hill's caliber, and I hope 
that you will express confidence in his abilities to guide this worthy 
organization in its next 5 years by approving his renomination.
    Thank you again for this opportunity.
                               __________
   Statement of Paul L. Hill, Jr., Nominated by the President to be 
     Chairman of the Chemical Safety and Hazard Investigation Board
    Chairman Chafee, Senator Baucus. Honorable members of this 
Committee.
    It is an honor for me to appear before you to answer questions by 
which you may assess my capability to continue to serve as the Chairman 
and Chief Executive Officer of the Chemical Safety and Hazard 
Investigation Board (Board or CSB). I am further honored that it was 
Senator Robert C. Byrd, who first recommended me for this position. 
Humbled as I am that the President of the United States has placed 
faith in me by again submitting my nomination to you for confirmation, 
I want to assure you that I will continue to dedicate myself to working 
as a partner with Congress in fulfilling the Board's mandate. My goal 
is to continue to build a 21st Century model of good government.
    I have been allowed to serve as Chairman of the Board for only a 
short period of time. During this startup phase, however, much has been 
accomplished for which I am extremely proud. There is much, much more 
work to do. Although this has not been easy and many challenges lie 
ahead, I look forward to the opportunity to meet these challenges if 
confirmed for a second term. Further, if the Committee would entertain 
engaging its oversight function, I would readily participate in the 
opportunity to explore various issues and challenges relative to 
chemical safety. In so doing, my approaches to implementation of 
Congress' intent could be aired with those who were directly involved 
in creating the Board's statutory authorities and, indeed, its very 
existence.
                             a short tenure
    In its short 21-month history, the Board has undertaken several 
major investigations as much to learn and exercise various approaches 
to conducting investigative work as to determine cause. These 
activities have helped to chart the course and protocols for how 
investigations and safety programs will be structured in the future. 
Just last week I chaired a public inquiry into a tragic, fatal incident 
which not only cost human lives but also raised serious economic 
concerns for its impact on the community, State and Nation through loss 
of production. Exercises such as this one have allowed the Board to 
explore various mechanisms to achieve its safety mission and fully 
assess the potential impact of our important work.
    When I appeared before you last, there was no Board. There existed 
only a statute, three nominees and the concept of a new agency to 
perform a new and necessary function. For the past 2 years I have 
guided the Board as it moved from concept to concrete. On January 5, 
1998, our initial staff of 4, including one other Board member and me, 
opened our doors for business in 4 small offices. By May of last year, 
we had hired additional staff and outgrown that space, necessitating a 
move to the space we now occupy. Today, the Board has 4 members and 22 
full-time staff.
    If there has ever been a truly ``from-the-ground-up' development of 
a Federal agency, the Chemical Safety and Hazard Investigation Board is 
it. After nearly 21 months in existence, the Board could still be 
called a virtual agency. We exist in temporary space, rent our 
furniture, borrow technical expertise from other Federal agencies and 
outsource the majority of our administrative functions. When the 
members of the House Appropriations subcommittee wished me ``good 
luck'' at my first appropriations hearing in early February 1998, none 
of us knew the extent of luck I would need. Still, in spite of the 
hurdles, in 21 months we have done what almost no one in government can 
remember happening: we created a Federal agency from scratch. Beginning 
with an exhaustive search, we determined there is no manual, book or 
``how to'' guide for new agencies. Today, we could write one. 
Fortunately for me and the other Board members, we attracted a handful 
of seasoned, senior Federal employees to the staff. These employees 
were able to compliment the experience that I and several other members 
brought from outside the government.
    Together, we took a business-like approach to this daunting task, 
following a plan and operating philosophy reflecting our belief that 
Congress expects government in the 21st Century to be lean, accountable 
and service oriented. We carefully reviewed not only the statute 
authorizing the Board but its extensive legislative history as well. In 
developing the agency, we made every attempt to reflect the Congress' 
charge to build on capabilities within the government. As the Board 
continues to evolve in concert with this mandate, we have signed 
interagency agreements and contracts to better utilize Federal 
resources that are already in place.
                          many accomplishments
    Although we might be a virtual agency, our impact has been anything 
but virtual. Three days after opening our doors we initiated our first 
investigation that culminated in a report containing recommendations 
subsequently adopted and codified in State statute. We have issued 
reports on three chemical incidents, which caused 7 deaths and 14 
injuries. The average time for completion of these reports was less 
than 12 months from the date of the incident or about one report for 
every 7 months of our existence.
    These reports made a total of 28 recommendations to 13 different 
entities. The first report, involving the Sierra Chemical Company, 
resulted in the State of Nevada enacting legislation incorporating 
CSB's recommendations addressing bilingual training requirements, 
increased frequency of inspections of explosives manufacturing 
facilities, and piecemeal payment for workers in that industry. 
Recipients of recommendations resulting from the other 2 investigations 
(involving Union Carbide Corporation and Herrig Brothers Inc.) have 
implemented a number of the recommendations and have notified the CSB 
that they are considering how to best address the remaining ones. The 
CSB is currently investigating an additional 8 major chemical 
incidents. These incidents, which occurred in 7 different States, 
caused 33 deaths and approximately 50 injuries.
    The CSB has produced investigation reports that are being widely 
circulated and have been used nationally and internationally by 
stakeholders for a variety of chemical safety purposes not originally 
envisioned. Two examples include: use of a report by the Bureau of 
Alcohol, Tobacco and Firearms to train its agents on how to conduct 
investigations; use of a report by the Safety Officer with the 
Hagerman, Idaho Fire Protection District to direct relocation of a 
potentially dangerous 14,000-gallon propane tank.
    The CSB has garnered positive support from stakeholders as a result 
of its investigations and the resultant reports. For example, the 
Herrig Brothers report was widely praised by the fire and emergency 
response communities. As a result of its reports, the CSB has been 
repeatedly asked to give presentations to various groups, including the 
National Governors' Association.
    At the Senate's behest, the CSB produced a major report on chemical 
safety preparedness as related to the Y2K computer issue. In connection 
with this report, the CSB hosted the first chemical industry workshop 
on the Y2K problem and its effect on chemical safety. The workshop 
involved national experts from industry, labor unions, and government 
agencies.
    The CSB has developed a mechanism to provide the Federal Government 
its first ever look at the magnitude of reported chemical incidents in 
the United States. Although other agencies have suggested this was not 
possible or feasible, the CSB consolidated information from 5 key data 
bases maintained by other Federal agencies on reported chemical 
incidents. The CSB is now in a position to begin to answer the question 
of ``how big is the problem?'' and, ``what impact are Federal agencies 
having on reducing the number and severity of chemical incidents?'' 
This work also has given the CSB valuable information for use in 
deciding how to regulate the reporting of chemical accidents at the law 
requires us to do.
                            much more to do
    The CSB is today functioning though a still-developing organization 
that has implemented mission-critical programs as well as addressed 
governmentwide administrative requirements. It has relied on its 
business plan and operating philosophy to build what is coming to be 
recognized as an atypical government agency.
    It may seem we've come a long way in 21 months. But, I can tell the 
Committee today something I only suspected when I was confirmed in 
1994. Collectively, we have a long, long, long way to go to achieve 
what the Congress directed in 1990 be done. What I also now recognize 
and have begun to experience over the past 21 months is the enormous 
number of hurdles or obstacles that are placed, either deliberately or 
by chance, before us. We now have a better handle on the magnitude of 
the problem of reported chemical accidents based on our study of the 
government's own records. We know there are an average of 60,000 events 
annually involving accidental releases of chemicals, but we don't know 
why they occur. We know there are many Federal laws and regulations in 
place to prevent chemical incidents, but we don't know how effective 
they are. We know on average 256 people die in the United States each 
year in chemical accidents, but we don't know causes of these 
fatalities. We know that the United States has the greatest safety 
system of standards, rules, technology and worker training in the 
world, but we don't know what the system's failures are or its most 
basic trends.
    The Board has begun and will continue to work on a variety of 
fronts to seek answers to these questions. Some have intimated that the 
Board should only conduct accident investigations as the sole source of 
these answers. This is errant thinking for two reasons. First, the 
Congress directed the Board to work with a variety of stakeholders and 
use a variety of mechanisms to gather, assess, and communicate safety 
information. Second, if the Board were to rely on its own 
investigations as the sole source of information, it would take either 
decades of work to build an ``information trust'' (data base) or 
enormous numbers of taxpayer dollars to collect information in a more 
rapid fashion, or both. While no one would question that the central 
mission of the Board must be accident investigation, the Agency cannot 
and will not make a major contribution to chemical safety without use 
of other mechanisms for enhancing safety. By assessing the existing 
government data bases and providing advances, communications, and tools 
to industry, policymakers and others exploring chemical safety, the 
Board will further expedite progress in chemical safety at a lower cost 
to the government.
    While the CSB's partners are making a significant contribution, the 
government must bear certain unavoidable costs for independent 
investigations. With its current resources and small staff, the Board 
is challenged to conduct enough quality investigations to make a 
significant contribution to the national ``safety system''. Certainly, 
individual cases and issues are being addressed. However, given the 
sheer numbers, the technical complexity and the resources required for 
each case, direct incident investigation cannot be the sole approach. 
Should the Board conduct more investigations than it currently does? 
Yes. Without question, the Board has only begun to look at the variety, 
characteristics and distribution of chemical accidents in American 
commercial and industrial facilities. As our resources grow, so too, 
will the investigative workload.
    I submitted an original business plan to the Congress in late 1997 
which projected a phased approach to enhancing the Board's 
investigative capacity. While it ambitiously called for a number of 
investigations during the startup years, the plan also recognized it 
would take both infrastructure development and increased resources to 
produce timely, credible and accurate investigation reports. Only now 
does the Board have a fledgling infrastructure in place. With 22 staff 
members, the Board is poised to add staff and move ahead with focused 
investigations. My initial projections for both agency accomplishments 
and investigative products were predicated on building an 
infrastructure to support the investigative function. Again, I look 
forward to the opportunity to discuss accomplishments to date and a 
strategic plan with the Committee.
    I have emphasized that communication of results plays a pivotal 
role in the Board's effectiveness. Laws and regulations, while 
necessary, are not enough. Dry, technical reports placed on the 
government's shelves are not enough. In contrast, I have placed special 
emphasis on ``plain English'' communication. The effectiveness of all 
safety information rests on the commitment of industry leaders and 
facility operators to ensure that equipment functions properly, 
employees are well-trained and supervised, and well designed operating 
policies and procedures are established and followed. Only people can 
make those differences. But in order for people to take actions that 
do, indeed, make the desired difference, they must have factual, timely 
information made available to them. In recognition of this need, and to 
ensure that the work of the Board finds its way into the hands of those 
who bring about change, I have placed major emphasis on direct and 
rapid dissemination of the Board's findings and recommendations.
    Effective communication is especially applicable to chemical 
workers. Adequate knowledge of chemical risks and proper equipment 
operation and maintenance will prevent accidents. Chemical workers are 
not dispensable, they are vital to the success of safe chemical 
management. The Board will continue to pay particular attention to 
worker safety.
    In addition to worker and industrial communication, an equally 
important aspect is a focused effort on improving communication between 
government, industry and the public. Technical competence is often lost 
on the public due to the lack of appropriate communication skills. In 
my experience, the American people want to know what risk they face 
from chemicals in plain understandable terms. Likewise technical 
individuals often cannot comprehend the fears and concerns of a 
nontechnical public. While the very issues are technical in nature, 
they are also often steeped in basic miscommunication. The Board is 
already placing practical information and recommendations not only in 
the hands of regulators but also in the hands of the American people so 
that technical and nontechnical issues are clearly understood. In light 
of the positive response we routinely receive in this area, I remain 
convinced that communication programs are absolutely essential for the 
Board.
    To fulfill our responsibilities, it is critical that the Board 
establish a collaborative relationship with many partners in chemical 
safety. Our website is continuously disseminating new information 
generated by our work so we can assist our stakeholders and they, in 
turn, can assist us. By adopting this partnership philosophy, the Board 
is leveraging the work of others as Congress encouraged us to do. This 
allows us to provide maximum benefits in the shortest time possible, 
and avoid duplicative or unnecessary operating and research 
expenditures.
                        continuing the challenge
    Chemical safety is critical to the success of the chemical industry 
and the communities where chemical facilities are located. The work of 
this Board, therefore, is vitally important. Understanding the causes 
of serious chemical releases is necessary for release prevention 
efforts to be fully effective. My experience with the chemical industry 
and the affected public has been very positive. I am confident that I 
and the Board will continue to receive complete cooperation and 
assistance from all concerned groups, individuals, and government 
agencies as we continue to evolve as an organization and implement our 
statutory mission.
    Clearly, I appear before you today because I want to continue in my 
current capacity. My plans for the direction of the Board remain quite 
straightforward. All activities must be conducted with chemical release 
prevention as the goal. The role of the Board in investigation is not 
to assign blame but is instead to provide a critical tool for accident 
prevention. While we, as well as other agencies, will try to anticipate 
all contingencies, it is impossible to prevent all chemical releases. 
Determining probable cause of chemical releases is important in order 
to identify, catalogue and correct previously unidentified problems. I 
have directed my staff to conduct as thorough investigations as 
available resources will allow and to focus their efforts on prevention 
of similar releases in the future. Prevention is a mission I've devoted 
my career to achieving. I feel very strongly that the Board should 
continue this pursuit.
                          committee oversight
    Congress has set a formidable task before the Chemical Safety and 
Hazard Investigation Board: to make the world of chemicals safer and 
the world safer from chemicals. If confirmed, I intend to continue 
devoting my energies to accomplishing that task. With your support, I 
am confident the Board members and staff already in place will be able 
to move our Nation toward this worthy goal, and, in the process, build 
on the emerging recognition and respect for the Board as a credible and 
competent chemical accident investigative agency.
    I've now had nearly 2 years of experience working to implement the 
Congress' directives to the CSB contained in the Clean Air Act 
Amendments of 1990. Today, I ask that the Committee consider in the 
near future a few minor modifications to the Board's statutory language 
in the interest of efficiency and cost effectiveness. I have shared my 
suggestions with Committee staff and vetted the concepts with several 
major stakeholders resulting in broad support for such modifications.
    New agencies are not started everyday. It is my desire to keep the 
Congress directly and adequately informed of my agency's progress and 
development as a new component of the government. While you have 
entrusted that management charge to me over the past 2 years, I would 
welcome the opportunity to provide the Committee greater details, 
should the Committee confirm me for a second term. An oversight hearing 
or a meeting to discuss proposed statutory modifications would give all 
parties the opportunity to review the intent of Congress as we move 
forward to meet that intent.
    If confirmed as Chairman, I intend to continue seeking the finest 
staff available to assure that the critical safety issues presented by 
the manufacture and use of chemicals in this country are properly 
evaluated, investigated and addressed. The President, Congress, the 
chemical industry, the chemical workers and the American public expect 
and deserve no less. I am honored to have been nominated by the 
President to continue this important work. I pledge to you my total 
dedication to successfully managing an efficient and effective agency.
    Thank you for permitting me to address this Committee. I welcome 
the opportunity to answer any questions you may have and look forward 
to working with you in the future.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                               __________
  Responses by Paul Hill to Additional Question From Senator Lieberman
    Introduction and question: Since the Chemical Safety and Hazard 
Investigation Board was created, it took several years to secure 
funding to ensure a quick and effective startup of the Board. Some 
argue that the Board's functions could be incorporated into OSHA and 
EPA. With your experience on the Board since 1994, you no doubt have a 
clear picture of the historical debate over the role of the Board and 
ideas of where it could be most effective in protecting the public.
    What is your view of appropriate role of the Chemical Safely and 
Hazard Investigation Board in terms of coordinating with other 
agencies?
    Response. The CSB coordinates its work during investigations with 
over Federal, State and local agencies to the maximum extent possible. 
We share factual information and, unless an interviewee objects, 
conduct single interviews with all interested parties present. Our 
deliberations on causes and recommendations are not shared, however. 
After the Board Members have approved the final report on a given 
accident, the full document is made available to all parties.
    While interagency coordination is expected and possible, the CSB 
investigations and associated reports are work products that cannot be 
expected from others. The CSB has been recognized, including by 
Congress itself in the Clean Air Act (as amended) legislative history 
as the only agency that can do the work Congress envisioned when it 
wrote the legislation. Neither EPA nor OSHA are able to conduct 
independent accident investigations akin to the CSB's. There are a 
couple of reasons for this fact.
    <bullet>  First, as the Senate acknowledged, it would be unlikely 
that these agencies would be forthcoming when, as a result of an 
investigations their own programs and rules could be found at fault. 
For exactly the same reasons, Congress removed the NTSB from DOT to 
ensure there would be completely independent assessment of the safety 
systems governing transportation. Congress further segregated both the 
NTSB and the CSB from executive branch control by making them 
independent agencies answerable to the Congress directly. This is in 
keeping with our checks and balances of democracy.
    <bullet>  Second, EPA and OSHA (as well as DOT and FAA), as 
regulatory agencies, have a unique role incompatible, in many respects, 
with accident investigation as performed by the CSB. Regulations which 
implement EPA and OSHA's statutory authorities are traditionally 
prescriptive, requiring regulated entities to adhere to only those 
standards included in existing rules. In turn, the regulatory agencies 
evaluate those entities' compliance with the specific safety 
requirements and cite violations of statute or regulation; however, in 
the absence of statutory authority to do so, system failures not 
covered by regulatory provisions are not cited even when noted. In 
contrast, there are no restrictions on what the CSB may examine in the 
course of its investigations. The investigations are aimed at 
determining compliance with or violation of regulations, but at 
discovery of all safety system failures, including those which may not 
have been recognized or could not be addressed by the regulatory 
agencies in the past. The CSB's goal is to improve the safety system by 
looking beyond what may or may not be in place today.
    <bullet>  Third, there is a basic incompatibility between 
regulatory enforcement and scientific investigation for the purpose of 
obtaining new knowledge about safety system failures. New knowledge is 
predicated upon a thorough understanding of the chemical process and 
relies upon a non-threatening interactive exchange of information 
between the company and the investigative body. EPA and OSHA, because 
of their statutory direction to take enforcement action if violations 
are uncovered, do not offer any incentive for companies to provide 
voluntary information, assistance, or cooperation in any way. (A 1995 
report by GAO reported that regulatory agencies could do the job now 
being done by the CSB only lathe companies cooperated.) By late 1997 
when the Congress funded the CSB, it was common knowledge among major 
chemical industries that participating in EPA-OSHA accident 
investigations by volunteering information in excess of what was 
required under current law would result in potentially more penalties. 
As the result of this lack of industry cooperation--the investigations 
and He reports issued by the SPA and OSHA were called ``superficial'', 
``uninformative'' and deemed to be of little value to anyone. They were 
denounced by every major labor union, He environmental community and 
major industry groups alike.
    In contrast to problems faced by EPA and OSHA, the CSB has found 
industries to be much more cooperative during the course of CSB 
investigations and eager to learn, through CSB's recommendations, how 
to improve safety performance. This is due in no small part to a 
provision in the legislation barring use of CSB's findings in private 
legal proceedings, directions to the CSB that it is not to affix blame, 
and the fact that the CSB is not a regulatory body and, therefore, does 
not impose penalties or perform any other enforcement function. Beyond 
making recommendations to industry, the CSB can identifier shortcomings 
in regulatory agencies' programs and make recommendations to them as 
well.
    The CSB must serve an overarching leadership role in accident 
investigation. Regulatory agencies still leave their defied role: 
measuring compliance, identifying violations ant assessing penalties. 
The CSB will continue to coordinate its investigations with regulatory 
agencies to ensure each agency is allowed to efficiently and 
effectively perform its statutory function. The CSB will continue to 
share with enforcement agencies the factual information gathered at 
accident sites. It has signed interagency agreements with. OSHA and EPA 
that state (1) this is its policy, (2) there will be a coordinated 
Federal approach, led by the CSB, to gather facts, share information 
and communicate with the media, and (3) after the facts hare been 
Wagered the CSB will conduct an independent analysis, broader in scope 
than investigations conducted by to regulatory authorities due to the 
CSB's authorities, to determine safer system failures.
    We have learned over the past 21 months of operation that only 
through the CSB's independent, broad scope approach to the conduct of 
investigations will it be possible to uncover the causes of and means 
of preventing accidents and to make information deemed credible 
available to all who can benefit from it.
                               __________
  Statement of Richard A. Meserve, Nominated by the President to be a 
              Member of the Nuclear Regulatory Commission
    Mr. Chairman, and members of the Committee, I appreciate the 
opportunity to appear today at this hearing on my nomination to be a 
member of the United States Nuclear Regulatory Commission (NRC). As I 
believe you know, the President has stated his intention, if I am 
confirmed, to designate me as the Chairman of the Commission. Let me 
say a few words about myself and then offer my thoughts as I 
contemplate the possibility of joining the NRC.
    I am a partner in the law firm of Covington & Burling, in 
Washington, D.C., which I joined as an associate in 1981. I turned to 
the practice of law after completing a Ph.D. in applied physics, and I 
have used my scientific training in my legal work. Over most of my 
years in private practice, this has included work on nuclear-related 
issues. As an attorney who has worked with the Agency, I have a 
familiarity both with the procedures of the NRC and with the substance 
of its work. I have also served on a number of committees of the 
National Academy of Sciences (NAS) and the National Academy of 
Engineering that have focused on nuclear issues. For example, I 
recently served as chairman of a committee that examined the protection 
of nuclear weapons materials in Russia and previously, in the aftermath 
of Chernobyl accident, I chaired an NAS committee that examined safety 
issues associated with the DOE reactors. I thus also have experience 
arising from my pro bono activities that bear on the NRC's mission. I 
believe that my educational background and my professional experience 
will reinforce each other in ways that should be helpful in the conduct 
of the Commission's work. Rather than take further time here today to 
discuss my professional career in greater detail, however, I have 
submitted my curriculum vitae as an attachment to my written statement.
    Let me turn now to my views as I contemplate the possibility of 
joining the NRC. As I am sure this Committee is fully aware, we are in 
the midst of a significant restructuring of the utility industry. In a 
growing number of States the competitive market determines the price 
for electricity and thus profitability for all forms of electricity 
generation is dependent on achieving economically efficient operations. 
This has important implications for the NRC's work.
    First, and most important, it reinforces the need for the NRC to 
fulfill its obligation to demand safe operations by licensees. The NRC 
must assure that the pressures to reduce costs do not become incentives 
to cut corners on safety. I understand that the principal statutory 
responsibility of the Commission is the protection of the public's 
health and safety and of the environment. The NRC must ensure that its 
licensees meet the agency's safety and environmental requirements.
    Second, in a time of sensitivity to costs, the NRC has a particular 
obligation to regulate efficiently to regulate in a fashion that 
imposes the minimum degree of burden consistent with getting the job 
done. This implies a judicious approach both to new regulatory 
initiatives--making sure that the benefits outweigh the costs--and a 
willingness to cast a cold, appraising eye on existing policies and 
programs. The fact that a given program may have made excellent sense 
in 1979 or even 1989 does not mean that it still makes sense in 1999. 
Moreover, managerial oversight is necessary to make sure that the 
policy decisions made in the agency's conference rooms are translated 
into practice at the operational level so that the benefits of informed 
policy are actually achieved.
    Third, it is incumbent on the NRC to reach decisions in appropriate 
ways. Decisions must be fair, and be perceived to be fair; they must be 
appropriate for the particular task at hand; and they must be efficient 
and timely. For example, if a process is so needlessly time-consuming 
and inefficient that delay itself determines the outcome, then the goal 
of fairness is not being met and the Commission has failed in its 
obligations. Here again, we have to be prepared to adjust processes to 
changing needs. At the same time, however, there should be no slighting 
the significant role that Congress gave to the public in NRC processes. 
The NRC staff and the regulated industry benefit from public 
participation because the public may often illuminate issues in ways 
that would otherwise escape scrutiny. Moreover, the American public 
will not accept the legitimacy of decisions that derive from processes 
from which it has been excluded. Thus, as the NRC carries out its 
regulatory activities, it must be conscious of the need to include the 
affected public in ways that are meaningful and that contribute to 
sound and efficient decisionmaking.
    Finally, at a time when the Commission has a variety of important 
matters to which it must attend, I am mindful of the fact that Congress 
created the NRC as a multi-member Commission. Each member of the 
Commission should gain the benefit of the other members' expertise and 
ideas, thereby allowing more informed and thoughtful decisions than any 
one Commissioner could provide alone. I understand that this places a 
special obligation on the chairman: in addition to taking a leadership 
role, the chairman has a special responsibility to listen to his or her 
colleagues and to work for consensus and collegiality.
    I believe that the NRC has made progress in all these areas in 
recent times and I believe that there are grounds for considerable 
optimism about the future. I see an agency well aware of its duties to 
protect the public health and safety under the law. I see an agency 
that has worked to improve its communications with members of the 
public, the regulated industry, and with the Congress. I see an agency 
that is taking advantage of improvements in analytical tools and 
information to focus on those aspects of industry operations that are 
most risk significant. In short, I see an agency that is on the right 
track. If confirmed, I look forward to working with my colleagues on 
the Commission to build on the achievements of the recent past.
    I would be pleased to answer any questions you may have for me. 
Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           richard a. meserve
Employment Experience
    Partner, Covington & Burling, 1981-present (associate through 
1984):
    Legal practice involving issues with substantial technical content, 
including environmental and toxic-tort litigation, nuclear licensing, 
and counseling of scientific societies.
    Legal Counsel, Office of Science and Technology Policy, Executive 
Office of the President, 1977-81:
    Responsibility for policies related to the health of science, 
industrial innovation, energy, and space.
    Law Clerk, Justice Harry A. Blackmun, U.S. Supreme Court, 1976-77.
    Law Clerk, Judge Benjamin Kaplan, Massachusetts Supreme Judicial 
Court, 1975-76.
Education
    Harvard Law School: J.D., magna cum laude (1975).
    Harvard Law Review, editor and senior editor
    Ames Moot Court Competition (member of winning team)
    Stanford University: Ph.D., Department of Applied Physics (1976).
    Tufts University: B.A., magna cum laude (1966).
    Phi Beta Kappa
    Sigma Xi
Policy Studies
    Chairman, National Academy of Sciences, Committee on Balancing 
Scientific Openness and National Security (1999-present)
    Chairman, National Academy of Sciences, Committee on Protection, 
Control, and Accountability of Nuclear Materials in Russia (1998-1999)
    Chairman, National Academy of Sciences, Committee on the 
Cooperative Threat Reduction Program (1995-1997)
    Chairman, National Academy of Sciences, Committee on 
Declassification of DOE Information (1994-95)
    Chairman, National Academy of Sciences, Committee on Fuel Economy 
of Automobiles and Light Trucks (1991-92)
    Chairman, National Academy of Sciences, Committee to Provide 
Interim Oversight of the DOE Nuclear Weapons Complex (1988-89)
    Chairman, National Academy of Sciences, Committee to Assess 
Technical and Safety Issues at DOE Reactors (1986-88)
    Member, National Academy of Sciences, Panel on Scientific 
Responsibility and the Conduct of Research (1989-92)
    Member, National Academy of Sciences, Panel on the Impact of 
National Security Controls on International Technology Transfer (1984-
86)
    Member, National Academy of Sciences, Panel on Scientific 
Communication and National Security (1981-82)
    Member, Carnegie Commission on Science, Technology, and Government, 
Task Force on Judicial and Regulatory Decision Making (1992-93)
    Member, Carnegie Commission on Science, Technology, and Government, 
Task Force on Nongovernmental Organizations in Science and Technology 
(1991-92)
Other Professional Activities
    Member, Advisory Committee, Court Appointed Scientific Experts (a 
demonstration project of the American Association for the Advancement 
of Science) (1999-present)
    Vice-Chairman, National Academy of Sciences, Board on Energy and 
Environmental Systems (1993-present)
    Member, National Academy of Sciences, Commission on Geosciences, 
Environment and Resources (1997-present)
    Member, Board of Directors, Carnegie Institution of Washington 
(1992-present)
    Member, Secretary of Energy Advisory Board; Chairman, Openness Task 
Force (1996-present); Chairman, Task Force on Fusion Energy (1999-
present)
    Member, Board of Directors, Tech Corps (1995-present)
    Member, Council and Executive Committee, American Academy of Arts 
and Sciences (1997-present)
    Faculty Member, University of Virginia School of Law, Graduate 
Program for Judges (1994, 1997)
    Chair, American Bar Association, Science and Technology Section, 
Life and Physical Sciences Division, Physical Sciences (1991-present)
    Member, Board of Overseers for the Arts and Sciences, Tufts 
University (1994-present)
    Chairman, Advisory Council of the Princeton Plasma Physics 
Laboratory (1989-1999)
    Member, Advisory Board of the MIT Center for Technology, Policy and 
Industrial Development (1988-present)
    Chairman, AAAS-ABA National Conference of Lawyers and Scientists 
(1988-94)
    Member, The American Physical Society, Panel on Public Affairs 
(1988-90)
    Member, Advisory Board, MIT Lincoln Laboratory (1994-1999)
Honors
    Fellow, American Academy of Arts and Sciences (1994)
    Fellow, American Association for the Advancement of Science (1989)
    Fellow, The American Physical Society (1989)
    Responses of Richard Meserve to Questions from Senator Lieberman
    Question 1. In March of this year, the GAO issued a report that I 
requested with Senator Biden, assessing the NRC's efforts to devise a 
strategy to advance a risk-informed approach to regulation. The report 
found that some utilities do not have current and accurate design 
information for their plants that is a prerequisite for a risk-informed 
safety strategy. I have long advocated for better use and enforcement 
of design specific safety initiatives.
    What steps do you envision the NRC taking to verify that utilities 
use plant design as the basis for their operating and safety 
initiatives?
    Response. I understand that the NRC has identified the need for 
additional guidance to licensees both to provide a clear definition of 
what constitutes design information that must be maintained by 
licensees as the basis for operations and to clarify how that 
information should be updated to reflect changes to the facility. That 
guidance needs to be completed in a timely manner. As the Commission 
implements its new reactor oversight process, it should take steps to 
focus licensee and NRC resources on significant plant issues, 
including, where appropriate, maintenance of plant design information.

    What other major problems with respect to safety do you see that 
remain?
    Response. Various indicators show that the safety performance of 
the nuclear industry has improved in recent years. But, as I indicated 
in my testimony before the Committee, the restructuring of the industry 
has important implications for the NRC's work. It is necessary for the 
NRC to have effective mechanisms in place so as to assure that the 
pressures to reduce costs do not become incentives to cut corners on 
safety.

    Question 2. The NRC recently issued a report finding that a former 
senior engineer at the Millstone nuclear plant violated Federal safety 
regulations and willfully lied to the NRC about it. However, the NRC 
cannot fine the company because the 5 year statute of limitation 
expired. While NRC maintained that the report was delayed due to 
complexities of the issues, the public remains concerned that the NRC 
did not conduct a timely investigation, thereby hindering enforcement 
of safety.
    What will the NRC do to improve its track record with investigating 
and enforcing serious safety violations?
    Response. The NRC should make sure that it focuses on potentially 
significant violations or allegations of wrongdoing and gives their 
resolution priority in the investigative and enforcement process. In 
the example you mention, simply tracking the application of the statute 
of limitations to the violations under investigation would help 
investigators and enforcement staff to keep sight of the need for 
resolution of the investigation and would allow them to take steps to 
preserve the agency's enforcement options.

    Question 3. Connecticut is currently in the process of auctioning 
off its nuclear generating assets, and Northeast Utilities recently 
announced that they don't expect to bid on the Millstone plants. The 
citizens of Connecticut have worked hard to correct management and 
safety problems at the plant over the years. I believe--unlike others, 
who have raised concerns that the NRC over regulates--that the NRC 
plays a critical role in maintaining public confidence that the plants 
are safe.
    What role would the NRC play in overseeing the transition of 
ownership of the Millstone plants? How will NRC ensure that the 
mistakes of the past are not repeated?
    Response. The NRC is required to approve transfers of ownership or 
control of plant licenses in accordance with Section 184 of the Atomic 
Energy Act of 1954, as amended. The NRC's regulations provide for an 
appropriate review of the technical and financial qualifications of a 
new owner or operator and also offer opportunities for public comment 
or hearing on proposed transfers. In light of the history of the 
Millstone plants, I believe that the NRC should seek to ensure that the 
plants, whether under existing or new management, sustain improvements 
in operations and in the work environment. I understand that both 
Millstone units are currently under enhanced monitoring through 
additional dedicated inspection resources and close NRC senior regional 
management oversight.

    Question 4. Dr. Jackson took some major actions to make the NRC 
more responsive to problems raised by whistleblowers at nuclear plants. 
I believe that the NRC needs to continue to do more to keep improving 
safety, taking aggressive enforcement action where appropriate, and 
holding nuclear plant licensees accountable for correcting problems in 
a timely manner.
    Do you have any plans for improving NRC's record protecting workers 
from suppression of concerns about plant performance and safety?
    Response. I believe it is important for the NRC to intervene 
promptly if we identify concerns about a worker's ability to raise 
issues of plant performance and safety without fear of retribution. The 
NRC has identified the existence of a safety-conscious work environment 
as one of the central elements in its new process for assessment of 
reactor performance. This should remain a key element of the assessment 
process.

    Do you think that legislative authority is needed to improve 
whistleblower protections?
    Response. I understand that several years ago the NRC identified 
improvements which could be made to the protections for whistleblowers, 
including several changes to the provisions of Section 211 of the 
Energy Reorganization Act. This section provides for redress by the 
Department of Labor of retaliatory actions against employees for 
raising safety issues with their employers or the NRC. If confirmed, I 
will review this matter.

    Question 5. As you are aware, the Price-Anderson act is scheduled 
to be reauthorized in 2002. Last year, the NRC submitted a statutorily 
mandated report to Congress that concluded that the Price-Anderson 
nuclear insurance statute has proved to be successful, and should be 
renewed for another 10 years with other modest, if any changes. I am 
interested in your views on the Act, and the role protecting the public 
from liability in the event that there is a nuclear accident.
    Do you generally support the NRC's conclusions (in the report to 
Congress on the Price-Anderson nuclear insurance statute)? Do you agree 
with the NRC's report conclusion that Price-Anderson has assured that, 
in the unlikely event of an accident, the public will be promptly and 
equitably compensated for any resulting liabilities?
    Response. I am familiar with the Price-Anderson Act and its 
purposes and functions, although I am not yet fully conversant in the 
NRC's report to Congress on the Act that was submitted last year. I, 
thus, cannot address the conclusions or recommendations in that report. 
I do understand that the Act has established a system to provide ample 
and prompt compensation for public liability claims arising from a 
nuclear incident.
                                 ______
                                 
   Responses of Richard Meserve to Additional Questions from Senator 
                                 Thomas
    Question 1. Recognizing the continuing fragile state of the 
domestic uranium recover industry, would you favor Commission policies 
that seek to limit dual regulation of such facilities?

    a. In particular, would you support NRC's relinquishing 
jurisdiction over in-situ leach wellfields since these facilities are 
adequately regulated by the Environmental Protection Agency (EPA) and 
administered by the States?

    b. Would you support NRC's using its Federal preemption authority 
under the Atomic Energy Act to move forward with the final disposal of 
uranium (11e2) byproduct material?
    Response. A regulatory agency must always be sensitive to the need 
to regulate in a manner that imposes the minimum degree of burden 
consistent with getting the job done. Where more than one regulatory 
agency is involved in the oversight of an industry, it is important for 
each agency to ensure that the requirements it imposes provide needed 
protection of the public's health and safety and the environment and, 
to the maximum extent possible, are not inconsistent with obligations 
imposed by other agencies.
    I understand that the Commission has before it a series of decision 
documents laying out various options for addressing the specific 
questions you have raised, as well as others, relating to the uranium 
recovery industry. I am not sufficiently familiar with these issues to 
provide a specific response at this time as to my own views. If 
confirmed, however, I will study these issues carefully. I pledge to 
work with my fellow Commissioners to see that the Commission resolves 
these issues in a comprehensive manner in an effort to bring 
consistency, clarity and efficiency to the requirements governing the 
uranium recovery industry.

    Question 2. Under the current fee system, NRC is required by the 
Omnibus Budget and Reconciliation Act to recover approximately 100 
percent of its fees from licensees. This system requires licensees to 
pay for agency services they do not benefit from. These services 
include the following activities: international activities; agreement 
state oversight; fee exemption for nonprofit educational institution; 
licensing and inspection activities associated with other Federal 
agencies; cost not recovered due to an exemption of or small entities; 
regulatory support for agreement States; and others.
    The lack of reasonable relationship between annual fees and 
services rendered by NRC is exacerbated as more States become Agreement 
States and more sites are decommissioned. This situation leaves fewer 
NRC licensees to bear an even greater share of the burden. The NRC 
needs to determine an equitable way of dealing with this scenario that 
is already playing out in the uranium recovery area.
    Would you be willing to support an aggressive request to Congress 
to resolve the inequities caused by the current fee system?
    Response. Although there can be inequities which result from the 
current requirement for the NRC to recover all of its budget authority 
through fees, the various NRC programs are important if the NRC is to 
fulfill its statutory obligations. As a result, resources to support 
them must be found. I have pledged to work with the Committee to find 
an appropriate solution to this problem.
                               __________
   Statement of Major General Phillip R. Anderson, Nominated by the 
      President to be a Member of the Mississippi River Commission
    Mr. Chairman and Members of the Committee: I am honored to appear 
before you as the nominee for president and member of the Mississippi 
River Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisers 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The WRIT project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    A major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi Valley and 
the economy of the Nation were it not for the protection provided by 
the levees and other flood control works along the mainstem of the 
Mississippi and Atchafalaya Rivers. Many have noted that the 
comprehensive project on the lower river provided for passage of major 
floods in 1973, 1983, 1997, and other years without the extensive 
damage suffered in the upper river area during the 1993 and 1995 flood 
events.
    In addition, the navigation features of the project help to 
maintain the river for shipping import and export commodities between 
inland ports and world markets.
    Reorganization of the Corps of Engineers in April 1997 has placed 
the entire length of the Mississippi River within one Division of the 
Corps of Engineers. I serve as Commander of this Mississippi Valley 
Division of the Corps. Command of the Division office traditionally has 
also included duties as President of the Mississippi River Commission. 
The reorganization of the Corps now allows management of the 
Mississippi River as a single and unified system and enables the 
President and members of the Commission to more effectively serve as 
advisers to the Chief of Engineers as authorized in the 1879 
legislation.
    The Commission members have been active as advisers to the Corps on 
the Upper Mississippi River since the reorganization.
    The Commission conducted inspection trips on the Upper Mississippi 
River in August 1997, 1998, and 1999, holding a series of public 
meetings in the St. Paul, Rock Island, and St. Louis Districts each 
year, in addition to the semiannual inspection trips and public 
meetings in the Memphis, Vicksburg, and New Orleans Districts.
    In regards to my personal qualifications, I am a graduate of the 
Virginia Military Institute, Lexington, Virginia, where I was 
commissioned in 1970 into the Corps of Engineers. I hold Master's 
degrees in civil engineering from the University of Illinois in 
Champaign/Urbana and international relations from Salve Regina 
University in Newport, Rhode Island. I am also a graduate of the U.S. 
Army Command and General Staff College and the Naval War College. I am 
a licensed professional engineer in the State of Virginia.
    Since July 1997, I have served as Commander of the Mississippi 
Valley Division and also as president designee of the Mississippi River 
Commission. In this position, I have led and managed the Corps' water 
resources program in the Mississippi River Valley. The boundary of the 
Mississippi Valley Division extends from Canada to the Gulf of Mexico, 
includes portions of 12 States, and encompasses 370,000 square miles. 
The program and activities overseen by the Mississippi Valley Division 
and Mississippi River Commission are conducted by district offices 
located in St. Paul, Rock Island, St. Louis, Memphis, Vicksburg, and 
New Orleans.
    I have served over 28 years in the uniformed military service as an 
Army Engineer. I have commanded at all levels from platoon through 
Division. I served as Liaison Officer and Assistant Resident Engineer, 
Saudi Arabia District, and also as a project engineer in the Louisville 
District. I was the Executive Officer for the Chief of Engineers at the 
Headquarters office of the Army Corps of Engineers in Washington, D.C., 
and Land and Naval Facilities Program Manager, Supreme Headquarters, 
Allied Powers Europe.
    While assigned to the U.S. Army Engineer School at Fort Leonard 
Wood, I served as Director of Training, Chief of Staff, and Deputy 
Commanding General. Before my assignment to the Mississippi Valley 
Division, I served as the Director of Military Programs at the U.S. 
Army Corps of Engineers Headquarters.
    If confirmed to the position, Mr. Chairman, I would look forward to 
playing a key role in the continual improvement of the Mississippi 
River system and the MR&T project by applying the most modern practices 
in water resources engineering. I would also look forward to being the 
president of a Commission that focuses not only on the traditional 
roles of safely passing the Mississippi River Basin floodwaters to the 
Gulf of Mexico, plus providing a safe and dependable navigable 
waterway, but also incorporates programs and projects for environmental 
protection and restoration.
    Mr. Chairman, for your information, I have attached a complete 
biography on myself and a current list of members of the Mississippi 
River Commission.
    This completes my prepared statement, and I would be pleased to 
respond to any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  mississippi river commission members
    MG Phillip R. Anderson \1\, President
---------------------------------------------------------------------------
    \1\ Designated, but not confirmed.
---------------------------------------------------------------------------
    Mississippi River Commission
    P.O. Box 80 Vicksburg, MS 39181-0080
    (601) 634-5750/FAX 634-5666

    Mr. Sam E. Angel \1\
    Epstein Gin
    P.O. Box 748
    Lake Village, AR 71653
    (870) 265-5382/5383/FAX 265-5690

    Mr. R. D. James
    Riley Cotton Company
    810 Maple Street
    New Madrid, MO 63869
    (573) 748-5574/5345/FAX 748-2041

    Mr. William Clifford Smith
    T. Baker Smith 6 Son, Inc.
    P.O. Box 2266
    Houma, LA 70361
    (504) 868-1050/FAX 853-0109

    BG Robert H. Griffin \1\, Commander U.S. Army Engineer Division,
    Great Lakes and Ohio River
    P.O. Box 1159
    Cincinnati, OH 45201-1159
    (513) 684-3002/FAX 684-2085

    BG Carl A. Strock \1\, Commander U.S. Army Engineer
    Division, Northwestern
    P.O. Box 2870
    Portland, OR 97208-2870
    (503) 808-3701/FAX 808-3706

    RADII Nicholas A. Prahl \1\, Director
    Atlantic and Pacific Marine Centers
    National Oceanic and Atmospheric Administration
    439 West York Street
    Norfolk, VA 23510
    (757) 441-6168/FAX 441-6495
                         (non-voting position)
    COL Wm. David Brown, Secretary
    Mississippi River Commission
    P.O. Box 80
    Vicksburg, MS 39181-0080
    (601) 634-5752/FAX 634-5666
                               __________
  Statement of Sam Epstein Angel, Nominated by the President to be a 
               Member of the Mississippi River Commission
    Mr. Chairman and Members of the Committee: I am honored to appear 
before you as the nominee for member of the Mississippi River 
Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisers 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    The MR&T project is truly of national significance. For example, a 
major flood on the lower Mississippi River would have catastrophic 
effects on the inhabitants of the Mississippi Valley and the economy of 
the Nation were it not for the protection provided by the levees and 
other flood control works throughout the project area. Many have noted 
that the comprehensive project on the lower river provided for passage 
of major floods in 1973, 1983, 1997, and other years without the 
extensive damage suffered in the upper river area during the 1993 and 
1995 flood events.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peace time and vital to 
our national defense in times of emergency.
    Reorganization of the Corps of Engineers in April 1997 has placed 
the entire length of the Mississippi River within one Division of the 
Corps of Engineers. The Commander of this Mississippi Valley Division 
of the Corps also serves as President of the Mississippi River 
Commission. The reorganization of the Corps now allows management of 
the Mississippi River as a single and unified system and enables the 
Commissioners to more effectively serve as advisers to the Division 
Commander and the Chief of Engineers as authorized in the 1879 
legislation.
    The Commission members have been active as advisers to the Corps on 
the Upper Mississippi River since the reorganization. The Commission 
conducted inspection trips on the Upper Mississippi River in August 
1997, 1998, and 1999, holding a series of public meetings in the St. 
Paul, Rock Island, and St. Louis Districts each year, in addition to 
the semiannual inspection trips and public meetings in the Memphis, 
Vicksburg, and New Orleans Districts.
    In regards to my personal qualifications, I have served on the 
Mississippi River Commission since September 1979. This confirmation 
will provide my third consecutive 9-year appointment to this vital 
Commission. I firmly believe that my experience since 1979 in 
partnering with local interests, levee boards, and Federal, State, and 
area agencies and organizations justifies my reappointment to the 
Mississippi River Commission.
    I am a native of Lake Village, Arkansas, and was reared adjacent to 
the Mississippi River. I feel that the many years of living and working 
in this area and also being affiliated with the Commission have given 
me a vast knowledge of the Mississippi River and the various problems 
associated with it. It has been my privilege to meet many people over 
the years, both in the lower valley and recently in the upper valley, 
to discuss with them their concerns regarding this powerful river.
    I have served as president of Epstein Land Company and Epstein Gin 
Company in Lake Village since 1980. I am a commissioner of the Chicot 
County Watershed District and former commissioner of the Chicot County 
Rural Development Authority and Southeast Arkansas Levee District. I 
currently serve as Director of the Cotton Warehouse Association and 
Southern Ginners Association, among other local, State, and national 
farming organizations.
    I attended Louisiana State University and the University of 
Arkansas at Monticello. I served with the Army National Guard from 1957 
to 1965 and the United States Army from 1961 to 1962.
    If confirmed to the position, Mr. Chairman, I would look forward to 
continuing to play a key role in the continual improvement of the 
Mississippi River system and the MR&T project by applying the most 
modern practices in water resources engineering. I would also look 
forward to renewing my membership on a Commission that focuses not only 
on the traditional roles of safely passing the Mississippi River Basin 
floodwaters to the Gulf of Mexico, plus providing a safe and dependable 
navigable waterway, but also incorporates programs and projects for 
environmental protection and restoration.
    Mr. Chairman, for your information, I have attached a complete 
biography on myself and a current list of members of the Mississippi 
River Commission.
    This completes my prepared statement, and I would be pleased to 
respond to any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Statement of Brigadier General Robert H. Griffin, Nominated by the 
     President to be a Member of the Mississippi River Commission??
    Mr. Chairman and Members of the Committee: I am honored to appear 
before you as the nominee for member of the Mississippi River 
Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisers 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    A major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi Valley and 
the economy of the Nation were it not for the protection provided by 
the levees and other flood control works along the mainstem of the 
Mississippi and Atchafalaya Rivers. Many have noted that the 
comprehensive project on the lower river provided for passage of major 
floods in 1973, 1983, 1997, and other years without the extensive 
damage suffered in the upper river area during the 1993 and 1995 flood 
events.
    In addition, the navigation features of the project help to 
maintain the river for shipping import and export commodities between 
inland ports and world markets.
    Reorganization of the Corps of Engineers in April 1997 has placed 
the entire length of the Mississippi River within one Division of the 
Corps of Engineers. The Commander of this Mississippi Valley Division 
of the Corps also serves as President of the Mississippi River 
Commission. The reorganization of the Corps now allows management of 
the Mississippi River as a single and unified system and enables the 
Commissioners to more effectively serve as advisers to the Division 
Commander and the Chief of Engineers as authorized in the 1879 
legislation.
    The Commission mashers have been active as advisers to the Corps on 
the Upper Mississippi River since the reorganization. The Commission 
conducted inspection trips on the Upper Mississippi River in August 
1997, 1998, and 1999, holding a series of public meetings in the St. 
Paul, Rock Island, and St. Louis Districts each year, in addition to 
the semiannual inspection trips and public meetings in the Memphis, 
Vicksburg, and New Orleans Districts.
    In regards to my personal qualifications, I earned a Bachelor of 
Science degree in Mechanical Engineering and a Master's degree in Civil 
Engineering, both from Auburn University in Alabama. I also hold a 
second Masters degree in Business Administration from Long Island 
University in Greenvale, New York. In addition, I am a graduate of the 
U.S. Army War College and the U.S. Army Command and General Staff 
College. I am a registered professional engineer in the Commonwealth of 
Virginia.
    I have served more than 28 years in the uniformed service as an 
Army Engineer. I have served continuously in the U.S. Army Corps of 
Engineers since 1992 as District Engineer of the Mobile District, U.S. 
Army Corps of Engineers Headquarters Chief of Staff, Division Commander 
for the Northwestern Division in Portland, Oregon, and presently as 
Division Commander for the Great Lakes and Ohio River Division in 
Cincinnati, Ohio.
    In my previous assignment as Commander of the Northwestern Division 
from December 1996 until July 1999, I directed all Corps of Engineers 
water resources activities in an area comprising about one-quarter of 
the land area of the United States. Included in this area were water 
management responsibilities in the Missouri River Basin, a significant 
tributary of the Mississippi River.
    As Commander of the Great Lakes and Ohio River Division, I am 
tasked with directing all Corps of Engineers water resources activities 
in the Great Lakes and Ohio River basins, an area of over 355,300 
square miles, including all or parts of 17 States. The program includes 
planning, construction, and operation of navigation structures on the 
Ohio River and Great Lakes system and flood control projects throughout 
both basins. This work also includes hydropower, environmental 
protection and restoration, water conservation, recreation, and 
disaster assistance.
    Some of my major command and staff assignments other than within 
the Corps of Engineers has included Battalion Commander, 864th Engineer 
Battalion, Fort Lewis, Washington, and Dhahran, Saudi Arabia, plus 
command and staff positions with engineer units both in the United 
States and abroad.
    If confirmed to the position, Mr. Chairman, I would look forward to 
playing a key role in the continual improvement of the Mississippi 
River system and the MR&T project by applying the most modern practices 
in water resources engineering. I would also look forward to being a 
member of a Commission that focuses not only on the traditional roles 
of safely passing the Mississippi River Basin floodwaters to the Gulf 
of Mexico, plus providing a safe and dependable navigable waterway, but 
also incorporates programs and projects for environmental protection 
and restoration.
    Mr. Chairman, for your information, I have attached a complete 
biography on myself and a current list of members of the Mississippi 
River Commission.
    This completes my prepared statement, and I would be pleased to 
respond to any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    NOMINATIONS OF GLENN McCULLOUGH, SKILA HARRIS AND GERALD V. POJE

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:03 p.m., in 
room 406, Dirksen Senate Office Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee, Baucus, and Lautenberg.
    Senator Chafee. I want to welcome everyone here this 
afternoon for the hearings. We have several Senators who will 
make introductions. In order to accommodate their heavy 
schedules, I am going to ask that they proceed first.
    Senator Cochran, we welcome you here and look forward to 
your testimony.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Thank you, Mr. Chairman. We appreciate 
very much your convening this hearing.
    It is my pleasure to recommend and present to the committee 
today Glenn McCullough of Tupelo, Mississippi, who has been 
nominated to serve on the Board of the Tennessee Valley 
Authority. With his experience as mayor of the first TVA city, 
and as director of the Appalachian Regional Commission Office 
in Mississippi, and as a person who has been involved in 
economic development and industrial development in our State, 
Glenn McCullough is very well suited and qualified to serve on 
the Board of the Tennessee Valley Authority. He has good 
judgment, he is honest, he has proven that he is a hard worker 
and can be very effective in public service. I am looking 
forward to his serving on the Board because I am confident that 
he will serve with distinction and be a very effective and 
truly outstanding member of this board.
    He has credentials and educationally he graduated from 
Mississippi State University, and Tupelo City Schools. He is 
someone who is widely respected and very popular in North 
Mississippi.
    We are very pleased to be here today and to join Senator 
Lott, Congressman Wicker, and Congressman Pickering in 
recommending him to the committee.
    Senator Chafee. Thank you very much, Senator.
    I have no questions. If you have further appointments, 
please feel excused if you so choose.
    Senator Cochran. I think I am going to stay here and see 
what the Congressmen say to be sure they do it right.
    [Laughter.]
    Senator Chafee. We will now hear from Senator Thompson.

STATEMENT OF HON. FRED THOMPSON, U.S. SENATOR FROM THE STATE OF 
                           TENNESSEE

    Senator Thompson. Thank you, Mr. Chairman.
    I am pleased to be here today to introduce Ms. Skila 
Harris, who has been nominated to fill one of the two current 
vacancies on the TVA Board.
    I want to thank you, Mr. Chairman, for scheduling this 
hearing so expeditiously and for allowing me to be here today. 
I know you are aware of the critical importance of the 
Tennessee Valley Authority to my home State of Tennessee and I 
appreciate your willingness to let Members from the valley 
participate in this process.
    Mr. Chairman, as you know, the TVA Board is comprised of 
three directors each serving 9-year terms. However, since May 
18 of this year, TVA has had just one sitting board member--one 
person responsible for running a $7 billion utility. That is 
not a good set-up. In fact, I would go so far as to say that it 
is asking for trouble. For this reason, it is important that we 
get a full complement of TVA directors as soon as possible.
    Again, I commend you for holding this hearing and I hope we 
can do our due diligence as quickly as possible so that we can 
get two new board members confirmed before we adjourn for the 
year.
    Mr. Chairman, although she is not a Tennessee native, Skila 
Harris is quite familiar with the Volunteer State and with TVA. 
She is a native of Bowling Green, Kentucky and she earned an 
undergraduate degree in Government from Western Kentucky 
University and a master's degree in Legislative Affairs from 
George Washington University. She lived in Nashville for a 
number of years where I met her and her husband, Fred Graham. 
During this time she served as vice president for development 
and compliance at the Steiner-Leff Iron and Metal Company. From 
1993 to 1997, Ms. Harris served as special assistant to the 
Vice President and Chief of Staff to Mrs. Gore.
    She also served in the Department of Energy during both the 
Carter and Clinton Administrations, most recently as executive 
director of the Secretary of Energy's Advisory Board. In that 
capacity, she oversaw the work of the Tennessee Valley 
Authority Advisory Committee, a group made up of various 
stakeholder groups interested in the future of TVA in a 
competitive electricity market.
    I believe that she is a person of intelligence, 
sensitivity, and common sense and she has done very well in all 
the jobs she has taken on to this point.
    Mr. Chairman, TVA is facing major challenges as we prepare 
to enter the 21st century. The U.S. economy is changing and the 
way Americans buy and sell electricity will inevitably change 
with it. It may not be this year and it may not be for 5 more 
years, but change is coming and TVA must be ready to face that 
change in a way that does not leave the people in the Tennessee 
Valley worse off.
    One of the things that TVA must do to prepare for the new 
millennium is modernize its management policies. Recently I 
have expressed deep concern about an ongoing dispute between 
TVA management and the TVA inspector general. But problems go 
much deeper than that. TVA needs some new blood and I believe 
that Skila Harris and Glenn McCullough will provide it.
    I have met with each of these nominees privately and we 
have had some very candid exchanges. The good news is that they 
still want the job.
    [Laughter.]
    Senator Thompson. I am hopeful that if confirmed they will 
view the job of TVA director as a contract with the citizens of 
the Tennessee Valley--the people TVA was created to serve--and 
that they will do their best to return to TVA a focus on this 
unique mission of public service.
    I look forward to hearing from them and for the opportunity 
to ask questions.
    Mr. Chairman, thank you again for allowing us to be here 
today.
    Senator Chafee. Thank you very much, Senator Thompson. 
Again, if you have appointments you would like to leave for 
now, that would certainly be understandable.
    Senator Thompson. I am going to stay awhile.
    Senator Chafee. You want to check and see what these 
Representatives are going to say?
    [Laughter.]
    Senator Chafee. Representative Pickering, why don't you 
proceed?

 STATEMENT OF HON. CHARLES PICKERING, U.S. REPRESENTATIVE FROM 
                    THE STATE OF MISSISSIPPI

    Mr. Pickering. Thank you, Mr. Chairman.
    It is a great day to be here and a great day for Glenn 
McCullough and his family. I know I join Senator Cochran, 
Senator Lott, and Roger in welcoming the McCullough family 
here--Glenn's wife, one of his sons, and his father.
    Senator Chafee. Is the family here? Please rise so that we 
can see you. We are very glad you are here.
    [Applause.]
    Senator Chafee. We are very glad they are here.
    Please proceed.
    Mr. Pickering. It has been some time since the President 
has appointed a Mississippian--1962, in fact, was the last time 
Congressman Frank Smith was appointed by President Kennedy. So 
this is a day that Mississippians celebrate for the importance 
that TVA is and to now have someone on the Board from 
Mississippi to bring the balance.
    Senator Thompson, I do not know if you are aware, but we 
made an agreement in the last Congress--as we looked at the 
economic development, the non-TVA and non-power appropriation, 
and the debt restructuring, we said that we would do this. But 
in exchange for that, Tennessee must give their offensive 
coordinator to the University of Mississippi.
    [Laughter.]
    Mr. Pickering. They have sent him down and he is now 
leading us into the top 25. And that they also must give Archie 
Manning's last son to Ole Miss--and that happened as well. 
There are a few other agreements, but we will keep that non-
public.
    [Laughter.]
    Mr. Pickering. But in all seriousness, Glenn McCullough has 
a great background and great experience. Working with ARC and 
economic development in private business, he is a mayor of one 
of the leading communities recognized all over the country for 
what they have done as a progressive community in education and 
infrastructure and economic development. He brings a wealth of 
experience and great talent and the right vision for TVA to go 
into the 21st century. We could not be more proud of Glenn 
McCullough and to have his leadership and his representation 
for TVA, for Mississippi, and for the whole valley and the 
other States in the region. He will do a tremendous job.
    It is with great pride that I recommend and encourage the 
adoption and confirmation by the Senate of Glenn McCullough to 
the TVA Board.
    Thank you.
    Senator Chafee. Thank you very much.
    Representative Wicker?

 STATEMENT OF HON. ROGER WICKER, U.S. REPRESENTATIVE FROM THE 
                      STATE OF MISSISSIPPI

    Mr. Wicker. Thank you very much, Mr. Chairman.
    Let me just say at the outset that it is a rare and 
distinct privilege for Congressman Pickering and me to be down 
at this end of the Capitol Building to testify before your 
committee today and I appreciate the opportunity to come and 
say a few words of testimony.
    It is hard for me to express how delighted I am to see this 
day arrive and see my good friend, Glenn McCullough, be 
nominated and hopefully confirmed by the U.S. Senate. No doubt 
there were significant negotiations which led to this day, but 
I can only say that both the Administration and the Senate 
leadership have done themselves proud with the nomination of 
both Skila Harris and Glenn McCullough. I support them and am 
glad to be here and offer this testimony today.
    I have a prepared statement, Mr. Chairman, which I ask to 
be submitted to the record at this point.
    Senator Chafee. Without objection, your prepared statement 
will appear in the record.
    Mr. Wicker. Let me just say that I am here wearing a couple 
of hats. I am here as chairman of the Congressional TVA Caucus. 
I am also here as a friend of Glenn McCullough, someone who 
actually graduated from a leadership class in Lee County with 
Glenn McCullough back in the early 1980's. I am his 
representative in Congress. He is my mayor. I know him well and 
can vouch for his outstanding leadership abilities.
    You are going to like Glenn McCullough, Mr. Chairman. I 
have seen him work. I have seen him work as mayor, as State 
director of the Appalachian Regional Commission, and also just 
as a community leader and volunteer. You have already met his 
outstanding family. He is going to make us an outstanding 
member of the Board.
    Glenn McCullough governs through cooperation. He leads by 
example and by conciliation. He listens to reason. I think he 
will be able to help assist in smoothing the waters on the 
Tennessee Valley Authority Board. You are going to find him to 
be a fine board member. He is better known in Mississippi now 
than he is throughout the rest of the valley. But I can tell 
you without fear of contradiction that within a year's time he 
is going to be quite popular with people interested in 
efficiently priced electricity and economic development and job 
creation throughout the TVA Region. He is going to make us an 
outstanding board member and I appreciate the opportunity to 
come before you and endorse him today.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you very much.
    We appreciate you all coming here. If you all have further 
appointments, obviously you are excused now and I thank you for 
coming.
    Senator Thompson, would you like to come up here and join 
in any questions?
    Senator Thompson. If I may.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. The purpose of today's hearing, as you can 
gather, is to consider three nominations. The first two 
nominees are Mayor Glenn McCullough, Jr., and Ms. Skila Harris 
to be appointed members of the Tennessee Valley Authority. The 
third nominee is Dr. Gerald Poje to be reappointed as a member 
of the Chemical Safety and Hazard Investigation Board.
    After we hear from the nominees, we will have a panel to 
take testimony on the TVA and some of the important issues 
before it.
    I welcome our three nominees as well as Senator Lott. I 
think Senator Lott is planning to be here--I know that is his 
intention. And we are so pleased that Senator Cochran and 
Senator Thompson, plus Representatives Pickering and Wicker are 
here today to introduce Mayor McCullough and Ms. Harris.
    The TVA, a wholly owned government corporation, conducts a 
unified program of resource development for the advancement of 
economic growth in the Tennessee Valley region. The Authority's 
program of activities includes flood control, navigation and 
development, electric power production, recreation improvement, 
and forestry and wildlife development.
    I am one of the few people around here, I suspect, who is 
old enough to remember when TVA was created. I think it was 
about 1933 and it was the brainchild of President Roosevelt and 
it was looked on as extremely visionary and a bold undertaking 
at the time dealing with the course of the Tennessee River 
Valley.
    The President has nominated Mayor Glenn L. McCullough for 
appointment as a member. Mr. McCullough has served as mayor of 
Tupelo since 1997, serves on the executive committee of the 
Mississippi Municipal League, and Governor's task force for 
economic development planning.
    Ms. Harris has served in the Department of Energy during 
both the Carter and Clinton Administrations and has over 12 
years experience in the field of energy. Prior to her current 
position, she was executive director of the Secretary of 
Energy's Advisory Board where she managed the work of the 
Tennessee Valley Advisory Committee.
    The Chemical Safety and Hazardous Investigation Board's 
task is to investigate chemical accidents and report the facts, 
circumstances, and the cause or probable cause of any 
accidental release resulting in a fatality, serious injury, or 
substantial property damages.
    The President has nominated Dr. Gerald V. Poje for 
reappointment as a member of the Board. He has served as a 
member since January 1998 and is a specialist in toxicology and 
policies dealing with chemical hazards. He has worked with the 
Inter-Governmental Forum on Chemical Safety and the 
Organization for Economic Cooperation and Development. 
Furthermore, it promotes global remediation and contingency 
planning around the Y2K problem.
    The final panel this afternoon will focus on TVA policy, on 
the TVA Customer Protection Act introduced by Senators 
McConnell and Bunning. It has been some time since this 
committee has held any TVA hearings, and frankly, they are 
overdue. There are many questions to ask of TVA. How does TVA's 
mission compare to its mission in 1933? Is TVA serving its 
constituency--the ratepayers in the valley--as fairly and 
effectively as possible? Is it time for TVA to undertake some 
reforms?
    I want to commend Senator McConnell for introducing S. 
1323, which in my view offers many common sense suggestions for 
the committee's consideration. Senator Thompson, too, has 
offered suggestions to his Government Affairs Committee dealing 
specifically with the appointment process for TVA's inspector 
general.
    I look forward to both Senators participation this 
afternoon.
    Now we will hear from Senator Baucus, if you have a 
statement.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Mr. Chairman, I join you in welcoming the 
nominees. TVA and the Chemical Safety Board are two very 
important agencies. I congratulate the nominees and families 
and thank them in advance for the service they will be 
providing to our country and look forward to hearing from each 
of them.
    Senator Chafee. Thank you, Senator Baucus.
    We are delighted to be joined by Senator Lott. We know that 
this is a matter of intense concern to you and we appreciate 
you taking time from your busy schedule. Should you have some 
kind of statement, now would be a good time.

 STATEMENT OF HON. TRENT LOTT, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Lott. Thank you very much, Mr. Chairman. I would 
ask unanimous consent that my entire statement be placed in the 
record.
    Senator Chafee. Without objection, your prepared statement 
will appear in the record.
    Senator Lott. Mr. Chairman, the Tennessee Valley Authority 
is a very important institution in our whole region of the 
country. It is important to Mississippi, Tennessee, Kentucky, 
and Alabama. It has provided a lot of great service to the 
people in that region--not just power--but also very important 
development and leadership over many, many years. They 
desperately need now a full complement of leaders. There are 
two vacancies on the Board. And they have a lot of very 
important decisions that they are going to have to make in the 
near future. A lot of the things we will be considering in the 
not too distant future here in the Congress will require a real 
aggressive participation and input from the TVA.
    Senator Thompson and I had lunch 2 or 3 weeks ago and we 
talked about our interest in and our concern about TVA and how 
important it is to our State and our whole mid-south part of 
the country. So I am glad that you are moving forward 
expeditiously with these nominees. I am particularly pleased to 
be here in support of the nomination of Glenn L. McCullough, 
Jr., the mayor of Tupelo, Mississippi, to be one of the new 
members of the Board.
    I congratulate Ms. Harris for her selection. I think the 
two of them will bring a breath of experience to the Board and 
give them a full three-member board that they need desperately 
and that this will be a positive accomplishment.
    Glen and I have been good friends for a long time. He is an 
outstanding young man that has accomplished an awful lot in his 
relatively young life. He comes from a great family that have 
perhaps already been introduced. His father ``Cotton''--as he 
is affectionately known--his mother Ms. Lanier McCullough, his 
sister Sarah, his sister Mary Conner Adcock, her husband David, 
and their son Shaw. Where is Shaw? I want to see Shaw.
    [Laughter.]
    Senator Lott. There he is back there. He is a good-looking 
young man.
    I am glad the whole family is here in support of this very 
fine nominee.
    Tupelo, in some areas, is better known as the birthplace of 
Elvis Presley. In fact, Elvis is actually still there, as you 
know.
    [Laughter.]
    Senator Lott. It is also one of the outstanding small 
cities in America and has received a lot of recognition over 
the years. Under Mr. McCullough's administration it has twice 
won the overall award for innovations in municipal government 
from the Stennis Institute of Government at Mississippi State 
University. In particular, Tupelo was selected for outstanding 
performance in community policing and neighborhood 
revitalization.
    In the past, it has been selected as one of the most 
outstanding cities in America. In fact, it was selected as one 
of the ten most livable all-American cities in the Nation. So 
this is really an outstanding community. They have had 
leadership politically, but more importantly, they have had 
leadership in their civic community. When Tupelo has a problem, 
they have a group of people in that town that will come 
together and find a solution. They will just do it.
    This city has been written up at least twice in recent 
years by the Wall Street Journal as one of the most dynamic 
developing towns in the country. It is now referred to as the 
Tupelo Model. But it required outstanding leadership in the 
mayor's office and Glenn has certainly done that. He has been 
innovative.
    Before he went in as mayor, he was the Mississippi director 
of the Appalachian Regional Commission. So he worked with the 
communities throughout that region. He is already familiar with 
the region. He has been in every one of those towns. He has 
worked on projects of all kinds, economic development, water 
projects, highway needs--all of that. He has already been 
through that on a regional basis.
    So he has the elected experience, the poignant experience 
there at ARC, and before that he was a businessman. So I think 
he has all the credentials you need to be a real leader at TVA.
    Beside that, I found from my own experience that he is a 
dynamic speaker. He can talk about a vision of what needs to be 
done for our State and our country.
    I am delighted to be here and support his nomination. He 
did have one youthful indiscretion. He went to Mississippi 
State University--but I must say, so did John Stennis--and 
seemed to do quite well with that background. But I know he is 
going to be an excellent member of the TVA and I support his 
nomination.
    In fact, I support the nomination of both of these 
candidates for TVA. We need them desperately. If this committee 
will act expeditiously, I can assure the Senators and the 
Senate that I will make sure that their nominations are 
considered expeditiously in the full Senate.
    Good luck to you. I know you will both do an excellent job, 
as well as the other nominee here today, too.
    Thank you.
    Senator Chafee. Thank you very much, Senator Lott. I know 
you have a busy schedule, so if you have to leave, we will 
certainly understand.
    Let's start with Mayor McCullough.

    STATEMENT OF GLENN L. MCCULLOUGH, JR., NOMINATED BY THE 
PRESIDENT TO BE APPOINTED AS MEMBER OF THE BOARD OF DIRECTORS, 
                   TENNESSEE VALLEY AUTHORITY

    Mr. McCullough. Thank you, Mr. Chairman.
    I am humbled by the remarks from our majority leader, 
Senator Lott, as well as Senator Cochran and Congressman Wicker 
and Pickering.
    Mr. Chairman and members of the committee, it is an honor 
for me to appear before you as nominee for the Tennessee Valley 
Authority Board of Directors. I thank the President for this 
nomination. I am grateful for the support of my sponsors, 
Mississippi's senior Senator Thad Cochran and Senate Majority 
Leader Trent Lott. I have been fortunate to have the constant 
encouragement and friendship of my Congressman and Chair of 
TVA's congressional caucus, Roger Wicker, as well as 
Congressman Chip Pickering.
    I also want to express my thanks to staff members who have 
assisted in this process.
    As a native of Tupelo, Mississippi, the histories of my 
family and TVA are intertwined, just as they are for millions 
of others all across the seven-State service area. As it has 
been mentioned, my father vividly remembers being among the 
thousands at Tupelo's Robin's Field in 1934 when President 
Franklin Roosevelt ceremoniously turned the switch illuminating 
the first electric light in the first city in the region to 
contract with TVA for its power.
    Senator Chafee. I think Roosevelt was sitting in an open 
car. I can remember it clearly. The top was folded down and 
people didn't fully realize at the time how crippled he was, 
but he sat in the car the Senator from Tennessee was behind 
him. He threw some kind of a switch and everything started.
    Mr. McCullough. Yes, sir, Mr. Chairman, that is the way it 
happened. My father remembers the speech the President 
delivered after that event. It was very historic.
    My home town of Tupelo became known as the first TVA city 
and it is a designation that we still celebrate.
    Just as Tupelo takes pride in its relationship with TVA, I 
take pride in my role with the TVA family, for I identify with 
TVA in its commitment to strong personal relationships, to 
reliable and affordable electricity, and to dedicated public 
service.
    First, personal relationships. The TVA family prioritizes 
not only its internal relationships with employees and 
distributors, but also its external relationships with 
customers and Congress itself. I understand TVA's valuing 
personal relationships.
    My faith in God is the anchor of my life. I am blessed with 
a wonderful family whom I love, and they have been introduced 
to you today. I treasure my friendships. Strong relationships 
require faith and support to thrive. I believe in the wisdom 
and feasibility of the TVA Act. If confirmed, I pledge to honor 
its principles of environmental stewardship, power generation, 
and development to serve the public interest. I respect TVA's 
relationships with you and your colleagues, and I will seek to 
fortify those relationships by listening to you and learning 
from you.
    Second, electric power generation. TVA has a great product: 
reliable electric power generated, sold, and delivered by 
talented people to the consumer at the lowest feasible cost. 
Two-thirds of my professional life has been spent in private 
business. I know that the essence of business is producing, 
selling, and delivering a product which will meet the 
customers' needs. I do not have all the answers to the complex 
and critical issues facing the industry today, but I will work 
with you, as TVA's owners, toward ensuring a strong TVA for the 
next century.
    Third, public service. The heart of TVA is public service. 
Certain obligations accompany this role, including 
accountability, a basic, but easily forgotten tenet of 
leadership.
    As mayor of Tupelo and as a member of the Appalachian 
Regional Commission and the Community Development Foundation, I 
have learned how TVA's development projects have improved our 
region so that people, through their own initiative and 
industry, can attain a better quality of life. From personal 
relationships that serve the public interest to the business of 
electric power, to a commitment to public service, I am here 
with optimism and enthusiasm to serve.
    I agree with one of Mississippi's most revered statesmen, 
the late Senator John C. Stennis, when he said, ``Opportunity 
will never chase you around the block. Opportunity will never 
meet you on the street and force itself upon you. But 
opportunity is there for those who are willing and able to meet 
it halfway.''
    Mr. Chairman, members of the committee, members of the 
Senate, I am willing to serve as a director on the TVA Board. 
And if you deem me able, we will go to work to make good things 
happen. It would be an honor for me to join Skila Harris and 
Chairman Crowell on the Board.
    Thank you for your consideration.
    Senator Chafee. Thank you very much, Mayor McCullough.
    Ms. Harris?

  STATEMENT OF SKILA HARRIS, NOMINATED BY THE PRESIDENT TO BE 
APPOINTED AS MEMBER OF THE BOARD OF DIRECTORS, TENNESSEE VALLEY 
                           AUTHORITY

    Ms. Harris. Let me begin by thanking Senator Thompson for 
taking time to be here this afternoon and for his generous 
introduction.
    I also want to express my appreciation to you, Mr. 
Chairman, and the other members, for this opportunity to appear 
before you.
    In preparing for this hearing, I have though about your 
constitutional responsibility to judge the merit of nominees. I 
appreciate and respect the seriousness with which you carry out 
that responsibility. I can assure you that, if confirmed, my 
service as a TVA director will be undertaken with the same 
devotion to my statutory responsibilities. I will be a full-
time director committed to making judgments and taking actions 
consistent with accountable management, fiscal responsibility, 
smart planning, and conscientious stewardship of natural 
resources, all in service to the Tennessee Valley.
    I want to express my deep appreciation to the President and 
the Vice President for the opportunity they have given me to 
serve. This nomination is an honor for me and my family. My 
late father, Skiles Browning Harris, and my mother, Dorothy 
Harris--who is in Bowling Green beaming her support to me as 
well as my brother--my husband, Fred Graham, and my sister, 
Linda Harris, are both here in the audience.
    All my entire family was born in the Tennessee Valley. My 
parents were born before TVA brought power to that region. I 
was raised on the vivid hardship stories of what life was like 
in the valley before electricity. However, the passage of time 
and my work in the energy business has added reality to those 
reminiscings that I was raised on.
    I recognize the challenges facing TVA in many areas, but 
especially those posed by the emerging era of electric 
competition. In fact, I served as staff director--as was 
mentioned--of the Department of Energy's Tennessee Valley 
Electric System Advisory Committee. The committee included 
representatives from diverse groups who shared a common and 
sometimes contentious interest in TVA's future in a competitive 
environment.
    I think the inclusive approach used during this process is 
a good model for TVA. Decisions made by TVA impact the lives of 
nearly 8 million citizens in the service area. It is important 
for TVA to understand that the citizens understand what TVA is 
doing and TVA needs to understand the interests and concerns of 
the citizen.
    I see TVA as a corporate public servant dedicated to public 
good. In making the transition to a competitive market, the TVA 
Board has an obligation to make sure that the benefits of 
competition accrue to the citizens of the valley and that they 
have a safe, reliable, and environmentally sound source of 
electricity to sustain the economic health of the region and 
the quality of their lives.
    The Board must also fulfill its responsibilities to manage 
the resources of Tennessee River Valley in a way that provides 
for flood prevention, year-round navigation, protection of 
public health, the environment, and recreational uses. The 
philosophy of the TVA Act dictates a fundamental balance across 
crucial resource management decisions.
    Just as the challenges facing Congress today are different 
than those it faced at its beginning, the issues before TVA 
today are different and perhaps more complex than they were in 
the 1930's. The mission, however, is the same: to serve the 
region and the Nation for the greater public good. I hope to 
have the opportunity to work along with Chairman Crowell and 
Mayor McCullough as TVA continues to carry out its mission and 
meet today's new challenges.
    Thank you very much.
    Senator Chafee. Thank you very much.
    Senator Lautenberg, do you have a statement you would like 
to make?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. I will try to be very brief, Mr. 
Chairman.
    I did want to welcome Dr. Poje to this discussion and I 
congratulate the other two nominees for TVA. It was an 
excellent presentation.
    I just want to say that during his tenure on the Chemical 
Safety and Hazard Investigation Board Dr. Poje has focused 
especially on reducing risks of accidents associated with the 
Y2K computer problems. He has convened an expert workshop on 
Y2K and chemical safety and participated in lots of the forums 
involving leaders from industry, insurance companies, 
regulatory agencies, and others. He has also worked with the 
Inter-Governmental Forum on Chemical Safety and Organization 
for the OECD to promote global remediation and contingency 
planning around Y2K problems. He has also been a board member 
on the scene of two of the Board's chemical accident 
investigations.
    As one of the original two board members, I appreciate the 
work through the years it has taken to create this Federal 
agency from scratch.
    Mr. Chairman, the Chemical Safety and Hazard Investigation 
Board has done a good job and they are finally getting some 
momentum because they finally got funding. It is hard to have 
an agency or board without any money.
    The thing is moving and I am pleased to recommend Dr. Poje 
and hope that his confirmation will take place expediently.
    Thank you very much.
    Senator Chafee. Thank you very much.
    We will now hear from Dr. Poje.

 STATEMENT OF GERALD V. POJE, NOMINATED BY THE PRESIDENT TO BE 
    REAPPOINTED AS MEMBER OF THE CHEMICAL SAFETY AND HAZARD 
                      INVESTIGATION BOARD

    Mr. Poje. Good afternoon, Mr. Chairman and distinguished 
members of the committee. Thank you very much, Senator 
Lautenberg, for that introduction.
    I come here requesting your confirmation for my nomination 
to serve a full 5-year term on the Chemical Safety Board. Our 
board is an independent Federal agency with the important 
mission of ensuring the safety of workers and the public by 
preventing industrial accidents. We are not an enforcement or 
regulatory body, but a scientific investigatory organization.
    Beyond the investigation of incidents, the Board is charged 
with the conduct of safety research. Additionally, the Board 
can advise on actions that can be taken to improve safety, and 
we are asked to recommend regulatory actions to public 
agencies, such as the USEPA and OSHA.
    I am a specialist in toxicology, one of the technical 
qualifications specified for board membership in CSB's enabling 
legislation. I received my doctoral degree from New York 
University and then conducted research and developed curricula 
in toxicology and environmental sciences as a professor on the 
faculty of Miami University in Ohio.
    Prior to joining the Chemical Safety Board, I directed 
international programs in public health for the National 
Institute of Environmental Health Sciences, serving as senior 
adviser to the director of NIEHS and the National Toxicology 
Program.
    A primary function of the Chemical Safety Board is to 
investigate significant chemical incidents for the purposes of 
preventing their recurrence. I have worked closely with fellow 
board members and senior staff to complete three investigative 
reports: the Sierra chemical explosion involving a 
manufacturing institution for explosives, the nitrogen 
asphyxiation incident at Union Carbide, and the Herrig Brothers 
BLEVE, a boiling liquid explosive vapor explosion.
    In March 1998 I served as the board member in Louisiana at 
the Sonat Exploration explosion and fire that claimed four 
lives. That investigation is nearing completion.
    I also served as the lead board member on the investigative 
team examining the Tosco Refinery incident that killed four 
workers and seriously injured a fifth worker earlier this year. 
Our board has just completed a board of inquiry and public 
hearing in Martinez, California regarding that incident. We are 
nearing the end of a 30-day open request for additional 
evidence, a procedure that occurs as a prelude to completion of 
investigations.
    While the Board seeks to promote prevention through the 
primary mechanism of an incident investigation, the Agency is 
also directed to conduct prevention research toward the same 
purpose. I have worked with senior staff and organized a major 
meeting earlier in 1998, the first major multistakeholder 
meeting we have had as a board on the issue of chemical 
accident prevention research.
    Since its inception, I have overseen the Board's efforts on 
reducing the risk of incidents associated with the Y2K computer 
problems. The Y2K problem is significant in the chemical 
manufacturing and handling sector, posing unique risk to 
business continuity and to worker and public health and 
safety--sometimes out of proportion to the size and staffing of 
the businesses.
    Many facilities have internal and external dependencies on 
automated equipment. In the past week, leading chemical 
manufacturers in Charleston, West Virginia--including Rhone-
Poulenc, DuPont and Monsanto Co.--announced plans to 
temporarily halt operations on New Year's Eve as a precaution 
against accidents.
    At the request of Senators Bennett and Dodd of the U.S. 
Senate Special Committee on Y2K, our board convened an expert 
workshop on chemical safety on this issue. This culminated in 
the release of the Chemical Safety Board's first research 
report and recommendations. As an outgrowth of that endeavor, I 
have testified twice in the U.S. Senate regarding chemical 
safety and Y2K, the first request for our new board to provide 
technical safety information to this legislative body.
    The Board has worked with EPA and seven trade associations 
of chemical handling industries to produce and distribute a 
special guidance document for small and mid-sized enterprises 
to prevent untoward incidents associated with the Y2K problem.
    I have sent copies of our report to the Governors of the 
States and territories requesting their attentiveness to this 
problem. With the Senate's special committee, the Board 
promoted a special focus on chemical safety at the President's 
Council on Y2K. Tomorrow there will be a press briefing on that 
effort.
    In summary, our board has enormous promise for the health 
and safety of Americans, as indicated by the impact over our 
very brief, less than 2-year history. I believe that I have 
made significant contributions the last 2 years, yet much more 
work remains to be done over the next 5 years if the CSB is to 
reach its full potential.
    I would consider myself privileged and honored if this 
committee concurs with the President's confidence in my 
qualifications and allows me to become part of that endeavor.
    Thank you.
    Senator Chafee. Thank you very much.
    The two obligatory questions I will ask of all three of 
you: Are you willing, at the request of any duly constituted 
committee of Congress, to appear in front of it as a witness?
    Mr. McCullough. Yes, I am, Mr. Chairman.
    Ms. Harris. Yes, I am, sir.
    Mr. Poje. Yes, Mr. Chairman.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Mr. McCullough. No, sir.
    Ms. Harris. No, Mr. Chairman.
    Mr. Poje. No, Mr. Chairman.
    Senator Chafee. Mayor McCullough, what is the population of 
Tupelo?
    Mr. McCullough. It is 36,000 people, Mr. Chairman.
    Senator Chafee. And I presume your position as mayor is a 
full-time job?
    Mr. McCullough. It is, yes, sir.
    Senator Chafee. If you are confirmed in this position as a 
member of the TVA Board, will you continue as mayor?
    Mr. McCullough. If the Senate confirms me, sir, upon taking 
the oath of office to serve on the Board of TVA, I would submit 
a letter resigning as mayor.
    Senator Chafee. It is not clear to me whether being a 
member of the Board is full-time or not, but I guess it is 
pretty much a full-time job.
    Mr. McCullough. Mr. Chairman, it is. And I would be willing 
to devote full-time service.
    Senator Chafee. How about you, Ms. Harris?
    Ms. Harris. Yes, sir.
    Senator Chafee. Last year, this committee learned at the 
last minute of a proposal to refinance TVA's Federal Financing 
Bank debt. That proposal was not subject to any hearing or 
public scrutiny. It was not brought to the attention of this 
committee, which has oversight of TVA. Instead, it was inserted 
into the Omnibus Appropriation Bill and became law.
    As a result of that proposal, TVA will save itself nearly 
$1 billion over the next 10 years. The taxpayer, however, will 
lose nearly $1 billion over the next 10 years.
    I must say, as chairman of the committee with jurisdiction 
over TVA, I would like some assurance from each of you that TVA 
will bring its proposals to this committee for scrutiny. You 
have both spent years in public service and understand the 
importance of following the legislative procedure for the 
benefit of the public. I hope you will agree that we should not 
repeat the process of last October.
    I would appreciate your assurances on that.
    Mr. McCullough. Mr. Chairman, if I am confirmed, I would 
make every effort to work with you and the members of this 
committee and provide all information relevant to TVA in 
advance.
    Senator Chafee. Ms. Harris?
    Ms. Harris. I certainly agree with that, sir. And I think 
that this is an important commitment I would be willing to make 
as a new board member.
    Senator Chafee. Thank you.
    Last year, the TVA chairman and the TVA inspector general 
have engaged in a very public and damaging dispute over certain 
credit card charges and who has the authority to do what. The 
dispute was cataloged in a GAO report issued at the request of 
Senator Thompson, who I think spoke for all of us when he said 
that the matter had been ``badly mishandled''.
    I want to ask both of you the following questions: If 
confirmed, will you work to ensure the independence of TVA's 
inspector general and support legislation to that end?
    Mr. McCullough. Mr. Chairman, I support the independence of 
the inspector general at TVA. Yes, sir.
    Ms. Harris. Yes, sir. I think that is an important 
component to accountability.
    Senator Chafee. We have had some difficulty, as I 
understand it, with some extravagances down there and $56,000 
of private plane bills and $11,000 of hotel bills that have 
come to light as a result of the GAO report. It seems to me 
that we all must remember--as I think both of you said in your 
opening statements--that this is a public service. As public 
servants, I think all members of the Authority should act in 
that fashion.
    Mr. McCullough. Yes, sir, Mr. Chairman.
    Senator Chafee. Dr. Poje, I understand there are some 
60,000 accidental chemical releases in the United States.
    Mr. Poje. That is one estimate that has been given, Mr. 
Chairman.
    Senator Chafee. That seems so high, but nonetheless, how do 
you prioritize which ones you are going to investigate?
    Mr. Poje. That is a crucial issue, Mr. Chairman. The Board 
has tackled that issue most recently. In fact, we have a team 
organized that had a major meeting yesterday to discuss this 
very important issue of how you select your highest priority 
incidents for investigation.
    We anticipate that we will have a draft proposal on that 
matter available and subject to a stakeholder discussion. We 
hope to bring in representatives from the industry, from labor 
unions, from environmental organizations, and from regulatory 
bodies to help us be guided by the best wisdom possible on 
utilizing resources that are insufficient for investigating 
every fatality or every serious incident. We want to choose the 
ones that provide us with the greatest leverage potential for 
preventing recurrence across the broadest spectrum of the 
industry.
    The incidents we have examined so far are leading us to the 
conclusion that we have to have some stronger criteria for the 
selection process.
    Senator Chafee. Thank you very much.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    We all wish you well, obviously. But I must say that my 
impression of TVA over the years is an entity that is a little 
loose. It is not of the highest reputation. It is fraught with 
personnel problems or management problems or expense problems. 
It just does not seem to be a top-flight outfit. That is just 
my impression.
    I am wondering the degree to which any of you have the same 
views. Are you aware of the problems that have been in the 
press or the GAO reports, et cetera?
    Ms. Harris. Certainly, as a person interested in the 
Tennessee Valley, I am aware of what has been in the public 
domain. But also I think what gets less attention is the record 
of effectiveness that TVA has in the actual operation of its 
power industry.
    Obviously, there are avenues to improve almost anything. 
But I think one of the things TVA needs to do is to make sure 
that it is focused on its business, that it demonstrates that 
it is accountable to the people in the Valley and the people of 
the Nation. But I think one thing that generally is recognized 
is that its actual operations are run well, that it has a good 
safety record in recent years. I think that is the most 
important area.
    Senator Baucus. Why did you take this job? Is it something 
you sought? Did somebody come to you? I am curious what 
happened here.
    Ms. Harris. Sir, I was born and raised in the Tennessee 
Valley. I have spent most of my professional career in the 
energy business. It is very seldom that you have an opportunity 
to serve a region that you care very deeply about in a field 
that you obviously have a great deal of interest in. It really 
is an opportunity for me to marry those two interests in my 
life. I actually think it is a wonderful opportunity and I am 
very excited about it.
    Senator Baucus. I can appreciate that, but given some of 
the problems at TVA, what can you say to assure us--other than 
words--that a year from now we are not going to hear about 
these problems nearly as much as we have?
    What are your goals? What do you hope to accomplish there? 
Is there some reorganization scheme? Is there something you 
have in mind to address TVA so that it is run even more 
efficiently than it is--in your judgment--or in my judgment so 
that it is run efficiently? Other than just noble words, what 
can you point to?
    Ms. Harris. I think that if you focus on the mission of the 
Agency, if you attend to good, sound management practices, if 
you are keen on fiscal accountability and responsibility, I 
think it is just simple, basic, good business, and sound 
judgment. I think that is an important contribution I can make 
to the organization. I think it would go miles to help it.
    Mr. McCullough. Senator, you raise a good point. In 
response, I would point out that TVA 2 years ago initiated a 
10-year financial improvement plan and it is already paying off 
with some results. Part of that was congressional action to try 
to work down the debt that we currently have. It seems to me 
that that plan has put a focus on specific measurements and we 
are more precisely measuring our performance in debt management 
and reduction. At the same time, the plan is intended really to 
lower the rates by 2007.
    If we can be that precise in taking a look at the overall 
management and operation of the Agency at every level, at 
providing stewardship for the 652-mile Tennessee River, in our 
outreach to the communities and economic and community 
development--just increase the focus--coordinate that with a 
more effective communication with you and with your colleagues 
in the Congress. In recent months, I think it has been very 
difficult for the Agency to communicate as effectively as we 
might have if we had had a full board.
    Chairman Crowell is one, and he has been stretched awfully 
thin trying to direct this agency. I would do what I could to 
more effectively communicate.
    Senator Baucus. I do not know the answer to the next 
question, but the question is: Do you know whether TVA has a 
higher nuclear power debt reduction component as a percentage 
of gross revenue or profits, compared with the private industry 
average? Do you have any idea?
    I ask the question because I know there are some nuclear 
power amortization costs after you pay it off and it reminds me 
of a similar problem in the northwest--huge costs--where the 
officials decided to build these big nuclear power plants. The 
huge cost is transferred to the taxpayer and the ratepayer.
    Frankly, it is a bit irritating because this was a decision 
by a public servant unaccountable to anybody, but who made 
decisions that reeked havoc upon ratepayers in the region. TVA 
is basically a public entity.
    I am just wondering what the public power administration 
ratio of nuclear power amortization costs to gross revenue or 
profits is compared with the private sector average.
    Mr. McCullough. Senator, I do not know a comparative ratio 
between TVA's debt service to the nuclear part of our 
generation compared to investor-owned utilities. But I would 
point out that since 1959 TVA has not been supported with any 
taxpayer dollars.
    Senator Baucus. After $1 billion.
    Mr. McCullough. The refinancing plan that Congress 
approved--but other than that, there has not been any 
congressional appropriation to fund the power generation part 
of TVA's business.
    Senator Baucus. I appreciate that. But still the ratepayers 
pay for the mistakes.
    Mr. McCullough. You are correct, yes, sir.
    Senator Baucus. I will stop here, but I encourage you--I 
can tell you are very dedicated public servants. But I am 
encouraging you to get to the bottom of this thing so that TVA 
has a stellar reputation.
    Thank you.
    Senator Chafee. Thank you.
    Senator Thompson?
    Senator Thompson. Thank you very much, Mr. Chairman.
    I thank you again for allowing me to participate here 
today.
    Listening to my colleagues, I sometimes feel like the 
father of a child who misbehaves. I know they need a good 
spanking, but I hate to see anybody else jump on them.
    [Laughter.]
    Senator Thompson. I think that a couple of the points that 
have been made need to be reiterated and maybe put in a little 
bit of focus.
    You are coming on the Board at a unique time and you are 
going to be facing some unique challenges--challenges from the 
outside in terms of deregulation and where TVA fits into all 
this. Congressman Bryant is doing good work over on the House 
side. He and his colleagues are coming up with ideas and 
potential solutions--people who still think the taxpayers are 
paying for TVA.
    While I certainly am sympathetic with going through the 
regular process, the problem with last year and the refinancing 
of the FFB debt was that the people in the valley were going to 
be the only people in America paying for flood control and 
navigation on major waterways. The Federal Government does not 
have any problem taking care of other parts of the country, but 
they were going to step back away from that obligation down in 
this part of the country and this part of the country alone.
    So this refinancing is not something where the money is 
going to the ratepayers' benefit down in the area, it is 
basically going to maintain TVA support for the non-power 
programs which have been zeroed out up here. And the land and 
water stewardship programs in other parts of the country the 
Federal Government seems to have no problem with.
    But that is always going to be there. It has always been 
there. The detractors--the people who have legitimate 
concerns--but recently you have seen in addition to that more 
criticism concerning the challenges from the inside because 
there have been some self-inflicted wounds down there.
    We have talked about them privately. When people constantly 
read about consultants and public relations expenses and 
foreign travel and entertainment and all that, you had better 
well be sure that they can be justified. TVA in many respects 
is a unique entity, but it has less oversight than almost any 
other entity. Some call it a governmental entity, some call it 
a quasi-governmental entity. The ratepayers really have no 
control over it. The States certainly do not. The Federal 
Government--especially now that we do not have the purse 
strings of the non-power funding--seems to have less and less 
oversight.
    So it makes it even more important that board members are 
very, very careful about their responsibilities. It really 
increases your responsibilities, I think, because of that 
situation.
    The last controversy down there with respect to the 
inspector general--in the scheme of things, maybe that was not 
a tremendously important thing in a lot of people's eyes, but 
it was unseemly and it added on to a lot of other questionable 
things. The Board did not acquit itself well there at all.
    I hope we have learned that this inspector general needs to 
be appointed by the President, not the TVA Board, an inherent 
conflict of interest there. We have introduced legislation to 
that effect. Hopefully, we will get your support with regard to 
that. The inspector general needs to be removable by the 
President, not by his boss or the chairman of the TVA Board.
    All those things are going on now and they are up in the 
air at a time when you are coming on board. So it makes it even 
more important that each of you exercise your own independent 
judgments. You are both professional people. You are 
accomplished in your own histories and your professional lives. 
I know you have exercised your independence before.
    This is no reflection on anyone else, but the tendency has 
been in times past to have a strong chairman and a couple of 
other people who wander in and vote but perhaps did not give it 
full-time treatment. This is a full-time job.
    I understand both of you realize and understand that it is 
a full-time job.
    Again, I agree with Mr. Crowell on many things and disagree 
with him on some things. It is no reflection on him. But the 
chairman has no authority that you do not have. He maybe able 
to do a few ministerial things, but nothing that amounts to 
anything--as I can see--under the Act.
    Do you agree with that?
    Mr. McCullough. Yes, sir.
    Ms. Harris. Yes, sir.
    Senator Thompson. You are there as full board members with 
equal authority and you need to apply your own good judgment, 
business, and common sense to that job.
    With regard to the outside challenges, I would be 
interested in your vision as to the future of TVA in a 
deregulated environment. There seems to be a consensus that 
there are big problems with Memphis and Knoxville.
    Have you all had a chance to look at that? Where do you see 
us going there? Where do we need to go with regard to this new 
environment we are going into, the attempt to reach a consensus 
and these people who seem to not be able to become a part of 
that consensus?
    Can each of you comment on that?
    Mr. McCullough. Senator, I only have a broad understanding 
of this title that is now in Congress. I would say that it 
would be incumbent upon me to reach out to every distributor 
throughout the 80,000 square miles and to see what resources 
TVA can bring to bear to make those communities--whether 
Memphis, Knoxville, a community in Kentucky, or Alabama, or 
Mississippi--we must work with the people at home to create an 
environment that would stimulate private capital investment, 
job growth, and a higher quality of life.
    I think that is our responsibility, to maximize the impact 
that the resources of TVA can bring to a community, in addition 
to having a power rate that is competitive in a world economy. 
We do not just compete throughout America. We have to have 
power rates that make our products and services competitive 
with those in Europe or Asia.
    So I think we need to take a really broad look at the 
impact as far as power rates are concerned, but we must work 
with the 159 distributors in those communities and bring all 
the resources we can to bear to create successful communities 
throughout the valley. If we are able to do that--and if we are 
able to play our role in progress in those communities--it 
seems to me that TVA will have a bright future in the next 
century.
    Ms. Harris. I have been pleased by the flexibility that TVA 
has expressed for some of its contractual relationships with 
the distributors. I think that the organization has already 
recognized that in a competitive environment it is going to 
have to have different types of relationships built on 
different qualities than in the past.
    I think in particular a contribution TVA can make in a 
competitive environment is that it has a requirement to serve 
everyone. We may need a model for how in a competitive 
environment you do have universal service. In the airline 
industry, we have seen that some communities lost airline 
service when there was deregulation. We do not have that luxury 
for electricity.
    The American public has come to expect not only 
electricity, but reliable, low-cost electricity. So I think 
that TVA is going to be an excellent model for the rest of the 
country to learn from about how you run a utility in an 
environment that is competitive, but yet providing universal 
service. I think that is another component. I think we must 
look at our distributors and over them greater flexibility, but 
I think it is a great opportunity for TVA to shine in a 
competitive environment.
    Senator Thompson. Both of you have obviously given that 
substantial consideration. I think you are going to make 
excellent additions to the Board. It is not only an opportunity 
for TVA, but it is an opportunity for you to build a legacy 
there to kind of turn the corner here and get this thing back 
up to where it needs to be.
    They are doing a lot of good things in a lot of good areas 
down there. We have not sold the positive part of this very 
well. I think both of you will be Ambassadors for the good 
news, but also be willing to face up to the not-so-pleasant 
news and do something about it.
    I congratulate you and thank you.
    Mr. McCullough. Thank you, Senator.
    Ms. Harris. Thank you, Senator.
    Senator Thompson. Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Now it is my intention to have a vote on reporting out 
these nominations as soon as reasonably possible, so we will 
move along with considerable speed.
    Mr. McCullough?
    Mr. McCullough. Mr. Chairman, if I could ask for 1 minute 
of personal privilege, my family has been presented, and Laura, 
my wife, is also with us, and our sons Vance Hudson and Glenn 
Thomas. I just wanted to recognize them.
    Senator Chafee. We are delighted they are here. We are 
very, very pleased. Certainly, they have a lot to be proud of 
in their father and husband.
    Mr. McCullough. Thank you, Mr. Chairman??
    Senator Chafee. Thank you all very much.
    That concludes this hearing. We will reconvene in a few 
minutes to examine the issues on the TVA addressed in the bill 
offered by Senator McConnell.
    [Note: The proceedings of the hearing held by the Committee 
on Environment and Public Works on bill S. 1323 are published 
separately.]
    [Whereupon, at 4:01 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Mr. Chairman, I am pleased that we are having today's nomination 
hearing for the TVA positions as well as Dr. Gerry Poje for the 
Chemical Safety Board. Dr. Poje testified at my Subcommittee Hearing on 
Y2K and I am glad he has been reappointed to the Board.
    ?I am also pleased we are having this hearing on the Tennessee 
Valley Authority. TVA is a subject within my Subcommittee, and 
unfortunately due to so many pressing issues we have been unable to 
hold an Oversight hearing before now.
    Like many in Congress, I believe the monopoly of the TVA is a 
dinosaur in today's electric power business. Due to actions by State 
legislatures and Congress, the electric marketplace is changing at a 
rapid pace. While we may not have reached consensus on how best to 
proceed, action by the States or Congress is going to lead toward 
deregulation of the electric industry. With all other aspects of the 
electric industry changing, I believe the time has come for TVA to 
change as well.
    In light of the deregulation debate, I believe TVA's government 
protected monopoly has outlived it's usefulness. For too long, problems 
at TVA have been ignored or swept under the carpet -although I am not 
sure how it is possible to ignore a $28 billion dollar debt. The debt 
refinancing plan which was attached to last year's Omnibus 
Appropriations Act was wrong and should not have occurred. In bypassing 
the committee of jurisdiction, it is estimated that it cost the 
taxpayers over $1 billion dollars. These actions have simply become too 
large for Congress or the American people to remain silent. Created 
during the New Deal when only 15 percent of rural America enjoyed 
electricity, it is time for the reign of this bloated bureaucracy to 
come to an end. I believe the legislation before the committee today is 
a step in the right direction and long overdue.
                               __________
Statement of Hon. John W. Warner, U.S. Senator from the Commonwealth of 
                                Virginia
    Mr. Chairman, as the only member of the Environment and Public 
Works Committee who can claim state interest in the Tennessee Valley 
Authority (TVA), I am pleased to support Ms. Skila Harris and Mayor 
Glenn McCullough to the TVA Board of Directors.
    TVA's importance to Virginia is unmistakable. Fifteen counties in 
Southwestern Virginia make up a large portion of the Tennessee River 
Watershed. Virginia is the home to the headwaters of five tributaries 
of the Tennessee River. These include the Powell River, Clinch River, 
North Folk Holston, South Fork Holston and Beaver Creek.
    The first dam that TVA ever built, Norris Dam, continues to provide 
flood control and recreation opportunities in Southwestern Virginia. 
Both the Clear Creek and Beaver Creek Dams are located in Washington 
County, Virginia. Although neither produces hydropower, they are vital 
to the community for both flood control and recreation.
    TVA continues to serve Powell Valley Electric Cooperative with 
wholesale power. Over 7000 consumers enjoy affordable rates throughout 
Lee and Scott counties.
    In short, TVA is an important and valued presence in Virginia, 
hence my interest in assuring quality men and women fill its Board of 
Directors.
    I am confident that Ms. Harris and Mayor McCullough will fight to 
assure that Virginians as well as the 8 million customers being 
serviced by TVA will continue to receive quality service at affordable 
rates. I am pleased to support their nominations.
    Thank you, Mr. Chairman.
                               __________
Statement of Hon. Roger F. Wicker, U.S. Representative from Mississippi
    Mr. Chairman, members of the Committee, it is my honor to come 
before you today to speak on behalf of one of my constituents, Mayor 
Glenn McCullough of Tupelo, Mississippi, and in favor of his nomination 
to the Board of Directors of the Tennessee Valley Authority. As 
Chairman of the Congressional TVA Caucus, I believe Glenn McCullough 
will make an excellent member of the Board and will have a dramatic and 
positive influence on this agency.
    To me, Glenn McCullough is many things--my friend, my hometown 
Mayor, my neighbor. I have know Glenn, his wife Laura and his two sons, 
all of whom are here today, for many years. He and I have worked 
closely on a variety of issues and projects important to our community 
and the State of Mississippi. His reputation is unblemished, and he is 
held in the highest esteem first and foremost for his personal 
characteristics, his impressive achievements, and ability to work with 
people from all walks of life.
    Glenn's experience, background, knowledge, and work ethic make him 
uniquely qualified for this position. As the Mayor of Tupelo, and 
formerly Mississippi's representative to the Appalachian Regional 
Commission, he has been actively involved in both the State and Federal 
legislative processes. In these capacities, Glenn has worked with TVA 
and other Federal and State agencies in a bi-partisan manner which has 
been both constructive and tremendously effective for this region of 
the country. From his service with the Appalachian Regional Commission, 
Glenn has a keen understanding of what is required to achieve results 
in a multistate setting.
    He understands the role of today's TVA, its past, and its future, 
from a public policy perspective as Mayor of the City of Tupelo, which 
holds the distinction of being the first city to contract with TVA to 
supply electricity. Glenn recognizes the deep-seated relationship 
between TVA and its wholesale distributors, whether they be 
municipalities or electric power associations.
    As a businessman, Glenn McCullough knows firsthand the positive 
effect that affordable and reliable energy has on economic development, 
job growth, and the subsequent benefits to the quality of life for a 
region which has historically been underdeveloped.
    The depth and breadth of Glenn's experience make him an ideal 
candidate to lead TVA in a positive direction. His commitment and 
dedication will be of invaluable service to the 8 million customers in 
the seven-State TVA region. His willingness to listen and cooperate 
with Members of Congress from both sides of the aisle will be 
increasingly important as the debate over electricity restructuring 
moves forward.
    I wholeheartedly support the nomination of Glenn McCullough, Jr., 
to the Board of Directors of the Tennessee Valley Authority, and 
respectfully urge his swift approval.
    Mr. Chairman, thank you for the opportunity to address this 
Committee today.
                               __________
 Statement of Hon. Bill Frist, U.S. Senator from the State of Tennessee
    Mr. Chairman, it is an honor to introduce Ms. Skila Harris to the 
Environment and Public Works Committee as a nominee for Director of the 
Tennessee Valley Authority. I have known Ms. Harris for a number of 
years, and I have enjoyed the opportunity to work with her when she was 
an assistant to both the Vice President and Mrs. Gore, as well as 
during her tenure at the Department of Energy.
    Mr. Chairman, as you well know, the Tennessee Valley Authority has 
seen its fair share of controversy over the past several years. 
Moreover, having only one director in place over the past several 
months has placed a strain on TVA's management. I am sure that the 
Committee is well aware of the very public dispute between the current 
Chairman and the TVA Inspector General.
    Adding two new directors to TVA's board is essential to TVA, and 
will increase the accountability of TVA to the people of the Valley. In 
addition, I personally believe that expanding the Board from three 
full-time members to nine part-time members, and a full time Chief 
Executive, will better allow the Board to address TVA's future, both in 
terms of accountability and competitiveness.
    As you well know, TVA faces serious problems and challenges 
including over $26 billion in debt, an uncertain future in a 
deregulated energy market, and continued challenges in land and water 
management. As we look to address these problems and face the issues of 
the future, operations which are in the best interest of the rate 
payers must remain the highest priority.
    TVA has met tremendous success over the past, and is viewed as more 
than just a benevolent hand providing economic opportunity and security 
to a once-depressed region. TVA is now an integral part of the region's 
identity. In the minds of Tennesseans, TVA is credited with bringing 
the region out of poverty, and opening the Tennessee River system to 
commercial navigation.
    TVA is at a crossroads. TVA needs, and the citizens of the Valley 
deserve, the best possible leadership over the next 10 years.
                               __________
     Statement of Glenn L. McCullough, Jr., Mayor, City of Tupelo, 
Mississippi, Nominated by the President to be a Member of the Tennessee 
                            Valley Authority
    Mr. Chairman and members of the committee, it is an honor for me to 
appear before you as a nominee for the Tennessee Valley Authority Board 
of Directors.
    I thank the President for this nomination. I am grateful for the 
support of my sponsors, Mississippi Senior Senator Thad Cochran and 
Senate Majority Leader Trent Lott; and I have been fortunate to have 
the constant encouragement and friendship of my Congressman and Chair 
of TVA's Congressional Caucus, Roger Wicker, and Congressman Chip 
Pickering.
    As a native of Tupelo, Mississippi, the histories of my family and 
of TVA are intertwined--just as they are for millions of others across 
the seven State TVA service area. My father vividly remembers being 
among the thousands present at Tupelo's Robin's Field in 1934 when 
President Franklin Roosevelt ceremoniously turned the switch 
illuminating the first electric light in the first city in the region 
to contract with TVA for its power supply.
    My hometown of Tupelo became known as the ``First TVA City,'' a 
designation we still celebrate.
    And just as Tupelo takes pride in its relationship with TVA, I take 
pride in my role in the TVA family; for I identify with TVA in its 
commitment to strong personal relationships; reliable, affordable 
electricity; and dedicated public service.
                 first . . . . . personal relationships
    The TVA family prioritizes not only its internal relationships with 
employees and distributors, but also its external relationships with 
customers and Congress itself. I understand TVA's valuing personal 
relationships.
    My faith in God is the anchor of my life. I am blessed with a 
wonderful family whom I love (introductions).
    I treasure my friendships. Strong relationships require faith and 
support to thrive. I believe in the wisdom and feasibility of the TVA 
Act. If confirmed, I pledge to honor its principles of environmental 
stewardship, power generation, and development to serve the public 
interest. I respect TVA's relationships with you and your colleagues, 
and I will seek to fortify those relationships by listening to you and 
learning from you.
                 second . . . electric power generation
    TVA has a great product: Reliable electric power generated, sold, 
and delivered by talented people to the consumer at the lowest feasible 
cost.
    Two-thirds of my professional life has been spent in private 
business; and I know that the essence of business is producing, 
selling, and delivering a product which will meet the customers' needs. 
I don't have all the answers to the complex and critical issues facing 
this industry; but I will work with you, as TVA's owners, towards 
ensuring a strong TVA for the twenty-first century.
                     third . . . . . public service
    The core of TVA is public service. Certain obligations accompany 
this role, including accountability--a basic, but easily forgotten 
tenet of leadership.
    As Mayor of Tupelo and a member of the Appalachian Regional 
Commission, I have learned how TVA's development projects have improved 
our region so that people, through their own initiative and industry, 
can attain a better quality of life.
    From personal relationships that serve the public interest, to the 
business of electric power, to a commitment to public service, I am 
here with optimism and enthusiasm for this opportunity to serve.
    I agree with one of Mississippi's most revered statesmen, the late 
Senator John C. Stennis, when he said,
    ``Opportunity will never chase you around the block. Opportunity 
will never meet you on the street and force itself upon you. But 
opportunity is there for those who are willing and able to meet it 
halfway.''
    I am willing to serve as a Director on the TVA Board; and if you 
deem me able, we will go to work to make good things happen.
    It would be an honor for me to join fellow nominee, Skila Harris, 
and Chairman Crowell on the board.
    Thank you for your consideration.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
 Responses of Glenn L. McCullough to Additional Questions from Senator 
                                 Inhofe
    Question 1: Last year, my subcommittee dealt with the issue of 
Ozone/Particulate Matter standards. At that time, TVA Chairman Craven 
Crowell testified TVA compliance costs would be in the billions. TVA is 
now close to bringing one nuclear facility on-line, yet still has 
other--facilities in a dormant state. First, I would like to know what 
you intend to do with these clean burning facilities in light of the 
enormous costs facing TVA?
    Response. To respond to this question, I have consulted with the 
Tennessee Valley Authority. TVA has informed me that there are no 
immediate plans to complete any nuclear facility or to restart Browns 
Ferry Unit 1. TVA is conducting a study to determine the need for new 
generation capacity to meet the projected demands of fine service area. 
Part of this study, I am told, will focus on the feasibility of 
bringing nuclear generation on line.
    Obviously, this issue involves billions of dollars, immense 
resources, as well as environmental considerations. If confirmed as a 
director of TVA I will work with the committee to ensure that TVA's 
response to this issue reflects prudent logic.

    Question 2: Does TVA intend so sell off the entire existing nuclear 
facilities and apply this to debt reduction?
    Response. TVA's management has told me that there are no plans to 
sell existing nuclear facilities and that the study presently underway 
should provide information pertinent to the future of TVA's nuclear 
units now idle.

    Question 3: In light of the current Congressional debate over 
nuclear waste and Yucca Mountain, I would like to hear your views of 
this issue.
    Response. If confirmed as a TVA Director, I would be responsible to 
the people of the Tennessee Valley and to Congress for the cost 
incurred since 1982 us contributions to the Nuclear Waste Fund, the 
effect of TVA's spent final stage or the ratepayers, as well as proper 
regard for the environment.
    I understand that TVA currently maintains spent nuclear fuel pools 
at three separate plant locations and that current finite storage 
capability is a problem for every nuclear-owning utility in the nation.
    My view is that the solution to this issue will be determined by 
Congress, the Administration, and partner agencies by identifying the 
location for long-term storage of fuel. I am advised that Yucca 
Mountain is the current site under consideration.
    If confirmed to the TVA Board, I pledge to work with the Congress 
and. this committee toward progress or this issue.

    Question 4: Last year, the TVA's debt was restructured through the 
omnibus Appropriations Bills, bypassing this committee. I want both of 
your assurances that in the future the TVA Board will work with this 
commmittee.
    Response. If confirmed to the TVA Board, I promise to do my best to 
work closely with the Environment and Public Works Committee members as 
you perform your responsibilities.

    Question 5. Standard & Poor's credit rating agency recently stated 
that ``were Congress to enact the Administrations restructuring bill, 
it may be construed as indicative of diminished Congressional support 
of SOYA debt and could have implications for TVA's rating.'' If 
Congress were to let TVA outside the fence today, without 
Congressionally mandated protections and artificial competitive 
advantages, do you feel that TVA would survive in a competitive market? 
Why or why not? If so, do you believe TVA should operate under the same 
restrictions as other utilities?
    Response. TVA exists today and its purpose for the future is to 
meet the mission as specified in the TVA Act; TVA's debt is secured in 
three (3) ways:

  1. TVA's effectiveness in meeting its obligations under the TVA Act;
  2. The economic viability and projected growth of the TVA service 
    area; and??
  3. Ultimately, the TVA ratepayers as security for the debt.

    I believe in any discussion of restructuring the net effect on 
TVA's distributors, customers, consumers, the people and the 
environment of the Tennessee Valley has to be a primary consideration.

    Question 6. Do you support the appointment of an independent 
Inspector General?
    Response. Yes.

    Question 7. What specific steps should be taken to bring 
accountability to TVA management?
    Response.

  1. Confirm nominees to the board.
  2. Evaluate and measure the performance of TVA's operations and 
    business activities.
  3. Improve internal and external communication processes??

    Thank you for your consideration. I am willing to serve on the TVA 
Board because I desire to make a positive difference and if confirmed, 
I look forward to working with you and the committee members toward 
this end.
                               __________
Statement of Skila Harris, Nominated by the President to be a Member of 
                     the Tennessee Valley Authority
    Thank you, Mr. Chairman, and the other Members of the committee for 
this opportunity to appear before you.
    Preparing for this hearing, I have thought about your 
Constitutional responsibility to judge the merits of nominees. I 
appreciate and respect the seriousness with which you carry out that 
responsibility. I can assure you that, if confirmed, my service as a 
Director of the Tennessee Valley Authority will be undertaken with the 
same seriousness and commitment to providing for the power needs of the 
Tennessee Valley, to promoting economic development and to managing 
environmental resources.
    I will be a full time Director committed to making judgments and 
taking actions consistent with accountable management, fiscal 
responsibility, smart planning, and conscientious stewardship of 
natural resources--all in service to the Tennessee Valley region.
    I want to express my deep appreciation to the President and the 
Vice President for the opportunity to serve they have given me. This 
nomination is an honor for me and my family. My late Grandparents, Jim 
and Myrtle Lester and Tessie and Minnie Harris and my late Father, 
Skiles Browning Harris and my Mother, Dorothy Lester Harris--who is 
beaming her support to me from Bowling Green--were born in the 
Tennessee Valley before TVA brought electricity to the region. Also a 
native of the Valley, I was raised on vivid, hardship stories about 
life during those early days.
    The passage of time and my work in the energy business have added 
reality to those reminiscings. I recognize the challenges facing TVA in 
many areas but especially those posed by the emerging era of electric 
competition. In fact, I served as staff director of the Department of 
Energy's Tennessee Valley Electric System Advisory Committee. The 
committee included representatives from diverse groups who share a 
common and sometimes contentious interest in TVA's future in a 
competitive environment.
    I think that the inclusive approach used during this process is a 
good model for TVA. Decisions made by TVA impact the lives of the 
nearly 8 million citizens in its service area; it is important for TVA 
to understand their interests and concerns and for those citizens to 
understand and support TVA's plans and decisions.
    I see TVA as a corporate public servant, dedicated to the public 
good. In making the transition to a competitive market, the TVA Board 
has an obligation to make sure that the benefits of competition accrue 
to the citizens of the Valley and that they have a safe, reliable, and 
environmentally sound source of electricity to sustain the economic 
health of the region and the quality of their lives.
    The Board also must fulfill its responsibilities to manage the 
resources of Tennessee River Valley in a way that provides for flood 
prevention, year-round navigation, protection of public health and the 
environment, and recreational uses. The philosophy of the TVA Act 
dictates a fundamental balance across crucial resource management 
decisions: balance in managing TVA's power program, TVA's dams and 
reservoirs, and the cumulative impact on the environment and the 
economy.
    Just as the challenges facing Congress today are different from 
those it faced in its first years, the issues before TVA today are 
different and perhaps more complex than they were in the 1930's. The 
mission, however, is the same--to serve the region and the nation--for 
the greater public good.
    I hope to have the opportunity to work along with Chairman Crowell 
and Mayor McCullough, as TVA continues to carry out its mission and 
meet today's new challenges.
    Thank you very much.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
 Responses of Skila Harris to Additional Questions from Senator Chafee
    Question 1. Last year, my subcommittee dealt with the issue of 
Ozone/Particulate Matter standards. At that time, TVA Chairman Craven 
Crowell testified TVA compliance costs would be in the billions. TVA is 
now close to bringing one nuclear facility on-line, yet still has other 
facilities in a dormant State. First, I would like to know what you 
intend to do with these clean-burning facilities in light of the 
enormous costs facing TVA?
    Response. TVA's current 10-Year Plan does not envision completion 
of any of TVA nuclear facilities or restart of the Browns Ferry Unit 1. 
However, TVA is undertaking a major study of the need for new 
generation facilities. The study will include analysis of the cost-
effectiveness of completing or restarting these nuclear units. If I am 
confirmed, the results of this study and other business considerations 
will influence my view of the best options for these facilities.

    Question 2. Does TVA intend to sell off the existing nuclear 
facilities and apply this to debt reduction?
    Response. My understanding is that there are no plans to sell 
existing nuclear facilities. However, as part of a study to assess new 
generation needs, TVA is analyzing the cost-effectiveness of starting 
up nuclear units currently not operating.

    Question 3. In light of the current Congressional debate over 
nuclear waste and Yucca Mountain, I would like to hear your views on 
this issue.
    Response. TVA operates five nuclear units located at three separate 
plant locations in the Tennessee Valley--Browns Ferry, Sequoyah and 
Watts Bar. In my briefings I learned that spent nuclear fuel from each 
of these facilities is currently maintained in storage pools located 
onsite.
    TVA shares the same problem of every nuclear-owning utility in the 
nation--onsite storage is finite. I have been told that since 1982, TVA 
has continuously contributed to the Nuclear Waste Fund, which funds the 
construction of a permanent repository for the nation's nuclear waste 
at Yucca Mountain. Unless there is some technological breakthrough or 
new scientific evidence suggests otherwise, it appears that Yucca 
Mountain is the best option for permanent fuel storage.

    Question 4. Last year, the TVA's debt was restructured through the 
Omnibus??
    Appropriations Bills, bypassing this Committee. I want both of your 
assurances that in the future the TVA Board will work with this 
Committee.
    Response. As I testified during the confirmation hearing, I can 
assure you that as a TVA Board member I will work closely with the 
Senate Environment and Public Works Committee as it performs its 
oversight responsibilities.
                                 ______
                                 
 Responses of Skila Harris to Additional Questions from Senator Inhofe
    Question 1. Standard and Poor's credit rating recently stated that 
``were Congress to enact the Administration's restructuring bill, it 
may be construed as indicative of diminished Congressional support of 
TVA debt and could have implications for TVA's rating.'' If Congress 
were to let TVA outside the fence today, without Congressionally 
mandated protections and artificial competitive advantages, do you feel 
that TVA would survive in a competitive market? Why or why not? If so, 
do you believe TVA should operate under the same restrictions as other 
utilities?
    Response. The issues raised by these questions are extremely 
important and equally complicated. If I am confirmed, I will work to 
develop the intimate understanding of TVA's operating and financial 
inter-working and market dynamics needed to respond knowledgeably to 
these questions. As I gain insight into the impact of different timing 
and regulatory scenarios on TVA competitiveness, I will share with the 
Committee my thoughts on these and other relevant issues.

    Question 2. Do you support the appointment of an independent 
Inspector General?
    Response. I support greater objectivity and independence for TVA's 
Of lice of Inspector General. Based on my experience in the Federal 
Government, appointment by the President of the Inspector General 
increases independence and objectivity. If confirmed, I will pursue and 
support this and other steps to enhance accountability, strengthen 
management, and encourage fiscal responsibility.

    Question 3. What specific steps should be taken to bring greater 
accountability to TVA management?
    Response. I believe accountability and openness are closely linked. 
If confirmed, I will encourage the Board and senior managers to find 
innovative means to make more information available. The additional 
scrutiny invited by greater openness will encourage accountability and 
increase understanding of TVA and its missions.
                               __________
Statement of Gerald V. Poje, Nominated by the President to be a Member 
         of the Chemical Safety and Hazard Investigation Board
    Thank you, Mr. Chairman and distinguished members of the Committee 
for today's opportunity to appear before the Committee regarding my 
nomination to serve a full 5-year term on the Chemical Safety Board. I 
am Gerald V. Poje, Ph.D., one of four members currently serving on the 
U.S. Chemical Safety and Hazard Investigation Board (CSB). Nearly 5 
years ago President Clinton nominated me to the Board, and the U.S. 
Senate confirmed that nomination on October 7, 1994. The Board was not 
funded until November 1997, and therefore I have served less than 2 
years as a Board member.
    The Chemical Safety Board holds enormous promise for the health and 
safety of Americans as indicated by the impact it has had during its 
very brief operating history. Yet, much more remains to be done over 
the next 5 years before this new Federal agency reaches its full 
potential. I would consider myself privileged and honored if this 
Committee concurs with the President's confidence in my qualifications 
and allows me to become part of that endeavor.
    The Chemical Safety Board is an independent Federal agency with the 
important mission of ensuring the safety of workers and the public by 
preventing or minimizing the effects of industrial and commercial 
chemical incidents. Congress modeled the CSB after the National 
Transportation Safety Board (NTSB), which investigates aircraft and 
other transportation accidents for the purpose of improving safety. The 
CSB is not an enforcement or regulatory body. Like the NTSB, the CSB is 
a scientific investigatory organization with responsibility for finding 
ways to prevent or minimize the effects of chemical incidents at 
commercial and industrial facilities. Beyond investigation of 
incidents, the Board is charged with the conduct of safety research. 
Additionally, the Board can advise Congress, industry, labor, and 
others on actions that can be taken to improve safety, and we are asked 
to recommend regulatory actions to public agencies such as the U.S. 
Environmental Protection Agency and the U.S. Department of Labor.
Qualifications
    I am a specialist in toxicology one of the technical qualifications 
specified for Board membership in CSB's enabling legislation. I 
received my doctoral degree from New York University, and then 
conducted research and developed curricula in toxicology and 
environmental science as a professor on the faculty at Miami University 
of Ohio. My research focused on the chronic health impacts of acute 
chemical exposures on biological systems.
    I have extensive knowledge of policies regarding the safe 
management of chemical hazards. Prior to joining the Chemical Safety 
Board, I directed international programs and public health for the 
National Institute of Environmental Health Sciences (NIEHS), serving as 
senior adviser to the director of NIEHS and the National Toxicology 
Program on disease prevention, health promotion, environmental justice, 
and international environmental health research activities. I 
coordinated minority health programs, and served on departmental and 
Federal interagency task forces on environmental justice, migrant 
health and Brownfields Redevelopment. In addition, I also served on 
U.S. delegations to intergovernmental meetings on chemical safety. As a 
U.S. delegate, I helped forge consensus on contentious issues, such as 
endocrine disrupting substances and helped promote the development of 
international information networks to enhance global understanding of 
chemical hazards and their risks.
    Prior to joining the Board, I testified before Congress on 
pollution prevention policy, Clean Air Act legislation, chemical 
accident prevention, and groundwater protection policies. I am a member 
of the Collegium Ramazzini, an international society of distinguished 
toxicological and safety experts, and a member of the American Public 
Health Association. I serve as an adviser to the National Association 
of City and (county Health Officials regarding community environmental 
health assessments. I have lectured on chemical hazards and policies to 
reduce their risks before community, labor, business, and government 
audiences in North America, Latin America, Europe, and Asia.
    I have also served as Vice President for Research at Green Seal 
where I directed research investigations into the environmental impacts 
of consumer products, evaluated life-cycle analyses, wrote criteria for 
voluntary environmental standards, and organized and chaired public 
hearings. As a senior scientist for the National Wildlife Federation, I 
managed multiple projects that researched, developed technical reports, 
and implemented activities regarding the Emergency Planning and 
Community Right-to-Know Act of 1986, groundwater protection, pesticide 
risk reduction, and pollution prevention.
                         board accomplishments
I. Investigation Efforts
    A primary function of the Chemical Safety Board is to investigate 
significant chemical incidents for the purpose of preventing their 
recurrence. I have worked closely with fellow board members and senior 
technical staff to complete three investigative reports: the Sierra 
Chemical Explosion, Nitrogen Asphyxiation incident at Union Carbide, 
and the Herrig Brothers BLEVE incident. In March 1998, I served as the 
Board member on scene near Pitkin, Louisiana at the Sonat Exploration 
explosion and fire that claimed four lives. That investigation is 
nearing completion.
    I also serve as the lead Board member on the investigative team 
examining the Tosco Refinery incident that killed four workers and 
seriously injured a fifth worker in February of this year. Our Board 
has just completed a Board of Inquiry and public hearing in Martinez, 
CA regarding that incident. We are nearing the end of a thirty-day open 
request for additional evidence, a procedure that occurs as a prelude 
to completion of the investigation.
    Two important challenges confront the Chemical Safety Board's 
investigative efforts: first, the number of incidents demands that we 
select only the most important incidents to investigate; second, the 
unique nature of the work requires that we establish a specific 
Chemical Safety Board protocol for conducting investigations.
    Unfortunately, America experiences a greater number of deadly 
chemical incidents than the Board is staffed or funded to investigate. 
I have worked with senior staff and the lead Board Member who are 
preparing a draft report on incident selection criteria. The CSB will 
host a major roundtable discussion with our stakeholders on November 9, 
1999 to finalize our selection procedures.
    The CSB's investigation realm is unique. We are a non-regulatory, 
scientific and technical Federal agency whose primary effort is to 
promote prevention of incidents in the private sector. While conceived 
in light of the National Transportation Board model, CSB lacks parallel 
authority to conduct preliminary fact-finding by employing relevant 
technical experts from among the key stakeholders. Other Federal 
agencies have developed investigation protocols that are either 
regulatory driven (i.e., OSHA and EPA) or are similar to self-
investigatory efforts in the private sector (i.e., DOE and DOD). 
Neither model is appropriate for the CSB. Consequently, I have reviewed 
major investigation protocols from the public and private sector to 
find the best practices to employ in the CSB's protocol. The CSB Board 
and staff will be preparing our own investigation protocol, based on 
elements of these other protocols and on lessons from our own completed 
and on-going Board investigations.
II. Research Efforts
    While the Board seeks to promote prevention through the primary 
mechanism of incident investigation, the agency is also directed to 
conduct prevention research toward the same purpose. In May, 1998 I 
worked with senior staff to organize and convene a Chemical Safety 
Board meeting on Chemical Accident Prevention Research, as the first 
multi-stakeholder meeting sponsored by the Board. I represent the 
Chemical Safety Board on the White House Committee on Environment and 
Natural Resources Subcommittee on Toxics and Risk: an activity that 
seeks to harmonize Federal research efforts. In addition, I participate 
in the Chemical Safety Program Assessment Project that seeks to set and 
implement national goals for accident prevention though a public-
private partnership organized by the Mary Kay O'Connor Center for 
Process Safety at Texas A&M University.
    Since the Board's inception, I have overseen the Board's efforts on 
reducing the risks of incidents associated with Year 2000 (Y2K) 
computer problems. The Y2K Problem is significant in the chemical 
manufacturing and handling sector, posing unique risks to business 
continuity and worker and public health and safety, sometimes out of 
proportion to the size and staffing of the business. According to the 
U.S. EPA, 85 million Americans live, work, and play within a 5-mile 
radius of 66,000 facilities that handle regulated amounts of high 
hazard chemicals. Many of these facilities have internal and external 
dependencies on automated equipment. In the past week leading chemical 
manufacturers in Charleston, WV, including Rhone-Poulenc, DuPont, 
Monsanto Co. and Ashland Chemical., announced plans to temporarily halt 
operations New Year's Eve as a precaution against toxic accidents when 
the calendar turns from 1999 to 2000.
    At the request of Senators Bennett and Dodd of the U.S. Senate 
Special Committee on the Year 2000 Technology Problem, the CSB convened 
an expert workshop on Y2K and Chemical Safety. As coordinator of this 
effort, I involved leaders from industry, equipment vendors, insurance 
companies, regulatory agencies, research agencies, universities, labor 
organizations, environmental organizations, trade associations, 
professional engineering associations, and health and safety 
organizations. This culminated in the release of the CSB's first 
research report and recommendations: The Year 2000 Issues: Technology 
Problems and Industrial Chemical Safety, which included the following 
findings: Large enterprises with sufficient awareness, leadership, 
planning, financial and human resources are unlikely to experience 
catastrophic failures and business continuity problems unless their 
current progress is interrupted or there are massive failures of 
utilities. The situation with small and mid-sized enterprises is 
indeterminate, but efforts on the Y2K problem appears to be less than 
appropriate based upon expert analysis. While the impact of the Risk 
Management Plans should be positive, there are no special emphases or 
even specific mention of Year 2000 technology hazards in either U.S. 
Environmental Protection Agency or Occupational Safety and Health
          administration regulations regarding process safety
    Federal agencies are aware of and involved in Year 2000 technology 
and chemical safety issues. However, significant gaps exist, and there 
do not appear to be specific plans to address these gaps.
    As an outgrowth of this endeavor, I have testified twice in the 
U.S. Senate regarding chemical safety and Y2K: the first requests for 
the CSB to provide technical safety information to this legislative 
body. The Board worked with the EPA and seven trade associations of 
chemical handling industries to produce and distribute a special 
guidance document for small and mid-sized enterprises. I transmitted 
copies of our report to the Governors of States and territories 
requesting their attentiveness to this problem. In conjunction with the 
Senate Special Committee, the Board promoted the initiation of a 
special focus on chemical safety at the President's Council on Y2K. 
Most recently, I helped develop and promote a Y2K Awareness Training 
module for the hazardous materials work force available through the 
NIEHS.
    In the international arena, I worked with the Intergovernmental 
Forum on Chemical Safety, the World Health Organization's International 
Programme on Chemical Safety, and the Organization for Economic 
Cooperation and Development to promote global awareness, remediation, 
and contingency planning around Y2K problems. I continue to interact 
with these organizations to improve preparedness in the chemical 
sector.
Summary
    In summary, the Chemical Safety Board has enormous promise for the 
health and safety of Americans as indicated by the impact over our very 
brief history. I believe that I have made significant contributions to 
the Board over the last 2 years. Yet, much more work remains to be done 
over the next 5 years if the CSB is to reach its full potential. I 
would consider myself privileged and honored if this Committee concurs 
with the President's confidence in my qualifications and allows me to 
become part of that endeavor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
